<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND

                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama
 VIRGIL H. GOODE, Jr., Virginia      CHAKA FATTAH, Pennsylvania     
 ROBERT B. ADERHOLT, Alabama        
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
          Frank M. Cushing, Timothy L. Peterson, Dena L. Baron,
         Jennifer Miller, and Jennifer Whitson, Staff Assistants
                                ________
                                 PART 8
               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 78-866                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
    Mr. Walsh. The subcommittee will come to order. Mrs. Meek, 
good morning. Welcome. Mr. Frelinghuysen.
    We have the gentleman from Oklahoma, Mr. Watkins, here to 
talk with us this morning. Welcome, sir. It is always a 
pleasure to have you here.
    Mr. Watkins. Thank you, Mr. Chairman, and your committee. 
Thank you for allowing me a few minutes here to come and 
discuss a couple of projects.
    Mr. Walsh. Excuse me for a moment, Wes. I believe we are 
suggesting 10 minutes.
    Mr. Watkins. I will give you half of it back, if you give 
me 50 percent more money. [Laughter.]
    I will stop right there.
    Mr. Walsh. You cut a hard bargain, Mr. Watkins.
    Mr. Watkins. Mr. Chairman, as you know, I have spent my 
years of public service trying to develop economic rural 
depressed areas, especially throughout the eastern part of the 
State of Oklahoma, which really hasn't recovered since the 
Great Depression days. And one of the things I really try to do 
is lift the culture, the thinking, but also make the kind of 
investments there that would help us in building private sector 
jobs. But we have to have a jump-start.
    You were kind enough to get the committee to help me with a 
couple of projects which we would like to continue. The first 
one is Rural Economic Development Initiative with Rural 
Enterprises. That is economic development work, housing, also 
business industrial incubators. We have literally been able to 
spin out small-job companies in towns. I was telling one of 
your staff a while ago that I grew up in a small town of about 
150 people. In fact, I was outside that community. I didn't 
live in town. I lived outside of it.
    But, you know, literally, when you have 20 jobs in a place 
as small as that, it is a major impact. And we cannot save 
rural America with on-farm jobs. We have got to have 
opportunities to build off-the-farm jobs and let people live on 
a farm, live out there, but we cannot expect rural America to 
survive if we don't do that.
    That is exactly what I am doing there with this. We are 
working with Oklahoma State University, and we are making a 
major impact in the area. The demographics of Oklahoma show 
what I have done working with all of you in our area, we are 
making some difference. The other side of the State is a major 
problem even more so that they are discovering they have got to 
address.
    I am asking for $750,000 for continuing this project.
    The other one is the Rural Technology Transfer and 
Commercialization Center. I am asking for $300,000. I might 
share this with you: As somebody familiar with agriculture, the 
model for technology transfer has been in agriculture where at 
the land grant universities we have agricultural research 
centers, and, Mrs. Meek, when you have that, you are able to 
develop the research. When you have the extension people or the 
teachers that take that research and go out to the farmers and 
ranchers and transfer that technology into actual practicality.
    We haven't done that in business and industry, especially 
across the rural areas of this Nation, and we need to be able 
to do that if we are going to build those off-farm jobs like we 
have been able to do the production. Our problem out in rural 
areas is not production--we produce. You know, it is marketing, 
but we don't have the jobs to keep our people there. So that 
$300,000 will allow us to work on that technology transfer and 
commercialization, something we have been doing with a lot of 
our ag. research.
    A problem is the mother of invention or a crisis is the 
mother of invention. You have always heard the statement, if 
there is a problem, there is an opportunity. Well, if there is 
a technology problem, there is a technology opportunity. The 
fact is, where do you get the technology to solve that? I even 
have gone, Mr. Chairman, trying to life this up, start a new 
product and process as fair, trying to generate ideas for new 
products or, as I have gone into schools, even elementary, and 
high schools, and the technology schools, saying just don't 
look at a problem. Ask yourself what is the solution.
    You know, everything you see at one time is an idea, even 
you and me if we believe in our Creator, that glass, this 
watch, these glasses, everything was to solve a problem. Just 
don't accept a problem when you see it. What is the solution?
    We are generating, in a proactive way, ideas for new 
products and processes because a new product will mean maybe a 
new business. A new business means jobs. Jobs to help save that 
rural area. And we have been able to do some things, and I 
think more important, we're probably lifting our culture, our 
thinking, getting them out of this problem, and they are 
thinking there is no way of getting out of it. And I have been 
trying to lift the people out of this kind of thought.
    So those two are very crucial, very important, very, very 
important.
    Another one we have listed is for the Arkansas-Oklahoma 
Center for Space and Planetary Science. That is a new one that 
has come on the scene. Oklahoma State has worked with our space 
science program, but I want to emphasize the other projects 
first because it is very, very important in carrying on the 
overall thrust I have been all about for 20-some-odd years. And 
we are making a difference, Carrie. That is the thing. I look 
back and say, well, I haven't been able to do everything I 
would like to do, but I look back and see there are some things 
we have been able to change and lift to make a better way of 
life for a lot of people, and that is what I have been all 
about trying to do.
    So I need your help, Mr. Chairman, you and the committee, 
if you could help me carry out that program, I would appreciate 
it very much.
    Mr. Walsh. Thank you very much for your testimony. In my 
mind, there is no finer advocate for the State of Oklahoma or 
for rural America or for Native Americans in this country than 
Wes Watkins. You are consistent, you are strong. Your message 
is always the same, and it is welcome here, and I think we will 
do our very best to meet your priorities and try to help solve 
some of these problems. I think you are doing some good things.
    Mr. Watkins. I appreciate it so very, very much.
    Mr. Walsh. Any comments?
    Mrs. Meek. Thank you, Wes.
    Mr. Watkins. Thank you very much. I think you have my full 
statement for the record.
    Mr. Walsh. We will submit the entire testimony for the 
record.
    Mr. Watkins. Thank you, Mr. Chairman.
    Mr. Walsh. Okay.
    [Recess.]
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Walsh. The subcommittee will come to order. We welcome 
the gentleman from Michigan, Mr. Stupak. Thank you, Bart.
    Mr. Stupak. Good morning. You have my testimony. I won't go 
through it word for word. Let me just try to summarize some of 
it.
    Thanks for all the help last year with a couple little 
projects we started last year. You all have been good enough to 
help us out, so my main first couple of projects here are 
really extensions of what we did last year, starting with the 
Chippewa-Luce-Mackinac Community Action Human Resource 
Authority, if you will. It is actually the building refurbished 
for seniors, you did a good job with it. I think last year you 
gave them $250,000 to help them out. That actually really put 
an end to it. Over the 10 years I have been here, I think this 
will be the third request--I shouldn't say third request. If 
you made this in order, it would be the third time that we 
received the money in 10 years. That would actually finish it 
up. Some of their funding fell short. They raised a lot 
locally, and that is what we need just to finish that one up.
    Mr. Walsh. Which one is that for?
    Mr. Stupak. The Chippewa-Luce-Mackinac.
    Mr. Walsh. Okay.
    Mr. Stupak. Community Action Human Resource.
    The city of Negaunee, that is the wastewater treatment 
plant. Once again, last year you provided $3 million for them. 
They are looking for $575,000 to fund Phase II of their 
wastewater infrastructure. Negaunee is poor community and EPA 
has even waived part of their match. It is maybe about 4,000 to 
5,000 people in the Upper Peninsula. It used to be a mining 
town. There are hundreds of pockets of mines all over the 
place. And the infrastructure is very, very old.
    What has been happening, every time the ground shifts, it 
seems to break the lines and break everything there, and it 
runs underwater sewage and water leaks and things like this. 
You were good last year about helping them out. They don't have 
much of a base to run from. The mines are gone. They are all 
closed up there. And EPA recognized that. They have been 
willing to waive some of their financial assessments to put in 
this.
    So we are asking for $575,000 to let them finish up, and 
they are very pleased with what the committee has been helpful 
to them in the past, and they respectfully request that second 
phase of $575,000.
    My third request you have is for the St. Ignace, Michigan, 
Public Library. Again, last year, you gave them $175,000. I am 
asking for $325,000 this time. That would bring the total to 
$500,000. The building is going to be $1.3 million. They have 
raised the rest locally. They have got more than $425,000 right 
now, and the last little bit they will raise themselves. So it 
is more for a small community.
    This community is probably, as Joe knows, 2,500 and in the 
summer it probably goes to 10,000 because we have all the 
tourists up there by Mackinac Island. And this is saving----
    Mr. Knollenberg. I even go up there.
    Mr. Stupak. Yes. Then once Mackinac Island and the tourism 
season is over, their unemployment runs about 30 percent, 30 
percent unemployment.
    If it helps you to fund this, I will be happy to bring you 
up to Mackinac Island. Just let me know.
    But it is a great place. High unemployment in the winter 
because there is no winter tourism, only summertime. So if we 
can help this community out, we would like to do that.
    Michigan Technological University, as you know, is one of 
the leading engineering universities in the Nation. They have 
applied for a $1.8 million HUD grant and sort of invited a bid 
for this. They are looking to new technologies to correct 
structural inadequacies in the inner city to, you know, 
withstand earthquakes and other problems of manmade 
catastrophes. Tech is one of those leading research 
institutions. Hopefully you would look favorably upon that 
request for $1.8 million.
    Lake Superior State University is putting in an Aquatics 
Research Laboratory. As you know, Lake State is right there 
where Lake Superior comes into the St. Mary's River where the 
Sioux Locks and all that is, and you get foreign vessels that 
come in and discharge ballast water and all the problems have 
introduced, as you know, Jim, aquatic nuisances.
    Mr. Walsh. All the exotics that are coming in, right?
    Mr. Stupak. Right. And you have Lake Superior flowing in 
there. You have the St. Mary's River, which then flows into 
Lake Huron and Lake Michigan. And they have really come up with 
a unique research aquatic biology, they are calling it, of the 
Great Lakes Basin. So they were looking to get $1.5 million. 
They do have a local match and local revenue of $3 million. So 
you can see they are asking for maybe about one-third to get 
this program up and running they have in their $3 million goal.
    Sault Ste. Marie of Chippewa Indians is requesting a STAG 
grant. This is my largest tribe in Michigan. They are 
constantly expanding. They have over 20,000 members in this 
tribe. They are throughout all of basically northern Michigan, 
the Upper Peninsula and Lower Peninsula. They are constantly 
seeming to be expanding. This $974,000 request is for a housing 
development to connect their water and sewer lines.
    Mr. Walsh. That is on tribal lands.
    Mr. Stupak. Yes, it is. That is all tribal land. They would 
also like to do this with wind power. Mackinac City, which is 
right up there by Straits of Mackinac, again, by Mackinac 
Island, has really sort of started things with wind power. 
Between the two straits up there, the wind will average--
between the Upper Peninsula and Lower Peninsula, at least half 
the year the wind speed is at least 35 miles an hour. You have 
the Mackinac Bridge and everything. That is why it was built to 
withstand it. You have this big land mass called the Upper 
Peninsula, you have the big land mass called the Lower 
Peninsula, and you have these three lakes, and it is almost 
like a natural wind tunnel. The city of Mackinac City has 
already put up three wind turbines. They are going to do their 
whole electric for the city of Mackinac City on wind turbines.
    The Native Americans, not just this one but a number of my 
tribes, have really taken a look at this green energy, if you 
will, and so they are looking for a $300,000 one-time grant to 
get this initiative going of trying to use more wind power for 
their needs up there in the Upper Peninsula. It is really 
unique things that they are doing now, and a lot of it has to 
deal with--well, with just the energy bill we passed, we had 
some incentives in there from the Senate language. I am not 
sure it will be final, but the Senate language has said that by 
2020, 10 percent of all electrical power should be green power 
produced in the United States. So my district is actually on 
top of it trying to do some things. The Native Americans have 
really taken a big leap towards it.
    Last, but not least, let me just hit some veterans issues. 
The independent budget, I wish we could do it, and I know we 
are in tight times and it is going to be very difficult, but 
let me put my plug in for the independent budget. Let me put in 
a plug also for a CBOC in Gladstone, Michigan. The nearest CBOC 
from there, either side on how you cut it, is 50, 60 miles 
away. Community outbased clinic, they keep saying they are 
going to build one in Gladstone. I met last week with Debra 
Thompson. I do have one VA Center, Iron Mountain VA Center, and 
the money has to come out of their operating budget, and every 
year they think they are going to build it. Every year, by the 
time they get done paying for prescription drugs, which seems 
to be their biggest cost, there is never any money left over.
    I don't know if you can somehow direct VISN 12--that is the 
one we lie in--to make the money available to do Gladstone or 
we could give them an extra shot of money to do this CBOC. It 
would be greatly appreciated. They want to do it. The CBOCs 
have been a great success. My area is vast. In fact, Joe, with 
the new redistricting plan that has been approved by the 
Michigan Supreme Court, the Michigan Supreme Court ruled in the 
last week or two that it was a valid plan. According to USA 
Today, I have the largest geographic area in the United States 
of those States that have at least one member. So the only 
districts geographically that are going to be bigger than me 
are those States that have one member, like Alaska, Wyoming, 
Montana, North and South Dakota.
    So these CBOCs have been of great help to us. I have one VA 
clinic. Right now, my district is 26,000 square miles. It will 
be more than 30,000. It will be more than half the State of 
Michigan. These CBOCs have been a great help. And every CBOC so 
far that we have put in, and I now have six of them in my 
district, is full to max. They can't take in more people. So 
this CBOC would actually free up the Marquette and the 
Menominee CBOC. So if we could do this one that lies in between 
them, that would take the pressure off two more. That is why 
that one is so important. That is why they want to do it. They 
just never seem to have any money.
    Last, but not least--and I know this is more of an 
authorization issue, and I am sure you would not act on it 
until after we had authorization. But once again I have H.R. 
551. That would increase the current travel reimbursement 
regulated by the VA. If a disabled vet uses their personal car, 
the most they can obtain is $18, no matter how far they travel. 
For many of my people, that is----
    Mr. Walsh. Yes, you brought this up last year.
    Mr. Stupak. Yes. For many of my people, that is one trip 
one way because they go 400 or 500 miles just to get to the VA 
clinic.
    What we basically said in that one is, look, if you are 
paying us 34 cents or 32 cents, whatever it is, per mile now 
for using our private car--if I am a VA employee and I use my 
private car and get reimbursed, you should do the same for the 
disabled vet. And I know veterans are concerned about the cost, 
but I hope there is some way we can get with the authorizing 
committee and work out some kind of agreement, maybe gradually 
build it up or something. But I think we do have to re-raise 
the travel reimbursement for these people. If you saw it in the 
goodness of your heart to raise it a little bit more without 
the authorization, I would be happy, and I am sure the vets 
would, too.
    I know it is an issue that you are all concerned about, and 
we had a good discussion about it last year, so I thought I 
would bring it up again this year.
    The last one I have, just one more to put on your radar 
screen, many of our Korean War veterans--as you know, that was 
a bitter war we fought in some very, very cold climates, cold 
weather injuries. It is not unusual as you visit your vets 
throughout northern Michigan or even in your own district to 
find they are losing a limb or toes or part of their hand. You 
say, I never knew you had any trouble. They say, Well, I really 
didn't, this is an old injury I had from Korea. What do you 
mean? They were frozen, and as I got older, the circulation has 
just sort of stopped. And I have got a couple who have lost 
legs and arms. And they came back and thought they were doing 
pretty good. They were treated properly for frostbite. But as 
you get older, it seems to generate quicker because of the 
frostbite that they received in Korea.
    Again, that is H.R. 764. Again, it is one that I probably 
need the authorizing committee to approve. But keep it in mind. 
It is something that is going to come up. It is not going to go 
away. As these Korean veterans get older, they are going to be 
looking for some compensation from us.
    I know I have thrown out a lot of issues. I really do 
appreciate the help the committee gave me last year. Those that 
you funded last year I hope we could just finish up the funding 
and be done with them. There are a couple others in there that 
deserve merit, and I know you will use your good discretion and 
help us out where you can.
    With that, Mr. Chairman, I thank you and the members, and 
any questions, I will be glad to try to answer them.
    Mr. Walsh. I don't have any questions, Bart. You did, as 
always, a good job, a thorough job. We cover a lot of territory 
in this subcommittee.
    Mr. Stupak. You do.
    Mr. Walsh. So you expect a number and varied requests, 
which you have given us, and we will be very supportive of your 
request.
    Mr. Stupak. I appreciate it, Mr. Chairman.
    Mr. Knollenberg. Mr. Chairman, if I could just add----
    Mr. Walsh. Sure.
    Mr. Knollenberg. The area that Bart represents is huge, and 
I am very familiar with it. I am less familiar with the Upper 
Peninsula, but a good part of the Lower Peninsula--people 
forget you have two peninsulas. But it is huge. But I would 
reinforce his request, so I think the size of the district, the 
areas that it touches are very, very significant. It affects 
all of us.
    Mr. Stupak. Thanks, Joe.
    Mr. Walsh. Any other comments, questions?
    [No response.]
    Mr. Walsh. Thank you, Bart.
    Mr. Stupak. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                       Wednesday, April 10, 2002.  

                                WITNESS

HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Walsh. Mr. Baca, The floor is yours.
    Mr. Baca. Thank you very much, Mr. Chairman, members of the 
subcommittee. It is a pleasure to be here to testify this 
morning. I ask the subcommittee to consider funding various 
important projects in my district.
    One that I recommend very highly as my first priority is 
the Urban Stream Project. As you know, the Vision Creek or the 
Lakes and Streams Project, which was originally one that we had 
gotten some original funding in the past and like to look at it 
in that area if we need a revitalized downtown. It would 
alleviate problems caused by the high water table in San 
Bernardino. High water tables can cause liquefaction activity 
during earthquakes. Also, the high water table has caused the 
groundwater supply to become more increasingly contaminated by 
MTBE, Perchlorate, and other pollutants. This project would 
create a series of retention ponds with connection streams 
similar to what we have in San Antonio. They circulate and 
store water that has been drawn out of the ground, which lowers 
the water table. The lower water tables will help stop future 
contamination of groundwater and eliminate the possibility of 
liquefaction. And this has caused numerous problems not only to 
the city of San Bernardino but also to our Postal Service and 
others where the groundwater has caused flooding. Finally, the 
project will enhance the aesthetic beauty of the city, which is 
most important in attracting others like San Bernardino as one 
of the largest cities in San Bernardino County, which 
Congressman Jerry Lewis and I both represent. This would 
alleviate a lot of the problems, beautify the area and ensure 
growth and development.
    The urban center of San Bernardino has been losing its 
commercial and residential base to the suburbs. I hope that 
this project will make our city safer and help revitalize the 
urban center of the city. I respectfully ask the subcommittee 
to please provide $1.5 million in EPA Science and Technology 
funding for this project.
    My second priority request is for the Central Park Baseball 
Tournament Complex in Fontana, California. As you know, Fontana 
has the largest growth in the area. We are the hub of the 
trucking industry, and homes are being developed in that area. 
It is important that we provide recreation. This will also help 
us in preventing crime in the immediate area. The complex is in 
disrepair and needs funding to expand the number of baseball 
fields. The complex includes amenities for adults and kids, and 
as we all know, parks and recreation are important to a lot of 
us to get our kids and our youth involved in activities. 
Without these kind of activities, it makes it very difficult. 
It has a State park. It has a hockey rink, teen center for 
after-school programs, and much more. We must provide our youth 
with safe and healthy alternatives to the temptations of crime 
and drugs, and this is what it would do. Studies have shown 
that most of our youth crimes occur during the hours of 3:00 to 
6:00, so it is important that we have this project. This 
project will provide a safe environment for our youth during 
this critical time period. It also will provide safe and 
healthy family entertainment for this hard-working blue-collar 
steel town. California Steel is located in that immediate area. 
And as I said, this is the hub for growth in the Inland Empire 
along with Ontario. These communities continue to have growth 
because of affordable housing. And as we have affordable homes 
and more people move into the area, we need to provide for 
parks and recreation for our kids. I respectfully ask the 
subcommittee to provide $1 million in EDI special purpose grant 
funding.
    My third priority request on behalf of the city of Rialto 
is funding to help construct a new fire station. It will 
include a regional training center, a fleet maintenance 
facility. The city will construct and operate it as a joint 
endeavor with the city of Colton. The fire station would 
provide service to the large industrial area south of the city. 
And I am a resident of Rialto and have lived there for almost 
28 years, and as we look at the importance of a fire station in 
providing public safety to a lot of our constituents in the 
area, and it is vital that we do have that in case of 
emergencies. The closest existing fire station to South Rialto 
is located 5 miles away, but that fire station lies north of 
two major obstacles--the Metrolink rail line and the Interstate 
10 overpass. This is a new station that is vital to the well-
being of South Rialto residents. I respectfully ask the 
subcommittee to give this EDI special purpose grant request of 
$3.75 million full consideration.
    The subcommittee has already recognized the importance of 
my fourth priority request. It funded the comprehensive storm 
drain project last year in the amount of $400,000 from the 
State and Tribal Assistance Account of EPA. The county of San 
Bernardino and the city of Colton propose to continue the 
project by constructing storm drain improvements related to the 
Arrowhead Regional Medical Center. This, again, is a very 
important one, and I felt that that is why this committee 
picked that. When we look at emergencies, we look at the 
medical services in that area, and that was vital. So I do 
appreciate the help that this committee did last year in 
providing $400,000. The medical center provides inpatient and 
outpatient and trauma care to San Bernardino. The project will 
mitigate storm water flows that impede the access of emergency 
vehicles.
    The improvement would continue the regional storm drain 
project by constructing the needed outfall into the Santa Ana 
River. I respectfully request $6 million in EPA State and 
Tribal Assistance Grant funding for this project.
    My last priority request is for the seismic replacement at 
San Bernardino Valley Community College. Several years ago, 
FEMA allocated funds to Valley College to replace seven 
buildings that sit on a major fault area. The buildings need to 
be moved 50 feet from the San Jacinto fault line. However, a 
geological study disclosed that the fault was worse than 
expected. Valley College must now meet more stringent building 
guidelines, which will drastically increase the cost of the 
project beyond the $43 million already allocated, a total of 
$50.8 million. I respectfully request that the subcommittee 
give full consideration to funding the $7.8 million in 
shortfall in this area because this is one of the institutions 
of community colleges that provides a lot of assistance to a 
lot of our students who have never had that opportunity to go. 
And if we don't provide the additional funding, then with the 
fault going in that area, it could impact not only academics 
but opportunities for many of our kids, where Jerry Lewis and I 
serve both San Bernardino College and Crafton Hills College, an 
extension of San Bernardino Community College.
    I thank you, Mr. Chairman, and members of the subcommittee, 
for allowing me the time to bring these important projects to 
your attention, and I hopefully look forward to your favorable 
consideration of these projects in the area.
    Mr. Walsh. Thank you for your testimony.
    Are there any questions of the witness? Mrs. Meek. No? 
Okay, Joe. Thanks.
    Mr. Baca. Thank you very much.
    Mr. Walsh. We will do our best.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Walsh. We will now hear from Mr. Sherman. He represents 
the 24th District of California.
    Mr. Sherman. Mr. Chairman, I come before you with an 
outstanding and modestly priced project. It is the Organization 
for the Needs of the Elderly--we call it ONE, O-N-E--
Intergenerational Daycare Program. It is an innovative idea 
that I think will be a model for the rest of the country, 
providing daycare simultaneously to seniors and to children, 
and to have these two interact.
    It is an award-winning program. It has been accredited by 
the National Association of Education for Young Children. 
Nearly 50 percent of the children involved come from single-
parent families. Over a third have English as their second 
language, and this is a chance for them to interact with 
seniors. They interact six times during the day, doing crafts, 
reading, gardening, or just chatting.
    The benefits to the children in terms of developing a 
relationship with a senior who has a story to tell and to help 
develop language skills are tremendous. And it seems that the 
youth of the children rubs off on the seniors. So we are able 
to help two groups with one request for funding. That request 
is for $600,000, which would be combined with $265,000 local 
funding. The details are in my testimony, and this program 
could be funded through the HUD Community Development Fund, 
Economic Development Initiative, EDI, or perhaps the 
subcommittee has other sources that they would want to look at.
    In addition, I am requesting $1 million from the HUD 
Community Development Fund for the City of Los Angeles 
Redevelopment Agency for an existing Home Ownership Program in 
Canoga Park, which acquires abandoned and foreclosed 
properties, fixes them up, takes people who are low-income, 
helps them get into these homes, and gives them both before and 
after training in home ownership.
    There are two other projects listed in my testimony as 
well, and thank you for your time.
    Mr. Walsh. Thank you. Your timing was good. We had a space 
available for you. We will take a look at your request and your 
priorities and do our very best to meet them. They sound like 
worthy projects. Thank you.
    Mrs. Meek.
    Mrs. Meek. Thank you very much.
    Mr. Walsh. Thank you for your brevity. We will include your 
entire statement for the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Walsh. Tom, you are welcome to join us at the table. 
Good morning, sir.
    Mr. Osborne. Good morning.
    Mr. Walsh. We will include your entire statement for the 
record, and if you would care to summarize, that would be 
welcomed.
    Mr. Osborne. I imagine you appreciate a summary more than 
anything.
    Thank you for having me here this morning. What I would 
like to talk to you about is really three projects that I think 
are particularly important in the 3rd District in Nebraska.
    One is the Nebraska Water Resources Model, and I will 
discuss that briefly. Something that is really kind of unique 
to Nebraska is the fact that there is quite an interaction 
between surface water and groundwater. We are sitting on top of 
an aquifer. The average depth is 33 feet, and so we have the 
Endangered Species Act, and a lot of the requirements of the 
Endangered Species Act are water for wildlife endangered 
species. And so the connection of surface water and groundwater 
is really a difficult thing to arrive at, and in some cases, 
the Endangered Species Act says, well, if you drill a well 5 
miles from a river, that impacts the flow in that river. And is 
that really true or not? Nobody knows.
    So we need to develop a water model that will really 
accurately reflect the interaction between surface and 
groundwater. And in Western States, it is really critical, and 
particularly in Nebraska. So for this reason, I am requesting 
$1,855,000 for the University of Nebraska to develop a large-
scale, system-level mathematical model of critical water 
resources in western Nebraska. We think that it is very, very 
important for water resources in the State. Probably the main 
resource we have is our water. It is probably more valuable 
than oil or whatever.
    The second request is for a Boys and Girls Home of 
Nebraska, Columbus Community Hospital redevelopment. What they 
have done is they have built a new hospital, so the Boys and 
Girls Home people have bought the old hospital. They are going 
to renovate it.
    One of the things that we really have difficulty with in 
rural America is mental health resources, particularly for 
young people, children, women, and so this project would 
renovate the facility. And of the facility's 80,000 square 
feet, 60,000 square feet would be available for programs 
addressed to the needs of youth and family in crisis.
    Essentially what they would do, they would develop a 
comprehensive team that has concluded that a major concern of 
the area and some of the counties around it is simply the lack 
of mental health resources for young people.
    The goal is to establish a one-stop center for preventive 
mental, behavioral, and physical health services, social 
services, addressing unmet needs at Columbus and the 
surrounding jurisdictions. And so it is a joint venture. It 
includes many different agencies, the State of Nebraska, the 
Columbus Family YMCA, Columbus Food Pantry and so on. But the 
point is that in the State of Nebraska, the one thing that we 
really are in drastic need of is mental health services and 
drug rehab programs for kids. At one time we thought that in 
rural Nebraska you didn't have those problems, but we find that 
we are having as many problems as they are in the cities at the 
present time. So that is what this project would do.
    The third and final issue that I will mention to you is a 
request for $1.5 million to expand and improve the public 
science education capacity at Bruner Hall of Science at the 
University of Nebraska at Kearney. This building was built in 
1966, and it is certainly outdated, outmoded as far as science 
is concerned. And that is probably the major need for this 
university, which serves the central and western part of the 
State of Nebraska. So we would really appreciate any help that 
we can get in that regard.
    Then, in addition to these three priority projects, I would 
like to express my support for two other grants: $2.5 million 
from the Environmental Protection Agency for the National 
Alternative Fuels Training Consortium through the EPA, and $100 
million for the National Science Foundation's Experimental 
Program to Stimulate Cooperative Research. Both of these 
programs help higher education institutions in my district.
    So, anyway, those are the three priorities and then those 
last two that I mentioned would be the issues that we are 
interested in, and any questions that you have, I would be 
happy to try to address.
    Mr. Walsh. Well, thank you for your testimony, and I 
appreciate your summarizing that for us. I don't have any 
questions. We will look at your priorities, amongst the other 
members', and do our very best to accommodate them. And thank 
you for your advocacy for your State.
    Mr. Osborne. Yes, thank you for having me in today. I 
appreciate the opportunity.
    Mr. Walsh. Mrs. Meek, any questions?
    Mrs. Meek. Good to see you.
    Mr. Osborne. Thank you. Appreciate your help.
    Mr. Walsh. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Walsh. All right. We have another Nebraskan: Mr. 
Bereuter. Welcome, Doug. Good to have you with us today.
    Mr. Bereuter. Mr. Chairman, nice to see you and, Mrs. Meek, 
nice to see you. Members of the subcommittee, again, I join my 
colleague, Tom Osborne, in thanking you for holding members' 
day, as you always do, but to give us attention to our 
concerns. I have three specific Nebraska district-related items 
to bring to your attention and then a couple of national 
reminders on programs.
    First of all, with respect to the HUD CDBG development 
block grants, I am requesting $1.3 million for an 
infrastructure project in Falls City, Nebraska. This is the 
most troubled part of our State in an economic sense. It just 
had a number of major job losses. It was classified recently, 
additionally, as an extremely troubled economic area.
    This is important to this small community of about 4,500. 
It happens to be the largest community in the four-county area, 
and this will help them provide adequate utilities and 
infrastructure for an already developed industrial park serving 
some existing industries--but not very well, I would say, not 
being served very well.
    The second are two EPA projects. One is a wastewater 
project for Wayne, Nebraska. It is a very innovative proposal 
which I presented last year for the first time between Wayne 
State College and the city of Wayne, Nebraska, a community of 
about 4,000. It would take the effluent and use it for an 
irrigation system for the campus. And since the hardware has 
been donated for the delivery itself, this would go for a 
chlorination system storage tank on campus of the wastewater 
treatment facility, 4,500 feet of pipe and a distribution 
system on campus. It would also reduce dramatically the 
problems of wastewater flowing into Logan Creek and ultimately 
into the Missouri River. It would reduce the need for lawn 
fertilizer due to nitrates in the water. It would provide a 
supply of water during drought years. It would not affect local 
groundwater or ability to supply the rest of the city through 
groundwater. So I think it is an innovative proposal from those 
two entities.
    Mr. Walsh. Did we fund it last year, Doug?
    Mr. Bereuter. No, you did not.
    Mr. Walsh. Is this a priority?
    Mr. Bereuter. It is a priority.
    The second EPA project, one you did provide $1 million of 
funding for last year, is for an emergency storm sewer relief 
program for the city of Lincoln, the State capital, the largest 
community in my district. It is a $19 million project, and it 
is an emergency, and we have sewage problems in basements in a 
significant part of Lincoln, where I actually once had a 
condominium, the South Salt Creek area in Lincoln. And it will 
help the city of Lincoln in this important project, so we are, 
as we did last year, requesting $1 million for this program, 
and you did generously fund it last year, as requested.
    With respect to national program reminders, starting on 
page 2 of my testimony, I am, I suppose you would say, the 
legislative father of the loan guarantee program for housing on 
Indian reservations. We have never had, until lately, an 
opportunity for Indians to buy or in most cases build their own 
homes with a loan guarantee. It has not worked uniformly well 
across the whole country, so in legislation out of the 
authorizing committee where I serve, we funded on a 1-year 
basis--we authorized an Indian Lands Title Report Commission to 
work out the difficulties between the BIA and the title reviews 
for home loan mortgages on American Indian reservations.
    HUD has refused to appoint their members to this commission 
until the appropriations are there. The requested amount from 
the administration is $100,000 for the 1-year service of this 
commission. It is sunsetted after 1 year, but I believe that we 
can work out the problems that we have in some regional 
offices. Right now only a minority of the Indian reservations 
in the country are able to use this program. But I think it is 
very important because it is for the first time providing an 
opportunity for Indians to live somewhere other than in public 
housing on reservations. A few tribes are using it very well 
because they happen to have BIA offices that have worked out 
the difficulties in that region.
    Mr. Walsh. Is this part of the President's request?
    Mr. Bereuter. It is not.
    Mr. Walsh. It is not. Okay.
    Mr. Bereuter. It is not. It is for a 1-year sunsetted 
commission for its operation for 1 year to work out the 
difficulties so that the BIA program will work well across the 
whole country.
    Something very unusual, I suppose, for this committee--but 
I did the same thing last year--is to support the 
administration's decision not to fund HUD's rural housing and 
economic development initiative. I told you last year I thought 
it was duplicative of what USDA does and that USDA has far 
better capacity and capabilities and knowledge for this 
program. So the administration did not fund it this year in 
HUD, and I support and asked for this decision last year. I 
would, on the other hand, go to the Ag Appropriations 
Subcommittee and ask them to fund it to a large extent, so I am 
supporting that.
    Number four, Department of Veterans Affairs, I am not 
asking for any specific grant here. I am just telling you, Mr. 
Chairman, something you already know, and Mr. Mollohan from 
West Virginia, for example, that the current program allocation 
of funds for our veterans' facilities, inpatient and 
outpatient, is not fair to some parts of the country. The VISN 
programs are not working well for sparsely settled parts of the 
Nation. They are not working well for Northern States. 
Allocating on a strictly per capita basis does not provide 
equitable assurance that veterans are getting adequate health 
care services no matter where they live.
    I can sympathize with Florida, for example, where the 
veterans are piling up and you need new facilities. But a 
straightforward per capita arrangement that the Clinton 
administration and now the Bush administration insists upon is 
not fair to the veterans in my State. It is not fair to 
veterans in New York. It is not fair to those parts of the 
Nation that have sparsely settled populations. Those veterans 
are now having great difficulty in getting adequate care. There 
is a proposal to merge the VISN 14 and 13 regions, Minnesota, 
North Dakota, South Dakota, with Iowa and Nebraska. That will 
not solve the problem. It is a paper fix. The problem is the 
allocation system. And you and I have fought this on the floor, 
so I am asking you to do something very unconventional: to 
address it as appropriators.
    Mr. Chairman, thank you very much for listening to my 
comments.
    Mr. Walsh. You left the most controversial for last. It is 
a challenge, there is no question. And it is an issue that we 
continue to deal with. And it really is an authorizing issue, 
but they haven't been able to figure it out yet, nor have we. 
But it is definitely on our radar screen.
    Mr. Bereuter. Thank you. If I can answer any questions 
about the three Nebraska projects, for Lincoln, for Wayne, and 
for Falls City, I would be happy to try to do that right now or 
supplement anything you might need.
    Mr. Walsh. Well, we will take your entire testimony and put 
it in the record. We will get back to you later in the year to 
try to determine priorities.
    Mr. Bereuter. Thank you. I would say finally, Mr. Chairman, 
that there are a lot of things I could have asked for, for 
CDBG. As an old former HUD employee myself, I know the value of 
this program. But I limited it to just one today because it is 
so important to Falls City with its economic problems right 
now.
    Mr. Walsh. Okay. Thank you.
    Mr. Bereuter. Thank you.
    Mr. Walsh. Carrie, any questions?
    Mrs. Meek. No, thank you.
    Mr. Goode. Mr. Chairman, could I ask a question?
    Mr. Walsh. Oh, I am sorry. Go ahead.
    Mr. Goode. On the veterans in your area, in addition to the 
demands that they have for inpatient and outpatient services, 
are you seeing a huge increase for prescription demands by the 
veterans?
    Mr. Bereuter. We are. We are at that World War II bulge in 
our veterans population, and, of course, we have more 
sophisticated array of prescriptions available, thank goodness, 
because of R&D. I have a particular problem I am working on in 
terms of introducing legislation now. I have some veterans who 
live so far from VA facilities, either outpatient clinics or 
the one hospital we have left in the State, who are suffering 
from not only physical disabilities but from Alzheimer's. And 
the wife of one veteran, for example, living in Tom Osborne's 
district makes an impassioned plea that his prescriptions be 
able to be renewed somewhere convenient because she cannot get 
him to Omaha because of his physical and particularly his 
Alzheimer problems. But every year, at least, some VA physician 
has to look at that veteran and make an assessment as to 
whether or not that prescription is going to be renewed for 
another year.
    Now, that doesn't make a lot of sense to me. It could be 
done on a contract basis. It could be done perhaps by a 
circuit-rider VA physician, which seems to me to be a little 
inefficient. But this is an authorizing committee problem that 
Chris Smith as chairman and his ranking Democrat need to deal 
with, and I am going to present them with an idea about how to 
go about it. That is the immediate problem with prescription 
drugs, how to get it renewed for that veteran.
    Mr. Goode. That also occurs in the 5th District of Virginia 
which is a huge district.
    Thank you, Mr. Chairman.
    Mr. Bereuter. I am going to try to put a bill before them 
within a month and see if we can get a different approach. I am 
going to try to do it on a distance basis on a contract 
arrangement so that VA can go to a local physician and say we 
will authorize you to do certain basic kind of things, 
including examination of the veteran for prescription renewal 
purposes.
    Mr. Goode. I would like to see that.
    Thank you.
    Mr. Walsh. Thank you, Doug.
    Mr. Bereuter. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Walsh. The ranking member of the authorizing committee 
for Veterans Affairs is next: Mr. Evans. Welcome, Lane.
    Mr. Evans. Thank you, Mr. Chairman.
    Mr. Walsh. Good to see you. Veterans' benefits has come up 
a number of times already this morning. I suspect they are in 
your mind, too.
    Mr. Evans. Yes, sir. I thank you for this opportunity to 
testify this morning. I am asking the subcommittee to provide 
$27.4 billion next year in discretionary spending to the VA to 
fulfill our Nation's commitments, obligations, and 
responsibilities to those veterans. The administration 
appropriations request for veterans is woefully inadequate. It 
is almost $3 billion less than the Veterans Committee's 
recommendation to fund health care, and, frankly, our veterans 
deserve better. Today, veterans' medical care is inadequate. 
Make no mistake about that.
    The Tampa Medical Center has over 1,000 veterans merely 
awaiting the opportunity to enroll for medical care, and there 
are over 12,000 more veterans enrolled but not having their 
first appointment at this point. How long should veterans in 
Tampa be forced to wait? VA corporate policy states that waits 
may exceed 180 of 365 days.
    Would you tolerate this kind of care for your family, 
yourselves, and your friends. Of course not. If Tampa VA was 
the only VA facility with long waits, the problem might be 
handled by shifting resources and creating management 
efficiencies. Tampa is not alone. Tampa is a symptom of a 
pervasive national problem.
    Last month, members in California received a letter from 
the VA. The VA Healthcare in Los Angeles notified them of a 
major reorganization to meet significant financial challenges. 
Eleven major programs were identified for realignment, 
reduction, or elimination. The impact on veterans of the 
proposed changes in Greater L.A. have not been fully 
considered. All the VA will say is that in some cases access 
will be decreased as a result of pragmatic realignments.
    Tampa and L.A. are only the tip of an iceberg. The problem 
is nationwide. Nevada, New Jersey, Washington State, Oregon, 
Northern California, Connecticut, Colorado, Kansas, 
Pennsylvania, Maine, Massachusetts, Tennessee, Texas, Iowa--I 
hate to admit--Illinois, and New York and North Dakota, all 
these Federal hospitals in the VA are reporting delays in 
enrollment and excessive waits to receive VA medical care.
    With U.S. troops engaged against enemies of freedom, surely 
now is not the time to abandon these veterans, particularly 
those veterans who have already answered the call in this 
Nation's most needed hour. Unprecedented numbers are seeking VA 
health care. Budgetary shortfalls are contributing to staffing 
shortages, de facto rationing of services, and grossly 
excessive waiting times. Some clinics have reported waiting 
times in excess of 1 year for routine appointments.
    I ask only for the basic resources necessary to keep our 
promises to America's veterans regarding other benefits and 
services as well.
    As you know, the President has established the Presidential 
Task Force to Improve Health Care Delivery for Our Nation's 
Veterans, and he should be saluted for establishing this task 
force. I hope it will lead to substantial improvements in the 
quality of health care to our Nation's veterans. While we wait 
for this task force to report, we in Congress, and particularly 
you, the members of this subcommittee, can act to save the 
quality and accessibility of our veterans to have medical care 
provided for them. I urge you to do so, and thank you for this 
opportunity to appear.
    Mr. Walsh. Thank you, Lane. Thank you for your advocacy for 
veterans and veterans issues. We clearly have a funding 
problem. The numbers of Category 7 veterans that are coming 
into the system now for prescription drugs put a tremendous 
burden on the system, and we have not been able to find enough 
money to meet that additional level of service. Hopefully, 
Congress will act to deal with prescription drugs at a Medicare 
level, a universal level, so that we can reduce some of the 
pressure on the VA system, because it has really forced a lot 
of people to the VA to meet that outstanding need.
    Are there any questions or comments from the members of the 
subcommittee?
    Ms. Kaptur. I just want to say, Mr. Chairman, I want to 
thank Congressman Evans for his meritorious service, both in 
the military and as a two-decade-long serving member of this 
House, and for his unlimited leadership on behalf of the 
veterans of our country. And I know that in your tenure, Lane, 
you have helped to be a part of the authorizers' efforts to 
increase the number of clinics, the specialty clinics, street-
level clinics for a lot of our Vietnam vets, and now here again 
arguing for proper resources to manage the whole system. I just 
want to acknowledge your really incredible commitment to the 
veterans of the country. Thank you for your leadership on the 
authorizing side.
    Mr. Evans. I want to take this opportunity to talk about 
what Tony Principi has been doing for Parkinson's disease 
patients. We have now some 12 centers set up for research and 
other kinds of activities throughout the country, and I think 
this has really been the only action that the Government has 
taken to help in the last year. The funding has been kind of 
frozen, Parkinson's disease funding. So we appreciate all your 
help, and if you can help us out in that regard as well. It is 
an example of what the VA can do when given the opportunity.
    Mr. Walsh. Thank you very much.
    Mr. Evans. Thank you.
    Mrs. Meek. Mr. Chairman?
    Mr. Walsh. Yes?
    Mrs. Meek. Lane has a very important game tonight. It is a 
very daring task.
    Mr. Evans. Mr. Chairman, I would extend an opportunity for 
you to join us.
    Mr. Walsh. Well, I have on occasion. It would be a lot of 
fun. My dad is in town today. He is a former member. I think I 
am going to take him out to dinner tonight, so I won't be able 
to play. It probably wouldn't hurt you that much if I didn't 
come, and it might even hurt you if I did. [Laughter.]
    Mr. Evans. I went to Georgetown Law School, and it is an 
opportunity to give back to some of the professors what they 
gave to me. [Laughter.]
    Mr. Walsh. I wish you well tonight with the Hoya lawyers.
    Ms. Kaptur. Mr. Chairman, I might just point out, in 
addition to Congressman Evans' leadership, you have never seen 
a cheerleader like him. [Laughter.]
    Mr. Walsh. Well, good luck to both of you tonight. Thank 
you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                       Wednesday, April 10, 2002.  

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Walsh. Our next witness is Mr. Visclosky of Indiana. 
Peter, welcome.
    Mr. Visclosky. Thank you very much. Mr. Chairman, I want to 
thank you and the members of the subcommittee for the 
opportunity to testify. In the past, you have been very 
generous. The staff has been very good to work with, and I am 
here with two requests. One is for an earmark for a high-
technology center we want to build in conjunction with the new 
university to create an economic incubator in the 1st 
Congressional District. And the second is an earmark for 
Hobart, Indiana, to provide a sewer system to a portion where 
they are still on a septic system and having some significant 
problems.
    But, with that, we would anticipate working closely with 
you and the staff and appreciate your consideration.
    Mr. Walsh. Well, thank you very much for your brevity and 
to the point. We will include your entire statement for the 
record, and we will work with you as we go along to meet some 
of your priorities, and thank you for working so closely with 
us.
    Mr. Visclosky. You have been great in the past and very 
generous, and I appreciate it. Thank you.
    Mr. Walsh. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Walsh. We will now call Mr. Crowley.
    Welcome, Joe. Good to have you with us today. We will 
include your entire testimony for the record, and if you could 
summarize, it would be terrific.
    Mr. Crowley. I will try to do my best.
    Mr. Walsh. Very good.
    Mr. Crowley. I have a number of issues I want to bring to 
the attention of the committee. I want to thank you for your 
help last year. I greatly appreciated the help of the entire 
committee. I want to thank each and every one of you.
    I have a concern of veterans' issues in my district, and if 
I could just break down into three specific parts. It is caring 
for veterans, strengthening our housing resources, and 
investing in the infrastructure of my district in Queens and in 
the Bronx.
    I, first, would like to start off with the issue of the 
veterans, as the chairman well knows, the funding formula, and 
we have talked about this before in the past, used by the 
Veterans Administration to allocate Federal care resources, 
known as VERA, is anything, in my opinion, but equitable, and 
the funding is often not provided to care for some of the most 
basic needs of veterans in my community.
    I recognize that the two largest veterans' hospitals that 
serve my constituents, the VA in the Bronx and Harbor Hospital 
in Manhattan, and we also have a veterans outpatient clinic, a 
new outpatient clinic, in Sunnyside, in Queens, in my district. 
They have dedicated professional people, and we are 
appreciative of that.
    We believe the Congress needs to ensure that adequate 
funding is provided so that they may carry out their duties, 
tending to the needs of all of our veterans, and therefore 
requesting that this committee provide an increased funding to 
underfunded veterans' areas in networks like VISN 3, which 
covers New York City and its environs.
    While I have never been a supporter of the VERA system, I 
am hopeful that regardless of VERA, Congress can modify the 
system, providing for all America's veterans fairly and not 
continue to pit one region of veterans in America against 
another region of veterans.
    With regard to the issue of housing stock, I think this 
Congress must ensure that our Government continue to live up to 
the responsibility to provide safe, and affordable, and decent 
housing for all of its citizens. Many people degrade those 
Americans who live in our public housing system, often 
conjuring up pejorative images of them. However, my experience 
has been far different from that.
    I have been working with people like Nina Adams and Bill 
Newlin at the Queensbridge Houses in Queens in my district, 
which is the largest public housing unit in the country, over 
96 buildings--actually, 96 buildings, and I don't know exactly 
how many people live in the complex, but in the thousands.
    They have dedicated themselves to uplifting their 
community, empowering their residents and working to provide 
the tools to foster a better neighborhood, and this has been 
accomplished with such programs as the creation of a senior 
center, the establishment of a computer lab to provide job 
training skills to residents in providing day care to assist 
those residents with children, while their parents are at work.
    While Queensbridge Homes, as I mentioned before, is the 
largest public housing development in America, it is also a 
community of men and women who are working hard and trying to 
play by the rules. While I was disheartened to see the 
abolishment of the drug-elimination program, I'm hopeful that 
this committee will rework the HUD budget to provide the 
resources for these communities to have the police protection 
they need to keep crime and drugs out of public housing, while 
not sacrificing capital or operating budgets.
    Additionally, I'm working, along with Congressmen Nadler, 
Shays and Morella, in championing an increase in the Federal 
budget for the Housing Opportunities for Persons with AIDS 
program, also known as HOPWA. HOPWA is the only Federal housing 
program that specifically provides cities and States hardest 
hit by the AIDS epidemic with the resources to address the 
housing crisis facing people living with AIDS. President Bush 
has demonstrated his strong commitment to the HOPWA by 
requesting a $15-million increase in fiscal year 2003. I 
believe it is necessary to build on this important request with 
an appropriation of at least $325 million.
    Despite consistent support from this committee and your 
support, Mr. Chairman, in increasing HOPWA's annual 
appropriation, the growing demand for services requires a 
substantial increase in this year, and we know that the need is 
going through the roof.
    Finally, I would just like to touch on some specific 
projects of concern to my specific congressional district in 
Queens and the Bronx. The first is funding for renovation at a 
YMCA in Flushing, Queens, in New York. Last year this 
committee, recognizing the great works of the YMCA, allocated 
$50,000 in EDI funding for the Long Island City YMCA for 
modernization and renovation, and that is taking place as we 
speak. They have broken ground and are doing that, and much in 
great part thanks to the seed money from the Federal, State and 
local Governments, which we played a major role in.
    This year, the issue I am appealing to you for $50,000 this 
time for the Flushing YMCA for the expansion of a children's 
center, a teen center, and a computer learning center. The 
Flushing YMCA serves over 15,000 youth, making it a popular and 
safe urban refuge. As we all know, one of the biggest problems 
in America is juvenile crime, which is often the result of 
children having no place to go after school.
    In a society where both parents work or often there is only 
one parent who must also work, we cannot let latchkey children 
be alone after school, and centers like the Flushing Y, and the 
Long Island City Y, are great outlets for those young people. 
The Flushing, Y, will provide a safe haven for those children 
in Queens who live in one of the most diverse parts of the 
entire world in Flushing. Flushing is home to more Chinese 
residents than Chinatown has in Manhattan, as well as home to a 
large population of South Asians and Latin American residents.
    And to further help build up our urban communities, I am 
championing an additional request for funding for Elmcor's 
Youth and Adult Activities to complete their ongoing 
construction of an economic development center. A not-for-
profit community-based organization, Elmcor, which means 
Elmhurst and Corona. That is a combination, bringing it to 
Elmcor. These two communities in my district, again, a part of 
this very, very diverse community. Elmcor's mission is to 
promote employment through training and counseling to local 
residents, pay particular focus to economic empowerment of the 
African American community, which has a substantial population 
in the area as well.
    In teaching skills such as typing, word processing, spread 
sheet application, office procedures, filing, customer service 
and cash register use, this organization, led by the very able 
and dedicated Dr. Larry Miller, a wonderful man, assists area 
residents to become more marketable, and therefore ensured of a 
better future. This money will enable Elmcor to complete their 
economic development center and better investment for the 
people of Queens.
    And, lastly, Mr. Chairman, under the EPA accounts, I will 
be seeking funding for sand, to stop the drastic erosion 
problem ongoing in the Silver Beach community in the Bronx, in 
New York, a part of my district. Silver Beach is a quaint 
little middle-class community that is threatened by erosion, 
which is eating away at their precious deteriorating shore line 
and causing real concern for the homeowners who live along that 
coast.
    Over the next year it is my intention to continue to work 
with you, Chairman Walsh, and with Ranking Member Mollohan and 
all of the members of the committee on a strong bipartisan bill 
to address the important needs of this country, and I want to 
thank you for this opportunity this morning to present my 
testimony before you.
    Mr. Walsh. Thank you, Joe. Thanks for your cooperation all 
of the way along on all of these issues. You are a good 
advocate for New York, a good partner in New York State, and we 
will do our very best to meet some of your priorities.
    Just a little guidance on beach erosion, that is really an 
Army Corps of Engineers issue that you should make your request 
to the Energy and Water Subcommittee on Appropriations. The 
rest of those are ours, though.
    Mr. Crowley. Okay.
    Mr. Walsh. Any questions or comments from the members of 
the subcommittee?
    [No response.]
    Mr. Walsh. All right. Thank you, Joe. Good to see you.
    Mr. Crowley. Good to see you, too.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. Let us see, we will take a brief break, a 
stretch break.
    [Recess.]
                              ----------                              

                                         Wednesday, April 10, 2002.

                               WITNESSES

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. JAMES McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Walsh. Welcome. We will include your entire statement 
for the record.
    Mr. Frank. Mr. Chairman, this is a matter that is familiar 
to the committee. I began coming here on this issue with Mr. 
McGovern's predecessor, Mr. Blute. We have in Fall River and 
New Bedford two industrial cities, cities that have been hit 
hard through no fault of their own by international economic 
trends and U.S. Government policies that have left a lot of 
hardworking people in rough shape. They were very prominent in 
textile and garment manufacturing and in other older industrial 
operations.
    They were late in getting into the sewer business, and by 
the time they got into the business they were sued and ordered 
in the case, I think in both of them were sued in Federal court 
and ordered to do very extensive overhauls of their sewer 
systems. Federal law had changed from what it had previously 
been, and they did not get much in the way of reimbursement. 
They got the loans from the revolving fund, but these are very 
poor communities, poor in the sense of the average income of 
the individuals who live there and poor in the sense that their 
industry had been pretty harmed, but they are really trying to 
come back.
    What we have had is an ability, through this committee's 
work over the past seven or eight years, for them to get, it 
has varied some, but we were hoping I think this time for about 
a million and a half apiece for them to help them comply with 
the Federal mandate. I will be submitting, for example, what 
New Bedford, which I represent, does. They used this money, 
particularly in the last year, to reduce the sewer overflow 
points from 38 to 28. We should note that both of these cities 
are on the Southern coast of Massachusetts, and their waste 
flows into Buzzard's Bay, and it affects Rhode Island, it 
affects fishing grounds. They are affecting international 
waters. So this is something important.
    The communities are very responsible. They have raised 
their rates. You know have people talk about defiance. Both 
cities have raised their sewer and water rates. They have 
complied with court orders. They have tried to be efficient. In 
fact, Fall River has gone back to court and has worked with the 
plaintiffs and has gotten the court to allow them to cut back 
so they are not spending money unnecessarily. They have tried 
to pare that project down to what is absolutely essential to 
protect the waters without there being any frills.
    So I must say I think this is money that is as well used as 
it is possible for Federal money to be. It is to comply with 
the Federal Clean Water Act. It goes to cities that would have 
trouble doing it on their own, and there has not, in all of 
these years, been even the hint of any misuse. So we hope that, 
once again, we could continue this. I am hoping that at some 
point we will be able to pass legislation that nationalizes 
this on a regular basis, but until then.
    Mr. Walsh. Just a question on that. They are under court 
order. They have a consent agreement with EPA. Is the State 
doing their share?
    Mr. Frank. Yes. The State has, in fact, stepped up even 
better. Two things about this; one, we worked with EPA and with 
the State, a man named Charles Baker, who was Governor Bill 
Weld's administration and finance secretary, and in 
Massachusetts the State Revolving Funds have required you to 
repay in 20 years. They worked out with EPA a permission to do 
30 years, which has substantially alleviated some of the 
problem, and at the same time the State has passed legislation 
to show that they subsidized, even though the State Revolving 
Fund is a pass-through, but the State absorbs the interest 
costs for the poor communities. They have gone to a zero 
interest rate on an income basis. So the State of Massachusetts 
has been not just fully passing along the SRF, but it has put 
an element of State subsidy in there by getting down, for these 
communities, to zero interest rate and putting some other money 
in as well.
    So this is one where the State has been pretty good.
    Mr. Walsh. And you said they raised local sewer and water 
rates. How about bonding, have the local municipalities done 
bonding?
    Mr. Frank. Not individual. The bonding gets through the 
State Revolving Fund. I think they get the money through that, 
although they do have--I just checked with New Bedford. A 
family of four is paying $284 in their bill.
    Mr. Walsh. That is sewer.
    Mr. Frank. Yes, and in Fall River it is about $250. But 
they are using the bonding through the State Revolving Funds. 
Both cities use a 30-year term, rather than 20-year term, so 
they can fully bond this, but stretch out the payment. 
Dartmouth is doing that, too, as a matter of fact.
    Mr. McGovern. If I could just add to that, Mr. Chairman, 
again, thank you for your past support and for giving us this 
opportunity to testify, but both New Bedford, which Barney 
represents, and Fall River, which we both represent are areas 
that are struggling economically. Many area manufacturers, 
including textiles, which are still very much a part of that 
economy are struggling because they are water-intensive 
industries, and they are paying kind of an added, in addition 
to all of the other costs and all of the other things that they 
are dealing with in terms of trade issues and stuff, they are 
now dealing with these astronomical water and sewer bills, 
which really are a disincentive for them to stay there, and 
clearly it is a disincentive for other industries to come here, 
and so this is also a matter of economic survivability for this 
region, and any help you could give us would be grateful.
    I have one other thing I want to mention.
    Do you have anything else?
    There is one other project, and again this committee has 
been helpful and receptive, and helped me with $100,000 last 
year, and $100,000 the year before. I talk about this all of 
the time. This is this Gardner-Kilby-Hammond Neighborhood 
Revitalization project in Worcester. This is the most blighted, 
most economically depressed area of the second largest city in 
Massachusetts. It has been neglected for years and years, and 
there is now a major effort, in part, because of some Federal 
grant monies and Federal support to try to bring this area back 
with additional housing, with a new Boys and Girls Club. The 
current Boys and Girls Club really is an abomination.
    Mr. Walsh. How have those Federal monies been used?
    Mr. McGovern. Most of the Federal monies thus far have been 
used for kind of environmental assessments and clearing and 
obtaining some of the land, and clearing, but the whole project 
would be, it is estimated that the entire project would be $32 
million. They are looking for a total Federal investment of 
$6.7 million. The rest of this would be privately raised. The 
city is stepping up to the plate.
    Clark University is partnering with this project. They are 
helping us buy some open space, green space, which they will 
use 50 percent of the time for their playing fields. It will be 
open to the community the other 50 percent of the time because 
there is no green space in this area, and the Boys and Girls 
Clubs have already launched their capital campaign. I think 
$2.5 million has been raised to date, including $300,000 in 
local philanthropic and corporate community. I mean, we have 
the Kellogg Foundation, and they are now looking to try to 
help, but clearly the Federal part of this is important because 
it is the stuff that we need in the beginning, and it's also 
kind of a signal to these private organizations and to the 
State and city Government that this is serious.
    I know the budget is tough, but I am asking for $2 million. 
I have been asking for that consistently, and I get $100,000, 
which I am happy with, but I need some help on this. It is 
probably the most important economic development project in my 
district, and anything you can do to help me I would appreciate 
it.
    Mr. Walsh. Thank you, both.
    Ms. Kaptur. Mr. Chairman.
    Mr. Walsh. Yes, questions?
    Ms. Kaptur. I wanted to ask both, gentleman, if I could, 
and thank them for their testimony and thank Mr. Frank for his 
incredible leadership over on the authorizing side. We 
appreciate it very much.
    I just had a general question about the Gardner-Kilby area 
in terms of why it is so depressed. Have you had an out-
migration of jobs or has it just been kind of off the path 
where business wanted to locate in the past, and then on Fall 
River in New Bedford in the textile industry, in particular, 
because I was at a dinner last night concerning the textile 
industry and really thinking about what is going on in our 
country with the just total hemorrhage now, sort of the last 
amount of blood left is leaving the system.
    Mr. Frank. Levi just announced they are going to shut down 
most of their mass manufacturing in America.
    Ms. Kaptur. I wonder if you could just discuss with us a 
little bit about the textile industry, as you see it, from 
inside Massachusetts and what are the competitive challenges 
that they are facing. What is wrong with the international 
system that we cannot keep some modicum of our textile industry 
in this country?
    Jim, if you want to take the question.
    Mr. McGovern. Let me talk about the Gardner-Kilby issue in 
Worcester, which is not so much textiles, but other basic 
manufacturing. Bristol was kind of a mill town, and we made 
everything from shoes to manufacturing, you name it, and 
manufacturing, in general, has left that area. So this was an 
area that used to be, you know, several years back----
    Ms. Kaptur. Those jobs are located off-shore?
    Mr. McGovern. Yes, those companies are closed, most of them 
are gone, and it has been kind of a consistent exodus from that 
area. And what ended up happening is property prices went down, 
you had a lot of abandoned buildings. This is probably where 
the lowest-income earners live in the city, highest crime rate. 
You know, what has happened is over the years is that nobody 
has really come up with a solution. This is the first effort 
that has been launched in this city to try to reclaim this 
area.
    Ms. Kaptur. Would the gentleman yield?
    If I were to ask you for a list of 10 firms that have left 
the area in the last 25 years, could you provide that for the 
committee.
    Mr. McGovern. Sure.
    Mr. Frank. I would just begin by noting that both Fall 
River and New Bedford are communities which have used their 
CDBG money for low-income people very diligently. I would just 
thought that might be of some general interest to this 
committee.
    But the garment/textiles, I met this morning with the 
people you had dinner with last night, Roger Millican from 
textile employment side and Bruce Rainer from Unite. 
Essentially, I think if you read International Economics and 
the study of garment, garment and textiles have been identified 
as one of the easiest industries for newly industrialized 
nations to get into. The capital involved is not that hard, the 
skill level initially was not that hard, and there has been an 
identification by the U.S. Government as that being an area, I 
mean, I think there was a decision, it was clear-cut, that 
garment and textiles is probably not an industry that Americans 
should be in, that it was really better suited for poor 
countries.
    Now, to some extent, when you are talking about the very 
basic things, yeah, we are not going to make t-shirts in 
America, things that are really relatively unskilled and just 
commoditized. There was hope that with higher end textiles we 
could continue to do well. Italy, for example, has continued to 
be a source of textile production, but there have been a number 
of problems. We believe, those of us who are familiar with the 
industry, that the administration, this is bipartisan, it did 
not change from Reagan to Bush to Clinton, you can go back to 
Carter, and now with the President again, so the national 
economic sense that textiles is an industry we can kind of 
trade-off and help lower income countries with or without any 
adequate consideration of what this does to people in the 
industry. And even in those areas where we would have thought 
we could have done well, NAFTA had a particular negative 
effect.
    The transshipment problem is a big problem and one of the 
issues they are talking about now is better enforcement; that 
is, we think that a lot more textiles are coming through in the 
NAFTA countries than, in fact, they are making, and in 
particular people are worried about the great potential of 
China to undo this.
    Finally, all manufacturers in America have had a negative 
effect from the great strength of the dollar vis-a-vis the 
other currencies.
    Ms. Kaptur. Thank you very much.
    Mr. Goode. Mr. Chairman, could I follow up?
    Mr. Walsh. Mr. Goode?
    Mr. Goode. Do you support the global U.N. view of shifting 
manufacturing jobs to the third-world countries to level them 
up and level us down?
    Mr. Frank. I am not aware that is the U.N. view.
    Mr. Goode. It is a U.N. view.
    Mr. Frank. I voted against trade promotion authority, and I 
voted against China getting normal trade relations, as we call 
it. So I guess I do not vote on the U.N. view. I vote on 
American administration issues. I think that we should be 
encouraging manufacturing there, but I think we ought to be 
encouraging it on terms that provide us at least a reasonable 
competitive edge and to prevent the absolute exploitation of 
workers.
    I think one of the problems we have gotten, they were 
talking about the Indians, people in India and Bangladesh are 
worried about China taking over their market, which is one of 
the things they told us today. You get a nation the size of 
China with a billion people, with this very repressive, very 
efficient Government, and they are able to exploit that 
workforce in a way that makes it apparently impossible even for 
the Indians and the Bangladeshis to compete with them.
    And so, no, I am not in favor of that and did not vote for 
it.
    Mr. McGovern. If I could just add one other thing here, I 
mean, we can argue all day about the impact of some of these 
trade agreements and what they have had on some of these 
manufacturing industries, but let me say that one of the things 
we are arguing here for is to try to take away yet another 
reason for these companies to leave, which is dealing with some 
of the infrastructure problems in these aging communities. I 
mean, the water and sewer bills are astronomical. These are 
water-intensive industries. They rely on water very heavily 
for----
    Mr. Frank. We are driving out these finishing industries. I 
think you will find the Secretary of Treasury is probably on 
the U.N. side of your equation, but you are not going to talk 
to him.
    Ms. Kaptur. Mr. Chairman----
    Mr. Walsh. We better move this along.
    Ms. Kaptur. I know we have to move on, but in terms of the 
money that this subcommittee is being asked to appropriate to 
try to help to lift some of these communities that have been 
impacted by out-migration, I just wanted to better understand 
the issue, and this does not have to be a long answer, but in 
terms of Massachusetts, I mean, Massachusetts has this image 
that it is high tech and your incredible university 
establishment will produce the kind of new jobs, the knowledge 
industry jobs that are supposed to lift all of us. In fact, we 
have had other members here this morning who are losing steel 
jobs saying high-tech is going to lift us all, help us with EDI 
money to create these high-tech jobs. And you have some of the 
best high-tech companies, why can they not just fill in these 
areas? Could you comment on the high-tech industry?
    Mr. Frank. Well, they have helped some. There is no 
question that the State as a whole is better off for that. 
Biotech is actually one of the new areas and medical 
instruments, but what you get, first of all, are different 
people tend to get those jobs. Very few people at the age of 47 
lose a job as a cutter in a garment plant and immediately go 
into making stents for angioplasties. It is not to same people, 
and they are not geographically compatible.
    We do ask the State to help out, but you have different 
geographical concentrations, and the places that could hurt 
tend not to be the places that are most booming. So, yes, there 
is some pick up, but as far as universities are concerned, what 
the universities do is basically national in scope. It is not 
regional. People do not leave MIT and Harvard and then decide 
to go down to Fall River and New Bedford and help with the----
    Mr. Walsh. Jim, I am going to give Barney the last word. We 
have got some other folks waiting coming up next.
    We appreciate your testimony, and we will try to meet your 
priorities. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                               WITNESSES

HON. FRANK A. LoBIONDO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
HON. MICHAEL E. CAPUANO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Walsh. We will now hear from Mr. Capuano and Mr. 
LoBiondo.
    Frank, your testimony will be admitted in its entirety, and 
if you can summarize, we would appreciate that. Welcome.
    Mr. LoBiondo. Thank you. I appreciate it very much, Mr. 
Chairman and members of the committee.
    Congressman Capuano and I co-chair the Empowerment 
Communities Caucus, which is a bipartisan group of members who 
have Round II empowerment zones and enterprise communities. As 
you are probably aware the EZ/EC initiative provides for 
critical Federal support for the comprehensive revitalization 
of designated urban and rural communities across the country. 
It is created as a 10-year program that targets Federal grants 
to distressed urban and rural communities for social services 
and community redevelopment. It provides tax and regulatory 
relief to attract or retain businesses.
    The Federal investment generates funding at the State and 
local level, as well as significant investment from the private 
sector. In 1994, the original empowerment zones received full 
funding as an entitlement, which is a big difference from the 
Round IIs. We are in a different category altogether. The 
benefits that were promised to the Round II zones when they 
were designated included flexible funding grants of $100 
million for each urban zone, $40 million for each rural zone, 
and $3 million for each enterprise community.
    The Round II zone designations were required to prepare 
strategic plans for comprehensive revitalization based on the 
availability of the $100 million in Federal grant funding over 
the 10-year period. So, unlike the Round I zones, the Round IIs 
have only received a small fraction of the funding.
    The Cumberland Empowerment Zone, from my home district, is 
one of the success stories of collaborative revitalization with 
a strategy of the different communities involved. It is the 
second-fastest spending zone in the Nation, committing 100 
percent of the nearly $19 million that has been made available 
by HUD so far. Three hundred jobs have already been created, 
even with the limited funding. We have about 1,100 additional 
jobs that will be created over the next 18 months if, in fact, 
we can keep the program going. It involves housing units that 
are rehabilitated and some other material that I am going to 
try to skip through in the essence of time.
    But to let you know, Mr. Chairman, one of the problems that 
the Round IIs have is that we have been able to leverage, and I 
think this is what the Federal Government wants, significant 
private-source funding. In just 2 years, Cumberland Empowerment 
Zone has leveraged nearly $10 in private investment for every 
$1 of public funding. This is the kind of partnership that 
makes sense. This is cost-effective partnership that allows 
communities like the Cumberland Empowerment Zone, which has 
doubled the unemployment rate in the rest of the State of New 
Jersey, it has the lowest per capita earnings in the State of 
New Jersey to have the tools to move forward. But the problem 
is that the private investors are scared. They see the Federal 
commitment wavering and private investment is not going to move 
forward unless we can somehow stabilize.
    So we are asking you, we are begging you to look at this 
for the good work that it does, in terms of creating jobs and 
keeping existing jobs, with primarily private parties, but it 
is a partnership that the Federal Government has to participate 
in.
    We believe that we can, in fact, live with a little bit 
less than the original, and we are asking that the 2003 come in 
at $75 million for the urban zones. Now that is not the $10 
million per zone that we talked about. It is $5 million per 
zone that we think we can live with that would give stability 
and still recognize your restrictions with the budget numbers 
that you are dealing with.
    These Round II zones, including Congressman Capuano's, 
myself, and all of the others, have put significant effort into 
putting plans together based on the commitment that the Federal 
Government originally made to them. And now, in essence, what 
we are turning around and saying is, ``Just kidding.'' All of 
that private investment is going to go by the boards. All of 
those hope of jobs of being retained and created are going to 
go by the boards. All of the good work that has been done with 
revitalization is ready to go by the boards if, in fact, we 
cannot just salvage a part of this program.
    So we are here to beg with you, to plead with you to, 
please, on a bipartisan basis to look at what these zones have 
been able to do, and recognizing the constraints that you are 
under, respectfully, ask for your consideration.
    Mr. Walsh. Mike.
    Mr. Capuano. Mr. Chairman, in the hopes that brevity reaps 
wonderful results, I will simply associate myself with Mr. 
LoBiondo's comments. I believe you all know exactly what the 
program does, exactly why we are here, and I will leave it to 
your good judgment to do the right thing.
    Mr. Walsh. Thank you. And I know we have all talked about 
these issues, and the funding priorities, and the difficulty, 
and I appreciate you recognizing the difficulty that we have. 
We did appropriate money last year for the zones, not anywhere 
near what you had expected, and I know you were disappointed by 
that. You both fought very hard for the zones. They are 
essential to economic development, and I think we will do our 
very, very best to help to meet this request. You have reduced 
your dollar amount request, which I think is realistic. We will 
try to come as close to your requirements as we can.
    Any questions or comments?
    Mrs. Meek. I would just like to say thank you. I agree very 
wholeheartedly with your discussion on empowerment zones. This 
comes up every year, and hopefully we can continue to do more 
of the zones because they are very worthwhile.
    Mr. Frelinghuysen. I would like to thank both of you for 
your advocacies on behalf of others in your caucus. 
Particularly, I have met with Congressman LoBiondo, who is very 
much of an intense advocate of the Round II zones. It is the 
issue, quite honestly, of raised expectations because there had 
been a promise, and a commitment, and I think we recognize that 
you have brought some partners to the dance, and we need to be 
able to participate in a way that we promise. So I want to 
thank you. I, particularly, am aware of your leadership in your 
congressional district, but particularly from the Cumberland 
County Empowerment Zone. It is an area of high unemployment. 
There is a certain amount of distress, and that is what you are 
trying to commit Federal resources to. I want to commend you 
for your advocacy.
    Mr. LoBiondo. Thank you.
    Mr. Chairman, as just a last thought to re-emphasize, we 
are not just asking for a hand-out, as I know many people are, 
but the private investment versus leverages, I do not know how 
you would begin to measure that if you take away the $10 in the 
private sector for every $1 from the public sector. It is a 
remarkable return on the money for the taxpayer. We do not 
often get $10 back on every dollar we invest.
    Mr. Capuano. Thank you very much. If there is anything as 
you move along that is unanswered that we can help with or any 
specific projects or if you need any good stories or anything 
like that, we will be happy to provide them.
    Ms. Kaptur. Mr. Chairman, I just had a question. Would 
there be a subsequent follow-up next year or would this 
complete the need.
    Mr. LoBiondo. There is going to be a follow-up for a 10-
year period.
    There are six more after this year.
    Mr. Capuano. It is a commitment that was made. That is the 
problem. Had the commitment been an entitlement, we would not 
be here. But a commitment was made, you know, people try to 
make deals, and they cannot make deals because the private guys 
say, ``Well, wait a minute, are you going to have the money 
next year?''
    So it is really unfortunate that we have to come. This 
really should be an item that it gets rubber-stamped and goes 
through.
    Mr. LoBiondo. The Round I's were made an entitlement, 
Marcy, and the Round IIs were not. So the Round IIs are coming 
``hat in hand'' every year, and the Round I's are just cruising 
along because they get it automatically.
    Mr. Walsh. Thank you both.
    Mr. LoBiondo. Thank you.
    Mr. Capuano. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Walsh. Mr. Filner.
    Mr. Filner. Good morning.
    Mr. Walsh. Good morning. Your testimony will be submitted 
in its entirety, and if you could summarize it, we would 
appreciate that.
    Mr. Filner. Thank you, Mr. Chairman. Thank you for hearing 
members of Congress on issues of importance.
    I want to bring to your attention some issues that directly 
affect my district of San Diego, California, but I think have 
national consequences in all of the areas that you are 
responsible for: VA, and HUD, and also EPA.
    In the VA area, just briefly, Mr. Chairman, you are fully 
aware over the years of the issue of Filipino World War II 
veterans. They were drafted in the Army. They helped us win the 
war. We took away their benefits in 1946, not we, but the 
United States Congress at that time.
    It has been 55 years or more since then. They are in their 
eighties. Most of them are dying. I am asking for us to 
recognize their service, not by giving them pensions, but by 
trying to take care or providing them access, access to the VA 
health system. That is estimated to cost $30 to $35 million a 
year. I think that is well within our ability to deal with. 
They would not have automatic care, by the way. They would have 
to go by the rules of the VA in the access situation. We think 
this is a reasonable budgetary sensible way to honor these 
brave men in their last years of their life, and I would hope 
that we could do that.
    As many of you know probably from your own districts, VA 
cemeteries have filled up rapidly, and there is a priority list 
to build new national cemeteries, but there is only one or two 
built a year. San Diego has run out of space for its veterans. 
They have to go a long ways away, and obviously they want to 
bury their loved ones nearby if they can.
    A very innovative solution has been come up with between 
local Government and the private sector. Two cemeteries, one in 
the North and one in the South of our counties will donate land 
to the Government, through a nonprofit agency, in effect, have 
satellite cemeteries for internments. We think this is an 
interesting and good way to go. I have talked directly with the 
Secretary of the VA. He sees management and bureaucratic 
problems, as most agencies do.
    I think that we ought to look at this, and I would ask you, 
we are going to go through the authorization routes, also, but 
to fund a model program for satellite cemeteries for our 
veterans, so many areas do not have the space any more. This 
might be a way to go to honor our veterans and allow their 
families to bury them nearby. So I would hope you would look at 
this as an innovative approach to a very national problem.
    In HUD, staying with the veterans, if I may, Mr. Chairman, 
as you know, 250,000 veterans every night are on the streets. 
This is a national tragedy. There are various programs to try 
to bring veterans who are homeless back into the mainstream. 
One of the most innovative and effective, nationally recognized 
is something that has been done by the Vietnam Veterans of San 
Diego. They have a full-service kind of approach of housing, 
and transitional housing, and job counseling, and alcohol and 
drug-abuse counseling, et cetera. They are the most effective. 
They have about a 90-percent effective rate that when people 
leave their 6-month program, they stay clean, and they are 
employed, and they are off the streets. It is an incredible 
program. They want to expand it from doing basically 70 or 80 
people living in their units per time period to about 250. 
Secretary Principi has been there. He is very enthusiastic 
about it, and we would like to fund their continued help to our 
homeless veterans.
    Lastly, under EPA, again, there are two things being done 
by a water authority in my district, which I think are very 
important for the environment and have national implications. 
One is the monitoring of reservoir quality when a new freeway 
or other road goes in. It turns out that there are incredible 
things going on, you know, just from the tires, for example, 
and the particles that are admitted from that, that nobody has 
really studied. We are building a new freeway, which is very 
important for our area, but it goes right by our reservoir 
that, of course, provides water for our citizens. So there is a 
very innovative program again of monitoring this and trying to 
figure out how you treat the water that might come under these 
environmental problems of a freeway.
    Lastly, as you know, Southern California is a desert. We 
are completely dependent on the importation of water from the 
Colorado River and from Northern California. There are all 
kinds of political problems as California is forced to reduce 
its allotment from the Colorado River to the requirements that 
law provides to other States in the West. Again, in my district 
we think we have discovered an underground aquifer that might 
have a million-acre feet of usable water. That is an incredible 
amount of water that is stored underground. All we are asking 
for is a $1.2 million. With $1.2 million, they could try to 
monitor this, test the analysis, pump out, test it and see if 
this water is available. It would be immeasurable help to all 
of the issues that Southern California is dealing with now with 
Arizona, and with Nevada, and with other States as we fight 
over the water that is so critical. Of course, everybody is in 
short supply.
    So, again, while these issues, whether they are for 
monitoring reservoirs by a freeway, trying to find underground 
water, helping our homeless veterans and our Filipino veterans 
of World War II or with burying veterans, I think all of these 
are important to San Diego, but they have national 
implications, and I hope that you would look at all of them 
favorably.
    Mr. Walsh. Thank you. Thank you for your testimony and your 
advocacy.
    Are there any questions?
    Ms. Kaptur. Mr. Chairman, I just wondered, very briefly, I 
would thank Congressman Filner for his testimony and for the 
very worthy recommendations that he makes for us. Give us a 
sense, when you talk about the region you represent being a 
desert and greater and greater water shortages in your region 
of the country, most of us do not come from your region of the 
country----
    Mr. Filner. Right.
    Ms. Kaptur [continuing]. Could you just give us a little 
snapshot of what you face over the next 25 years?
    Mr. Filner. Let me just give you one part of it because it 
is going to come to congressional attention.
    The Colorado River is the source of water for most of 
Southern California and for five other States depend or parts 
of those States depend on the Colorado. There is a law that was 
passed 50 years ago or so that allocates various amounts of 
that. California has been using 500,000 acre feet, maybe more, 
almost a million, over its allotment because other States like 
Nevada and Arizona, did not need them. They now need them.
    California is on a 10-year plan to get back to the legal 
allotments. It is a very difficult thing. You need 
conservation, you need desalinization. You are trying all kinds 
of things, but we have to reduce our consumption or increase 
our--find new resources for almost a million-acre feet a year 
of water. That is a very difficult thing to do, and there is 
going to be political fights and all other kinds of fights 
while we are doing it. You are not part of it, but it is the 
center of almost all of us trying to figure this out.
    If we could find a million acre feet underground that 
nobody ever did, it wipes away a lot of the political problems 
that Congress is going to have to face in allocating water to 
Southern California. So, if this is true, and we do not know it 
is true, there have been some tests that seem to indicate this, 
it would be a tremendous contribution to the issues that 
Congress is going to have to deal with soon. This may wipe out 
some of the problems just on its own.
    We could spend hours on the water of the West.
    Mr. Walsh. We will send you some from the East or, better 
yet, send your folks back East.
    Mr. Filner. I second the motion for both of those. 
[Laughter.]
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Filner. I appreciate your time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Mr. Walsh. Stephanie Tubbs Jones.
    It is good to have you back.
    Mrs. Jones. Good afternoon, Mr. Chairman and other members 
of the subcommittee. I am back, once again, on that same 
project, but before I proceed there is a problem. I need to let 
you know that my man child, Mervyn Jones, is visiting with me 
today. He is going to be bashful. He is a senior in high 
school. He is hanging out with me today, and he is also going 
to be representing the U.S. Congress in a basketball game 
tonight that Carrie Meek and I are coaching against the 
Georgetown Boston faculty to raise money for the homeless. So 
just in case you are not busy this evening, we would ask you to 
come and join us.
    But let me move on because I know you have a busy schedule, 
but as a mother I could not resist introducing.
    Mr. Walsh. We are glad to welcome him here today. Welcome. 
Thanks for helping our guys tonight.
    Mrs. Jones. I am back here to talk to you once again about 
the Doan Brook Watershed project. My predecessor, Congressman 
Stokes, sought money for this project, and I continue to seek 
money. Doan Brook is probably one of the few urban watersheds 
that still exists throughout the United States, and that 
watershed provides water for the City of Cleveland and a number 
of other projects.
    We are seeking an EPA Special Purpose Wastewater Treatment 
Grant funding for fiscal year 2003 in the amount of $5 million. 
The requested amount would be matched by local funds from the 
user population of the Northeast Ohio Regional Sewer District, 
which was created, and the funny thing is I used to be a lawyer 
with them when it was first created, but it was created to 
administer the sewage flow and sewage treatment for the City of 
Cleveland and Cuyahoga County, about 58 cities, villages and 
townships.
    Northeast Ohio and the City of Cleveland face massive costs 
to comply with a recent EPA mandate to control, combine, and 
other sewer overflows and storm water problems. While we have 
no quarrel with the validity of the requirements, they have 
imposed a massive financial burden. The cost for the Doan Brook 
project are estimated to exceed $520 million, which is 
equivalent to almost a third of the total $1.5 billion in 
Federal, State and local funds expended on wastewater 
improvements in the entire Northeast Ohio Region in the last 30 
years.
    You have provided us previously assistance for this project 
since 1997, and with your help we have made substantial 
progress. We now have a plan in place defining specific early 
action and long-term capital improvements which will provide 
immediate environmental equity and protection for the 
surrounding and downstream urban neighborhoods.
    Just for example, some of the areas that are affected by 
this Doan Brook watershed is the Lake Erie, specifically, 
University Circle, where we house all of the museums of art and 
natural history, University Hospital Systems, which is one of 
our large hospital systems, Cleveland Clinic Foundation, 
another one, Case Western Reserve University, Rockefeller 
Gardens, which is along a pathway where different ethnic groups 
have their own particular gardens, and it is surrounded by 
historical homes over more than 100 years old and then some 
low- and moderate-income housing.
    This area has historically been subject to significant 
urban flooding with subsequent bacterial and mold contamination 
which poses a public health threat, especially to small 
children in the District. I recognize that funding of specific 
wastewater projects in today's legislative environment is 
difficult because fewer discretionary funds may be available. 
Yet the funding I have requested today is urgently needed and 
will be met by local funds generated by the users, the City of 
Cleveland, and 53 neighboring cities, townships and villages.
    Without your kind assistance and support, we will not be 
able to proceed with this critical project. I am only asking 
for one project. I am prepared to answer questions.
    I know I talk fast, but that is how I get through 
everything.
    Mr. Walsh. We appreciate that. You did a nice job. And we 
are somewhat familiar with the project, as we have funded it in 
the past, and it is a meritorious project. We will do our very 
best to meet your priorities.
    Any comments? Questions?
    [No response.]
    Mr. Walsh. If not, thank you very much.
    Mrs. Jones. Thank you very, very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. ADAM B. SCHIFF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Walsh. Mr. Schiff.
    Welcome, sir. Your testimony will be submitted in its 
entirety. If you could summarize it, it would be helpful.
    Mr. Schiff. Mr. Chairman, members, thank you very much for 
giving me the time to appear before you and, indeed, for 
opening up this subcommittee for all of the members. I cannot 
imagine what a long day that must present for all of you.
    Mr. Walsh. It is one delight after another. [Laughter.]
    Mr. Schiff. Well, I will try to keep my delightful 
presentation brief. I realize that the resources this year are 
going to be limited, and you have got some tough choices to 
make.
    I wanted to mention one district-oriented project and a 
couple of more national interests. The first you were very 
helpful in providing funding for last year, and it is a 
Chromium 6, Hexavalent Chromium Treatment project. In many 
places in California, we have discovered large concentrations 
of Hexavalent Chromium in the water. It is by product of 
industrial processes.
    In my district, we had a very large Lockheed presence, did 
a lot of defense contractor work, but one of the results is 
that we have this Hexavalent Chromium in the water. We know if 
you breathe it in the air, it is a carcinogen. We suspect the 
same is true when it is ingested through the water.
    There is no current technology that removes it from the 
water, and you were helpful last year in providing $750,000 to 
begin the process of establishing the technology to remove it 
from the water. We are seeking the remaining $2.25 million this 
year. Glendale, which is a city directly impacted by this, like 
many others, is willing to match $6 million for the $3 million 
in Federal funds. So it is a good way of leveraging Federal 
funding to deal with a problem that is in many communities in 
California, and I suspect we will find around the country as 
well.
    Chromium 6 most people recognize as the chemical that was a 
part of the film ``Erin Brokovich.'' Now, in that film, it was 
in much higher concentrations than in most of our drinking 
water, but yet even small concentrations we know when you 
breathe it through the air cause cancer, and we suspect that it 
does not help fight tooth decay when it is in the water. So we 
are working hard to try to develop that technology.
    The National Toxicology Program, at the same time, is doing 
the definitive cancer study on chromium ingested through the 
water, so we are proceeding along parallel tracks; one to 
develop the technology and the second to get the definitive 
science on the subject.
    Moving to science more generally, I want to commend the 
subcommittee for its long record of support in Federal 
investment in the National science agencies, NSF, NASA, in 
particular, and want to encourage that support again this year. 
There is substantial consensus that funding for science is 
vital to the development of new technologies and medical 
treatments. The physical sciences, chemistry, math, physics, 
astronomy and space exploration supported by NSF and NASA are 
inextricably linked to advancement of medical care.
    In my district, we have a couple of great institutions, 
Caltech, as well as JPL, and we have seen, through the work 
that they have done, all of the complementary, nonspace/
science-oriented applications like MRIs that have come out of 
science funding. So I think it is not only important in terms 
of progress with medical discoveries and science generally, but 
it also keeps us ahead of the productivity curve, which is very 
important for us economically.
    Finally, I wanted to again encourage your support for 
housing programs like Section 8. In my district, and I know 
many of you have similar challenges in your districts, we have 
a serious lack of affordable housing, we have a lot of seniors 
living on fixed incomes that are being forced out of their 
apartments by rent increases. There are very long waiting lists 
for Section 8 vouchers in my district, and we have a 
commensurate problem with even when someone wins the lottery 
and they get a Section 8 voucher, actually finding landlords 
who are willing to accept them.
    And so your assistance, both with the Section 8 program and 
with other new and more innovative approaches to housing is of 
vital importance. Again, I appreciate the budgetary constraints 
you are operating under, and I want to thank you for all of 
your diligent and often thankless work.
    Mr. Walsh. Most people do say thank you, but thank you for 
that and for your advocacy. We agree with you on many of these 
issues. We certainly support the physical sciences, Section 8 
and pollution abatement is a critical issue all over the 
country. So thank you.
    Questions or comments?
    [No response.]
    Mr. Walsh. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Walsh. Mr. Shays. Leader of the Shays rebellion. 
[Laughter.]
    Mr. Shays. Mr. Chairman and members, thank you very much. I 
do consider this a labor of love on your part, so I will just 
touch briefly on my statement and submit it for the record.
    Mr. Walsh. Thank you.
    Mr. Shays. I am here to talk about four issues; the 
Corporation for National Service, Long Island Sound Office, 
Housing Opportunities for People With AIDS, HOPWA, and the 
Community Development Block Grant. I am here to support the 
President's request for 229 million for an increase in the 
Corporation for National Service, the 25,000-AmeriCorps member 
increase. They will be able to get it, and I cannot tell you 
enough good things about, frankly, President Clinton's program. 
It has been a great program. It has helped young people wanting 
to go to school, it has helped seniors that want to make a 
contribution, and it has helped everyone in between. I love the 
program, and I know the President is very supportive.
    The Long Island Sound Office, I am asking you to fully fund 
it at the $40,000 authorization. I know that authorizes tend to 
authorize more than there is money, but this is money that will 
not go for bureaucracy. It will go to help clean up Long Island 
Sound and the States of New York and Connecticut will be 
spending $3 billion to upgrade their water treatment plants.
    So at any rate that request is there, and also to make a 
request for HOPWA of going from the $292 million to the $325 
million. Basically, almost every year this committee has tried 
to find a way to get a little bit more, and a little bit more 
makes a lot of difference. Most of the 40,000 new Americans who 
will be afflicted with HIV will be homeless people or on the 
edge of homelessness.
    And, finally, my last point, and I would make the point, 
too, that this is an issue that obviously is a concern to me. 
My predecessor died of AIDS, and his wife, bless her heart, has 
taken on this cause in a very constructive way.
    And then, finally, the Community Development Block Grant. 
The President recommended taking away half of the top 1 percent 
of the CDBG. I think the CDBG is a great program, if we had 
more money to fund it everywhere. The issue is I would like you 
to look at how the money is spent by these communities, not 
their particular wealth.
    Greenwich, Connecticut, for instance, is going to be 
impacted. They spend it on homeless shelters, food banks, drug 
elimination and two youth homes, and they also spend it in the 
neighboring community of Stanford, where they have been helping 
some of the urban needs of their surrounding communities.
    So that is my request, and thank you.
    Mr. Walsh. Thank you very much.
    I pay special attention to return Peace Corps volunteers. 
You are one in good standing, especially when they are 
advocating for volunteer agencies. So thank you for that. Thank 
you for your advocacy.
    Any other comments or questions?
    [No response.]
    Mr. Walsh. If not, thank you, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. LEE TERRY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA
    Mr. Walsh. Mr. Terry's timing is exquisite. Lee, welcome.
    Mr. Terry. I appreciate that.
    Mr. Walsh. We welcome you to the subcommittee, and we will 
submit your statement in its entirely for the record. If you 
care to summarize it, that would be helpful.
    Mr. Terry. Yes, I would like to summarize. I will submit my 
full statement for the record, Mr. Chairman. Let me introduce 
two ladies from the Close-Up Program from my great State of 
Nebraska that I asked to tag along to see how we really work in 
Congress.
    Mr. Walsh. Well, we are working hard today, ladies. 
Welcome. Good to have you with us.
    Thank you for the important work that you are involved 
with. Nebraska has been well represented. The entire State 
delegation has been here today.
    Mr. Terry. Have they? Well, we are working hard for our 
State.
    Mr. Walsh. Yes, you are.
    Mr. Terry. And I am here to work on behalf of one of our 
home-based entities, although the cause is outside of Nebraska, 
and that is Girls and Boys Town U.S.A. That, as you know, 
historically is based, founded by Father Flanagan from 
Ballymoe, Ireland, when he immigrated to Omaha and started a 
Home for Boys for orphaned youth in Omaha, Nebraska, that has 
blossomed as a national cause, and then Father Val Peters, the 
latest head of Girls and Boys Town has literally taken the 
concept of Girls and Boys Town nationally and taking it into 
various cities into the hard-core inner city, taking the 
services directly to the youth that need it most. What Father 
Flanagan stood for was helping children, and that is what his 
mission is today with Girls and Boys Town and how they do it.
    First of all, we are setting up satellite campuses in 
various communities. This year we are looking for funding to 
start the program in Los Angeles, California; Portsmouth, Rhode 
Island; Newark, New Jersey; and Phoenix, Arizona. Last year 
this committee was very generous in allotting funds to start it 
in New Orleans, Louisiana, and one other city that escapes my 
memory.
    But the Boys Town model has been proven to be effective, 
and I have suppplied this committee with charts that show how 
dramatically effective they have been with a simple model. 
These are children that are usually assigned by the court 
system into this system. The system is that they create homes, 
physical houses and homes, with married couples as the house 
parents, and then they assign so many kids into this house, a 
manageable small number, which is why they need so many homes 
and so many parents to come in and help consult.
    The philosophy is to have a nurturing, caring, loving 
environment where they take kids off of the streets, into this 
environment, and they lay down strict rules:
    You will behave. Here is the Code of Conduct.
    You will learn. Here is how you will learn. Here is the 
educational components. And if you visited some of these 
facilities, you would see that these kids that were once on the 
streets are now wearing ties and coats and going to school all 
day, and then when they graduate or leave this, they literally 
become model citizens. And I think it is incredibly effective.
    So I am here supporting, yes, an Omaha, Nebraska, entity of 
Girls and Boys Town U.S.A., but what I am really trying to do 
this time is to help the kids of Los Angeles, California, and 
Rhode Island, and Newark, New Jersey, and Phoenix, Arizona, and 
help establish those programs in those cities.
    I appreciate your support in the past and respectfully and 
humbly request it again.
    Mr. Walsh. Thank you, Lee. I think it is great that you are 
here advocating for Boys and Girls Town. I know you have a 
supporter at least for the Newark area from the gentleman on 
the subcommittee.
    Mr. Frelinghuysen. Thank you for your advocacy.
    Mr. Walsh. And thank you for coming in today.
    Are there any comments or questions of our witness?
    Ms. Kaptur. No, I just want to thank Congressman Terry very 
much for being with us today. We certainly will view this 
closely and hope to be helpful to you.
    Mr. Terry. Well, thank you. I appreciate your assistance, 
and help, and support.
    Mr. Walsh. Thank you, Lee.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. I think we have a lull in the action. We will 
take a brief recess.
    [Recess.]
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. NICK LAMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Walsh. The gentleman from Texas, Mr. Lampson, is 
welcomed to the subcommittee today.
    Mr. Lampson. Thank you very much. Nice to see all of you.
    Mr. Walsh. Please have a seat.
    Mr. Lampson. Thank you very much. I will give you a four-
page statement for the record and will not go through it. Let 
me just talk to you a couple minutes.
    Mr. Walsh. Great.
    Mr. Lampson. And I will not even take two minutes at this 
time. This is a project called the Gulf Coast Hazardous 
Substance Research Center. It is located at nine universities 
across the southern United States. The primary purpose of it is 
to further research projects in the area that deals with the 
petrochemical industry that affects so much of that particular 
area, and for the whole country.
    The major category areas of research are site remediation 
by technology innovation and modification, and emerging 
technologies, waste treatment, and pollution prevention. It 
includes biological remediation of soils and sludge treatment, 
separations, hazardous substance monitoring and detection, 
combustion, oxidation, pollution prevention, and modeling and 
risk assessment. All of those are things that this has worked 
it.
    From it has grown a significant effort in air quality, 
which is another area that is very, very significant for the 
quality of life in southeast Texas. We have got to have the 
petrochemical industry. It is a growing industry. It is 
becoming more concentrated in southwest Louisiana and southeast 
Texas. Probably 50 percent of the petrochemical processing 
capacity of the country exists from Baton Rouge, Louisiana to 
Corpus Christi, Texas. This center is located in the middle of 
that area and touches universities all through that entire 
region.
    So if you would give serious consideration to a 
continuation of this project of $2.5 million we would be most 
grateful. We think it will make a difference in giving us the 
science that is necessary to better understand what is 
happening with not just water quality but air quality as well. 
We need more science to know what it is to do to fix the 
problems that we so desperately need fixed, because we have to 
have the jobs that are created by these industries.
    Mr. Walsh. I know my cousins will be grateful because where 
they live in Corpus Christi, Texas there is an oil refinery 
about a mile from their house. They actually lease the land to 
them, the refinery.
    Mr. Lampson. That has been the economic base for that part 
of the world for 100 years, and it is going to continue to be 
for an awfully long time. And being able to solve the 
problems--Houston is now the worst ozone community in the 
country. We cleaned up so much of our waterways.
    Mr. Walsh. That canal is in good shape now, is it?
    Mr. Lampson. Much better. The river that is closest to my 
home, the Natchez River, when I was a kid I could not get in it 
without coming out with oil on me. It was a dead river. Today 
people fish in there, and we still have significant commerce on 
it. The Houston-Galveston Ship Channel, continue to grow 
oysters in the bay. We fish. It is a huge estuary.
    Mr. Walsh. That is remarkable.
    Mr. Lampson. But at the same time there are 6,800 ships a 
year that go in and out of that channel and carries 175 million 
tons of cargo a year. You can do it and you can do it right. We 
have got to have people that are studying to understand what is 
there and to make the suggestions about what we can do 
differently in handling these things. So it is a critical area.
    Mr. Walsh. Any questions, comments for the witness?
    Ms. Kaptur. Mr. Chairman, I just wanted to ask, of the 400 
projects, 500 principal investigators, 1,300 publications, 
might you just state one or two applications of that research 
to the clean-up that you have referenced has occurred in the 
streams and soils of your region.
    Mr. Lampson. Can I mention them right now? Let me think how 
I can best answer that, if I can come up with a specific----
    Mr. Walsh. Tell you what, if you would like to submit those 
to the Committee we would be delighted to accept those.
    Mr. Lampson. I would be happy to do so.
    Mr. Walsh. Is this housed at a specific university?
    Mr. Lampson. Nine universities. There is a headquarters at 
Lamar University in Beaumont, Texas, but the projects are run 
at nine different universities from the University of Houston 
in Texas and Texas A&M, University of Mississippi, Alabama, 
LSU, Louisiana State University, and there is a university in 
Florida that----
    Mr. Walsh. It is supported by the States also?
    Mr. Lampson. That is correct.
    I will get you projects, Marcy. I can tell you about 
specific things that have been done to develop bioremediation, 
the use of organisms to eat up oil in certain places. That is 
some of the research that has been done and implemented in that 
area. I am familiar with a specific company that now maintains 
these bacteria, these organisms and as a part of these sites 
instead of going over and digging up the dirt, cleaning the 
dirt, and putting the dirt back down, they can release 
organisms that literally go in and eat the oil.
    Then the other part of it is literally changing what we put 
into our rivers and streams. Once we knew the sources, once we 
were able to find where a lot of this stuff is being dumped 
into the Natchez River or the Houston-Galveston Ship Channel or 
wherever else and the effects to the oyster beds, and the 
effects to the fish life and the wildlife, then they 
implemented changes going to the source, asking them and 
working with them to clean up, or to change the process that 
they have.
    I can mention another thing. It is more air quality than 
water quality, but they have learned to change the way--these 
great big flares that you see on the top of big stacks, those 
flares now if you, instead of making one huge flare, and bring 
it down low and build a wall around it and have many, many, 
many, many small flares it cuts down on the noise, they are 
able to harness the energy from it to use that to develop 
energy to produce other--to heat water for steam that they use 
to run other equipment. Those are the kinds of things that we 
are talking about.
    And I will get you more specific information.
    Mr. Walsh. Thank you, Nick.
    Mr. Lampson. Thank you very much, and thank you all for 
letting me come in.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. ELIOT ENGEL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Walsh. Eliot, welcome. Good to have you here. We will 
accept your testimony. If you have a statement for the record 
we will take that in its entirety, and if you would like to sum 
up that would be welcomed.
    Mr. Engel. Great. This is a very good and important 
subcommittee.
    Mr. Walsh. We think so.
    Mr. Engel. I know you enjoy it and this is sort of the 
price you have to pay, to listen to all of us, to serve on the 
subcommittee.
    Mr. Walsh. No, we are delighted to give you the time. We 
think it is important. There has been a lot of discussion about 
member priorities this year, specifically from the Office of 
Management and Budget. We think our priorities are equally as 
important as the executive office's priorities. We hope they 
respect ours and we will respect theirs. But we welcome member 
priorities.
    Mr. Engel. I thank you.
    Mr. Walsh. We just do not have enough money to meet them 
all.
    Mr. Engel. Right. As I always say to you, it is wonderful 
to see someone from the class of 1988 sitting in the chairman's 
seat, and someone from New York as well.
    Mr. Walsh. Thank you, Eliot.
    Mr. Engel. So I am really delighted. I want to thank you 
and ranking member Mollohan and the other members of the 
subcommittee to testify before you this morning. I will submit 
this for the record and I will just summarize.
    I am here to request additional funding for the Carl Sagan 
Discovery Center at the Montefiore Children's Hospital and for 
the renovation of the Center for Regeneration, Restoration, and 
Repair at the Bronx VA in my district, which is the 17th 
Congressional district in New York. The subcommittee has been 
very gracious in providing funding for both of these important 
projects and I hope that we can continue to work together to 
provide additional resources for these facilities.
    The Bronx VA received $3 million to begin renovation of the 
Center for Regeneration, Restoration, and Repair at the Bronx 
VA in fiscal year 2000 VA minor construction account.
    For over 20 years the Bronx VA, which is the oldest VA 
medical center in New York City and the Mount Sinai School of 
Medicine have collaborated in providing outstanding health care 
to veterans. This affiliation has fostered important research 
and training as well as supported major clinical programs in 
spinal cord injury, dementia, AIDS, Hepatitis C, Alzheimer's, 
stress disorders, schizophrenia, and cardiac disease, and the 
new center will focus on these types of diseases that have a 
potential to be treated through regeneration and restoration of 
all these things.
    Advances in molecular and cellular biology now hold the 
promise of eventually yielding regenerative and restorative 
therapeutics and Mount Sinai wants to pursue this path in 
collaboration with the Bronx VA and the Center for 
Regeneration, Restoration, and Repair builds upon the strength 
of both institutions.
    An appropriation of $2.6 million from the VA's fiscal year 
2002 medical care operating budget is requested to equip the 
first two floors of the existing research facility. In 
addition, I am asking for critical funds to complete the 
restoration of the facility, which is an $8 million 
appropriation in the VA major construction account fiscal 2003 
VA/HUD appropriations bill will allow the Bronx VA to fully 
modernize their facility by completing renovation on the 
facility's remaining three research floors.
    The second project I would like to highlight is the Carl 
Sagan Discovery Center at the Montefiore Children's Hospital. I 
want to thank you for doing all the support, having all the 
support that you have given us in the past. This discovery 
center is an integral component of Montefiore's state-of-the-
art children's hospital in the Bronx which is one of the most 
medically and educationally underserved areas in the country 
and is the Nation's first science learning project created in 
conjunction with a major children's health care initiative and 
children's hospital.
    This discovery center within the children's hospital 
provides children with an educational learning environment 
during their stay in the hospital, and it incorporates science 
and learning into the healing process which is very, very 
important. So I am asking for money for the Sagan Center in the 
children's hospital, continuation of those monies as well.
    The details of both these projects are in the testimony 
that I am submitting. I thank you for your time and appreciate 
it very much.
    Mr. Walsh. Thank you, Eliot. As you mentioned, we have been 
supportive of these projects in the past and we will do our 
very best to meet them. The VA medical center at the Bronx 
certainly is in need of additional renovation. It is a busy 
place; older facility. And the Sagan Center is a very 
interesting project that we have supported.
    On the Montefiore Hospital you might give us an idea of 
approximately what you are looking for in terms of funding, if 
you have not done that in your statement.
    Mr. Engel. $1 million.
    Mr. Walsh. All right. Any questions of the witness?
    Ms. Kaptur. No, just thank you very much, Congressman. Good 
to have you here.
    Mr. Engel. Appreciate it.
    Mr. Walsh. Thank you.
    Mr. Engel. Thanks a lot.
    Mr. Walsh. You are welcome.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. J. RANDY FORBES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Walsh. One of the newest members of the Congress, Randy 
Forbes of Virginia. Randy, please come forward. We are ready 
for you now.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Walsh. You are welcome. Good to see you.
    Mr. Forbes. Good to see you. Thank you so much for allowing 
me to have just a few minutes. I am going to try to summarize 
because I have a written statement that I would like to leave 
for the record.
    Mr. Walsh. We will do that, without objection.
    Mr. Forbes. I know how much your time is limited.
    First of all, I want to thank you all for the funding that 
you gave last year for the Campostella Square Community Center. 
That made a big difference in that project and it has helped 
them tremendously. We have a number of different rural areas in 
my district that certainly are seeking funding now to 
revitalize their neighborhoods and obviously improve their 
prospects for attracting visitors and businesses. I have 
highlighted those in my written testimony but I just want to 
outline them briefly for you.
    The city of Petersburg is requesting $1 million in HUD 
funding. If you have ever been to that city, it is a very, very 
blighted area; has a number of difficult neighborhoods with 
high incidence of crime and poverty. That is why they have made 
this request to help repair some of those homes and some of the 
streets.
    The city of Suffolk is looking for $3.5 million for a 
revitalization of its fairgrounds. They have done a great deal 
from the community and a grass roots effort to help assist with 
this effort already. Certainly this money would give them a 
great shot in the arm.
    Amelia County, a small project, $356,000 to renovate a 
community center. Nottoway County also is requesting money for 
their historic courthouse that they have been funding but 
cannot do it all on their own.
    Chesterfield County has a very interesting situation. We 
have one of our depots that are there and they have really had 
some difficulties with some environmental problems and some 
serious health problems as a result----
    Mr. Walsh. Is that a military depot?
    Mr. Forbes. Military depot that is near there. The exact 
risk has never been totally linked but the residents of Rayon 
Park we know are at substantial risk of serious health problems 
without some kind of assistance. This money is to request 
approximate 73 homes to help connect to sewage there which they 
believe will significantly increase, or deal with some of the 
concerns that they have.
    The city of Suffolk has a request for a sanitary sewer 
treatment plant for some of its community. Then the Isle of 
Wight County is seeking some water services for fluoride 
consumption.
    The final thing is we have a request for vulnerabilities 
for the city of Chesapeake for public health security and 
bioterrorism request.
    So I thank you all for what you are doing. Thank you for 
just giving me an opportunity to submit this to you for your 
consideration, and appreciate any consideration that you can 
give us.
    Mr. Walsh. Obviously you have gotten up to speed pretty 
quick on the needs of your district, to your credit.
    Mr. Forbes. We spent a lot of time traveling around and 
doing that, and they are not reluctant to tell you those needs 
when you come by and listen to them.
    Mr. Walsh. There is a management strategy I have read about 
in business, management by walking around. You obviously are 
representing by driving around.
    Mr. Forbes. We have spent a lot of miles and a lot of 
hours, but that is what it takes.
    Mr. Walsh. Good for you.
    Mr. Forbes. I know all of you do the same thing. So thank 
you so much, Mr. Chairman.
    Mr. Walsh. Any other comments or questions?
    Okay, thank you.
    Mr. Forbes. Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. We will take another brief break. We only have 
three more witnesses scheduled, Connie Morella, Tim Roemer, and 
Bill Pascrell.
    [Recess.]
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. CONSTANCE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Walsh. Mrs. Morella, welcome. We are ready for you.
    Mrs. Morella. I appreciate that. I hope I did not keep you 
waiting.
    Mr. Walsh. No, we are moving right along. We actually only 
have two more witnesses after you. We are delighted you are 
here.
    Mrs. Morella. Thanks very much. It is an honor to be here.
    Mr. Walsh. We will accept your full statement for the 
record and ask you to try to summarize, if you would.
    Mrs. Morella. I will try to do that. Thank you very much. I 
appreciate Mr. Frelinghuysen being here also.
    Mr. Walsh. And we have Ms. Kaptur.
    Mrs. Morella. And Ms. Kaptur is here; a splendid group of 
members of the important subcommittee.
    I am going to try to highlight a few items in your 
budgetary jurisdiction. First of all, I just recently got a 
call from our water works, Washington Suburban Sanitary 
Commission, and I am going to, within a few days, as quickly as 
I can, submit to you some specifics of funding that they are 
going to need under the EPA's State and local grant, the STAG 
program, for the drinking water infrastructure program for 
security enhancements that are planned by the Washington 
Suburban Sanitary Commission, which is a bi-county commission.
    The funds would be used for infrastructure improvements of 
the WSSC, which supplies water to an area of more than 1,000 
square miles containing more than 1.6 million people, thousands 
of businesses, hundreds of Federal, State, and local 
facilities. Among these are a number of critical facilities 
that are vulnerable to terrorist attack with potentially 
dangerous results. With its proximity to Washington, D.C., WSSC 
faces unusual security threats, and must provide greater 
protections than many similar systems across the United States. 
Christie Todd Whitman was out there visiting not very long ago 
too. So I will get you specifics on that.
    I know you always are pretty good with the National Science 
Foundation and----
    Mr. Walsh. Pretty good? We are the best.
    Mrs. Morella. You are the best. May you continue with that 
reputation and that tradition.
    Mr. Walsh. The Budget Committee apparently has stepped up 
to the plate this year too, which is great. The Administration 
requested a 5 percent increase. I think the Budget Committee is 
at 11 percent. So the leadership that we have provided in this 
subcommittee is beginning to catch on. I know you have always 
been very supportive of NSF.
    Mrs. Morella. Basic science is important, and education. 
The work they do in math and science education, also the 
National Space Grant College and Fellowship program is a good 
one.
    I want to highlight a few other things that I consider to 
be of great importance to my jurisdiction. One is the Public 
Housing Drug Elimination program and Public Housing Capital 
Fund, and that was eliminated. I strongly support the 
reinstatement of the Public Housing Capital Fund and the Public 
Housing Drug Elimination program. The loss of these programs to 
the Montgomery County Housing Opportunities Commission has 
amounted to $441,000 in the PHDEP grants. By eliminating that 
PHDEP from the President's HUD budget has jeopardized critical 
support services and community policing programs which have 
benefited both the public housing residents as well as the 
surrounding communities.
    Also, the Public Housing Capital Fund provides sources to 
maintain and upgrade the physical condition of public housing 
communities. The underfunding, I think it has been underfunded, 
according to some estimates, by $1 billion. But the 
underfunding has increased Montgomery County's cost from about 
$500,000 per year to $1.75 million a year. So I hope you can do 
something with that.
    I also wanted to point out HOPWA. Every year I come in and 
testify on HOPWA, the Housing Opportunities for People with 
AIDS. I strongly support a funding level of $325 million. I 
think it is $277 million. The President wanted $292 million, 
but I am asking for $325 million. That program really makes 
sense. When you look at the cost-benefit ratio the estimates I 
always get----
    Mr. Walsh. Excuse me a second, Connie. Who has a telephone?
    Mrs. Morella. I think it might be me.
    Mr. Walsh. You might want to turn that off. You want to 
have our undivided attention. Thanks.
    Mrs. Morella. The HOPWA program is one where, if you put 
someone in this kind of community housing it costs something 
like $55 to $110 a day. To do otherwise, under Medicaid it 
would cost about $1,085 per day. So even raising that to $325 
million we still have unmet needs. So I recommend that you give 
a close look and see what you can do.
    Also we are hoping that--we are trying to do something to 
revitalize Silver Spring, Maryland; a great tradition and great 
needs. So our government, Montgomery County, Maryland, is 
seeking at $500,000 EDI to complete the revitalization of one 
segment of the Fenton Street village section of Silver Spring. 
It is right next to the new Discovery Channel. They are doing 
an enormous building project there. This would be near it and 
is in great need.
    Also another EDI, $250,000 for building, renovations, 
facade improvements, and streetscaping of blighted building in 
Wheaton, Maryland.
    There are a few other items that I would leave with you. 
One has to do with the Maryland Soccer Foundation is seeking 
$860,000 for the construction of three soccer fields and 
lighting for four existing fields. Incidentally, that 
soccerplex is something the Nation could well look at. It was 
developed as a $14.1 million facility and it was done basically 
through corporate contributions, the Montgomery County youth 
soccer community and county and State funds. So the request of 
you is for $860,000 in that $14.1 million facility. It is great 
for bringing all the kids from the surrounding area out there 
to play soccer. So I would invite you to one of their games, if 
you would like.
    That is it, folks.
    Mr. Walsh. All right, thank you very much.
    Mrs. Morella. Be glad to clarify anything as you begin to 
look through the papers. I think you have got a copy of that 
and I will get back to you with the WSSC. Thank you.
    Mr. Walsh. Great. Thank you.
    Mr. Frelinghuysen. Thanks for being a great advocate.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. Why don't we run up and vote, get that out of 
the way. Then when we come back we have just two more 
witnesses. We will have Mr. Roemer first and Mr. Pascrell and 
we will be finished. We will take a brief recess.
    [Recess.]
                              ----------                                


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Walsh. The subcommittee will come to order. I apologize 
for the delay. My dad is here and we got up on the floor, and 
one thing led to another. Anyway, thanks for waiting and please 
proceed. We will take your entire statement for the record and 
if you would summarize it, we would appreciate it.
    Mr. Roemer. Thank you, Mr. Chairman. I will do that.
    Mr. Walsh. It should be noted, this will probably be your 
last testimony before this subcommittee and you have done a 
great number. We have had our differences, and mostly had our 
agreements. So you have done a great job for the State of 
Indiana.
    Mr. Roemer. Thank you very much. I appreciate that, Mr. 
Chairman. I ask unanimous consent to have my entire statement 
entered into the record so I can be brief and succinct.
    Mr. Walsh. Without objection.
    Mr. Roemer. I do want to tell you, Mr. Chairman, I 
appreciate the opportunity to testify before your committee. I 
appreciate our friendship. We have offices right by each other 
and have often taken advantage of that proximity to share 
stories about this job and our families. It was a pleasure to 
meet your father, who I want to get on the record, is a better 
golfer than the chairman.
    Mr. Walsh. There is no question.
    Mr. Roemer. At 90-years-old still can beat his son.
    Mr. Walsh. Yes, he can.
    Mr. Roemer. He seems like a great guy. I also had the 
opportunity, of all ironic things, to meet your father this 
past summer when I think you were taking a tour in the Capitol 
and your father was outside.
    Mr. Frelinghuysen. Absolutely.
    Mr. Roemer. He told me, I have had enough of those tours. I 
have served as a member of Congress. I am tired of them. My son 
can do them now, but it is a nice day and I am just going to 
wait out on the Capitol steps.
    So I introduced your dad to my dad and my family and we had 
a great time. The fathers of both members are former members 
and I can see where these two members get their skills as well, 
too.
    Mr. Chairman, distinguished members of the subcommittee, I 
thank you for the opportunity to testify before this committee; 
my last time before this committee. I would like to talk about 
three particular projects from my Third District of Indiana. 
They all have to do with neighborhoods, which the chairman is 
very supportive of. Every time I come before this subcommittee 
Mr. Walsh always is concerned about projects' impact on 
neighborhoods and each one of these three have a significant 
impact on my neighborhoods, my families, and especially 
children.
    I am requesting $950,000 through the Department of Housing 
and Urban Development's Economic Development Initiative account 
to convert the Frederickson Park brownfield site into an urban 
park and outdoor environmental lab benefiting area youth that 
will teach the importance of preserving the environment. The 
site will also contain an environmental reference library, 
space for college students to mentor younger students as they 
learn about environmental stewardship, and an outdoor 
amphitheater made from recycled materials where educational and 
entertaining performances will be held.
    The City of South Bend is going to help clean up this site 
that has some methane gas presence at this time, but this money 
would go toward taking an eyesore and giving us an earful of 
education opportunities for youth in a really tough part of the 
city. So I hope that you will very seriously consider that 
first request.
    Secondly is a request for St. Margaret's House. This is a 
request for $600,000 in HUD's Urban Development and Economic 
Development Initiative account for St. Margaret's House of 
South Bend, Indiana. St. Margaret's House is seeking Federal 
funds for renovation of the house. They partner with the YWCA 
to provide and serve over 700 families a year. With our economy 
the way we are right now, with unemployment going up and with a 
lot of people laid off, we have a significant increase in the 
workload there and the family presence there and a lot of the 
children there. This will accomplish three or four, actually 
five different renovations within St. Margaret's House.
    Lastly, Mr. Chairman, is the YWCA Women's and Children's 
Center of St. Joseph County. This third and final request is 
for $125,000 under the HUD/EDI account for completing 
construction of the YWCA Women's Children's Center of St. 
Joseph County in South Bend. The old YWCA facility was a safe 
haven to the most vulnerable women and children in crisis 
situations. They are victims of domestic abuse and those lives 
who have been seriously jeopardized by chemical addiction.
    At this time the YWCA is the only residential chemical 
dependency treatment program in the whole northern Indiana area 
that provides space for mothers and their children. It is also 
the only domestic shelter in St. Joseph County for overnight. 
The goal of the YWCA is to provide a quality living environment 
that will meet the needs of women and children in crisis 
situations and help them become self-sufficient. So it is not 
just to house them and keep them overnight. It is to help them 
get away from the problems permanently and get out of the 
situation that creates the crisis.
    Thank you again for your help. As always, it has been a 
pleasure to be before this subcommittee, and to serve with you 
outside this subcommittee as members of Congress, too in your 
rich traditions, in your family histories of your fathers, and 
in your case, I think several generations of members serving 
the House. Thank you again.
    Mr. Walsh. Thank you, Tim. We will do our level best to 
meet some of your priorities and try to support Indiana as you 
would like us to.
    Mr. Roemer. I would sure appreciate it. Thank you very much 
for your time.
    Mr. Walsh. Thank you.
    Mr. Frelinghuysen. Thank you for being a great 
representative for Indiana.
    Mr. Roemer. Thank you. I appreciate that. I do not have any 
time left for you, Bill. I took all the time.
    Mr. Walsh. Thanks, Tim.
    Mr. Roemer. Thank you, gentlemen. Appreciate it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. BILL PASCRELL, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Walsh. The gentleman from New Jersey.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Walsh. The ballplayer from New Jersey.
    Mr. Pascrell. Thank you. Mr. Chairman, the gentleman from 
New Jersey, thank you for taking the time to hear me.
    I think, Mr. Chairman, that we should fully fund the 
Firefighters Assistance Grant program for fiscal year 2003 at 
$900 million and demonstrate that the Congress is fully 
committed. The Budget Committee report included language that 
specifies, in the wake of the terrorist attacks of 11 September 
2001, in the ultimate sacrifice paid by over 300 firefighters, 
the sense of the Congress that the assistance to the 
Firefighters Grant program should, at minimum, be fully funded. 
And this grant program should also remain a separate and 
distant program which provides financial resources for basic 
firefighting needs.
    I urge you, Mr. Chairman, to heed the recommendations of 
the authorizing committee, the Budget Committee, and the 
majority of the Congress that passed both those into law by 
fully funding.
    The FIRE grant program was created, or the Firefighter 
Investment Response and Enhancement Act--I wrote that bill two 
years ago and it was signed into law as part of the fiscal year 
2001 Department of Defense authorization; 285 members were on 
that legislation. There are 32,000 fire departments; 19,000 
fire departments applied in the first year. There were close to 
32,000 applications. We can only accommodate 1,850 fire 
departments in terms of the $100 million that was there. The 
program is authorized for fiscal years 2002, 2003, and 2004 for 
$900 million per year.
    I just want to use one--I use this example whether we are 
talking about volunteer fire departments or career fire 
departments, Mr. Chairman. The city of Jersey City, which is 
not in my district, which has about 90 less firefighters than 
they had 10 years ago and yet they have built six skyscrapers. 
It is impossible for that department to respond to the fire 
needs in that building.
    I know our legislation is an A to Z kind of thing in terms 
of training and the wherewithal of firefighters, equipment and 
apparatus. But if we are going to do this correct, this part of 
the public safety equation has been neglected on the part of 
the Congress. That is why we are trying to respond in an 
appropriate manner. I hope that the appropriators will do such.
    My testimony has been submitted to you, and I sound like a 
broken record after a while, but this is in my bone marrow. I 
feel very strongly about it and a good cross-section of the 
Congress feels that same way I do.
    Mr. Walsh. Thank you very much for your testimony, for your 
advocacy for the program. As you know, this subcommittee did 
fund that program. We were the first to provide money for it.
    Mr. Pascrell. Absolute first.
    Mr. Walsh. We appropriated funds again last year and, as 
you know, in the supplemental there was an additional $250 
million. So there has been a dramatic ramp up in this program, 
and we will do our level best again this year. As you know, in 
this bill--the President has asked for a dramatic increase in 
FEMA funding which will be helpful to us. At the same time we 
have advocates for veterans coming in asking for an additional 
$2 billion above what the President requested so it is going to 
be tight.
    But this is a good program. It is a very popular program. 
And in fairness to firefighters, Congress has been very 
supportive of police agencies and not so supportive of 
firefighting agencies.
    Mr. Pascrell. That is right.
    Mr. Walsh. So we know it is important to you. We know you 
have worked hard on this and we will do our level best to 
provide adequate resources. Probably not $900 million. We know 
there is a need beyond that, and $900 million is probably not 
even full funding.
    Mr. Pascrell. That is correct.
    Mr. Walsh. So thank you.
    Rodney.
    Mr. Frelinghuysen. Let me echo the Chairman's comments. You 
have been the strongest advocate among Republicans and 
Democrats for this Firefighters Grant program, and you were 
doing some of that when we served in the State legislature. So 
you carry with you a heritage of advocacy which is absolutely 
great. The committee will do its level best--I know FEMA is 
going to be looking at how they are going to distribute the 
funds. I think there is one category that a department can 
submit to rather than maybe three categories.
    Mr. Pascrell. Right.
    Mr. Frelinghuysen. They are going to have to choose what 
they feel to be the most important, what is their top priority. 
Obviously the demands on this program are going to grow, but 
thanks to your leadership at least we have a program which in 
some way provides a countervailing force against some who are, 
shall we say, more law enforcement oriented.
    Mr. Pascrell. Mr. Chairman, if I may? When the bill was 
first introduced a few years ago I sought the gentleman from 
New Jersey's advice about where we should put this and we did 
settle on the proper place, FEMA. They have done a fantastic 
job. And no staff money was involved the first time around, so 
we got together 300, 400 volunteers. This is really a bottom-up 
piece of legislation which we always talk about but this was an 
example of it.
    I ask, whatever you can do, it is deeply appreciated. You 
know it is needed. Tremendous outpouring of applications, 
professionally done, by the way. A lot of fire departments--and 
they did it by need. A lot of fire departments, small fire 
departments out in the middle of Montana do not even--had 
nothing, for crying out loud. When a fire happens, it happens. 
And you know what that does to insurance rates and everything 
else.
    So thank you very much.
    Mr. Walsh. Thank you very much.
    Mr. Pascrell. I appreciate it, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. That concludes our testimony for today among 
members of Congress on our bill. We stand adjourned.
    [The following members submitted testimony for the record.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Tuesday, April 16, 2002.

                                WITNESS

CHARLES F. IDE, PH.D., DIRECTOR, ENVIRONMENTAL INSTITUTE, WESTERN 
    MICHIGAN UNIVERSITY
    Mr. Walsh. The subcommittee will come to order. Good 
morning. Welcome to the VA/HUD Subcommittee. We have what we 
refer to as our hearing for outside witnesses, so you are all 
outsiders, but we welcome you and consider yourself an insider 
today.
    Congressman Alan Mollohan of West Virginia joins me. He is 
the ranking Democrat on the subcommittee. And we will begin. 
Each witness will have 4 minutes, and we would ask you all to 
summarize your testimony. We will include your written 
statement in its entirety for the record. We would like you to 
keep to under 4 minutes if you can and give us a chance to 
maybe ask a question or two. We may not do that, but depending 
on the time, we will.
    The first witness is Dr. Charles F. Ide of Western Michigan 
University. Good morning, sir.
    Mr. Ide. Good morning. I am Charles Ide, director of the 
Environmental Institute at Western Michigan University in 
Kalamazoo, Michigan. It is an honor to be here before Chairman 
Walsh and members of the subcommittee today to discuss 
extremely important environmental issues that are shaping the 
quality of life, economic development, and health and security 
of all people who live near or depend upon the Great Lakes.
    The Great Lakes represent a tremendous resource because 
they contain 18 percent of the Earth's fresh surface water. 
Amazingly, over 30 million people obtain drinking water 
directly from the Lakes; thus, water quality and, now after 9/
11, water security represent potential sources of major health 
impacts for a huge proportion of the U.S. population.
    Water quality impairments that start in local watersheds 
impact the Great Lakes system in the form of detrimental 
changes in both ecosystem and human health. Industrial and 
agricultural contaminants such as phosphates, nitrates, 
petrochemicals, heavy metals, herbicides, pesticides, and PCBs 
travel through local river watersheds and empty into the Great 
Lakes. Nutrient-laced run-off from agricultural land induce 
algal blooms that choke aquatic ecosystems, limiting the 
natural cleansing potential of wetlands and reducing recreation 
and related economic development. Bacterial run-off from 
agricultural and from municipalities cause waterborne illness 
that results in beach closings. Ingestion of fish contaminated 
with PCBs and mercury results in retarded neural development in 
young children and memory and learning deficits in adults.
    With EPA, State, and Federal support, we have been carrying 
out novel research to better assess water quality-related 
changes in environmental health, including the development of 
new human genome-based biotechnology tools that have already 
been heralded in the national press as the next step in faster 
and more precise and less expensive environmental health risk 
assessment. When transferred to the private sector, their 
development and manufcature will serve as a source of new high-
tech jobs in the Great Lakes region.
    We are also working closely with EPA managers to help 
organize citizens groups into watershed councils that serve as 
stakeholder partners in Great Lakes-related water and land use 
management.
    New work in partnership with the Altarum Institute, under 
the auspices of our new EPA-sponsored Great Lakes Center, will 
extend our approach by utilizing cutting-edge information 
technologies to integrate all available environmental data for 
use by the public and by environmental managers.
    Tools produced in this effort will be available for 
application to at-risk lake systems worldwide.
    And, finally, the security of Great Lakes water, especially 
post-9/11, is an important issue that needs to be addressed by 
scientists, enforcement agencies, and policymakers. To better 
grasp this issue, it is recommended that a geospatial Great 
Lakes water security response system be constructed. this would 
include a decision support system that would utilize techniques 
we currently use to track toxic substances, to predict the 
fate, transport, and impacts of chemical and/or biological 
agents introduced at different points into the lakes. A panel 
of experts would be assembled to create an indication warning 
system for the lakes. This system could then be coupled to 
appropriate enforcement agencies.
    In summary, the Western Michigan University Environmental 
Institute and the Altarum Institute are seeking congressional 
support of a technology partnership to study, manage, and 
deliver solutions that improve the quality and security of 
water flowing into the Great Lakes system. The partnership is 
requesting $2.5 million from the Environmental Protection 
Agency budget. It is intended that Federal assistance will be 
supplemented with State and other private funding sources.
    I would like to thank the Michigan delegation and 
Congressman Knollenberg, who serves on this committee, for 
their support. Thank you very much.
    Mr. Walsh. Thank you very much, sir. Any questions?
    [No response.]
    Mr. Walsh. Thank you, sir. Mr. Knollenberg I am sure is 
aware of your request, and we will be talking with him as we go 
forward.
    Mr. Ide. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

JAMES A. SPUDICH, PH.D., PROFESSOR OF BIOCHEMISTRY AND DEVELOPMENTAL 
    BIOLOGY, STANFORD UNIVERSITY SCHOOL OF MEDICINE; ON BEHALF OF THE 
    JOINT STEERING COMMITEE FOR PUBLIC POLICY
    Mr. Walsh. Our next witness is Dr. James A. Spudich, Joint 
Steering Committee for Public Policy, Stanford University. 
Welcome, sir.
    Mr. Spudich. Thank you, Chairman Walsh and Ranking Member 
Mollohan, for this opportunity to testify here today. My name 
is James Spudich. I am a professor of biochemistry and 
developmental biology at Stanford University. I am also the 
founding director of Stanford's interdisciplinary program 
called Bio-X. This is a program in bioengineering, biomedicine, 
and biosciences. My research combines many disciplines in order 
to understand how the tiny little molecular motors in your 
bodies carry out all the mechanical functions that they do.
    I am here today for the Joint Steering Committee for Public 
Policy, a coalition of nonprofit scientific societies 
representing 20,000 biomedical research scientists.
    First of all, we want to commend you, Chairman Walsh, and 
indeed President Bush, for the splendid job you are doing to 
fund science in what are clearly very, very difficult times. 
But we are here now to urge you to support a 15 percent 
increase to the budget of the National Science Foundation for a 
total of $5.508 billion in fiscal year 2003.
    Why is this so pivotal at this time? Point number one I 
want to make is that NSF is a crucial supporter of research in 
physics, engineering, and other disciplines, and this has been 
somewhat removed from biological and medical sciences in the 
past, but this is certainly no longer the case. So let me use 
my own research as an example.
    All mechanical movements in your bodies are driven by tiny 
little molecular motors. Examples include the beating of your 
heart, the migration of lymphocytes throughout your body to 
seek out and destroy invading bacteria, and, unfortunately, the 
hazardous invasion of cancer cells through your body and their 
rampant cell division.
    To fully understand how these tiny motors work, I have 
collaborated with a physicist at Stanford, Steve Chu, to 
incorporate a technology of physics known as laser trapping to 
examine these molecular motors one molecule at a time. We 
simply wouldn't have been able to fully understand how these 
protein molecules work without pushing this technological 
frontier forward as we did, and the input from physics and 
engineering was crucial.
    So here is my next point. Understanding how these motors 
work led to the establishment of a new biotechnology company 
called Cytokinetics, of which I am a co-founder. In 3 short 
years, Cytokinetics has lead drug candidates entering clinical 
trials for cancer therapy. Thus, in about 5 short years, inputs 
into the biosciences from physics and engineering has led to a 
very exciting new potential for cancer therapy. The synergy 
that is now so very strong between NIH funding of biosciences 
and biomedicine and NSF funding for non-medical research has 
never been so apparent.
    Is my case an isolated event? No way. Let me tell you about 
Bio-X at Stanford.
    Four years ago, several of us faculty approached the then 
provost of Stanford University, Condoleezza Rice, to establish 
a bold interdisciplinary program that we call Bio-X. 
Condoleezza Rice bought into this concept and, as a result, a 
new 225,000-square-foot building has been constructed at 
Stanford to house a mixture of biologists, physicists, 
chemists, engineers, computer scientists, and clinical 
scientists. These interdisciplinary folks will rub shoulders in 
an unprecedented manner to push the boundaries of 
interdisciplinary research.
    Is this restricted to Stanford? No. This is happening 
throughout the country. This is, therefore, a significant rise 
in new NSF applications. If you increase the NSF budget by 15 
percent, you will not only support more outstanding research 
and pivotal interdisciplinary research to rapidly lead to 
medical advances, but you will help generally broaden the 
Nation's knowledge base.
    So, to summarize, the world is in the midst of perhaps the 
greatest scientific revolution in history, and by recognizing 
how pivotal and synergistic NSF funding is with NIH funding, we 
hope you will agree that we have a critical need at this time 
for a 15 percent increase in NSF funding this year.
    Mr. Chairman, thank you for the opportunity to testify 
before you. We really appreciate all that you are doing. It has 
been an honor and a privilege, and I am happy to answer any 
questions if you have any.
    Mr. Walsh. Thank you very much for your testimony. There is 
strong support for what you are requesting on the committee. We 
are limited only by finite resources. But there has been a 
strong commitment on the part of the subcommittee to support 
NSF funding, and we understand the relationship between NIH and 
NSF.
    Mr. Spudich. Very good.
    Mr. Walsh. Thank you.
    Mr. Spudich. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

JOHN M. DeSESSO, PH.D., SENIOR FELLOW AND DIRECTOR, BIOMEDICAL RESEARCH 
    INSTITUTE, MITRETEK SYSTEMS
    Mr. Walsh. Our next witness is John M. DeSesso, senior 
fellow and director, Biomedical Research Institute, Mitretek 
Systems.
    Mr. DeSesso. Good morning, Mr. Chairman and Congressman 
Mollohan. Thank you for the opportunity to address the 
subcommittee.
    I have over 30 years of biomedical research experience, and 
I have had about 20 years of experience in interacting with the 
Environmental Protection Agency. I am a member of the executive 
board of FASEB, that is, the Federation of the American 
Societies of Experimental Biology, and it represents 
approximately 60,000 biomedical research scientists. And I have 
recently served as the chairman of the FASEB Funding Conference 
Committee on the EPA science budget, and it is about the EPA 
science budget that I wish to address you this morning.
    I think it is important that we recognize that the 
decisions made by the EPA Administrator with respect to 
regulations involving things like permissible emissions or 
amounts of contaminants allowed in water and so on and so forth 
have tremendous economic as well as safety and health impacts 
on the American population. The best decisions, of course, 
would be based on the best science, and the best science will 
take an investment and money.
    In the absence of good scientific data, the agency relies 
on what are called assumptions, and if you take an assumption 
and make the numbers smaller, you may, in fact, be protecting 
people, but you may be overprotecting them. It may not really 
be necessary. And so you have kind of a conundrum between 
trying to figure out whether or not the encumbrances you have 
made in terms of financial commitment for clean-up and for 
engineering are concomitant with the benefits you are going to 
get from the supposed health benefits.
    I think that it is important that we recognize that the EPA 
has done an outstanding job in the 30 years since its 
formation. It is now the leading environmental agency in the 
world. It certainly has improved the quality of life for the 
American population over the last three decades.
    The research that it does, though, is different from the 
kind of research that is done at NIH and NSF. The research that 
is done by EPA is one that is geared towards giving you the 
tools to do good risk assessment, and this research is 
different because it looks at things like what are called dose-
response curves, as I say, at different levels of exposure how 
animals or people react to chemicals, and trying to figure out 
what the mechanisms of those actions are so that you can do 
something about interacting with it and perhaps cleaning things 
up.
    Now, EPA supports this role through its Office of Research 
and Development, and that includes both intramural support to 
its own staff and extramural support, which is to the 
scientific community at universities. The intramural staff 
primarily are the scientists at the National Health and 
Environmental Effects Laboratories and those at the National 
Exposure Research Laboratories, and the extramural program is 
predominantly carried out by the National Center for 
Environmental Research through a grants program called STAR, 
which is Science to Achieve Results.
    The STAR program actually gets about 3,000 to 5,000 
applications a year. They undergo a stringent peer review. And 
of the ones that pass peer review, only 10 percent get funded.
    Despite all of this, there have been some significant 
accomplishments from the agency in these years that have made 
strides for us. But for us to make a good, qualified impact on 
the risk assessment forum, we recommend that--there are four 
major recommendations. The first one is to recognize that EPA 
has been in existence for 30 years, and during that 30 years, 
many of the staff joined shortly after the formation of the 
agency. Consequently, they have aged with the agency. So the 
agency has an aging workforce. It has a declining 
infrastructure. These need to be updated and repaired.
    In spite of all the added challenges to the agency since 
1980, its inflation-adjusted budget has decreased by 
approximately 17 percent. So to accomplish a plan to bring all 
of its needs to bear, we recommend that EPA's Office of 
Research and Development be encouraged to attract and retain 
talented scientists by increasing its pre-doctoral and post-
doctoral and faculty exchange programs.
    We recommend that any congressional mandated projects that 
are given to ORD come with funds to do the jobs, because if 
they aren't, those funds have to be diverted from other ongoing 
projects.
    We recommend that their external program be allowed to be 
increased by approximately $25 million a year, which would let 
those few number of meritorious grants that have been funded be 
increased above and beyond that so more of them can be funded.
    And, lastly, we recommend that the science budget for the 
intramural portion of it be increased by 8 percent over what it 
was in the preceding year, and take that 8 percent plus the $25 
million being requested for the STAR program, that the science 
budget for the Office of Research and Development be increased 
to $664 million for fiscal year 2003.
    Can I answer any questions about this?
    Mr. Walsh. Unfortunately, we don't have time. We are 
limited by time. But we thank you very much for your comments.
    Alan, do you have any questions?
    Mr. Mollohan. Thank you for your testimony.
    Mr. Walsh. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

SHANNA L. SMITH, PRESIDENT, NATIONAL FAIR HOUSING ALLIANCE
    Mr. Walsh. Our next witness is Shanna Smith, President, 
National Fair Housing Alliance.
    Ms. Shanna Smith. Good morning.
    Mr. Walsh. Good morning.
    Ms. Shanna Smith. I want to thank you, Chairman Walsh and 
Ranking Member Mollohan, for the opportunity to talk with you. 
I am not going to read my statement. I would just like to have 
it made part of the record.
    Mr. Walsh. Without objection.
    Ms. Shanna Smith. And I would just like briefly to talk to 
you about the problems of housing discrimination.
    You may have seen a week ago in the Washington Post the 
article about less than 1 percent of the complaints--less than 
1 percent of the problem is being addressed in the country. HUD 
estimates that more than 2 million incidents of housing 
discrimination occur annually and less than 1 percent are being 
reported, less than 25,000.
    I think that Congress has always had a very strong 
bipartisan support for the Fair Housing Act. In 1988, when the 
amendments were passed, we had a lot of strong support, and 
then under President Reagan and Congress, we created the Fair 
Housing Initiatives Program, which was the first time that 
funding went to local fair housing groups in the country. But 
at that time, there were only 35 groups, and there was $3 
million. And that money was actually adequate for the 35 groups 
because we were only dealing with rental discrimination.
    In the last years, there are about 100 fair housing groups 
now that have been formed in the United States, and only about 
$20 million has been set aside for these groups to handle 
complaints of housing discrimination. There are large cities 
across the country that have no fair housing, private fair 
housing enforcement. And we are asking that you consider 
increasing substantially the FHIP allocation so that we can 
provide more than just rental assistance, people who are 
experiencing rental discrimination, but to deal with racial 
steering and predatory lending practices that are virtually 
undermining the community development block grant efforts that 
you have funded in the billions of dollars for years.
    We see all the revitalization and redevelopment occurring 
in our communities, and yet the equity of those homes are being 
stripped by these predatory lenders. And we believe that if the 
Fair Housing Initiative Program had enough money, we could 
engage in very effective enforcement efforts against these bad 
sub-prime lenders. I think sub-prime lending is useful, but we 
have predatory lenders that work within that.
    We are also here to support the State and local agencies 
who get FHAP money because we work in a very collaborative 
effort with the State agencies and local agencies. We do things 
that they can't do. We do testing. We do grass-roots intake and 
investigations. And the State and local agencies really don't 
have the authority to do that kind of testing. And by our 
collaborating, we are able to provide them with evidence of 
violations of law, and then that helps them in their 
administrative process to do the investigations.
    Finally, with HUD, we are glad that the funding level is 
remaining stable with the Department in their Fair Housing and 
Equal Opportunity Division. But what we are concerned about is 
the lack of training of the staff that is there. Fair housing, 
you have to understand the laws; you have to understand how the 
courts have applied the laws in order to do those 
investigations. And we are hoping that there can be increased 
funding for them so that they can do the proper kinds of 
investigations and we can encourage people to file complaints 
because they will know that someone is there to investigate 
them.
    So if my written statement can be made part of the formal 
record, I would appreciate that.
    Mr. Walsh. Without objection, we can do that.
    Ms. Shanna Smith. Are there any questions?
    Mr. Walsh. Thank you.
    Ms. Shanna Smith. Thank you.
    Mr. Walsh. Questions, Alan?
    Mr. Mollohan. No, thank you, Mr. Chairman.
    Thank you very much.
    Mr. Walsh. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

KIENA SMITH, EXECUTIVE DIRECTOR, CANAAN VALLEY INSTITUTE
    Mr. Walsh. Our next witness is Kiena Smith, Executive 
Director, Canaan Valley Institute, West Virginia, I should 
note, beautiful Canaan Valley.
    Mr. Mollohan. Mr. Chairman, if I may----
    Mr. Walsh. Is that pronounced properly?
    Mr. Mollohan. Canaan.
    Mr. Walsh. Canaan.
    Mr. Mollohan. Well, it depends on what you are referring 
to. It is certainly pronounced properly if you are referring to 
the Biblical----
    Mr. Walsh. Okay. We celebrate Pulaski Day in Pulaski in New 
York. So people have poetic license with all these words, I 
suppose.
    Mr. Mollohan. Mr. Chairman, I would like to welcome Kiena 
Smith and Paul Kinder to the hearing today. Kiena is executive 
director of the Canaan Valley Institute. She has done a 
marvelous job with this not-for-profit, non-advocacy group, 
empowering local communities, watershed communities, and 
balancing the challenges of environmental protection and 
development and sustainability, and the resources she has 
brought to bear with these local communities have proven 
extremely fruitful, both in making decisions in reasonable ways 
and in promoting the economies in these areas in a way that is 
sympathetic to the environment. So we are especially pleased to 
have her here today and appreciate her efforts, as well as her 
assistant Paul's efforts.
    Thank you, Mr. Chairman. Welcome to the hearing.
    Mr. Walsh. Welcome.
    Ms. Kiena Smith. Thank you. Again, good morning, Mr. Walsh, 
Mr. Mollohan. I speak to you today in support of funding for 
the Environmental Protection Agency, especially the Regional 
Vulnerability Assessment Program, the Mid-Atlantic Highlands 
Integrated Assessment Program, and the President's proposed 
Watershed Initiative. The residents of the Mid-Atlantic 
Highlands have seen tremendous benefit from the partnership 
between CVI and EPA, specifically with Region 3 and the Office 
of Research and Development. My testimony on behalf of these 
programs is based on my experience and my current position as 
director of CVI.
    Canaan Valley Institute was created in 1995, as Mr. 
Mollohan said, as a not-for-profit, non-advocacy organization, 
and we are committed to empowering stakeholders with the tools 
and knowledge they need to make the best possible decisions 
concerning the protection, improvement, and sustainability of 
their local environment and economy.
    At the heart of this mission is the institute's basic 
belief that people everywhere want to make good decisions and 
do what is best for themselves, their families, and their 
neighbors.
    We believe that bad decisions about things like land use 
are basically because people are uninformed, and given the 
opportunity to consider alternatives and the choice of doing 
something that will make a lasting improvement over something 
that may have negative results, people are going to choose the 
former. The key to making good decisions is information.
    We believe that when people have information they need and 
when they understand their options and the long-term impacts of 
their decisions, they will choose the greatest good.
    CVI provides information so that the playing field is 
level. We hope that the stakeholders in our region have the 
same information as industry and government, and we believe 
people will make the right decision if given the information. 
Without this basic belief in the goodness of humanity and the 
basic human desire to enhance and preserve rather than to 
destroy, Canaan Valley Institute would not be in business, and 
none of us, in fact, would be here today. We are all here with 
the hope of doing good work.
    This underlying faith in the natural inclination of people 
to do good work is especially important to Canaan Valley 
Institute because we are often referred to as a bottom-up 
organization, quite the opposite of top-down bureaucracy. We 
are stakeholder-driven, that is, we don't ever go out looking 
for work and we don't tell people what to do. We never say, 
``Hi, I'm here to help you.'' We ask to be invited.
    Community groups come to us and ask us for help. We listen 
and then we respond by giving them the tools and information 
they need to make decisions on information about subjects like 
the best technology for stabilizing streams to lessen the 
impact or prevent flooding, to restore water quality to an AMD-
polluted watershed, applying best management practices in dairy 
and poultry farming, and taking a proactive approach to sprawl. 
Right close to D.C. in Loudoun County, Virginia, is one of our 
projects.
    Canaan Valley Institute facilitates partnerships; helps 
identify funding sources; provides funding, whenever possible, 
through the distribution of grants it has received from the 
U.S. EPA and NOAA; and provides guidance and expertise. The 
training and expertise we provide is on topics such as 
organizational skill development, problem identification, 
problem-solving processes, water quality assessment, conflict 
resolution, stream bank stabilization, and best management 
practices, especially geographic information resources, such as 
GIS, GPS, and remote sensing. But I do want to stress that we 
always work with community groups only when invited to do so.
    Our service area, even though it is named Canaan Valley, 
covers parts of Virginia, Pennsylvania, and Maryland, and all 
of West Virginia--the entire Mid-Atlantic Highlands 
region,approximately 79,000 square miles.
    Canaan Valley Institute has offices in Charleston and 
Thomas, West Virginia, and in Clearfield, Pennsylvania, near 
State College, and in Staunton, Virginia.
    Within the boundaries of the Mid-Atlantic Highlands like 
the Central Appalachians, including the Blue Ridge, Ridge and 
Valley, and Plateau physiographic provinces, plus portions of 
three major watersheds: the Chesapeake Bay, the Allegheny-
Monongahela, and the Kanawha-Upper Ohio Watershed. Some of the 
world's most diverse hardwood forests and some of the Nation's 
richest and most productive agricultural regions are within the 
Mid-Atlantic Highlands.
    I could spend all my time today here talking about the 
wonders of the places that we protect, such as Blackwater 
Falls, Blackwater Canyon, but what I would like to do is just 
invite you to come and see it and visit CVI while you are 
there.
    The Mid-Atlantic Highlands not only is 79,000 square miles, 
but it is also home to 11 million people who have suffered from 
the resource extraction industry and now need to return to more 
of a variety of ways to make a living. So our job is not just 
to preserve the area, but to ensure that those people can have 
economic sustainability also.
    Some of the issues the Institute has helped with in the 
Mid-Atlantic Highlands are, as I said, repair and restoration, 
and to do that, we often act as a liaison between the community 
and the watershed groups. We particularly do a lot of liaison 
work with the Environmental Protection Agency, Natural Resource 
Conservation Center, and FEMA.
    All of CVI's publications and studies are available to the 
public through printed copy or the Web. We have sophisticated 
computer hardware and software technologies, like geographic 
information systems and remote sensing, to provide to our 
stakeholders.
    Canaan Valley Institute has developed a reputation as a 
respected and trusted non-advocacy partner and a much sought 
after liaison between community groups. We could not do this 
without the help from EPA and the ReVA, MAIA programs, and 
especially Region 3.
    Mr. Walsh. Ms. Smith, you have run over a little bit, so we 
would ask you to summarize your remarks, if you would.
    Ms. Kiena Smith. I will submit the rest for the record.
    Mr. Walsh. Submit the rest, and if you would like to make a 
summarizing comment, feel free.
    Ms. Kiena Smith. I would just like to thank you for the 
opportunity to speak on behalf of these programs. It is so 
important to CVI.
    Mr. Walsh. Great.
    Ms. Kiena Smith. Thank you.
    Mr. Walsh. Thanks for taking care of that beautiful part of 
the world.
    Alan, do you have any questions you would like to ask?
    Mr. Mollohan. No. Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

LIESEL WOLFF, CONGRESSIONAL LIAISON, PEOPLE FOR THE ETHICAL TREATMENT 
    OF ANIMALS (PETA)
    Mr. Walsh. Congresswoman Northup has joined us. She will 
take the chair for the next half-hour. I appreciate her doing 
that. And the witnesses are allowed 4 minutes.
    Mrs. Northup. Okay.
    Mr. Walsh. And here is your next witness right here.
    Mrs. Northup. Great.
    Mr. Walsh. Thank you very much.
    Mrs. Northup [presiding]. Our next witness is from the 
People for the Ethical Treatment of Animals, and I have Liesel 
Wolff. Liesel, welcome.
    Ms. Wolff. Thank you. Good morning members of the 
subcommittee. My name is Liesel Wolff. I represent the largest 
animal rights organization in the world, PETA, People for the 
Ethical Treatment of Animals.
    Thank you very much for this opportunity to discuss the 
Environmental Protection Agency's use of animals in chemical 
testing programs. Each year in these programs, dogs, rabbits, 
birds, rats, pigs, and others have chemicals pumped into their 
stomachs or they are confined in gas chambers and forced to 
inhale toxins. They endure severe abdominal pain, bleeding from 
the nose, mouth, and genitals, seizures and paralysis before 
they ultimately die.
    We would like to request report language to reduce animal 
testing. In one example of needless animal testing, pigs were 
fed toxins in an attempt to estimate human exposures to arsenic 
and lead from the soil of former mine sites. In non-animal test 
methods, contaminated soils are incubated in solutions that 
mimic gastrointestinal fluids. The amount of metals that 
dissolve represents the amount that are available of causing 
toxicity. This approach has been in widespread use since 1994 
and can be conducted for a fraction of the cost of animal 
tests. Yet the EPA chooses to use animals.
    There is tremendous potential for non-animal methods to 
replace animal tests in the EPA programs. Cell culture methods 
are being accepted by government regulators worldwide, 
completely replacing animal tests for skin corrosion, 
phytotoxicity, and basic genetic toxicity. We are grateful to 
the subcommittee for providing last year the first-ever 
appropriation for $4 million for the EPA to develop non-animal 
methods.
    We request that in the coming fiscal year $10 million be 
allocated for this purpose and that the EPA be required to 
report to Congress on how the funds are utilized.
    When Congress included language in the Food Quality 
Protection Act mandating the endocrine disruptor screening 
program to determine whether certain chemicals disrupt the 
human hormonal system, I am sure you didn't intend for it to 
become the largest animal testing plan in U.S. history. But 6 
years later, that is what it has become.
    The EPA is ignoring the recommendations of the National 
Academy of Sciences to conduct epidemiological studies, which 
are the premier method of gathering public health information. 
For the endocrine program, it was recommended that 
epidemiologists conduct observational studies in areas where 
human populations are likely to have been exposed to suspected 
endocrine disruptors in the air and the water, and see if the 
effects differ from those in populations where no exposure is 
suspected.
    Without knowledge from human populations, the EPA will not 
have the real-world data it needs in order to prompt regulatory 
action.
    Please require the EPA to provide to Congress an analysis 
of the cost requirements for the recommended epidemiological 
studies, along with an explanation as to why the EPA decided on 
an animal testing program instead. Amazingly, not one of the 
EPA's animal tests has ever been formally validated for its 
relevance to humans.
    A National Toxicology Program Advisory Committee has 
strongly advised that all proposed test methods for the 
Endocrine Program be validated through the Inter-Agency 
Coordinating Committee on the Validation of Alternative 
Methods, which is ICCVAM, and has expressed ``grave concern'' 
that the EPA is subverting this process.
    Please require that the EPA provide the necessary funds to 
ICCVAM for the validation assessment of all tests proposed for 
the Endocrine Program.
    Thank you very much for your time, and I hope you will 
consider these steps to prevent needless suffering.
    Mrs. Northup. Thank you very much.
    Any questions?
    [No response.]
    Mrs. Northup. Thank you.
    Ms. Smith. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

G. MICHAEL PURDY, PH.D., DIRECTOR, LAMONT DOHERTY EARTH OBSERVATORY OF 
    COLUMBIA UNIVERSITY; ON BEHALF OF CONSORTIUM FOR OCEANOGRAPHIC 
    RESEARCH AND EDUCATION [CORE]
    Mrs. Northup. Next, we are going to hear from the 
Consortium for Oceanographic Research and Education. I would 
like to call on Michael Purdy.
    Welcome.
    Mr. Purdy. Mrs. Northup, Mr. Mollohan, thank you for the 
opportunity to appear before you this morning. My name is Dr. 
Michael Purdy. I am director of the Lamont Doherty Earth 
Observatory of Columbia University, but this morning I appear 
on behalf of the 66-member institutions of the Consortium for 
Oceanographic Research and Education, also known as CORE.
    CORE strongly urges you to reject the administration's 
proposed transfer of Sea Grant from NOAA to NSF.
    Secondly, within the NSF budget, CORE encourages you to 
provide robust increases to the Major Research Equipment and 
Facilities Construction Account to begin addressing the backlog 
of National Science Board-approved MREs.
    Lastly, we ask that you allocate resources within your bill 
to provide NSF's research programs with a significant increase.
    Let me begin by discussing the Sea Grant transfer. We 
believe this transfer is ill advised and would negatively 
impact marine research. After removing the transfer from the 
NSF's budget, the increase for the Geosciences Directorate 
would be significantly less than the increases for other 
directorates.
    For nearly 30 years, Seagrant has enhanced NOAA's ability 
to build sustainable fisheries, protect coastal and marine 
resources and mitigate the human impacts of natural disasters. 
It has done this by supporting a program of applied research 
and mission-driven basic science with significant local input. 
In contrast, the discoveries that begin at the National Science 
Foundation find their way into application 5, 10 or 20 years 
after the research is completed. If the transfer were to be 
approved, Sea Grant's focus on local issues, support for 
mission-based science and application-oriented research would 
be lost.
    CORE strongly urges you to work with Messrs. Young, Obey, 
Wolf and Serrano to draft 302(b) allocations that maintain 
funding for the National Seagrant College Program in the CJSJ 
bill.
    Because all of the proposed transfers were assigned to the 
Geoscience Directorate within NSF, without them, the 
Directorate ended up receiving a proposed funding increase of 
only 1 percent, significantly lower than all of the other 
Research Directorates. Geosciences should not be singled out 
for an increase less than half the size of the overall research 
increase. Basic research to increase human understanding of the 
ocean's atmosphere and the earth is fundamental to human 
welfare on this planet and is clearly of comparable priority to 
research to understand plant genomes or develop new 
mathematical theories.
    CORE strongly encourages the subcommittee to appropriate 
R&RA funding between the directorates in a manner that ensures 
that Geosciences receives an increase in funding comparable to 
the other directorates.
    This year, due to the unusual nature of the proposed 
transfers and their disproportionate impact on ocean sciences, 
we urge the committee to include report language that ensures 
that Ocean Sciences receives a funding increase at the same 
level as other divisions within the directorate.
    CORE also has major concerns about the MREFC Account. 
Oceanography requires significant capital resource. Quite 
simply, the queue of National Science Board-approved MREs 
grows. Congress should focus its attention and dedicate 
resources to the account to begin addressing this backlog.
    MREs go through extensive and rigorous peer review. As an 
oceanographer, I would prefer that you fund the capital needs 
of the oceanographic community, but as a taxpayer and concerned 
citizen, I can find very little in the way of objective 
criteria to guide you in making decisions among which of the 
five NSB-approved MREs you should start this year.
    It is because of both the rigor of the NSB review process 
and the important role these tools play in the development of 
their disciplines that CORE requests that you not only continue 
all previously funded MREs, but also begin all yet unfunded 
National Science Board-approved MREs this year. We believe this 
will require a funding level of approximately $250 million in 
the MREFC account.
    To finish, some comments on the overall funding level for 
the National Science Foundation. In fiscal year 2001, NSF had 
to decline over 3,000 proposals that were peer reviewed and 
determined to be very good to excellent or excellent--the 
highest rating proposals can receive. These unfunded proposals 
represent opportunities missed. CORE strongly urges you to 
provide NSF with additional funding to invest in more of the 
most highly rated research our universities have to offer.
    Thank you very much for the opportunity to testify this 
morning.
    Mrs. Northup. Thank you.
    My colleague has a question.
    Mr. Mollohan. Doctor, you testified in favor of maintaining 
the Sea Grant Program in NOAA. Dr. Colwell, Director of NSF, 
testified here last week, I believe it was, in support of 
transferring the Sea Grant Program. It was not the top of her 
priority list, but have you enlisted her support in any way to 
stop the transfer of the Sea Grant Program from NOAA to NSF?
    Mr. Purdy. CORE is in constant discussions with the upper 
administration of the National Science Foundation, but I 
understand that, at this time, that their opinion differs from 
ours.
    Mr. Mollohan. Well, I recommend that you continue working 
on it.
    Mr. Purdy. We will.
    Mr. Mollohan. Thank you for your testimony.
    Mrs. Northup. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

DAVID APPLEGATE, PH.D., DIRECTOR OF GOVERNMENT AFFAIRS, AMERICAN 
    GEOLOGICAL INSTITUTE
    Mrs. Northup. Next, we have the American Geological 
Institute, and I would like to recognize David Applegate. Are 
you Dr. Applegate?
    Mr. Applegate. Yes.
    Mrs. Northup. Dr. Applegate, welcome.
    Mr. Applegate. Thank you very much for this opportunity to 
testify. I am particularly pleased to be going right after our 
colleagues from the Oceanographic community, which is an 
important part of the broader earth science community, which is 
what I am representing. The American Geological Institute is a 
federation of 40 different earth science societies, 
representing more than 100,000 geologists, geophysicists and 
other earth scientists here in the United States.
    I want to thank the subcommittee for providing tremendous 
leadership over the years, consistently expanding the Federal 
investment in fundamental research at NSF. That leadership is 
going to be even more critical this year for some of the same 
reasons discussed just previously. Looking at the President's 
budget, we ask you to go beyond the request and enhance support 
for CORE programs in the Geosciences Directorate, to reconsider 
the proposed program transfers and to expand the Major Research 
Equipment Account to accommodate both existing projects and the 
requested new starts.
    The Geosciences Directorate is the principal source of 
Federal support for university-based earth science research. 
Although the President has requested a significant increase for 
this directorate, the bulk of it is due to several proposed 
program transfers. In fact, all of the proposed transfers into 
NSF would go into this one directorate. As a result, an 
apparent 13.4-percent increase for GEO translates into only a 
1.2-percent increase for existing programs, well below that for 
the other directorates.
    Please take a hard look at these proposed transfers to 
determine whether they fit the NSF mission or whether they are 
better left in their current agencies. We believe that there is 
a mismatch, particularly in the case of the proposed transfer 
of the U.S. Geological Survey's Toxic Substances Hydrology 
Program. This program funds highly targeted, long-term, 
mission-oriented research, which is very different from the 
fundamental university-based research, which NSF supports so 
well. Whether or not you approve the transfers, please provide 
real increases to existing programs within GEO, the Geosciences 
Directorate.
    AGI also urges the subcommittee to support the NSF Major 
Research Equipment budget request of $35 million for a new 
earth science initiative called Earthscope. Earthscope will 
take advantage of new technology and sensors and data 
distribution to systematically survey the structure of the 
earth's crust beneath North America, so that we may better 
understand the ground beneath our feet.
    The request supports three of the project's four 
components: a dense array of digital seismometers that will be 
deployed in stages around the country; a 4-kilometer deep 
borehole cutting across the San Andreas Fault, housing a 
variety of instruments that can continuously monitor the 
conditions within the fault zone; a network of state-of-the-art 
Global Positioning System stations and sensitive strainmeters 
to measure the deformation of the constantly shifting boundary 
between the Pacific and North American tectonic plates.
    All data for this project will be available in real time to 
both scientists and students, providing a tremendous 
opportunity for both research and learning about the earth.
    Earthscope has broad support from the earth science 
community with endorsements from a number of our Federation's 
member societies. The National Science Board has not only 
endorsed Earthscope, but has listed it as a priority for fiscal 
year 2003, a first for the Board.
    Earthscope received a very favorable review from the 
National Academy of Sciences last year. The Academy report 
concluded that Earthscope is an extremely well-articulated 
project that has resulted from consideration by many scientists 
over several years, in some cases up to a decade; that 
Earthscope will have a substantial impact on earth science in 
America and worldwide, providing scientists with vast amounts 
of data that will be used for decades; that Earthscope provides 
an excellent opportunity to excite and involve the general 
public, particularly K through 12 and college students, 
allowing them to work together with the earth science community 
to understand the earth on which they live.
    AGI applauds the subcommittee's responsible commitment to 
fund existing MRE projects through to their completion, but at 
the same time, we strongly encourage you to provide enough 
funding to accommodate the President's requested projects as 
well.
    Thank you for the opportunity to testify before the 
subcommittee.
    Mrs. Northup. Thank you very much.
    Any questions?
    Mr. Mollohan. No questions, no.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

ROBERT D. WELLS, PH.D., PRESIDENT, AMERICAN SOCIETY FOR BIOCHEMISTRY 
    AND MOLECULAR BIOLOGY
    Mrs. Northup. Now we have the president of the American 
Society for Biochemistry and Molecular Biology.
    Dr. Wells?
    Mr. Wells. Yes. Good morning, Ms. Northup.
    The American Society for Biochemistry and Molecular Biology 
believes that the National Science Foundation budget should 
increase by at least 15 percent this year, to a total of $5.5 
billion. We support a rate of increase in the NSF budget so 
that it can reach approximately $8 billion by fiscal year 2005, 
which is double its size in 2001.
    NSF clearly deserves your strong support. NSF's performance 
is excellent by almost any measure, and this fact has been 
recognized by the administration, with NSF being the only 
Federal agency receiving stellar marks for financial 
management.
    OMB Director Mitch Daniels also singled out NSF for praise 
and remarks made last fall. Of course, I would like to thank 
you, this committee, for your own efforts last year, and in 
previous years, to boost the budget for the Agency. However, we 
continue to support a 15-percent increase for this underfunded, 
but vital, Federal agency.
    ASBMB believes that NSF's core programs are where most of 
the proposed increases should go. Such core programs feature 
basic scientific research on subjects chosen by principal 
investigators. These investigator-initiated projects have 
historically been the source of most scientific progress. 
Unfortunately, at NSF, too few grants are funded, and the ones 
that are funded are too small and not long enough. Therefore, 
we support a major increase in the average size and duration of 
NSF grants.
    The average NSF grant is typically in the range of 
$125,000, but it needs to be at least twice this size. In 
addition, on average, an NSF grant lasts about 3 years. While 
this is an improvement over the average duration in the late 
1990s, it is still 1 to 2 years shorter than the ideal. The 
amount and type of science funded by the NSF will suffer if 
these disparities are not addressed.
    Another important and necessary mission of NSF is support 
for science and mathematics education. NSF also supports small, 
but important, programs on DNA sequencing of microorganisms 
that may be critical in bioterrorist attacks and on how these 
microbes behave in the environment. We think this is certainly 
an important role for the Agency to continue.
    Madam Chairman, I would like to close on a personal note. I 
was honored to receive continuous NSF support for my own 
research on a series of grants entitled ``Studies with Defined 
Deoxyribonucleic Acids'' for more than a quarter of a century. 
I finally declined further support in 1994, since I felt the 
Agency should fund a new young investigator, for whom this 
support would be as vital as it was for me in the early years 
of my career in the late 1960s.
    Thus, I have profound respect, and even affection, for this 
agency that played such an important role in my career, and I 
urge you to take steps to ensure that this critical role, as an 
incubator of new scientific talent, be allowed to continue 
through your generous treatment of its budget. A 15-percent 
increase this year to a total of $5.5 billion would be an 
excellent way to start.
    Thank you, and I am pleased to answer any questions that 
you may have.
    Mrs. Northup. Thank you, Dr. Wells. I have to wonder what 
percentage of investigators turn down renewals of support, but 
I appreciate your long-term view of this and appreciate your 
testimony today.
    Mr. Mollohan. Thank you.
    Doctor, I know the community is establishing a very close 
relationship with Mr. Daniels, and you give him high praise 
here in your paper, and he has some very good words for you out 
of that November 28th meeting. You say, ``We appreciate that 
Mr. Daniels is a man of his word in that NSF received a 
significant increase this year in the President's budget 
proposal.''
    In 2002, what was the President's request for increase for 
NSF?
    Mr. Wells. Mr. Farnum, can you help me with that?
    Mr. Mollohan. In 2002, what was the President's request?
    Mr. Farnum. Very small, 1 percent.
    Mr. Mollohan. One percent. The Congress ended up giving you 
a 9-percent increase.
    What was the President's request in 2003?
    Mr. Farnum. About 5 percent. That is significant, a 5-
percent increase.
    Mr. Mollohan. Actually, it is not 5 percent. When you take 
out the program transfers, it is about 3 percent. Do you think 
3 percent is significant?
    Mr. Wells. No, indeed. I would like to see that much 
higher, yes.
    Mr. Mollohan. Thank you, Mr. Wells.
    Mr. Wells. Thank you.
    Mrs. Northup. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

MICHAEL HOOKER, EXECUTIVE DIRECTOR, ONONDAGA COUNTY WATER AUTHORITY, 
    SYRACUSE, NEW YORK; ON BEHALF OF THE AMERICAN WATER WORKS 
    ASSOCIATION
    Mrs. Northup. The next group is the American Water Works 
Association, Michael Hooker.
    Mr. Hooker. Ready?
    Mrs. Northup. Welcome, yes.
    Mr. Hooker. Thank you. I am Michael Hooker. I am the 
executive director of the Onondaga County Water Authority. The 
Onondaga County Water Authority serves about 340,000 residents 
in Central New York. It is Congressman Walsh's district area.
    We serve in 25 towns, and 15 villages and four counties in 
Central New York. I am here representing the American Water 
Works Association today to express their comments regarding 
EPA's fiscal year 2003 budget.
    I will give you background on AWWA. We were established in 
1881. We have about 57,000 members, representing about 4,500 
utilities, and we supply about 80 percent of the Nation's 
drinking water through our membership.
    We wanted to express our support for the President's 
request in regard to drinking water research and the EPA 
Drinking Water Program in fiscal year 2003 budget.
    Also, we urge full funding of the Drinking Water State 
Revolving Fund. I believe the level is $1.1 billion for fiscal 
year 2003. It is important for water utilities, and it ties 
into the Safe Drinking Water amendments of 1996.
    Another area that we are also very interested in supporting 
is the AWWARF. It is the Research Foundation. It is kind of a 
co- organization with us. They are requesting an earmark of $7 
million for drinking water research. It is a little bit higher 
than what we have asked for in the past, but in light of recent 
events, we are looking more at real-time monitoring and 
research related to that in regard to security and monitoring 
our water.
    One thing I would like to point out is, over the years, 
since 1984, when we received the first appropriation for 
drinking water research, we have been matching the money, and 
the money between cash and in-kind contributions from the water 
utilities exceeds $6 for every $1 of Federal dollars. So we 
have been able to leverage that considerably.
    The events of September 11th have also brought new things 
to light for us, and we are urging funding for vulnerability 
assessments. I believe it is H.R. 3448. We are supporting that 
for providing money for vulnerability assessments for systems 
serving more than 3,300 people. We are not really sure where 
the funding is going to come from on this one, which 
appropriations, but the capital improvements related to 
security. It is a new area for water utilities. It is things we 
have done, but there are new ways that we have been looking at 
it.
    Finally, another security-related item is, and it is a 
major departure for the American Water Works Association, is we 
are requesting $2.5 million to establish a peer-review, third-
party certification program related to vulnerability 
assessments.
    Just kind of anecdotal, from my perspective and working 
with all of the utilities, I work for a water authority. My 
board is an autonomous board. We do not have a lot of political 
pressures on us in some regards, but there are a lot of 
entities I see out there that there are a lot of pressures on 
money and whatnot for them, and they are going through some 
very difficult times. Next week I am going to be making a 
presentation at our New York Section meeting about how we went 
through the Vulnerability Assessment Program, trying to give 
some people an idea of what to do, and it is a very new area 
for us. It is something that I think, in general, the industry 
can use some help in.
    I truly appreciate this opportunity to address you this 
morning, and I would be willing to take any questions you might 
have.
    Mrs. Northup. Thank you.
    Well, I think you are here talking about water, and we are 
all aware that especially your area of the country is worried 
about the amount of water to start with. I realize you are more 
involved in the infrastructure that delivers the water, but I 
know in Kentucky, we have depended on the State revolving 
funds, and they are very important. We have great respect for 
what they allow us to do.
    Mr. Hooker. Kentucky does a wonderful job. Before I moved 
to Syracuse 8 years ago, I worked in Hardin County, Hardin 
County Water District No. 1. So I am familiar with your State 
program. They do a very good job.
    Mrs. Northup. Yes, a good program.
    Mr. Hooker. Yes, very good--very good people.
    Mrs. Northup. Thank you.
    Mr. Hooker. You are welcome.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

ROBERT KELLY, JR., NOOKSACK TRIBE, COMMISSIONER, ON BEHALF OF THE 
    NORTHWEST INDIAN FISHERIES COMMISSION
    Mrs. Northup. Next, we have Robert Kelly. He is here with 
the Northwest Indian Fisheries Commission.
    Mr. Kelly. Thank you for the opportunity to testify today. 
I am here today to ask for your support for $700,000 for the 
Coordinated Tribal Water Quality Program in the State of 
Washington. Here are some more information that explains not 
only the program, but some of the other services that the 
Commission provides.
    There are 27 tribes in the program implementing the program 
at this point in time. The program provides for strong 
coordination basically between the State and the tribes. It is 
basically a go-between in between the 27 individual tribal 
governments and some of the programs the Department of Ecology 
runs.
    It is a critical component in the restoration of salmon and 
shellfish. Many of the basins have fecal coliform problems, for 
instance, and it affects some of the shellfish beds at the 
mouth of the river.
    We have 18 basins in Western Washington, with tribes in 
each one of those. Some of that coordination takes place 
between local governments and local tribes. Tribes, in a lot of 
cases, provide expertise in planning-type activities that local 
governments basically just do not have, and this provides 
support for them as well.
    Some of the things that some of our tribes are doing--the 
Lummi Nation, for example, has accomplished a Wetland 
Delineation Project and a function assessment to support 
wetland acquisition and mitigation activities. To better 
explain how the program works, maybe I can use our planning 
activities in the Nooksack Basin, which is in the northwest 
part of the State.
    We basically have the largest water purveyor, which is the 
PUD No. 10, the largest city, two tribes and the local county 
organization which functions as the lead coordinator. We are 
undertaking a process at this moment to address water quality 
and quantity issues in such a way that we have a management 
plan that will be completed by June of next year. At that 
point, implementation will start, and a large group of the 
interest groups in the basin will then be compiled in an effort 
to implement the plan.
    As I mentioned, there are a number of quantity and quality 
issues that will be addressed at that point, and I think the 
program kind of speaks to that.
    Mrs. Northup. Thank you.
    This is a list of the tribes, I guess, that are your 
members.
    Mr. Kelly. Yes.
    Mrs. Northup. Thank you. I appreciate your testimony.
    Mr. Kelly. Thank you.
    Now I believe Representative Aderholt is going to take the 
chair.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

DOUGLAS DOCKERY, PH.D., PROFESSOR OF ENVIRONMENTAL EPIDEMIOLOGY, 
    HARVARD SCHOOL OF PUBLIC HEALTH; ON BEHALF OF THE AMERICAN THORACIC 
    SOCIETY
    Mr. Aderholt [presiding]. Douglas Dockery, Ph.D., with the 
American Thoracic Society.
    Welcome to the committee, and thank you for coming.
    Mr. Dockery. Thank you, Mr. Chairman, Congressmen.
    I am Doug Dockery. I am a professor of Environmental 
Epidemiology at the Harvard School of Public Health. I am here 
to represent the views of the American Thoracic Society on the 
Clean Air Act-related programs at the Environmental Protection 
Agency.
    The American Thoracic Society was founded in 1905. It is an 
independently incorporated international educational and 
scientific society whose 14,000 members focus on respiratory 
and critical care medicine. The Society's members help to 
prevent and fight respiratory disease around the globe through 
research, education, patient care and advocacy.
    Lung disease is the third leading cause of death in the 
U.S., responsible for approximately one out of every seven 
deaths. Lung disease is also the leading cause of disability in 
the United States. More than 25 million Americans suffer from 
chronic lung disease, costing the U.S. economy an estimated $89 
billion annually.
    Nearly all lung diseases are associated with air pollution. 
How well or poorly our lungs perform is contingent on the 
quality of the air we breathe, making the impact of air 
pollution inescapable. Air pollution remains a primary 
contributor to the high prevalence of respiratory diseases in 
our society.
    For nearly 40 years, the American Thoracic Society has 
conducted scientific, public health, and educational programs 
to fight air pollution and to improve the quality of the air we 
breathe. The ATS strongly supports the Clean Air Act and its 
amendments. We can attest to the significant impact that the 
Clean Air Act has had in improving the air quality of our 
Nation. However, much remains to be done. It is estimated that 
141 million Americans are currently living in areas that expose 
them to unsafe levels of ozone. Millions more live in areas 
that experience unsafe levels of particulate air pollution, and 
air pollution exposure really matters.
    Research has shown that air pollution is causing premature 
deaths in thousands of people due to complications from these 
exposures. The ongoing research is helping us to understand how 
air pollution impacts human health. Two recent studies have 
made clear the need to protect the enforcement of the health-
based Clean Air Act standards established in 1997. A study 
published in the Lancet in February showed a relationship 
between exposure to ozone levels and development of asthma in 
children.
    A second study published last month in the Journal of the 
American Medical Association reconfirmed the correlation 
between exposure to fine particulate air pollution and 
increased mortality from lung cancer and cardiopulmonary 
diseases.
    The American Thoracic Society supports the EPA's Clean Air 
Research Program, and this research is providing essential 
information on health effects of air pollution, research that 
will not only define the mechanisms of disease, but also help 
physicians understand how to treat the disease processes that 
are triggered by air pollution. The ATS recommends a $50-
million increase in the EPA Clean Air Research Program.
    With regard to the Fine Particulate and Ozone Standards, as 
you know, the U.S. Court of Appeals has recently ruled that 
these standards proposed in 1997 were a proper exercise of the 
EPA's power. The ATS urges the subcommittee to provide EPA with 
the funds necessary to expeditiously implement and enforce 
these 1995-1997 health-based standards.
    Finally, let me speak to the New Source Review. We are 
extremely concerned with the administration initiatives to 
weaken the Clean Air Act, particularly through efforts to 
undercut the New Source Review Program. New Source Review is a 
simple concept made extremely complicated by those who want to 
avoid complying with the law. Simply stated, New Source Review 
requires facilities that undergo modification that 
significantly increase emissions to install up-to-date control 
equipment.
    The program only applies when pollution increases. The New 
Source Review Program is reducing air pollution and saving 
lives this year and every year. Any proposals to change the 
Clean Air Act which might be implemented in concert with New 
Source Review need to be taken into account in association with 
the Clean Air Act, in general. The public demands cleaner air, 
and the New Source Review is providing substantial public 
health benefits.
    The American Thoracic Society urges the subcommittee to 
resist efforts by the administration to weaken the 
implementation and enforcement of the New Source Review 
Program. I want to thank you, on behalf of the members of the 
ATS, for the opportunity to speak to you and would be happy to 
answer any questions you have.
    Mr. Aderholt. Are there any questions?
    Mr. Frelinghuysen. No questions. Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Dr. Dockery, for coming, and we 
appreciate your testimony.
    Mr. Dockery. Thank you, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

ALFRED MUNZER, M.D., DIRECTOR OF PULMONARY MEDICINE AND CRITICAL CARE 
    MANAGEMENT, WASHINGTON ADVENTIST HOSPITAL, AND PAST PRESIDENT OF 
    THE AMERICAN LUNG ASSOCIATION; REPRESENTING THE AMERICAN LUNG 
    ASSOCIATION
    Mr. Aderholt. Next, I would like to recognize Dr. Alfred 
Munzer, who is the past president of the American Lung 
Association and director of Pulmonary Medicine and Care 
Management at Washington Adventist Hospital.
    Dr. Munzer. Thank you very much.
    Mr. Aderholt. Thank you for being here.
    Dr. Munzer. Mr. Chairman and members of the subcommittee, 
lung disease is the third leading cause of death in the United 
States responsible for one in seven deaths. More than $25 
million Americans suffer from chronic lung disease. Asthma, 
emphysema and lung cancer affect virtually every American 
family.
    Research has shown that air pollution is a major factor in 
causing exacerbations of lung disease. It is responsible for 
the premature death of literally thousands of Americans as a 
result of lung disease.
    On March 26, 2002, the D.C. Circuit of the United States 
Court of Appeals rejected the last of the industry challenges 
to the National Ambient Air Quality Standards issued by the EPA 
in July 1997 for fine particulates. After a 5-year delay caused 
by specious industry litigation, we hope the EPA will treat 
implementation of these standards as a matter of great urgency. 
We urge this committee to do so.
    Recent studies have confirmed that existing levels of smog 
and fine particles place the public health at great risk. Just 
in the past three months, there have been five major studies 
linking air pollution to lung cancer, birth defects, heart 
attacks, and asthma causation and pediatric asthma attacks. 
Appended to my testimony is a brief description of each study.
    The study published in February in the Journal Lancet 
showed a relationship between high exposure to levels of ozone 
and the development of asthma in children. A second study, 
published in the Journal of the American Medical Association, 
established a correlation between exposure to fine particulate 
air pollution and increased mortality from lung cancer and 
cardiopulmonary diseases.
    Despite the growing body of evidence that air pollution 
plays a major role in causing lung disease, the EPA has yet to 
implement the new, more protective standards finalized in July 
1997. The American Lung Association urges the subcommittee to 
oppose any amendments which would impair the expeditious 
implementation and enforcement of these air quality standards.
    We are also very concerned about the administration's 
initiatives to weaken the Clean Air Act and undermine the 
enforcement of the law. In particular, we are concerned about 
the effort to undercut the Clean Air Act's new source review 
program. The new source review program requires facilities that 
undergo modification to significantly increase emissions to 
install air pollution equipment. If the facility does not 
increase pollution, new source review does not apply. The new 
source review program is reducing pollution and saving lives 
every year. Legislative proposals promising greater air 
pollution reductions are not a substitute for NSR. The American 
Lung Association urges the subcommittee to resist efforts by 
the administration to weaken the implementation or enforcement 
of the EPA new source review program.
    We thank the subcommittee for consideration of our views. 
Please ensure that EPA has the resources to fund Clean Air Act 
enforcement, air pollution health effect research, and 
implement key programs to clean up fuels, cars, trucks, and 
diesel equipment. Further, please protect the Clean Air Act 
from those who want to weaken it.
    We look forward to working with the subcommittee to further 
promote and protect the health of all Americans. Thank you.
    Mr. Aderholt. Thank you, Dr. Munzer. Are there any 
questions?
    Mr. Frelinghuysen. I cannot resist since we are moving with 
some rapidity. We have a higher incidence of asthma in children 
anyway, do we not? Generally speaking, the incidence of asthma 
in children has been increasing dramatically. Obviously, it may 
be affected by particulate matter, but I would assume there 
must be some other reasons and other studies.
    Dr. Munzer. There has been a dramatic increase in the 
incidence of asthma over the last ten years, and not just due 
to air pollution. There are many, many factors. But there is no 
question that even where air pollution is not the cause for the 
asthma, it certainly causes exacerbations and aggravates the 
problem.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Aderholt. Thank you, Dr. Munzer.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

ALAN G. KRAUT, PH.D., EXECUTIVE DIRECTOR, AMERICAN PSYCHOLOGICAL 
    SOCIETY
    Mr. Aderholt. Next, I would like to recognize Dr. Alan 
Kraut, Executive Director of the American Psychological 
Society.
    Mr. Kraut. I want to thank you for allowing me to present 
the views of the American Psychological Society, APS, 
concerning the National Science Foundation today, particularly 
concerning its social and behavioral science research programs. 
I am just going to highlight a few points here, but I ask that 
my entire written testimony be included in the record.
    Mr. Aderholt. Without objection.
    Mr. Kraut. First, I just want to say that we in the 
scientific community are very appreciative for the increase you 
all provided last year and we would like to work with you to 
continue that momentum for NSF. As a member of the Coalition 
for National Science Funding, APS supports the Coalition's 
recommendation of a $5.5 billion budget for NSF. I also want to 
ask the committee to continue its own history of support for 
basic behavioral and social science research at NSF. This 
committee was instrumental in helping establish NSF's Social, 
Behavioral, and Economic Sciences Directorate a decade ago and 
you have encouraged many initiatives coming out of the 
directorate since then.
    This year, the administration's budget request is for 
almost a 16 percent increase for NSF's behavioral and social 
science research. We are very excited about that. One of the 
exciting programs that this will start is a new foundation-wide 
effort looking at the complex interactions between society and 
technology, with the ultimate goal of enabling our citizens to 
take greater advantage of the technology available to them and 
allowing us to create technology to better serve our country's 
needs. The initial emphasis will be on studies of decision 
making, of cognition and learning.
    This year's increase will also support NSF's ongoing 
cognitive neuroscience initiative. Basic behavioral science 
supported by NSF has led to significant advances in our 
understanding of memory, visual and auditory perception, 
language, emotion, and the developmental origins of behavior. 
Now, the directorate is bringing neuroscience perspectives to 
bear on these topics in order to map these cognitive and 
psychological mechanisms onto the physical dimensions of the 
brain.
    With the right support, NSF will ensure that scientists 
from a wide range of areas will be able to test theories about 
normal brain functioning. Progress and investments in basic 
science will not only lead us to a better understanding of how 
humans think and how they decide and evaluate and adapt, but 
also lead us to revolutionary advances in our powers to 
predict, to detect, and to prevent.
    One final initiative to highlight is NSF's program in the 
science of learning. We already know a great deal through NSF 
research about how people think, learn, even how they apply 
what they remember. The basic challenge for both the science 
and education communities now is how can we extend this 
knowledge beyond the university laboratory to improve 
education, whether in the classroom or in training our nation's 
workforce.
    The answer will be found through investigations into the 
cognitive, social, psychological, and behavioral mechanisms 
involved in learning. Through the establishment of multi-
disciplinary science and learning centers, NSF is taking a 
major step toward connecting research on learning to 
educational and workforce development. These centers will also 
provide a research base for the President's math and science 
partnership in that NSF has long supported work in mathematical 
reasoning in children.
    Related to this, I am pleased to share with the committee 
two recent blue ribbon reports from the APS journal, 
Psychological Science and the Public Interest. These illustrate 
the ways in which science can be used to improve the education 
of our children. One report is on the effects of class size on 
learning and the other focuses on the best ways to teach and 
learn reading.
    Again, thank you for this opportunity.
    Mr. Aderholt. Thank you for your testimony. Are there any 
questions from the committee?
    [No response.]
    Mr. Aderholt. Thank you for being here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

RONNY B. LANCASTER, IMMEDIATE PAST PRESIDENT, THE ASSOCIATION OF 
    MINORITY HEALTH PROFESSIONS SCHOOLS
    Mr. Aderholt. Next, I would like to recognize Ronny 
Lancaster, who is the Immediate Past President of the 
Association of Minority Health Professions Schools.
    Mr. Lancaster. Thank you, Mr. Chairman.
    Mr. Aderholt. Welcome to the committee.
    Mr. Lancaster. Good morning. Good morning, Congressman. 
Thank you for the opportunity to appear this morning. I am 
Ronny Lancaster. I am Senior Vice President at the Morehouse 
School of Medicine in Atlanta, but Mr. Chairman, as you point 
out, I am happy to appear this morning as the Immediate Past 
President of the Association of Minority Health Professions 
Schools.
    This association, or AMHPS for short, is an association 
which is comprised of 12 health professions schools located at 
our nation's historically black colleges and universities. Mr. 
Chairman, this collection of schools has made an important 
contribution to the supply of health professionals in this 
nation. More specifically, this collection of schools has 
trained over half of the nation's black physicians, dentists, 
pharmacists, and over three-quarters of the nation's black 
veterinarians. Mr. Chairman, I am particularly pleased to tell 
you that Tuskeegee University and specifically their College of 
Veterinary Science is one of our proud members.
    I do appreciate the opportunity to appear this morning in 
support of an increase for the budget for ATSDR, that is to say 
the Agency for Toxic Substances and Disease Registry and 
specifically ask for continued support for a cooperative 
agreement between this agency and our institutions.
    Mr. Chairman, as you know, ATSDR was created for the 
purpose of helping to protect our nation from hazardous spills 
and waste and specifically works with the Environmental 
Protection Agency and the Centers for Disease Control, as well 
as the National Institutes of Health, to minimize adverse 
health conditions related to hazardous materials.
    In recognition of the mission of the agency and modest 
historical funding, its added responsibilities related to 
bioterrorism as well as its responsibility for investigating 
health disparities, we support a request of eight percent for 
this agency, which is currently funded at $78 million.
    Mr. Chairman, more than a decade ago, and this relates to 
the relationship between ATSDR and our institutions, this 
agency identified a need to gather more information on 38 
hazardous materials, and as part of this data gathering effort, 
ATSDR entered into a cooperative agreement with our association 
for the purpose of collecting information on 12 specific 
hazardous materials and these substances are listed in my 
testimony.
    I am delighted to report to you that this effort has been 
quite productive. In fact, to date, more than 55 manuscripts 
have been published in peer-reviewed journals, including Brain 
Research, Neurotoxicology, Journal of Neurochemistry, and 
Environmental Health Perspectives. In addition, researchers 
have made more than 100 presentations at national and 
international scientific meetings related to this research.
    In summary, Mr. Chairman, we ask for two things. We ask for 
an eight percent increase in the funding for this agency and we 
ask for continued funding at a level rate of $4 million to 
support a continuation of research related to our cooperative 
agreement.
    Thank you for the opportunity to appear this morning. I 
would be delighted to answer any questions.
    Mr. Aderholt. Are there any questions?
    [No response.]
    Mr. Aderholt. Thank you for being here today and we 
appreciate your testimony and look forward to working with you.
    Mr. Lancaster. Thank you, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

FATHER VAL J. PETER, EXECUTIVE DIRECTOR, FATHER FLANAGAN'S GIRLS' AND 
    BOYS' TOWN
    Mr. Aderholt. Next, I would like to recognize Father Val 
Peter, the Executive Director of the Father Flanagan's Boys' 
Home. Welcome to the committee.
    Father Peter. Thank you. Thank you very much. That is good 
service, Mr. Aderholt. Wonderful. Thank you, Mr. Aderholt.
    Chairman Walsh, Ranking Member Mollohan, and all the 
members of the staff, my name is Father Val Peter. I am the 
caretaker of Father Flanagan's dreams. You all remember Father 
Flanagan, the 1938 movie, Mickey Rooney and Spencer Tracy, and 
we are now called Girls' and Boys' Town, and I hope the 
committee understands that we are not Boys' and Girls' Clubs, 
and the way to remember this is remember girls are first, 
Girls' and Boys' Town.
    I want to thank all of you. I think you know what our 
mission is. Our mission is to heal America's children. We are 
in 15 States, the District of Columbia. Last year, we took care 
of 37,000 children. We are non-denominational. Father Flanagan 
did that on purpose. He said he did not want to get involved in 
any church bureaucracy. He said he liked church bureaucracies 
but did not want to get involved in any of them.
    The first thing I want to do at the start, even though 
Chairman Walsh is not here, I do want to thank him on record 
because he was the fellow who pretty single-handedly initiated 
in Congress that mandate for all newborn children to be 
screened for hearing. He did a great job and I want to thank 
him. Our Boys' Town National Research Hospital was the one who 
developed that technique that is so you can screen little 
children.
    I also want to thank, although he is not here, Mr. 
Mollohan, and the reason I want to thank him is because last 
time I was here, he said, ``You ought to go over, Father, to 
Commerce, Justice, State, because I think they can help you a 
little bit.'' And I did and guess what happened? They helped 
me. So I also want to thank him.
    I want to thank all the staff who are here. I want to thank 
all the members of the committee for a very simple reason. It 
is because of you that last year we were able to receive from 
this committee a line item of $500,000, and here is what we did 
with it.
    Number one, in New Orleans, yours was the Federal start and 
we have built a shelter for girls, caring for 300 girls. You 
helped us in that on the West Bank in New Orleans.
    Secondly, in Newark, marvelous, marvelous, marvelous, we 
are right on Frelinghuysen. The first place we have got, we are 
starting, dedicating it the first week of June.
    And the last one was you helped us get a foot in the door 
in Phoenix, so I do want to thank you for all of that.
    What I really want to say is, your money is being well 
spent, 37,000 children last year, 2,000 more than the year 
before, 150 new jobs. We are highly leveraged, and I hope you 
like that. That means if you give us a dollar, we are going to 
spend $4.84. Where do we get that? From others, and we like 
that a lot. We hope you like that. Sometimes, it is even more.
    You gave us a hand up last year, so we really are grateful. 
We are proud of our record and we are going to ask you this 
year for another hand up, not a handout.
    What would we like to do this year? We would like to do 
four things. The first one is in Newark. We are doing real 
well. We have got our eyes on another piece of property right 
down the street on Frelinghuysen, and OJJDP last year helped us 
get started and we would like to build another place on 
Frelinghuysen. We are very, very good at taking care of 
adjudicated adolescent female felons. We are very good at it. 
We like it. That may sound funny to you, but we have good luck 
with them, and I will tell you a story in just a minute.
    Secondly, we would also like to expand in Los Angeles. In 
Los Angeles, we are in Long Beach, we are in the West Adams 
District, we are in North Hollywood. Seventy-five-thousand kids 
are in out-of-home placement in Los Angeles County alone.
    In Rhode Island, what we would really like to do,somebody 
was kind enough to give us a beautiful piece of land. Now, if you could 
jump-start us a little bit, we can add the value to it, and that would 
be extremely helpful to us.
    And the last one, of course, is in Maricopa County, just 
something or other to get us going again in Phoenix, to move us 
forward.
    Now, if you ask us why are we expanding, I think this is 
really important. The reason why we are expanding is two 
things. Number one, we have developed a method that makes kids 
better. In other words, we get terrific outcomes. Eighty-two 
percent of our kids get better. Now, that is astounding, is it 
not, when you consider most of these kids do not want to get 
better when they start.
    The second thing is there are so many of these children, 
and I do not have to tell you about that.
    Now, the way I say it to myself is if I were standing on 
the banks of the Potomac River, out there by Reagan National, 
and I was a good swimmer and I saw a kid that was floundering 
in the water, I would have in my own mind an obligation to stop 
dead in my tracks, to jump into the water, and at some small 
risk to myself help that kid. I believe that is why we have to 
expand. We have got the right stuff at the right place at the 
right time.
    What we are asking you to do again this year is simply to 
help us a little bit, not a huge amount. We are the people that 
get good results, and I think that is very, very important to 
remember. So what I am asking, Mr. Chairman, members of the 
subcommittee, to help develop these four projects, Boys' Town 
National Headquarters is requesting $1.5 million in a HUD 
Community Development Fund section of the bill and report under 
the economic initiative, or Section 107 grants or earmarks. 
These facilities will allow us to accommodate an additional 
1,300 kids.
    I want to thank you. I always believe when you appear 
before a committee, there are three rules: Be clear, be brief, 
and be gone. I tried to be clear, I have certainly been brief, 
and now I will be gone. You do not know how much good you all 
help us with. Thank you.
    Mr. Aderholt. Any questions?
    Mr. Frelinghuysen. I thank Father Val for being here and 
for his enthusiasm and good work. Is former Congressman Bill 
Zeliff in your company today?
    Father Peter. Yes, he is.
    Mr. Frelinghuysen. Let the record so state that we 
appreciate his being here.
    Father Peter. He is a good fellow.
    Mr. Aderholt. We are happy to have you here today and thank 
you for your testimony and look forward to working with you. 
Thank you.
    Father Peter. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

C.D. MOTE, JR., PRESIDENT, UNIVERSITY OF MARYLAND, COLLEGE PARK
    Mr. Aderholt. Next, I would like to recognize C.D. Mote, 
Jr., President, University of Maryland, College Park. Welcome 
to the committee.
    Mr. Mote. Thank you very much, Mr. Aderholt, Congressman 
Frelinghuysen. It is nice to be here also.
    My name is Dan Mote. I am President of the University of 
Maryland, which is the flagship university of the State of 
Maryland. I am very heavily involved, of course, in the 
research enterprise. I am also coming here to speak on behalf 
of my colleagues in the AAU, the 61 U.S. AAU universities, 
addressing principally issues of interest to the budgets of 
NASA and NSF today.
    I should say that just as a point of reference, the 
University of Maryland, as I said, is very heavily involved in 
the research enterprise. Our research funding from Federal 
sources has increased an average of 13.7 percent a year over 
the last five years and currently it is on track to do that 
again.
    Of course, we cannot overstate the importance of this 
research enterprise to the prosperity of the nation. I think 
following the last 50 years, it has been well demonstrated that 
prosperity in all aspects is very much dependent on the 
research enterprise.
    Very often, we confuse the difference between science and 
engineering in this regard. I would like to refer to Theodore 
von Karman, a famous aerodynamicist from Cal Tech who clearly 
and specifically defined the difference between science and 
engineering. He said that, basically, scientists discover what 
is and engineers create what never was. So science is about 
discovery and engineering is about creation. Together, the 
discovery and creation is supported by NSF and by NASA and that 
is what essentially has led to, I would say, the prosperity of 
our country.
    The University of Maryland has a lot of investment, which I 
could talk about a long time and I realize we do not have time 
for that. I think I will skip over it but just mention one 
thing.
    In NASA, we have an earth systems science center together 
with NASA. I mention it only because it is a collaborative 
project with NASA-Goddard and the campus, which is very 
interesting and very important. It expands the assets of both 
institutions very much to the benefit of the research 
enterprise. I think it is an excellent model that we should be 
following across our national laboratory enterprises.
    Secondly, I would like to mention that we have a NASA 
project we are actually heading up that is called the Deep 
Impact Project. That is when we are sending a 750-pound 
projectile into a comet to explode this comet, and by so doing 
look at the origin of the universe by what is expended from the 
explosion of this comet. But also, we will also learn possibly 
how to change the trajectory of comets in space, which could 
have a very important national and global interest.
    As I said, I am here to represent my AAU colleagues and I 
think there are just a couple of points I would like to make. I 
realize we are very short for time, but one thing we would like 
to ask for is an increase of funding for core research and 
education programs.
    In this regard, we would like to just point out that 
through NSF, 13 percent of highly rated proposals do not get 
funded. On the one hand, one might say, well, that is just the 
way life is, all good things cannot be funded, and I understand 
that argument. But I think we also need to think of the human 
manpower cost. That is, we have very distinguished scientists 
and engineers involved in creative and discovery, and it is 
important that as a national policy we keep them involved in 
this process. So I think the manpower issue of having excellent 
work unfunded is ultimately discouraging and ultimately will 
reduce the excellence of our research enterprise, no question 
about that. So unfunded proposals that are highly ranked is a 
problem, I think.
    Secondly, we would like to ask for in NSF more 
consideration of increasing grant size and grant duration. I 
myself was funded by NSF continuously from 1962 to the year 
2000. I am one of the longest, most continually funded 
researchers ever for the National Science Foundation. I guess 
that is a two-edged sword. I say that only because I have done 
this a lot. I have written jillions of these proposals and I 
have been through this process endlessly.
    NSF typically funds two-year proposals, maybe a little more 
in some cases, typically two-year proposals, $93,000 average. 
NIH typically funds five-year proposals, four-plus-year 
proposals, on average, and about $338,000. Now, there are two 
differences. One is a low budget amount, $93,000, and low 
duration amount. What that means is that scientist, that 
engineer who is writing that proposal basically has no 
technician support on a $93,000 budget, maybe support a 
graduate student, and no secretarial support and has to write 
proposals constantly. You are constantly in a proposal writing 
mode.
    So is that, from a national policy point of view, a good 
way to expend the time of the nation's most distinguished 
scientists and engineers, doing technician work, doing 
secretarial work, and writing proposals all the time? I think 
NIH has it better figured out. They have longer durations and 
they have more money, so actually, I think the use of people's 
time is better for the national enterprise. So I think that is 
something that is really worth considering.
    The second point is we support very much the adding of 
funding for major research equipment and research facilities 
construction. There is really nowhere in academic organizations 
that major research monies for facilities and for construction 
can be found, and in typical research budgets through NIH or 
through NSF, you cannot build major facilities. So I think if 
the budgets do not have opportunities for major equipment funds 
and facilities that I would like to say that is a key step for 
allowing the research to go forward, because if you do not have 
the facilities, you cannot do the work, basically. That is very 
true in many areas of science and technology.
    Homeland security is a very important topic area for the 
nation and, of course, for our research enterprises in AAU. We 
would encourage the support of research on science and 
technology in the homeland security areas. I think many 
universities are actively engaged in this now. We at the 
University of Maryland have 120 faculty members who are 
essentially experts in various aspects of homeland security and 
security issues, national security issues stemming from the 
soft side, from policy issues, all the way to the hard side of 
computer science and technology, so it is quite a span. I think 
we are not unusual in this regard and I think it would be in 
the national interest to support that.
    Graduate student stipends, of course, are another issue for 
us. The average graduate student stipend now is $21,500. I 
think in the competitive markets these days, as we are trying 
to build our workforce for the nation in the future, it would 
be important to expand the graduate student stipend to, say, 
$25,000 seems to be the right number, we believe.
    Regarding NASA, the key problem for NASA is going to be 
manpower. A very large fraction, as much as a third of NASA's 
workforce is going to retire in the near term. The problem for 
NASA is different than the problem for other businesses and 
agencies in that there are not a lot of foreign workers, 
foreign scientists, foreign engineers who can come and work for 
NASA. They do not have the knowledge base. NASA is kind of a 
unique operation that really needs to train up people to have 
its knowledge base. I think if we let NASA's workforce decline, 
that would be a long-term major national problem, so I think 
NASA's special circumstances for manpower is key.
    I also think this is one of the reasons why we need to 
develop partnerships between national facilities and research 
universities because that will help them maintain their 
workforce. It will give them expanded opportunities at 
universities. I think that is a very important topic, by the 
way.
    So we support the administration's request for $3.4 billion 
for the Office of Space Sciences. That is a 19 percent 
increase, quite substantial, but we all think very important. 
We support the strengthening of the international space station 
program and, of course, increasing the earth science 
enterprise. I think our position is the earth science 
enterprise ought to be increased just to keep it at the rate of 
inflation, not to cut it. And, of course, the space grant 
program is also very important, again, for the manpower issue 
for NASA. We need to make sure that the manpower issue is 
solved for NASA. I think essentially all of us support 
competitive grant proposals for NASA.
    With that, that concludes my testimony.
    Mr. Aderholt. Let me just let you know that your entire 
testimony will be made part of the record, so we appreciate you 
coming. Any questions?
    Mr. Frelinghuysen. I have two of your graduates working in 
my office. Even though they are from New Jersey, they have 
Maryland-type behavior.
    Mr. Mote. I do not know how to take that exactly, but----
    [Laughter.]
    Mr. Frelinghuysen. You do not have to----
    Mr. Mote [continuing]. That must mean they can shoot a 
three-point shot. Thank you very much. I am sure they are doing 
an excellent job for you----
    Mr. Frelinghuysen. They are doing a great job.
    Mr. Mote [continuing]. And I appreciate it very much, and 
thank you for this opportunity.
    Mr. Aderholt. Thank you for coming to the committee. Thank 
you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

JAMES REED, FORMER STUDENT, YELLOWSTONE BOYS AND GIRLS RANCH
    Mr. Aderholt. Next, I would like to recognize James Reed, a 
former student with the Yellowstone Boys and Girls Ranch. How 
are you doing?
    Mr. Reed. Mr. Chairman and members of the subcommittee, 
thank you for allowing me a few minutes to talk to you about 
Yellowstone Boys and Girls Ranch in Billings, Montana. My name 
is James Reed. I am a sophomore at the University of Montana 
and I am a former resident of Yellowstone Boys and Girls Ranch.
    In 1996, I came to Yellowstone because I was a very 
troubled child. I had been charged with arson, vandalism and 
theft, and various other crimes. When I graduated from the 
Yellowstone program a year later, my life was transformed. The 
courts placed me in Yellowstone after it was determined that 
the home I was living in was an unfit place to raise a child.
    My family never provided me with the critical emotional 
development and nurturing needs that a child needs. My parents 
never told me they loved me. Being a stepchild made it worse. I 
felt like I was a stranger in my own home. I was never allowed 
to have a key to my house. When my parents left for the store, 
they would lock me in my room in the basement. I was never able 
to leave the house unless it was for school. As a result, I 
never had any friends, and to this day, I still have trouble 
making friends.
    I had to steal to get the basic things I needed, shoes, 
clothes, a calculator for math class, even lunch money. I knew 
that stealing was wrong, but back then, I felt I had no choice. 
I was beaten regularly by my dad. He even made a special paddle 
just for me.
    These horrible experiences scarred me physically and 
mentally. It was not until I came to Yellowstone Boys and Girls 
Ranch that I started to turn my life around. Yellowstone uses 
time-tested techniques administered by licensed professionals 
to help foster and develop values, respect, life skills, and 
learning development, as well as strong faith. The Yellowstone 
program's success rate is approximately 75 percent and the 
Yellowstone School District has been nationally recognized with 
distinction.
    Yellowstone did not just change my life, Yellowstone 
transforms the lives of more than 400 boys and girls who are in 
residence at the main campus, as well as their families. 
Yellowstone has been doing this successfully since 1957.
    After more than 45 years, the Yellowstone human 
infrastructure is as strong as ever, but the physical 
infrastructure is failing. For the first time, Yellowstone has 
come to the government seeking Federal investment for its 
critical infrastructure needs. Yellowstone has reached its 
physical limit because more organizations want to utilize 
Yellowstone. This project will create jobs, benefit low-income 
families, and eliminate physical distress, which is now 
becoming a safety issue for Yellowstone.
    That is why I am here. Yellowstone needs your help to jump-
start the project. If you could help with a Federal investment, 
Yellowstone will be able to accommodate more at-risk and 
troubled youth that desperately need help.
    Did you know that suicide is the second leading cause of 
death in Montana? Is this not unacceptable? I want other kids 
who are abused and neglected like me to be able to find a way 
out of a miserable existence like I did, not through suicide, 
but through Yellowstone instead.
    I believe that if Congress were to help Yellowstone and its 
infrastructure needs, that terrible statistic would be 
dramatically reduced. Please strongly support Yellowstone Boys 
and Girls Ranch. Thank you very much.
    Mr. Aderholt. Thank you for coming before the committee 
today. Just to follow up, of course, you are a former student 
there at the ranch. Where are you located now?
    Mr. Reed. Now I am going to school in Missoula, Montana, at 
the University of Montana.
    Mr. Aderholt. Certainly, thank you for your excellent 
testimony. You did a very nice job and it speaks very highly of 
the ranch itself and certainly you are an impressive young man 
to come.
    Do you have anything to add?
    Mr. Frelinghuysen. Let me echo those sentiments exactly. 
Thank you for being here.
    Mr. Reed. Thank you very much.
    Mr. Aderholt. Thank you for being here and we look forward 
to working with you. Thank you.
    Mr. Reed. Thank you. You all have a good day.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

CHESTER CARL, CHAIRMAN, COALITION FOR INDIAN HOUSING AND DEVELOPMENT
    Mr. Aderholt. Next, I would like to recognize Chester Carl, 
Chairman of the Coalition for Indian Housing and Development. 
Welcome to the committee.
    Mr. Carl. Presiding Chair, members of the subcommittee, I 
am Chester Carl, Chairman of the Coalition for Indian Housing 
Development, an organization that represents over 400 tribes 
and their tribal designated housing entities. Our members span 
from the country of New York to Southern California, the Great 
Plains, the Pacific Northwest, and my home, the Navajo Nation 
reservation that covers the area of New Mexico, Arizona, and 
Utah, and also some parts of Colorado. I am also Chairman of 
the National American Indian Housing Council and the Chief 
Executive Officer for the Navajo Housing Authority.
    I appreciate the opportunity to testify before you today on 
the President's fiscal year 2003 funding request for Indian 
housing and related community and infrastructure programs. We 
have submitted a written statement, which we ask be included as 
part of our testimony in the record.
    Mr. Aderholt. Absolutely.
    Mr. Carl. In the brief time allowed to me, I would like to 
focus on six major areas that we feel Congress's most urgent 
attention is needed and the support that we need. However, on 
the onset, I would like to offer a few general comments.
    Housing conditions in Indian country are, in many 
instances, deplorable, with overcrowding, inadequate 
infrastructure, inferior water and sewage facilities. Extremely 
substandard homes are sadly commonplace for this country's 
first residents. Programs designed to alleviate these crushing 
problems have begun to make a difference, but more must be done 
to raise living standards and conditions and give hope and 
self-sustainability to Native Americans.
    This country is presently engaged in a noble effort to rid 
the world of the scourge of terrorism and to ensure the 
security of our American homeland and our way of life. Surely, 
we can all agree that as we wage war abroad, where most of the 
Native Americans are ultimately in the front lines, we must not 
lose sight of pressing needs facing many of our communities. 
Security is as much a domestic issue as an international one. 
If we are determined to build a safer, more secure nation, we 
can and should direct resources to programs that invest in 
communities which provide decent and affordable structure. 
Communities are built and sustained one house at a time and now 
is not the time to shortchange those most in need.
    Mr. Chairman, the Coalition for Indian Housing Development 
has identified the following six funding priorities which we 
wish to highlight. Increase the NAHASDA block grant, Native 
American Housing Assistance and Self-Determination Act, to 
total $1 billion by fiscal year 2007, appropriating at least 
$700 million for fiscal year 2003. In the past three years, 
that program has received a reduction of $4 million.
    I have just come from a press conference a few minutes ago 
where we discussed prime loan and subprime loan interest rates 
being made to Native Americans. NAHASDA's intent is to leverage 
a lot of these funds out so we do not have to come back to 
Congress each year asking for these funds. Unfortunately, we 
have not met those goals and objectives of Congress, but we 
still need help to provide those shelters to those most in 
need.
    Number two, mounting water and sewer infrastructure costs 
must be considered by the tribes when planning housing 
development. Since Indian Health Services is unwilling to cover 
these costs, NAHASDA funding should be increased accordingly. 
Indian Health Services' response is that so long as it is a 
NAHASDA-eligible activity, you should fund all the 
infrastructure costs through that program.
    The recent HUD data shows that there is at least 25,000 
homes either in progress or in planning or development, and if 
the infrastructure need is not addressed, then ultimately, 
these houses would not be built out of infrastructure.
    When Federal funding for the drug elimination program was 
cut, tribes are excluded from substitute funding that went to 
public housing operating funds. NAHASDA should receive a 
corresponding increase, since it serves tribes' operating 
funds, also.
    One of the programs that we have been able to implement in 
Indian country is being able to jump-start the Boys' and Girls' 
Club that is commonplace elsewhere off the reservation, and 
most tribes have been able to implement those programs using 
drug elimination funding, so we ask that Congress provide 
either a corresponding increase or implement the drug 
elimination program.
    Number four, the Rural Housing and Economic Development 
Program is an important tool for building the capacity of 
tribes and should be funded again in fiscal year 2003.
    Number five is to increase the Native Hawaiian housing 
block grant to $15 million for its third year of production.
    Number six is to increase the Indian Community Development 
block grant from 1.5 percent to three percent of the total CDBG 
allocation, since this program has been so successful in aiding 
the development of tribal economics. The economic opportunities 
that tribes develop also pays the rent fees for the housing 
programs, they pay the grocery bills, utility bills, and so on, 
so it is very essential to Indian programs.
    Mr. Chairman, we believe that in the scheme of things, 
these are modest requests that we hope the subcommittee and 
Congress will address. We recognize that funds are scarce and 
tough decisions lie ahead. However, the needs in Indian country 
are great, and without an expanded level of support of 
Congress, the problem will only grow worse.
    Thank you, Mr. Chairman, for this opportunity to present 
the views of the Coalition for Indian Housing Development and I 
will be happy to respond to any questions.
    Mr. Aderholt. Thank you for being here today.
    Mr. Frelinghuysen, do you have any questions?
    Mr. Frelinghuysen. No questions, thank you.
    Mr. Carl. Thank you very much.
    Mr. Aderholt. Thank you for being here, and your testimony 
will be included in the record.
    Mr. Carl. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

SHEILA CROWLEY, PRESIDENT, NATIONAL LOW INCOME HOUSING COALITION
    Mr. Aderholt. Next, I would like to recognize Sheila 
Crowley, President of the National Low Income Housing 
Coalition.
    Ms. Crowley. Thank you, Mr. Chairman. I am very happy to 
have the opportunity to offer testimony today on the fiscal 
year 2003 HUD appropriations. I am Sheila Crowley, President of 
the National Low Income Housing Coalition, and I represent our 
members from every State who share our goal of ending the 
affordable housing crisis in America.
    While we appreciate the decision by HUD and the Office of 
Management and Budget to spare HUD deep cuts in the President's 
budget proposal for fiscal year 2003, we remain profoundly 
concerned about the failure of the Congress and administration 
to make solving the affordable housing crisis a Federal 
priority and commit the resources that are necessary to do 
this.
    Today's low-income housing spending is less than 40 percent 
of what it was in the last year of the Ford administration, 
when housing was a Federal priority. Had the Federal Government 
continued to invest at this level over the last 25 years, we 
certainly could have avoided the crisis of homelessness in 
America that accelerated in the 1980s and the shortage of 
affordable housing that we face today would be much less acute. 
On the final page of my written testimony, there is a chart 
that shows Federal housing budget trends from 1977 projected to 
2007.
    The extent and depth of the low-income housing shortage is 
well documented, and anyone who seriously examines the numbers 
agrees that we have an acute problem. Anyone who reads the 
daily newspaper is confronted with article after article about 
some aspect of the housing crisis--skyrocketing rents, growing 
numbers of homeless families, Federal housing assistance 
waiting lists closed because they are too long, owners of 
assisted housing opting out, demolition of public housing, 
former welfare recipients struggling to pay rent, families 
living in unhealthy and unsafe housing because it is all they 
can afford, and so on. My written testimony includes specific 
quantitative data about the extent of the housing affordability 
problem.
    The National Low Income Housing Coalition supports a multi-
prong strategy. First, we must preserve the viable subsidized 
housing stock we have, including public and project-based 
Section 8 housing.
    Second, we must increase low-wage workers' purchasing power 
in the housing market with more housing vouchers while 
improving the housing market's response to voucher holders by 
breaking down the barriers to successful voucher use. We urge 
you to make provisions for housing search assistance and other 
aid for voucher holders within the Section 8 program to allow 
for increases in the payment standard in high-cost areas and 
for reallocation of unused vouchers to regional voucher 
administrators that serve the same geographic area.
    And then the third piece of the multi-prong strategy is 
that we must build new housing and rehabilitate existing 
housing that is affordable for the lowest-income families.
    The National Low Income Housing Coalition joins with our 
partners in calling for a substantial increase in the HUD 
budget to reach at least $45 billion this year. We are also 
calling for the establishment of a national housing trust fund, 
as proposed in H.R. 2349, that will dedicate funding to the 
construction, preservation, and rehabilitation of $1.5 million 
homes over ten years, and we are calling for establishment of 
the thrifty production voucher program to ensure that extremely 
low-income people can afford the housing built or renovated 
with trust fund dollars.
    We are grateful to the 172 cosponsors of H.R. 2349 and to 
the over 2,000 organizations from across the country that have 
endorsed the establishment of a national housing trust fund, 
and I have here with me a list of those endorsers and would 
like to submit that for the record, please. We thank the 
members of the subcommittee who have endorsed H.R. 2349 and 
look forward to counting others among you as future supporters.
    In closing, at the end of my written testimony, I address 
several issues specifically related to the President's budget 
in regards to interest reduction payments, the transfer of the 
emergency food and shelter program from FEMA to HUD, renewals 
of shelter plus care in Section 8, the combining of the three 
competitive programs in the McKinney-Vento Homeless Assistance 
Program, the reduction of capital funds for public housing, the 
defunding of HUD's rural housing and economic development 
program, and redistribution of the CDBG formula, and our 
positions on all those are there in the written statement and I 
will be happy to answer any questions about that.
    Thank you very much for the opportunity to represent the 
members of the National Low Income Housing Coalition today.
    Mr. Aderholt. Thank you for being here.
    Mr. Frelinghuysen, do you have anything?
    Mr. Frelinghuysen. No.
    Mr. Aderholt. We thank you for coming to the committee. 
Your testimony will be included in the record. The endorsements 
here, will be filed with the committee.
    Ms. Crowley. Great. Thank you.
    Mr. Aderholt. Thank you for being here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

BERNARD M. KAHN, EXECUTIVE DIRECTOR, HEBREW ACADEMY FOR SPECIAL 
    CHILDREN, INC.
    Mr. Aderholt. Next, I would like to recognize Bernie Kahn, 
who is Executive Director of the Hebrew Academy for Special 
Children, Incorporated. Thank you for being here.
    Mr. Kahn. Thank you, Mr. Chairman, and thank you, members 
of the subcommittee for the opportunity to testify. My name is 
Bernie Kahn and I serve as the Chief Executive Officer of the 
Hebrew Academy for Special Children, usually known as HASC.
    HASC is a not-for-profit, non-denominational organization 
serving the needs of physically and mentally handicapped 
children and adults from 13 States around the union, and we are 
focused in New York State.
    Forty years ago, when my parents founded HASC, it was on 
the premise, the philosophy, and the conviction that every 
child deserves the opportunity to develop to his utmost 
capacity. Every child deserves to be dignified and receive an 
education in a dignified manner. Every child has value, and 
every child has a soul and a spirit. As a matter of fact, my 
mother earned a special education degree from Hunter College 
two decades before special education became a buzzword 
throughout the United States.
    What they started 40 years ago with four children has 
blossomed today into over 1,500 individuals that we service on 
a regular basis. The handicapping conditions that we provide 
service to are individuals with autism, mental retardation, 
emotionally disturbed, medically frail, and numerous other 
psychological and neurological disabilities.
    There are three parts to HASC. There is a part that 
provides services to children, a part that provides services to 
their families, and the part that provides services to special 
adults, adults with challenging needs.
    For the children, the physical therapy, the occupational 
therapy, the speech and the language intervention, the host of 
special education curricula, the counseling that goes along 
with it is very labor intensive and we have been very 
successful with it, as well. Over 60 percent of the children 
that go through our early intervention or our preschool 
programs, we have been successful in placing them in mainstream 
programs where they can sit side-by-side with their peers, 
learning the same skills that they are learning, dreaming the 
same dreams that they are dreaming.
    What we have done for the parents of these children is for 
those of us that have managed to raise a family with non-
handicapped children involved, we have to thank God every day, 
because the trials and tribulations, the difficulties that a 
parent of a special child has to endure is almost unfathomable, 
almost unimaginable.
    From the moment the child is born and throughout his 
lifetime, the value of working with the parents has served the 
purpose in the sense that they no longer have to keep their 
children in institutions or residences, and we have saved the 
taxpayers millions of dollars just by keeping them at home, 
giving them the support services at home, as well.
    For adults, we have accomplished a system where we provide 
them with a sheltered workshop, job coach training, pre-
vocational training, vocational training, and at the end of the 
week they can go home with a paycheck, thereby becoming 
taxpayers instead of the receivers of tax dollars.
    But all this has given us one serious problem, and that is 
space. To one of our programs, the summer program that we have 
for 260 challenged children and adults, we had over 120 
applications for the summer of 2001 that we could not accept 
because of the lack of space. In all of our facilities, there 
is the single seat available for a new child. We have taken in 
certain facilities bathrooms and closets and converted them 
into therapy space and counseling spaces, as well.
    What we have done is undertaken a new plan to purchase and 
renovate a facility of approximately 60,000 square feet. That 
would give us an opportunity for a national flagship facility 
to accommodate so many more children and adults with 
challenging needs. The cost of the project is $9 million and we 
are hoping to secure a $2 million grant from the Federal 
Government with the help of this subcommittee. We hope that the 
subcommittee will have the wisdom to be able to help us help 
the children and those special adults to help themselves.
    Thank you for the opportunity, and I will be glad to answer 
any questions.
    Mr. Aderholt. I do not think I have any questions. Mr. 
Frelinghuysen?
    Mr. Frelinghuysen. Thank you for your testimony and for the 
active involvement of your family and your personal leadership.
    Mr. Kahn. Thank you. I appreciate it.
    Mr. Aderholt. We appreciate your being here today and we 
look forward to working with you. Thank you.
    Mr. Kahn. Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

SAMUEL J. SIMMONS, PRESIDENT, NATIONAL CAUCUS AND CENTER ON BLACK AGED, 
    INC.
    Mr. Aderholt. Next, I would like to recognize Samuel 
Simmons, President and CEO of the National Caucus and Center on 
Black Aged, Incorporated. Thank you. Welcome to the committee.
    Mr. Simmons. Thank you, Mr. Chairman. My name is Samuel J. 
Simmons. I am President and Chief Executive Officer of the 
National Caucus and Center on Black Aged. NCBA is the only 
national membership-based service and educational organization 
concerned exclusively with issues affecting the low-income and 
black elderly. We are involved in employment, health promotion, 
and disease prevention programs in a number of communities 
throughout the nation.
    Since housing and living arrangements have a 
disproportionate share of income for this group, NCBA targets a 
major share of its efforts to educational activities and the 
direct sponsorship, ownership, and management of 202 housing 
for ourselves, other African American groups, Hispanics, and 
Pacific Asians. NCBA appreciates this opportunity to appear 
before the HUD/VA Subcommittee to share our views on funding of 
housing programs for fiscal year 2003.
    As an introduction to my remarks, I call your attention and 
the attention of the committee to data relating to the needs of 
the elderly for adequate housing. Today, over 1.4 million 
seniors are paying more than one-half of their income for rent 
or are living in substandard housing. None of these persons are 
the beneficiaries of any type of housing subsidy. Over 35 
million Americans are 65 years of age and older, and this 
population is expected to grow to 80 million by 2030.
    Too many of our frail seniors have no choice in housing 
other than being sent to assisted living facilities or nursing 
homes. Many of these persons are denied the opportunity to age 
in place. With a minimum of support services, large numbers of 
seniors could age in place.
    Although the needs of this vulnerable population justifies 
a major increase in the need of a government response, I am 
enough of a realist to understand that increased funding for 
services to the elderly must be on an incremental basis. Our 
recommendations to the subcommittee which follow reflect this 
fact.
    Before I get into the issues of funding relating to 
specific programs, however, I share with you my observation 
that the Federal Government can begin to improve the cost 
effectiveness and quality of services without significant 
additional dollars, and that is by increasing the coordination 
of its activities to specific targeted beneficiaries. I am told 
that this does not happen because no one has this 
responsibility.
    There is an exception to this statement in relation to 
services to the elderly. In the last session of Congress, the 
Secretary of HHS was directed to set up an interagency task 
force on aging programs comprised of HHS, HUD, DOT, DOL, and 
Agriculture to focus on coordinating activities to maximize the 
impact of services and eliminate duplication and minimize 
regulatory burdens and the cost at the local level. I am told 
that nothing has happened with this requirement because no 
money was appropriated. I would hope that the committee would 
earmark $2 to $3 million of HUD's research and technology money 
or community development block grant appropriations to at least 
assure that HUD is exploring ways that assisted housing is an 
integral part of coordinating the delivery of services to the 
elderly.
    In regards to 202 housing, we urge the appropriation of 
$760 million for development and rental assistance for 
approximately 7,600 units of housing. This is approximately a 
ten percent increase, taking into consideration inflation.
    Assisted living conversion, we strongly urge that Congress 
fund this program at the current $50 million level. It would be 
short-sighted to reduce this program by $20 million, as 
recommended by the administration.
    Elderly service conversion grants, housing services, we 
request that the combined funding for the service coordinators 
and congregate housing service program be significantly 
increased above its present $50 million level. Service 
coordinators, in their role as case managers, are significantly 
assisting residents to age in place and have demonstrated that 
the dollar value of services brought to the projects far exceed 
the cost of salary to the project.
    Public housing continues to be the major subsidized program 
for the elderly and the major thing in this regard that I would 
like to call to the attention of the committee is that we would 
hope, since the modernization cost for many of these buildings 
has been estimated at approximately $2,000 a unit, that the 
committee would move ahead in terms of providing approximately 
$100 million to start a demonstration program to turn these 
projects around.
    I appreciate this opportunity to share these comments with 
you and look forward to working with the committee on a 
continuing basis.
    Mr. Frelinghuysen [presiding]. Thank you very much, Mr. 
Simmons, for moving with such rapidity and covering a lot of 
ground and particularly highlighting some areas which the 
committee needs to pay special attention to, especially that 
interagency task force issue. It is a legitimate one for you to 
raise.
    Mr. Simmons. We have to stay after that one because I think 
that that is a very cost-effective activity if we can get it 
underway.
    Mr. Frelinghuysen. Thank you so much.
    Mr. Simmons. Sure.
    Mr. Frelinghuysen. Thank you for being here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

BENSON F. ``BUZZ'' ROBERTS, VICE PRESIDENT FOR POLICY, LOCAL 
    INITIATIVES SUPPORT CORPORATION
    Mr. Frelinghuysen. Mr. Benson ``Buzz'' Roberts, 
representing Local Initiatives Support Corporation, and for 
those who testify after this gentleman, a complete record of 
your testimony will be put in the record, so to the extent you 
can summarize, that would be extremely beneficial. Welcome.
    Mr. Roberts. Thank you very much, Congressman. It is a 
pleasure to be here with you today.
    I realize that you are very resource-constrained in this 
subcommittee and so what I would like to talk about today are 
two opportunities to use the limited resources at your disposal 
to mobilize a lot more private capital for housing and 
community development activities, especially in very low-income 
communities.
    Our perspective at LISC comes from having raised $4 billion 
from the private sector over the last 22 years. Our board chair 
is Bob Rubin, the former Treasury Secretary, and we operate 
through local offices in places like Newark and Trenton and 36 
other places around the country.
    Mr. Frelinghuysen. How appropriate that you highlight two 
cities in my State. Thank you. [Laughter.]
    Mr. Roberts. Well, we have enjoyed a lot of support from 
former Governor Whitman and her successors and so we are making 
a big commitment to New Jersey.
    As I am sure you are aware, there is an increasing shortage 
of affordable housing. HUD reports the loss of over a million 
units over the last two-year period they have tracked and they 
say the problem is accelerating. You will hear shortly that the 
National Housing Conference has a new report out saying that 13 
million households, one out of seven in this country, have an 
acute housing problem, and that includes almost four million 
families that are working full-time equivalent jobs, so this is 
a real problem.
    The good news is that there is a program at HUD that is 
working extremely well to address this. It is the HOME program, 
and HOME, as you know, attracts $4 of other money for every $1 
of HOME money that goes into a deal. That enables HOME to use 
only an average of $15,000 or so per unit. It is an 
extraordinarily productive and efficient use of government 
funds. It is also very flexible. It works for cities and 
States. There is virtually no Federal staff that is required to 
run this program. And it reaches genuinely low-income families, 
helps rebuild communities, does whatever the local and State 
governments think is the most important priority. So that is 
one priority.
    We would recommend $2.9 billion for HOME this year. Now, I 
recognize that is a significant increase, but it is the same in 
real terms as what Congress authorized when it started the HOME 
program 12 years ago, and that was at a time when the housing 
problems were not nearly as great as they are and it was at a 
time when the system of State and local governments, non-profit 
and for-profit developers, banks, and investors were not nearly 
as able to use this money quickly and effectively as it is 
today. So we think this is money that can be very well spent.
    The second opportunity I wanted to bring to your attention 
is the Section 4 capacity building program. The Urban Institute 
reports now that nonprofit community development corporations, 
CDCs, are in many cities the most productive producers of 
housing in those cities, and Section 4 helps them with training 
and technical assistance and organizational development support 
to produce housing, but also to undertake a wide range of other 
things in communities.
    We have helped CDCs to build over 120,000 units of housing, 
17 million square feet of economic development space, and a 
variety of other things. But even more broadly than that, these 
CDCs are restoring healthy markets, a sense of order in the 
community, and a sense of efficacy and hope within communities 
which in some ways, while less tangible, is more important in 
the long run.
    Every $1 million of this Section 4 money that we have been 
able to get we have, in turn, used to raise $6 million in 
private financing. We have used it to generate almost 400 
rental units, almost 100 homes, new homes that have been sold 
to low-income buyers in these low-income communities, 32,000 
square feet of commercial space, another 3,000 feet of child 
care and health care and other community service space. We 
think it is a great bargain for you.
    Again, here, we would request an increase. This is a more 
modest program than the HOME program in size. We would request 
$40 million to be used between the LISC and the Enterprise 
Foundation. The two organizations share most of the money.
    We have plenty of documentation from outside evaluators 
saying this thing really works. The Urban Institute reports 
that the Section 4 program met and exceeded the goal 
established by Congress to develop the capacity of community 
development corporations to undertake community development and 
affordable housing projects and programs. So we welcome that 
kind of outside scrutiny and we are happy to report to you that 
we have been able to live up to your requirements.
    Mr. Frelinghuysen. Thank you for your good work and for 
your substantial testimony. I can see where you got this 
acronym, ``Buzz.'' [Laughter.]
    You really turn it on. You have done an excellent job 
highlighting certain areas that we support in this committee. 
We will see what we can do.
    Mr. Roberts. We really appreciate it. Thank you so much.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

ANN THOMPSON, ADMINISTRATOR OF CATHEDRAL RESIDENCES; ON BEHALF OF 
    AMERICAN ASSOCIATION OF HOMES AND SERVICES FOR THE AGING
    Mr. Frelinghuysen. Representing the American Association of 
Homes and Services for the Aging, Ann Thompson.
    Ms. Thompson, you are administrator of Cathedral 
Residences, is that right?
    Ms. Ann Thompson. That is correct, in Jacksonville, 
Florida.
    Mr. Frelinghuysen. Well, welcome.
    Ms. Ann Thompson. Thank you. I appreciate the opportunity 
to speak this afternoon.
    I am also a member of the board of directors of the 
American Association of Homes and Services for the Aging, or 
AAHSA. AAHSA represents 5,600 nonprofits, including the 
majority of the Section 202 supportive housing for the elderly 
sponsors. Thank you for the opportunity to be here today to 
present testimony on the fiscal year 2003 budget.
    In Jacksonville, most of the residents in our 658 
apartments are between 74 and 85 years of age, with monthly 
incomes of $500 to $700. Our oldest building opened in 1967. 
Both our buildings and our residents are aging in place. Two of 
our residents have lived in our properties for over 34 years.
    Nationwide, 202 and 236 elderly housing inventories 
including many properties that are 25 to 35 years old and are 
in need of funding for modernization. Most of these properties 
were built before sprinkler systems were required for high-rise 
buildings, and many of them have deferred needs for everything 
from heating, ventilation, and air conditioning systems to 
kitchens, elevators, plumbing, and security upgrades. Grants of 
$3,000 to $15,000 per unit can preserve these precious homes 
for seniors. We urge you to compare this figure with the 
$64,000 to $75,000 that it costs to construct a new Section 202 
unit in Jacksonville.
    In addition to modernizing, preserving existing housing 
units and developing new units also are critical important to 
AAHSA. As you know, we have lost more than 150,000 of federally 
assisted housing over the past five years, and hundreds of 
thousands remain at risk of leaving the affordable housing 
inventory. Seniors living in these properties are at risk of 
what is likely the community's only affordable housing option. 
Seniors living in properties with enhanced services, their 
housing opportunities are even fewer when these properties are 
lost. AAHSA urges the subcommittee to provide $50 million in 
grants to assist nonprofits in acquiring at-risk properties.
    The Section 202 program is arguably one of HUD's most 
effective production programs, yet its reach is too shallow to 
meet current demands. According to AARP, nationally nine 
seniors are waiting on every one Section 202 unit. We need to 
increase the pace at which we are building these affordable 
units for seniors with low income. Last year's appropriation 
will construct approximately 5,800 new units. AAHSA urges the 
subcommittee to increase this number by at least a modest 10 
percent increase beyond the inflation for fiscal year 2003.
    The importance of service within affordable housing 
settings must also be highlighted. Aging in place is a 
significant issue for our residents. At Cathedral Residences we 
are fortunate to have a service coordinator for each property. 
They link with residents for community services, ensure that 
residents have access to computer labs, the resources of the 
community, and help to facilitate uses of on-site homemakers as 
well as meals programs. None of these activities are paid for 
by HUD, but through the fund raising of our organization and 
others in our community. But they help to coordinate low-income 
residents as they age in place with services that help to avoid 
premature and costlier placement into nursing homes. AAHSA 
strongly urges the subcommittee to support full funding for the 
service coordinator program.
    When the assisted living conversion grant opportunity 
became available, we conducted focus groups with our residents, 
considering whether we would convert floors at Cathedral Towers 
to assisted living. This concept was strongly supported by our 
residents. Ten years previously, residents had been consulted 
about the same idea and were not in favor of it. Aging in place 
has a way of changing a person's point of view. AAHSA supports 
the continuation of this program and also encourages additional 
HUD and HHS collaboration on this issue and their other 
endeavors.
    I thank you for this opportunity, and if you have any 
questions, I would be happy to answer them.
    Mr. Frelinghuysen. Well, thank you very much, Ms. Thompson, 
for your particular focus on preservation and modernization 
needs as well as the value of service coordinators. The 
committee appreciates your observations and thoughts. Thank 
you.
    Ms. Ann Thompson. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

J. MICHAEL PITCHFORD, PRESIDENT AND SENIOR VICE PRESIDENT AND MARKET 
    MANAGEMENT EXECUTIVE FOR BANK OF AMERICA COMMUNITY DEVELOPMENT 
    BANKING, PRESIDENT OF THE NATIONAL HOUSING CONFERENCE
    Mr. Frelinghuysen. J. Michael Pitchford, representing the 
National Housing Conference. Welcome, Mr. Pitchford. You are 
the president and senior vice president and marketing manager 
for----
    Mr. Pitchford. Oh, I don't worry about all that stuff.
    Mr. Frelinghuysen. You don't worry about that? All right, 
let's do it. Fire away. Your testimony will be included in its 
entirety.
    Mr. Pitchford. It already is there, and I appreciate that 
and appreciate this opportunity.
    I want to make three basic points. One is that we have a 
crisis in affordable housing in this country right now. You 
heard some folks earlier talk about the number of seniors 
spending more than 50 percent of their income on housing. Our 
research, which I am happy to give you a copy of now and would 
like to get as part of the committee proceedings here, will--
that is an update on research that will tell you there are 13 
million families in total--one in seven, you have also heard 
that quoted--what you have not heard, actually data from Buzz, 
is that about four million of those families are working 
families. Now, I think of those as people playing by the rules, 
doing everything we ask them to do, and they are still spending 
more than 50 percent of their income on housing or living in 
barely substandard housing.
    The second point is that we have the tools to deal with 
this. Properly funded, the tools that we have, like HOME, CDBG, 
HOPE 6--and I can speak authoritatively, there is a HOPE 6 
developer with the bank--FHA, Section 8.202, these tools can 
really be very important in solving this housing crisis that we 
have.
    The third thing--and I would love to see it rise out of 
this subcommittee--is that we need consensus built on this as a 
national issue. It certainly is working on the members of the 
industry that are behind me, certainly is working among our 
membership, and I have here a statement supporting the $15 
billion proposal that Congressman Frank has plugged around 
with; 35 of our members have kind of signed on to this. I would 
like also to give that to you as part of the proceedings of the 
subcommittee hearing.
    But this consensus with him--and we are working to build at 
things that you can do--would be critical in adopting the 
millennial Housing Commission kind of reports, things that will 
come out of that, and really getting us to a place that can 
deal with this crisis.
    Thank you.
    Mr. Frelinghuysen. You are well organized. Thank you very 
much for a great presentation. Appreciate it. And, as 
appropriate, we will include this as a matter of the public 
record as well.
    Mr. Pitchford. Thank you.
    Mr. Frelinghuysen. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

F. GARY GARCZYNSKI, PRESIDENT, NATIONAL ASSOCIATION OF HOME BUILDERS
    Mr. Frelinghuysen. Mr. F. Gary Garczynski, representing the 
National Association of Home Builders. Good afternoon. Thank 
you for being here.
    Mr. Garczynski. Good afternoon, Mr. Chairman. I will try to 
follow Michael's lead and be very specific and to the point.
    Mr. Frelinghuysen. If you can do as well as he did, you 
will be way ahead of the game. He did an excellent job.
    Mr. Garczynski. At NAHB specifically, we are very 
supportive of the HOME Investment Partnership Program. We are 
pleased with the president's budget that provides $2 billion 
for the program. However, we would like to emphasize we would 
like to see a little bit more flexibility in that program. It 
is tremendously valuable.
    We also continue to support the American Dream Down Payment 
Assistance Initiative, in favor of full funding of that 
initiative separate and apart from the HOME program, and also 
support the administration's proposal to establish housing 
counseling assistance programs as a separate program and 
increased funding for those essential services.
    On the CDBG, the funding level of $4.8 billion, we support. 
That program is giving a lot of flexibility of funding to 
communities so they can meet housing and economic development 
needs as they see fit, and we think it is a cornerstone in the 
effort to revitalize our nation's cities and rural areas. And 
we still support the current distribution formula for CDBG 
funds.
    On Section 8, we hope that the budget proposal will provide 
sufficient funding to renew all existing Section 8 contracts. 
We believe that that funding request for incremental vouchers 
is inadequate, however. Now, we understand that there has been 
some under-utilization, but HUD is taking steps to try to 
correct that situation. We support the funding level that was 
in the fiscal year 2001 budget, which was 79,000 new 
incremental vouchers, and urge the subcommittee to appropriate 
the same amount for your fiscal year coming up.
    Apart from the request of HUD, we would like to see funding 
for the Rural Housing and Economic Development Program, which 
is not included in the HUD budget right now, because it 
provides funding for what our members are telling us is a real 
problem in the rural areas, where credit problems exist and 
there is a lack of knowledge about the whole home-buying 
process in rural communities. We support a funding level of $25 
million to maintain this programs much-needed services.
    Another one of the pet projects of NAHB is, certainly, the 
PATH program, the Partnership for Advancing Technology in 
Housing. Our research center has been working on that, and we 
hope that would be included in the budget.
    And finally, we are very supportive of the administration's 
request for $200 million to implement the recently enacted 
Brownfields Revitalization Bill, which expands EPA's ability to 
address sites contaminated with petroleum--which I think half 
the sites are minor contaminants. And that would establish 
EPA's ability to have grants for specific brownfield cleanups.
    Those are the targets for NAHB this year, and we are fully 
supportive of housing being funded adequately to meet that gap 
that Michael was talking about, where millions of Americans 
still do not have the luxury of home ownership.
    Thank you.
    Mr. Frelinghuysen. Thank you so much for your testimony.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

MELVIN RICHARDSON, ASSISTANT DIRECTOR FOR ENVIRONMENT AND COMMUNITY 
    DEVELOPMENT, FULTON COUNTY, GEORGIA; ON BEHALF OF THE ASSOCIATION 
    OF LOCAL FINANCE AGENCIES, NATIONAL ASSOCIATION OF COUNTIES, 
    NATIONAL COMMUNITY DEVELOPMENT ASSOCIATION, NATIONAL LEAGUE OF 
    CITIES, AND THE U.S. CONFERENCE OF MAYORS
    Mr. Frelinghuysen. Melvin Richardson, representing the 
Association of Local Housing Finance Agencies, National 
Association of Counties (NACO), National Community Development 
Association, National League of Cities, U.S. Conference of 
Mayors. Boy, are you a heavy hitter this afternoon, 
representing all those groups. Thank you for being here.
    Mr. Richardson. Thank you, Mr. Chairman, for this 
opportunity to testify. I will attempt to be brief.
    I am here today providing testimony on behalf of the 
National Association of Counties, the Association of Local 
Housing Finance Agencies, the National Community Development 
Association, National League of Cities, and the U.S. Conference 
of Mayors.
    I want to speak specifically at this time about the 
Community Development Block Grant Program. Now in its 28th 
year, it is our nation's most successful domestic program. CDBG 
helps communities tackle some of their most serious community 
development challenges.
    We are seeking a minimum of $5.0 billion in formula funding 
for fiscal year 2003. This would represent a $659 million 
increase in formula funding from fiscal year 2002. In addition 
to the increase in the programs formula allocation, we are also 
seeking funding for technical assistance under the program. 
Like in the HOME program, technical assistance is crucial to 
assuring better implementation of the CDBG program.
    H.R. 1191: Last year, Representative Carrie Meek of Florida 
introduced H.R. 1191, the Community Development Block Grant 
Renewal Act, which would significantly reduce the flexibility 
of this program. We are opposed to this bill.
    Wealthiest Communities Proposed Cut: We also want to 
express strong opposition to the administration's so-called 
Wealthiest Communities proposal in fiscal year 2003 budget. We 
recommend that any consideration of a review of the CDBG 
formula take place only after all the 2000 Census data has been 
disseminated and at such time as the OMB has made its 
definitions of metropolitan cities known. These two very 
important considerations are highly critical to the CDBG 
program and can only be made when the data is available to 
support lawful and rational recommendations for a formula 
change.
    IDIS: Both HOME and CDBG grantees utilize HUD's Integrated 
Disbursement Information System, IDIS, to report 
accomplishments as well as to draw down funds. We support 
additional funding for IDIS.
    The HOME Investment Partnership Program: The HOME 
Investment Partnership Program has been a catalyst for the 
development of affordable housing since 1992. Since its 
inception, the program has expanded the supply of decent, safe, 
affordable housing for low- and moderate-income families, 
strengthened public-private partnerships in developing 
affordable housing, and provided funding to communities to 
assist in meeting their housing challenges. The flexibility of 
the program allows local jurisdictions to use the program funds 
in combination with other federal, state, and local funds, and 
to work with their nonprofit partners to develop affordable 
housing, both ownership and rental, based on locally defined 
needs.
    We request a funding level of $2.25 billion for the basic 
HOME program in fiscal year 2003, along with an additional 
appropriation of $2 billion for your Rental Production Program 
within HOME, which is further described below.
    We also propose that the set-asides within the program be 
scaled or eliminated altogether. We support funding for new 
affordable housing production; however, we do not support set-
asides that duplicate and take formula funding from the 
existing formula. HOME funds may already be used for down 
payment assistance and also closing-cost assistance. Besides an 
increase in the HOME formula, we strongly recommend that 
technical assistance funding under HOME be continued and 
increased.
    Affordable housing production: In the past couple of years, 
there have been a number of bills introducing Congress to 
increased housing production primarily targeted to households 
at or below 30 percent of area median income. These proposals 
have mainly focused on creating the National Housing Trust 
Fund, a separate program from existing HUD programs. To avoid a 
situation where such a program would compete with HOME, we 
propose that a housing production element be incorporated 
within HOME. The infrastructure is already in place with HOME 
to implement such a program. There is more information on this 
in our legal testimony.
    Homeless Program consolidation: We request the committee to 
seriously consider combining HUDs Homeless Assistance programs 
in a single, flexible formula block grant program. Grantees 
have to spend months planning and applying and waiting for 
funds through HUD's Super NOFA competition. We recognize the 
importance of the partnerships formed, support the current 
planning system, and agree that it should continue within our 
block grant proposal. We request that Congress increase the 
appropriations level of HUD's Homeless Assistance programs, 
including funding the Supportive Housing Program and Shelter 
Plus Care renewals.
    We again thank you for the opportunity to provide oral and 
written comments on the need for funding for these very 
important programs. We look forward to working with you and 
your staff in the year ahead.
    Mr. Frelinghuysen. Absolutely. You can count on us doing 
that. Thanks so much for going through your testimony 
highlighting what is important and areas that we ought to be 
particularly concerned about. Thank you very much.
    Mr. Richardson. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

BARBARA J. THOMPSON, EXECUTIVE DIRECTOR, NATIONAL COUNCIL OF STATE 
    HOUSING AGENCIES
    Mr. Frelinghuysen. The Chair would like to recognize 
Barbara J. Thompson, representing the National Council of State 
Housing Agencies. Ms. Thompson, welcome. Thank you for being 
here.
    Ms. Barbara Thompson. Thank you very much, Mr. Chairman. It 
is a pleasure to be here.
    I am Barbara Thompson, executive director of the National 
Council of State Housing Agencies. NCSHA, as you may know, 
represents the housing finance agencies of the 50 states, the 
District of Columbia, and the U.S. Virgin Islands. State HFAs 
allocate the Low Income Housing Tax Credit and issue tax-exempt 
bonds in nearly every state. They administer home funding in 40 
states.
    First, I want to thank the many members of this 
subcommittee, Mr. Chairman, who have cosponsored H.R. 951, the 
Housing Bond and Credit Modernization and Fairness Act. This 
bill provides urgently needed changes to Mortgage Revenue bonds 
and the Housing Credit. With your support, Congress 
significantly expanded the annual volume caps on both MRBs and 
the Housing Credit over a year ago. Yet, many families 
qualified for this housing help still do not get it. Three 
obsolete statutory provisions prevent it.
    H.R. 951 solves these problems by repealing the MRB Ten-
Year Rule, reforming the MRB purchase price limit, and giving 
states the flexibility they need to develop Housing Credit 
properties in rural, very low-income areas. It would prevent 
the loss of billions of dollars in MRB funding over the next 
several years, $2.3 billion in this year alone, which will not 
be recoverable if this legislation is not enacted.
    If you have not cosponsored H.R. 951, we urge you to join 
the 298 House members who have. And we ask you, Mr. Chairman, 
to pressure leadership and Ways and Means colleagues to include 
it in a tax bill this year. As important as all the programs 
are that you fund through this committee, much housing work 
today is done through the jurisdiction of the tax-writing 
committees. And we hope you will partner with them to make sure 
this bill is enacted.
    I want to stress one additional point from my testimony, 
Mr. Chairman, and that is the HOME program and the importance 
of providing $2.9 billion for HOME in fiscal year 2003. This 
funding is needed simply to restore the purchasing power of 
this enormously successful program.
    HOME was originally authorized back in 1990 at $2 billion. 
Accounting for inflation since then, Congress would have to 
appropriate $2.9 billion in fiscal year 2003 just to achieve 
the funding that Congress itself thought was necessary more 
than a decade ago. HOME works better than most HUD programs 
because Congress designed it to let states and localities--not 
HUD--decide how to best respond to their unique needs. And they 
have done this with dramatic results. HOME is providing 
affordable housing to some of most needy families. State HOME 
funds have helped finance the production, rehabilitation, and 
acquisition of over 250,000 affordable homes and apartments.
    We also urge the subcommittee to reject HOME set-asides, 
particularly the administration's proposed $200 million down 
payment program. To deny states flexibility, discretion, and 
resources by requiring them to use a portion of their HOME 
funds for a federally prescribed purpose, regardless of their 
needs, is contrary to the spirit of HOME. And besides, states 
already provide down payment assistance with HOME when they 
judge that to be the best use of their funds.
    For the same reasons, Mr. Chairman, we urge you to reject 
the HOME set-aside. We urge you to fund the Housing Counseling 
Program outside of HOME. As you know, that program is presently 
funded as a set-aside within HOME.
    We also urge you to reject proposals to create new 
production set-asides, or set-asides of any kind within HOME. 
As important as new rental production money is, and we support 
the appropriation of new rental funds in a state-administered 
flexible program, we urge you not to use HOME as the vehicle 
for that new program.
    Thank you very much for this opportunity to be here today. 
I appreciate it and am happy to answer any questions you may 
have.
    Mr. Frelinghuysen. Ms. Thompson, thank you for your 
testimony and for all the emphasis added, which we appreciate. 
The Housing Finance agencies do a great job.
    Ms. Barbara Thompson. Thank you very much. And I know we 
can look forward to your cosponsorship on H.R. 951.
    Mr. Frelinghuysen. I did not want to turn around to ask my 
staff whether I was a member or whether I cosponsored it or 
not. But having revealed my ignorance, I will stop right there.
    Ms. Barbara Thompson. You can be number 299.
    Mr. Frelinghuysen. All right. Well, thank you so much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

DR. THOMAS L. JONES, MANAGING DIRECTOR, WASHINGTON OFFICE, HABITAT FOR 
    HUMANITY INTERNATIONAL
    Mr. Frelinghuysen. Dr. Thomas L. Jones, Habitat for 
Humanity International--one of our favorites, thank you. How 
are you? Nice to see you.
    Dr. Jones. Good to see, sir. Good to see you again.
    Mr. Chairman and appreciated staff, colleagues all, it 
really is an honor to appear before you on behalf of Habitat 
for Humanity International, and especially on behalf of the 
hundreds and hundreds of partner families who have and will 
continue to achieve the American Dream of home ownership as a 
result of what you and we are doing together.
    I do want to introduce Amy Randall, who is our director of 
government relations, used to be one of your own up here on the 
Hill and for the last three years has been that with Habitat 
for Humanity.
    I do not need to explain Habitat for Humanity to anyone on 
this committee, for every member of this committee has taken 
part in the Houses That Congress Built and in other processes 
through the years. And we are grateful for the continuing 
example that this sets through the Houses That Congress Built. 
In June, Chairman Walsh leads the way this year as he 
participates in the blitz-build of the four Jim Walsh Houses 
That Congress Built as a part of a Syracuse neighborhood 
initiative. Mr. Chairman, I am sure he would be glad to have 
you that week of June 9th, if you would like to join that.
    Mr. Frelinghuysen. These are the Houses That Walsh Built?
    Dr. Jones. These are the Houses That Walsh Built, yes.
    Mr. Frelinghuysen. I had better get up there very quickly. 
Syracuse or bust, right?
    Dr. Jones. This annual chance to report the state of 
Habitat for Humanity to you is truly appreciated. The state of 
Habitat is good. In spite of the downturn in the economy and 
the drain of resources caused by 9/11, we have tightened our 
belts and bulled our necks to keep on target to build our 
second 100,000 houses worldwide in these five years. We now are 
building a house about every 26 minutes someplace in the world.
    We could not do this without our partnership with you in 
the Congress, and that is the truth. The two key programs that 
you support make all the difference in the world in the number 
of Habitat houses that we build in the United States.
    Capacity building for Habitat for Humanity, a part of 
Section 4 of housing legislation, makes it possible for the 
1,634 affiliates in the United States to have capacity to 
greatly increase the number of houses they can build. These 
affiliates each have their own 501(c)(3) status, as you know; 
their own locally elected board. Yet the truth is that over a 
half of these over 1,600 affiliates have absolutely no paid 
staff at this time. And we are working with your committee 
staff and with HUD to make capacity building with Habitat for 
Humanity even more productive in this coming time. 
Respectfully, we request $10 million for capacity building for 
Habitat for Humanity. It will be used efficiently and 
effectively in the way that you intend.
    The second major program is Self-help Home Ownership 
Opportunity, commonly called SHOP. This can be used only for 
land and infrastructure. One house is produced for every 
$10,000 of government funds. To date, when we finish the 
mandated schedule of fiscal year 2001, Habitat will have built 
7,382 houses from this program, resulting in 26,132 Americans 
living in their own homes; 16,551 of these are children. And 
these are children who wake up every day, eat breakfast in 
their own homes, do their homework in their own bedrooms and so 
forth at night. Most of these families are in the below-50 
percent of median income in the communities in which they live.
    We compete for this funding through the HUD NOFA. The two 
great uses are HAC--Housing Assistance Council, and Habitat for 
Humanity. Both HAC and Habitat have had experience, which leads 
us to be requesting through the legislative process and also 
through the regulatory process that the $10,000 minimum be 
increased to $15,000, with a special waiver that the secretary 
of HUD might make for really high areas. We have discovered 
that both HAC and Habitat, the average price for land and 
infrastructure at this point is $22,000. We are confident that 
this money can be used, and so we respectfully request the 
administration's request, which is this year to triple the SHOP 
program monies for land and infrastructure.
    There are many more details in our written testimony, and 
certainly we are glad to answer questions now or in writing 
later. But suffice it to say Habitat for Humanity cannot do its 
mission apart from you. And most of all, on behalf of the 
hundreds and hundreds of families who enjoy the American Dream 
of home ownership, we are here to say thank you.
    Mr. Frelinghuysen. Well, thank you, and thanks for the 
great work Habitat does. Certainly in my community, you have a 
very active group of people. And I can say, after they took the 
hammer away from me and the families moved in, they were very 
happy. And they were truly representative of that American 
Dream. It was absolutely great and inspiring. Thank you.
    Dr. Jones. Thank you, sir.
    Mr. Frelinghuysen. Thank you for being here.
    Dr. Jones. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

NAN ROMAN, PRESIDENT, NATIONAL ALLIANCE TO END HOMELESSNESS
    Mr. Frelinghuysen. Nan Roman, representing the National 
Alliance to End Homelessness. Ms. Roman, thank you for being 
here.
    Ms. Roman. Thanks for allowing me to come. And thanks for 
allowing us to testify today. I am going to focus on the 
homeless programs at HUD.
    The reason we have homelessness in America today really is 
because there is not enough affordable housing. And if there 
were enough affordable housing, we would not have widespread 
homelessness. When we had enough affordable housing, we did not 
have widespread homelessness. But I think the question that 
faces us is not could we end homelessness if we had enough 
affordable housing, but can we end homelessness if we do not 
have enough affordable housing? Because, unfortunately, as much 
as we would like to see that happen, it does not seem to be on 
the horizon anytime soon.
    We believe that the answer to that is yes, and in fact that 
we can make progress on ending it. And in fact, the 
subcommittee, and you as well, have done a tremendous amount 
over the past few years to help us do that. About 20 percent of 
people who become homeless are homeless for long periods of 
time, sometimes for years. These are people who also have 
chronic illnesses, chronic mental illness, HIV AIDS, and so 
forth, and who really live on the street. These people need 
permanent supportive housing, housing with services.
    The administration has proposed to end chronic homelessness 
in its budget. It proposed ending chronic homelessness within 
10 years, and we are extremely supportive of that goal. But 
there are some things we need to do in order to get there.
    Allowing people to live on the street is very costly, the 
public systems of care. A recent study by the University of 
Pennsylvania examined the cost of public systems of care when 
mentally ill adults are homeless. Using actual administrative 
data, not sampling, they found in New York City that a mentally 
ill person living on the streets and in shelter is using about 
$40,000 a year in public services--hospitals, mental health 
facilities, jails and prisons, and so forth. And they also 
found that the cost of providing people with housing and 
services for a same year, permanent housing and services, is 
about the same. It is about $900 a year more.
    So we are going to pay for these people one way or another, 
and it certainly makes a lot more sense to bring them in off 
the streets and have them in housing. We know that permanent 
supportive housing works. We should do it, and we support the 
administration's commitment to do more of it.
    The committee has already taken, as I said, extraordinary 
leadership on this issue, targeting 30 percent of the Homeless 
Assistance Grant funds to this purpose, providing renewal 
funding for these units so that we can build the supply, 
requiring data that helps jurisdictions identify who these 
chronically homeless people are.
    One further action could result, we think, in the provision 
over 10 years of some 200,000 units of permanent supportive 
housing that could end chronic homelessness and fulfill the 
administration's commitment, and this is covering the renewal 
of permanent housing contracts so that the 30 percent set-aside 
is incremental units each year. And we recommend that this be 
done, covering these renewals, by moving them into the housing 
certificate fund.
    If we are going to go to scale on permanent supportive 
housing, we are going to have to have reliable, predictable, 
understandable renewal funds. Without it, the financial 
institutions are not going to capitalize these projects and the 
nonprofits are not going to be able to do them. So we urge you 
to do this. This is also the path that has been taken in the 
Roukema bill, H.R. 3995, and the authorizing bill.
    About 80 percent of people who become homeless are not in 
this category; they are people who really are having a housing 
crisis and do not spend very long in the system. They enter and 
exit; they do not come back. We are doing a much better job for 
them, but we are not quite able to meet the need. We urge you 
to invest $1.8 billion in the Homeless Program so that we can 
meet the need overall. And there some other recommendations we 
have in our testimony.
    We are terribly grateful to the committee for the work it 
has done on this and the progress we have made on it in the 
past. Thank you so much.
    Mr. Frelinghuysen. Well, thank you for your good works, and 
specifically for the recommendations you have made here. Some 
of them, I think, make very good sense. The issue of people 
that are chronically homeless is a huge issue, and you 
certainly approached it in a most comprehensive manner. Thank 
you.
    Ms. Roman. Sure. Thank you. Thanks for your help on that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

LISA ZUCKOFF, EXECUTIVE DIRECTOR, WHEELING, WEST VIRGINIA HOUSING 
    AUTHORITY; ON BEHALF OF THE PUBLIC HOUSING AUTHORITIES DIRECTORS 
    ASSOCIATION
    Mr. Frelinghuysen. Thank you. Lisa Zuckoff, representing 
Public Housing Authority Directors Association. Thank you.
    Ms. Zuckoff. You are welcome. I am from Wheeling, West 
Virginia, and we represent Housing Authority, 900 public 
housing units, 500 Section 8, and Act of Hope VI Program which 
does show that medium-size housing authorities can really 
manage Hope VI well.
    I would like to just summarize some of the points, but 
before I do we would like to very much thank the subcommittee 
for the work they did in fiscal year 2002 in restoring many of 
the appropriations that were scheduled to be cut through the 
HUD budget.
    If I could just summarize, we have some proposals that we 
would like to bring before you. Public Housing Operating Fund, 
HUD is requesting $3.53 billion. PHADA would like the 
recommendation that we go to $3.6 billion. Public Housing 
Capital Funds, the budget request is $2.426 billion. PHADA 
would like to recommend $3.5 billion. I would like to come back 
to that very important subject in a few minutes. Public Housing 
Direct Donation Program, HUD has requested zero funds and PHADA 
is recommending $410 million. Hope VI Program, HUD has 
requested $574 million, and PHADA would like to recommend $625 
million, and Section 8 vouchers, HUD has requested to renew the 
existing vouchers and PHADA would like to agree with that 
recommendation.
    Mr. Frelinghuysen. You agree with at least one of their 
recommendations.
    Ms. Zuckoff. Yes, we do. And some of them aren't so far off 
also.
    The two things I would like to talk about especially today 
are the Public Housing Operating Fund and the Capital Fund, as 
well as the drug elimination program. In our agency and housing 
authorities all over the country, drug elimination has served a 
tremendous need in the communities to help keep public housing 
safe, and keep people who are lower income from being predators 
of violent criminal activity and drug activity, and that money 
at the end of this fiscal year will expire, and we are very 
concerned about the effects that that is going to have on the 
communities around the country, and we would really like you to 
consider that.
    Some of the other ways that you can fund drug elimination 
programs is through the Operating Fund, which is proposed to be 
cut, and the Capital Fund. The Capital Fund very much concerns 
PHADA and housing authorities around the country, and we do 
represent 1,900 housing authorities around the country. Out of 
the Capital Fund the Department proposes to have set asides for 
resident opportunities and self-sufficiency programs, for 
technical assistance, for emergency needs, for HUD's own 
working capital fund, for neighborhood network computer 
programs and for a total of 2.18 million for those programs. 
While we agree that all of those are important, we really would 
like them to be funded separately and not as set asides out of 
the Capital Fund needs.
    These funds that are going to be cut are very much going to 
be hurting housing authorities. We need to have a way to 
maintain the public housing stalk. There is a $90 billion 
investment for some housing authorities across the country, and 
there is a backlog of capital improvement needs in excess of 
$20 billion by HUD's own numbers. I know that the Department 
has talked about the backlog of needs and Assistant Secretary 
Liu last month talked about barely being $42 million in funds 
that could be taken back from housing authorities, and when you 
are talking about a total of $12 billion, that really isn't a 
bad record, and while you would also consider when they are 
talking about those numbers that 6 months into the fiscal year 
HUD still has $3 billion left to get out their own door, which 
makes it difficult to spend the money if you don't have access 
to it.
    So we would really like to encourage the committee members 
to think about these cuts, and the operating funds, where we 
have had major increases in utilities, the insurance cost after 
September 11th. We saw a 17 percent increase in just natural 
gas last year. Many of us bought gas at the well head. That has 
gone away. Now we are paying tariff rates, and without the 
money to pay for that, those services have to be taken care of, 
we have to make those needs before we can take over anything 
else. The utility expenses, so we would like you to consider 
all of that, and I would be glad to answer any questions.
    Mr. Frelinghuysen. Well, you have done an excellent job 
providing a very comprehensive perspective on some critical 
issues to you and to all of us. Thank you very much.
    Ms. Zuckoff. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

CHRISTINE CAMPBELL, DIRECTOR, SCHWARTZ HOUSING SERVICES, WHITMAN-WALKER 
    CLINIC, PRESIDENT OF NATIONAL AIDS HOUSING COALITION
    Mr. Frelinghuysen. Christine Campbell, representing the 
National AIDS Housing Coalition. Ms. Campbell, thank you very 
much for being here this afternoon.
    Ms. Campbell. Good afternoon. Thank you for having me. I 
really appreciate the opportunity to testify before you today.
    As you know, my name is Christine Campbell, and I'm the 
Director of Schwartz Housing Services at Whitman-Walker Clinic 
in addition to being the President of the National AIDS Housing 
Coalition, so not only do I spend my time hoping to educate 
people about what the needs are for people living with HIV and 
AIDS, I also actually provide some of the services to people as 
well.
    AIDS is an impoverishing disease. 91 percent of all housing 
opportunities for people living with AIDS, clients in 2000 were 
individuals with households of less than $1,000, and in more 
than half of those households earned less than $6,000 per year. 
Because people living with HIV and AIDS are so poor and face 
unparalleled discrimination, homelessness is a persistent 
threat for our clients. Housing therefore is one of the 
greatest needs of our clients. Stable housing is a key to their 
survival. Without it they cannot access the complex treatment 
and care critical to their survival.
    Research has demonstrated that stable housing combined with 
locally-designed supportive services that meet their complex 
needs substantially increases the ability of poor and low 
income persons living with this terrible disease to access and 
adhere to life-sustaining HIV and AIDS treatment. Despite the 
central role of stable housing and linking those living with 
HIV and AIDS to medical and supportive services, access to 
housing is difficult for a myriad of reasons.
    Persons with HIV and AIDS cannot afford to wait on long 
waiting lists for Section 8 and other assisted housing 
programs. Even if they receive a voucher, fair market rents in 
many parts of the country render them useless. Little or no 
assistance is available to assist in locating housing, 
transportation and child care, and for persons living with the 
disease, rental market discrimination is often more pervasive 
than for persons living with other diseases of disabilities 
because of sustained and public misconceptions about the virus 
and its transmission.
    The Housing Opportunities for People with AIDS Program 
helps people living with HIV and AIDS to bridge the gaps of 
affordability and discrimination. Administered by the Office of 
HIV/AIDS Housing in HUD, HOPWA funds 108 formula jurisdictions 
and 22 competitive grantees across the Nation to address the 
critical housing needs of persons with HIV and AIDS and their 
families. HOPWA's technical assistance, funded with a 
percentage of the annual appropriation, supports training for 
strengthening the management operation and capacity of HOPWA 
grantees, projects, sponsors and potential applicants.
    HOPWA funds can be used for a long range of housing, social 
services, program planning and development costs including 
acquisition, rehabilitation or new construction of housing. 
They can be used for facility operations, rental assistance and 
short-term payments to prevent homelessness. Although other 
Federal programs administered by HHS and VA and other agencies 
share responsibilities for serving persons living with the 
disease, HOPWA is unique in that it fills a gap that other 
programs cannot. For example, SAMHSA, the Substance Abuse 
Mental Health Services Administration, provides treatments for 
individuals who are dealing with substance abuse issues, but it 
does not have a seamless service delivery system with Ryan 
White, the primary source of medical services for persons 
living with HIV and AIDS. Therefore, if a person is living with 
HIV and AIDS and has a substance abuse issue, they may need to 
develop their own system for getting their needs met.
    HOPWA, having housing and support services working together 
can effectively and efficiently serve the clients and meet 
their needs. Moreover, HOPWA's a very effective program. 
Savings are realized as stable housing and the adherence to 
treatment facilities reduce reliance upon expensive health care 
services such as inpatient care and emergency treatment.
    The National AIDS Housing Coalition and its constituent 
groups appreciate the administration's recommendation of a $15 
million increase for HOPWA over fiscal year 2002, during which, 
according to HUD, 61,700 persons can be assisted in about 
49,400 units of housing. 29,700 of these units, more than half, 
will represent a small-term, short-term rental assistance 
payments. Despite this increase, however, more money and 
resources are still needed. Our proposed funding increased to 
325 million is made necessary in part by the fact that more and 
more jurisdictions are becoming eligible for HOPWA, for HOPWA 
formula funding as they reach 1,500 cumulative cases of AIDS in 
their jurisdictions.
    So our recommendations are as follows, that we vet, of 
course, funding housing opportunities for people with AIDS at 
325 million for fiscal year 2003. The need continues to 
outstrip the resources in every part of the Nation. Waiting 
lists are just astronomical. For instance, San Francisco it is 
4,700, St. Louis 468, Dallas 200, and here in D.C. over 500 
people are on the waiting list. And not surprisingly, the 
disease disproportionately impacts communities of color. 53 
percent of the recipients of HOPWA are black or African-
American, 20 percent Latino, Latina, 1 percent Asian-Pacific 
Island or 1 percent Asian-American, Alaskan Native and 24 
percent Caucasian. Our other recommendation is that we shift 
the renewals for shelter plus care and permanent housing funded 
under Supportive Housing Program from the Homeless Assistance 
Grant Program to the Housing Certificate Fund. Since HIV/AIDS 
housing providers rely heavily on other Federal low income 
housing programs, we urge the committee to consider funding 
these critical programs as well, including Section 8, Section 
8-11, the McKinney-Vento Supportive Housing and Shelter Plus 
Care Programs, among others.
    Permanent supportive housing is a critical part of the 
safety net for disabled homeless people including those living 
with HIV and AIDS. We request that the subcommittee shift the 
renewals for Shelter Plus Care and permanent housing funded 
under the Supportive Housing Program from the Homeless 
Assistance Grant Program to the Housing Certificate Fund. 325 
million for HOPWA for fiscal year 2003 will allow communities 
across the country to provide critical housing assistance and 
supportive services to persons living with HIV and AIDS at a 
time when their needs are becoming ever more pressing.
    Mr. Frelinghuysen. You got through it, Ms. Campbell. 
Congratulations. [Laughter.]
    You did a great job.
    Ms. Campbell. It is my first time testifying.
    Mr. Frelinghuysen. You did a great job, and I think we are 
pleased the administration is adding more money for HOPWA, and 
obviously there will be attempts, I assume to add more, and it 
is needed. There is still an epidemic. Housing is a huge issue. 
Thank you for being with us.
    Ms. Campbell. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                               WITNESSES

HON. RICHARD BURR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
JOANNE C. RUHLAND, ASSISTANT DEAN, GOVERNMENT RELATIONS AT WAKE FOREST 
    UNIVERSITY BAPTIST MEMORIAL CENTER
    Mr. Frelinghuysen. The Chair is very pleased to recognize 
one of my colleagues. Richard Burr, who is here on behalf of 
Wake Forest University, and Joanne Ruhland. Welcome. Thank you 
both for being with us this afternoon.
    Ms. Ruhland. Thank you.
    Mr. Frelinghuysen. Richard, nice to see you.
    Mr. Burr. Nice to see you.
    Mr. Frelinghuysen. A copy of your entire statement will be 
a matter of the public record, and maybe I will turn the floor 
over to my colleague maybe to introduce you and the subject. 
Richard?
    Mr. Burr. I thank the Chair and I thank the committee.
    Let me just say that it is no secret to any of our 
colleagues up here the tremendous downturn that we have seen in 
North Carolina as well as throughout the South in the textile 
and tobacco world, which has traditionally has been our major 
employers. Even though we have seen it, we are not going to sit 
idly by and let those individuals be displaced. And I think 
that it is through that effort that we tried to target the 
strengths that we had not only throughout the South, but 
specifically in Winston-Salem.
    One of our greatest assets is Wake Forest University and 
their affiliation of the Wake Forest School of Medicine. It is 
an honor for me to have Joanne Ruhland, who is the Assistant 
Dean and a faculty member of Wake Forest to talk about a 
partnership that this committee, this Congress has helped to 
fund in the past, that has proven to be a tremendous leverage 
between private dollars and Federal investment in new 
technologies, and I want to turn it over to Joanne Ruhland to 
go over the specifics.
    Mr. Frelinghuysen. Well, welcome. You have a wonderful and 
articulate advocate in my colleague. I can tell you we hear a 
lot about Wake Forest, absolutely, and the good work you are 
doing.
    Ms. Ruhland. Thank you.
    Mr. Frelinghuysen. Please proceed.
    Ms. Ruhland. Good afternoon, Mr. Chairman, and members of 
the subcommittee and the staff. My name is Joanne Ruhland and I 
am the Assistant Dean of Government Relations at Wake Forest 
University Baptist Medical Center.
    I am here today first of all to thank you so much for the 
$700,000 VA/HUD economic development initiative grant which was 
appropriated in the fiscal year 2002 bill. We are working with 
the agency right now and filling all of the necessary paperwork 
and that money is going to be used for design work, engineering 
and planning, and what is envisioned to be 100,000 square foot 
multi-tenant multi-use biotechnology research facility serving 
both public and private operations.
    The estimated cost of the building is about $12 million. In 
addition to wet lab space, the building will contain office 
space, meeting rooms and a 250-seat auditorium, and the 
completion of this building will help to increase the growth 
and emerging and established businesses in biotechnology, 
pharmaceuticals, nutrition, medical devices, and imaging and 
information technologies, thereby creating new jobs for workers 
of Winston-Salem and Forsyth County in North Carolina.
    Secondly, I am here to request the subcommittee's support 
of a $3 million economic development and initiative grant to 
continue work on this facility which will house the research 
departments of Wake Forest University School of Medicine and 
Winston-Salem State Universities. These two universities have 
formed Idealliance, whose function is to create a new economic 
base for Winston-Salem and Forsyth County by promoting a 
productive academic industry government collaboration.
    We seek this construction grant to help transform the 
Northwest Piedmont area from our tobacco-dependent economy to 
one that is technology driven. As Richard said, we have lost a 
lot of jobs because of the tobacco and the textile area, but 
that whole area is probably the most dependent on tobacco in 
the State and tobacco manufacturing firms, primarily R.J. 
Reynolds, they employ more than 6,000 people, about one-third 
of whom live outside Forsyth County. And the farmers produce 
roughly 11 percent of the State's tobacco crop. There was a 
study done by NC State University, and they found that the 
Piedmont triad, including Forsyth and surrounding counties will 
suffer the worst economic loss of any region of the State as a 
result of the tobacco settlement.
    We have a limited capacity to recover from further 
reductions. We have also suffered through a long-term decline 
in the manufacturing employment base. Forsyth County, the 
region's industrial center, the manufacturing employment 
decreased by 26 percent from the period 1980 to 1998 compared 
to about a 1 percent increase statewide. Because of the decline 
of manufacturing employment opportunities, displaced workers 
and new low-skilled entrance to the workforce, they have been 
forced to look elsewhere for employment opportunities. And the 
local employment sectors that saw growth such as banking and 
retail services have not provided comparable wages to the lost 
manufacturing jobs for workers with only manufacturing skills.
    In order to improve employment prospects for persons 
displaced from the tobacco manufacturing and now the banking 
industry, it will be necessary to create a new economic base 
for Winston-Salem and Forsyth County.
    And Idealliance was created in 1998 with funding 
commitments of over $2.2 million from local businesses and 
nonprofit institutions to promote this academic, industry, 
government collaboration, and in addition to the funds raised 
by Idealliance we received a grant from the State of North 
Carolina of $3.1 million which was used to purchase 23 acres of 
land in downtown Winston-Salem.
    We have a Piedmont Triad Community Research Center, which 
is 120,000 square foot renovated research facility owned by 
Wake Forest University School of Medicine, which shares the 
building with researchers from Winston-Salem State University. 
The School of Medicine has spent over $8 million to renovate 
this facility. Another building called Albert Hall contains 
almost 90,000 square feet of office and lab space, which is 
full leased to such companies as Pilot Therapeutics and 
Amplistar, which are spinoff companies of the research and 
clinical faculty of the Medical School. Also just recently the 
school purchased One Technology Place for $8.5 million, and 
this is an 88,000 square foot office and lab building which 
houses pharmaceutical and computer start-up companies which 
were also spinoffs of the medical school and the universities.
    The construction project funded by a grant through the EDI 
will help downtown Winston-Salem become an exciting and 
attractive area where academic, business, government and 
nonprofit partners collaborate on the birth and proof of 
innovation, increasing the quality and speed of technology 
development and decreasing the time it takes to get these 
discoveries to market.
    Thank you for your consideration of the request. I will be 
happy to answer any questions you may have.
    Mr. Hobson [presiding]. Well, thank you very much. First of 
all, did you say anything, Richard, before I got here?
    Mr. Burr. I did.
    Mr. Hobson. I am sure it must have been most profound.
    Ms. Ruhland. It was.
    Mr. Hobson. I am sure it was.
    Mr. Burr. Let me add one thing if I could, and I think it 
is very unique in this particular situation. This is a 
partnership not only of public and private. Within the private 
side this is a partnership between a historic black college, 
Winston-Salem State University, part of our university system, 
and Wake Forest School of Medicine. So it is a unique 
partnership in all aspects of it, and brings tremendous 
resources that we have found to be very helpful in this 
project.
    Mr. Hobson. Well, having the oldest historic black college 
in my district, I am very interested in those types of projects 
and cooperation between the universities, and you couldn't have 
brought a better advocate than Richard with you, at least with 
me anyway. Probably was a negative with the rest of the people, 
but----
    [Laughter.]
    Mr. Hobson [continuing]. It is okay, he is fine with me. 
And it sounds like a very interesting project from what I have 
just heard, and we wish you well with the committee.
    Ms. Ruhland. Thank you.
    Mr. Burr. Thank you, appreciate it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

HON. DAVID DERMER, MAYOR, CITY OF MIAMI BEACH, FLORIDA
    Mr. Hobson. Next we have the City of Miami Beach, Florida.
    Mr. Dermer. Hello, Mr. Chair.
    Mr. Hobson. Hi. How are you?
    Mr. Dermer. I am Mayor David Dermer of the City of Miami 
Beach, Florida. It is a privilege and a pleasure to appear 
before you today.
    We have a number of issues that face many cities in the 
country today. One is homelessness. We have a homeless 
initiative, and within the Miami-Dade County area, the City of 
Miami Beach is singularly attractive to homeless migration. In 
1999 the city administration, the City of Miami Beach Police 
Department and the Committee on Homelessness, developed a 3-
year pilot program to further address the needs of homeless 
individuals and families on Miami Beach. Services included 
outreach and emergency shelter for homeless individuals 
identified by the police department and local service 
providers.
    Several obstacles have been identified that have an impact 
on the ability of the City of Miami Beach to meet the needs of 
its homeless population. First and foremost is the lack of 
funds. The second largest obstacle is the need for coordination 
of housing and supportive services. The third and final 
obstacle is the lack of data on the homeless population in 
Miami Beach and its treatment needs.
    The city also expends approximately $2 million a year in 
Federal funds on affordable housing. The city funds 
approximately $500,000 each year in social services for low and 
moderate income residents, which includes homeless individuals. 
The target population that we are looking at are very, very 
hard core homeless. They are involved in heavy substance abuse 
problems and also mental illness, and though there are those 
within the homeless advocacy world that seem to want to develop 
a constitutional right for people to sleep on the street, if it 
were your brother or your sister you would do everything you 
could to get them off the street. We have been trying to make 
this outreach and we need this money, Federal money, to try and 
really get in there and continue that outreach and get these 
folks the help that they need.
    Another issue that we are facing, our city is 87-years-old 
now. We have a problem with storm water and drinking water 
issues.
    Mr. Hobson. Biscayne Bay?
    Mr. Dermer. Yes. We are replacing the majority of the water 
systems within our city due to corroded pipes, et cetera. And 
we have a unique city in Miami Beach in that we have a 
permanent population of a little less than 100,000, but on any 
given weekend we can swell to 300,000 or 350,000, so not only 
is that a drain on our resources for services, police, fire and 
sanitation, but we also have issues relating to the 
infrastructure.
    So we have a large bond program going on in the city now at 
a cost of approximately $200 million. $90 million of those 
bonds have already been issued. We are asking for Federal 
contribution in the amount of 10 percent, and that Federal 
contribution will help alleviate the typical residential water 
and sewer rates, which are approximately $532 a year. That 
would help alleviate it to--it would be $550 a year if we 
didn't have that, if we don't have the Federal contribution. 
And that means a lot to people that are in our city and are 
trying to make ends meet.
    We also are the mecca of culture for our particular area. 
Miami Beach is. Our cultural institutions are tremendous. We 
have world renowned museums. We also have a number of things, 
the New World Symphony, the Miami Ballet, and we are trying to 
expand because we have found that every dollar invested in 
cultural institutions comes back three or four-fold to us from 
tourism and the jobs that it creates.
    The Byron Carlyle Theater is a theater that we purchased. 
It is an old movie theater that we are rehabbing as a phased 
project. We are looking at three phases. We have completed 
Phase I already to the tune of half a million dollars, and we 
are looking for monies to help proceed and complete that 
renovation. So we are looking for $5 million for the North 
Beach Cultural Center. We have found that that has spurred on 
great economic development in South Beach, and we are looking 
forward to that happening in North Beach.
    I thank you for your time and your attention, Mr. Chair.
    Mr. Hobson. Let me ask a question. Whose district is it or 
whose district will it be in, in your best judgment?
    Mr. Dermer. It has been divided. Our legislature, as you 
know, has done the division, and it is in court right now, but 
Ileana Ros-Lehtinen will take half the city and the other half 
will be Mr. Deutsch, Peter Deutsch. Mr. Shaw has been moved up 
to Palm Beach area.
    Mr. Hobson. Because I thought it was in Shaw's district 
before.
    Mr. Dermer. Yes. We were, Clay Shaw, who has done a 
terrific job for us over the years, but for whatever reason the 
boundaries have changed, and he is moving up to the Palm Beach 
area.
    Mr. Hobson. Okay. Well, I just was interested because 
having been down there about a year or so ago and observing 
some things going on there, I thought it was a little different 
than that, and I happen to be over on the other coast a little 
bit, more than I am over on your coast.
    Mr. Dermer. Well, the goings-on in our county are I think 
well known just about everywhere. [Laughter.]
    Mr. Hobson. Well, we wish you well with the committee, and 
I am sure Mrs. Meek is going to be very interested also in what 
happens and will be an advocate along with your other two.
    Mr. Dermer. I thank you, sir, for your time and attention.
    Mr. Hobson. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

JOYCE GRANGENT, ILLINOIS PROGRAM OFFICER FOR SERVICES AND PROGRAM 
    DEVELOPMENT; ON BEHALF OF THE CORPORATION FOR SUPPORTIVE HOUSING
    Ms. Grangent. Thank you Representative Hobson and members 
of the subcommittee. My name is Joyce Grangent, and I am here 
to testify on behalf of Corporation for Supportive Housing.
    Corporation for Supportive Housing is the only national 
nonprofit intermediary dedicated solely to helping community-
based nonprofits and local government stakeholders to develop 
and operate permanent supportive housing.
    I felt compelled to come to Washington today and appear 
before this subcommittee because a critical appropriation issue 
threatens our progress to end homelessness. If this 
subcommittee fails in fiscal year 2003 to act decisively to 
resolve for good the ongoing crises of expiring operating 
subsidies under the McKinney-Vento Shelter Plus Care Program 
and the Supportive Housing Program by renewing these programs 
from the Housing Certificate Fund, the tenants of permanent 
supportive housing across the country risk losing their 
housing.
    Nonprofit agencies like Lakefront SRO or Cathedral Shelter, 
along with their government partners will be unable to keep 
their buildings operating, much less develop the new units to 
meet the pressing need for housing and services.
    What is supportive housing? It is affordable housing linked 
to flexible, accessible and support services. I know firsthand 
about the effectiveness of permanent supportive housing. In the 
mid 1990s I experienced a devastating period of homelessness in 
Chicago. During this time I struggled with drug and alcohol 
abuse and suffered from poorly-treated mental illness, 
including major depression. Luckily, a social worker referred 
me to Lakefront SRO Corporation, which offered me a unit in the 
Delmar Apartment Permanent Supportive Housing Project. At the 
Delmar I was provided all the support I needed to address my 
addiction and mental health issues, coupled with all the 
independence I could handle, both in my tenancy as a 
leaseholder and in my life. This special combination soon 
provided the base for me to reenter the labor force.
    At first I volunteered extensively at the Delmar and in 
other Lakefront buildings, doing everything from tenant 
advocacy in the State capital, to working on the tenant 
newspaper. Then I joined the professional staff of Lakefront 
SRO itself, and was employed for over 4\1/2\ years in their 
innovative employment and training program. In time I not only 
moved on to my current position as program officer for 
employment initiatives at Corporation for Supportive Housing 
Illinois Field Office, helping groups like Lakefront and others 
establish and expand employment programs. I also got married 
and now I own my own home.
    I feel strongly that none of this would have been possible 
without the opportunity at the most desperate time in my life 
to live in permanent supportive housing for as long as I needed 
to.
    I am here today to ask that you fix the renewal problem for 
the foreseeable future by renewing the expiring subsidies under 
these two McKinney programs from the Housing Certificate Fund.
    I hope that my written and spoken testimony might help to 
impress upon you the importance of fixing the problem in the 
fiscal year 2003 HUD appropriation bill.
    As I did my job to work on my recovery and housing 
stability, I ask that you do your job to help homeless people 
across this Nation have a permanent affordable home and a 
reliable subsidy.
    Let me briefly underscore the importance of an operating 
subsidy like those under the Shelter Plus Care and SHP programs 
and how it played out in my transition from homelessness to 
home ownership. Like most formerly homeless tenants of 
permanent supportive housing, when I first moved into the 
Delmar Apartments, my income was so low that I could not afford 
to pay enough rent to cover what it cost Lakefront to operate 
the apartment I lived in, but that was okay. Lakefront was able 
to rent me my unit for 30 percent of my income because they 
received a rent subsidy under the Section 8 program. Lakefront 
could depend on HUD to make up the difference between what I 
could afford to pay and the cost of operating the apartment I 
lived in. But for other tenants supported by the SHP operating 
subsidy, there is no such certainty. For me, this mean that 
when my income was near zero, as it was when I first entered 
the Delmar, I didn't have to worry about losing my housing due 
to poverty. At the same time as my income increased when I got 
back on my feet, acquired more job skills and began earning 
income, I was responsible for paying progressively higher rent. 
As I mentioned, eventually my income rose high enough that I 
could actually afford a mortgage on my own home, truly the 
American and my own dream. Such personal and financial goals 
are attainable for many supportive housing tenants, but not 
all. I want to tell you that I still have friends living at the 
Delmar, who are living a satisfying life off the streets in 
their apartment among friends and with access to services they 
need. We cannot turn our backs on them, nor can we ignore the 
fact that many more homeless people need a place like the 
Delmar.
    Why do we at CHS think the subcommittee should renew these 
subsidies from the Housing Certificate Fund? The time limits 
here prevent me from telling you about the reasons, and I refer 
you to my written testimony.
    Let me close my comments by asking you where do you think I 
might be today if my housing subsidy was not renewed and I had 
to leave the Delmar? And what would happen to homeless people 
if the planners of homeless assistance are unable to rely on 
renewed funding for our Shelter Plus Care and SHP programs? 
Thank you for listening to my testimony.
    Mr. Hobson. Well, thank you for all you have done. I only 
wish more members were here to hear your story. I mean you are 
very inspiring in what you have done, in what you have made of 
yourself. I am sure people helped you, but it had to take you 
to do it. It is people like you testifying, in my opinion, who 
make a difference on what happens to programs, and it is truly 
inspiring to have you here and I congratulate you.
    Ms. Grangent. Thank you.
    Mr. Hobson. Thank you. And you have an Ohioan with you, I 
understand today?
    Ms. Grangent. Yes, I have.
    Mr. Hobson. Bill Flaherty is with you from Ohio.
    Ms. Grangent. Yes.
    Mr. Hobson. I also know his wife.
    Ms. Grangent. Okay.
    Mr. Hobson. But again, I really mean that, what I said. It 
is very inspiring to have you here. Thank you.
    Ms. Grangent. Thank you so much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

H.G. SCHWARTZ, JR., PH.D., P.E., PRESIDENT, AMERICAN SOCIETY OF CIVIL 
    ENGINEERS
    Mr. Hobson. We will now hear from the American Society of 
Civil Engineers. You guys better be good, because my son-in-law 
is a civil engineer. [Laughter.]
    Mr. Schwartz. I am afraid I can't be as inspiring as the 
very nice lady who preceded me.
    Mr. Chairman, good afternoon. My name is Jerry Schwartz, 
and I am the President of the American Society of Civil 
Engineers. I appreciate your invitation to testify on behalf of 
ASCE on the proposed budgets for EPA, FEMA and NSF for fiscal 
2003.
    The President has proposed a budget for EPA of $7.7 billion 
in 2003. Of immediate concern to ASCE is the President's 
intended funding levels for the Drinking Water and Wastewater 
Infrastructure State Revolving Funds. The President has 
proposed total funding of slightly less than $2 billion for 
these critical programs, an amount we believe is insufficient.
    Over the next 20 years America's water and wastewater 
systems will have to invest $23 billion a year more than 
current investments, just to meet existing national 
environmental standards and public health priorities, and to 
replace aging and failing infrastructure.
    In March of last year we issued our report card on 
America's infrastructure. Drinking water and wastewater both 
received a D. Nationwide communities are spending billions 
yearly for wastewater infrastructure, but the systems still 
face a shortfall of at least $12 billion annually. That is 
wastewater, and that is not including any growth in demand for 
new systems. The administration is actually proposing a cut in 
the appropriation for 2003 to $1.12 billion, a reduction of 
$230 million. But the needs are high, approximately $270 
billion nationwide through 2021 according to the EPA's own 
estimates.
    We recommend first that the Congress appropriate at least 
$3 billion in fiscal year 2003 for the Clean Water Act State 
Revolving Loan Fund Program.
    Turning to drinking water, the Nation faces an annual 
shortfall of at least 11 billion to replace the aging 
facilities that serve our communities. The deficit does not 
include any growth in the demand for drinking water over the 
next 20 years. The latest EPA survey indicates that the 
Nation's 54,000 community water systems will need to invest 
$384 billion over the next 20 years to install, upgrade, 
replace, operate and maintain those systems to ensure safe 
drinking water for 243 million customers.
    So our second recommendation is that the Congress 
appropriate $1 billion in 2003, the maximum amount authorized 
under the Safe Drinking Water Act Amendments of 1996 for the 
State Revolving Loan Fund for the drinking water program. This 
is less than 10 percent of the actual need.
    Finally, the funding authority for the National Dam Safety 
Program Act created in 1996 expires this year. The 
administration has requested a continuation of the program as 
part of its 2003 FEMA budget at the 2002 authorized level of 
$5.9 million. ASCE supports this funding level, but suggests 
that the committee consider a modest increased based on our 
proposal for reauthorization of the act, which would raise the 
funding level to $8.6 million including an additional $2 
million for state grants and $500,000 for research. This modest 
yet vital funding increase will enable the states to improve 
their fledgling dam safety program which in turn will translate 
into reduced risk to life and property.
    Dam failures, although perhaps rare, are extremely 
catastrophic and expensive, and we should give special 
attention to the old adage that an ounce of prevention is worth 
a pound of cure. We recommend, therefore, our third 
recommendation, that Congress appropriate $8.6 million for the 
National Dam Safety Program, a $2.6 million increase from 
fiscal year 2002 authorized levels and reflects our 
recommendation for reauthorization of that act.
    Mr. Chairman, that concludes my remarks.
    Mr. Hobson. Thank you. I don't want to prolong this too 
long, but I really am troubled by a couple of things. One, 
there is no question that we all face problems with just basic 
infrastructure in sewer, water, but we just seem to be doing 
the same old things. I mean we treat our sewage with fresh 
drinking water. I don't see any innovative programs. When I go 
to look at sewage systems and installations of new systems, you 
can go over to Turkey and go to--I can't think of the name of 
the place now--this old area where they have the sewage pipes 
made out of similar type stuff, much of which we still put in 
the ground, and this goes back centuries before Christ.
    And I am just concerned, that we are depleting a natural 
source. I mean I have underground water that we drink in a town 
I live in. If that underground water gets messed up where 
somebody puts a dump, as they tried to, over part of my area, 
we are in real trouble.
    Mr. Schwartz. For decades.
    Mr. Hobson. For a long time. Maybe forever. I don't know if 
you can get some of this stuff out. But we seem to be using, in 
a lot of respects, the same technologies to the respect that we 
did before. We don't seem to want to conserve water in a lot of 
places. I see where the City of New York is under an alert 
because they have a water shortage, but yet, we continue just 
to build willy-nilly and extend water lines and sewer lines 
everywhere, and I think one of the things we need to look at 
besides just spending money on perpetuating the system is we 
ought to look at how do we better work the system? I mean a 
whole industry has grown up today of bottled water, which is 
unbelievable how much people will pay for a bottle of water 
when you go back and look and see where some of it came from. 
You know, I am not so sure it is as good as----
    Mr. Schwartz. By the way, it is about $400 a barrel if you 
want to equate it to oil.
    Mr. Hobson. If you can equate it to oil. Now, you will get 
all the industry guys who bottle water to come in and be mad at 
me. But it is an amazing thing. We, at one time, in my town, 
one of the local dairies was actually bottling the water out of 
the spigot, and they said it was because it is from deep wells, 
and selling it. And that is what it was, bottled water, and it 
was a good deal for them.
    But I appreciate your problem, and certainly I am sure this 
committee will try everything it can to do this.
    Mr. Schwartz. May I respond just a moment to you?
    Mr. Hobson. Yes. And I think we need to look at some things 
that I am not sure civil engineers get into that side of it, 
but they do in the construction.
    Mr. Schwartz. No, we--that is my background. I have more 
chemistry and biology than I do structural engineering. Civil 
engineers are the ones that deal with the design of the 
processes and the systems for water and wastewater.
    First I would argue over the last 20 or 30 years, if we 
really look back, the Clean Water Act has done a remarkable job 
of cleaning up the water.
    Mr. Hobson. I agree.
    Mr. Schwartz. We have made advances in the technologies we 
use. We still collect waste waters and take them to central 
locations, and one might argue that on-site systems might have 
some advantage. The cost of those seems at this point to be 
orders of magnitude greater than centralized systems because of 
scale issues.
    I think your point is well taken though. We don't do enough 
research on the process side of the house, how we can do things 
better. Now, in truth, I think, starting 20 years ago, EPA 
started to move its research monies into more what is the 
impact on the environment rather than how we treat things 
better. And there is a very limited Federal budget. Some of the 
organizations have started, the civil engineers, the Water 
Environment Federation, research foundations, to try to pick up 
that slack, but frankly, they are woefully underfunded compared 
to the total need.
    Mr. Hobson. Maybe I ought to underline what you just said 
and some of the things--and people read these things I hope as 
they go through them.
    Mr. Schwartz. We could certainly use some support for 
additional research funding. That would be wonderful.
    Mr. Hobson. I think it is a real problem that we only tend 
to look at things when there are crises, but I think this one 
is a crisis. The one thing, if Joe Knollenberg were here, he 
would tell you he doesn't like those new toilets. [Laughter.]
    And I can tell you, I don't either, because I just had--I 
will tell you what you have got to have, and this is--you have 
to have a big plunger around when you got one of those. 
[Laughter.]
    And it just happened the night before last in my home, 
because I have a new home and we have those things, and what it 
does, it causes you to have a plunger and it causes you to 
flush about four times instead of one, and it is really kind of 
one of those things that we did--and I am not sure that anybody 
really looked at what happens when you do that. I know it 
sounds kind of dumb, and everybody laughs about it, but if you 
have those, there are problems with them that I don't think 
were anticipated when they were built, and somebody ought to 
look at that again. And Joe Knollenberg, we have laughed about 
it a couple of times, but since I got a new home, it has got 
these little toilets there. I don't know if they are not set 
right on the--I am also in the building business--they are not 
set right onto the base, I am not quite sure what it is, but it 
is a real problem. We now have a really handy-dandy super-duper 
plunger around.
    Mr. Schwartz. I would tell you civil engineers do not 
design the toilet. [Laughter.]
    As your son would probably tell you.
    Mr. Hobson. I will tell my son-in-law.
    Mr. Schwartz. Your son-in-law would tell you.
    Mr. Hobson. You know how sons-in-law are. Thank you very 
much. Appreciate it.
    Mr. Schwartz. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

DR. OSWALD P. BRONSON, SR., PRESIDENT OF BETHUNE-COOKMAN COLLEGE; ON 
    BEHALF OF THE UNITED NEGRO COLLEGE FUND (UNCF)
    Mr. Hobson. Dr. Oswald Bronson from the United Negro 
College Fund. And you have a very able person with you today 
too.
    Mr. Bronson. Mr. Chairman, I am Oswald P. Bronson, Sr., 
President of Bethune-Cookman College in Daytona Beach, Florida. 
Today I appear on behalf of----
    Mr. Hobson. You ever heard of Wilberforce College?
    Mr. Bronson. I was just about to say, Wilberforce and 
Bethune-Cookman College are a part of UNCF. Dr. Henderson is a 
good friend of mine.
    Mr. Hobson. Mine too. I was on the board for a long time.
    Mr. Bronson. Oh, good, he is most fortunate.
    Mr. Hobson. I am not on it any more. He got rid of me. I 
shouldn't say that. It is in the record now. He didn't really 
get rid of me. I got off of all college boards. I'm sorry, go 
ahead.
    Mr. Bronson. Yes, you were too busy, yes. Since 1944, as 
you well know, UNCF has been committed to increasing and 
improving access to college for African-Americans and remains 
steadfast in its commitment to enroll, nurture and graduate 
students who often do not have the social and economic 
advantages of other college bound populations.
    This subcommittee has attentively listened and responded to 
our concerns in the past. For this we thank you. There is no 
more important partner in HBCUs' mission to provide excellence 
and equal opportunity in higher education than the Federal 
Government. This fact is particularly important to emphasize at 
the outset of my testimony, given the extraordinary needs of 
this category of special mission institutions and the 
educational and family financial barriers facing our students.
    Despite these challenges, HBCUs have accomplished much and 
offer a wealth of resources and available talent that have over 
more than a century benefited our country. The VA/HUD 
Appropriation Subcommittee particularly can play a major role 
in taking advantage of the vast resources and talent of our 
HBCUs. The agencies under this subcommittee's jurisdiction 
cover a broad portfolio of programs and funding that it erected 
to institutions of higher education.
    Allow me to highlight the key points of our recommendation 
in order to convey to you the value and the vitality of 
America's HBCUs. You already committed, so just for the record.
    Mr. Hobson. But you need to talk about Carrie Meek too.
    Mr. Bronson. Yes, indeed, by all means.
    Mr. Hobson. Because she will get me if you don't talk about 
her in the record.
    Mr. Bronson. And be sure to state that we come with great 
praise, gratitude and celebration of this fine lady from the 
State of Florida, and who was faculty member at Bethune-Cookman 
College some years before she come in here.
    The noteworthy production of black scientists, 
mathematicians and engineers is an indication of one key area 
where the HBCUs contribute to this Nation's effectiveness. 
However, among the most obvious funding disparities and missed 
opportunities, to strengthen and broaden the network of 
institutions supporting our national scientific enterprises and 
interests, in comparison the our investment in all institutions 
of higher education are those of HBCU and minority programs at 
NASA and NSF.
    While these programs may be the best dedicated and proven 
programs at all of our Federal agencies to address the 
capabilities in science, mathematics, engineering and 
technology, HBCUs, they are lacking. If we truly aim to 
increase the numbers of minority mathematicians, scientists and 
engineers, minority math and science teachers, not to mention 
address the under performance of minority students in these 
subjects.
    Your continued leadership is also needed in leveraging HUD 
dollars to assist HBCUs reinvest in communities in which they 
reside. HBCUs could be the core for housing and community 
revitalization, particularly when one recognizes that the 
neighborhoods surrounding HBCUs have traditionally been the 
heart of the black community, our campuses, in fact, may be the 
greatest assets in the area.
    Mr. Chairman, to summarize I offer the following specific 
funding recommendations. National Science Foundation, as 
outlines in my statement to you, UNCF's recommendations for 
increases in the NS, HBCU and other minority focused programs 
for fiscal year 2003 collectively, total nearly $32 million. 
These five programs including the Alliances for Minority 
Participate, HBCU Undergraduate Education Program, Alliance for 
Graduate Education, Centers for Research Excellence in Science 
and Technology, and the HBCU Graduate Science and Engineering 
Program are the nucleus of NSF efforts to address individual 
student and institution capabilities.
    Just think for the good deal this investment would be for 
this Nation's HBCUs and their students if $32 million were 
added to these programs. We also support the President's 
request for the Math and Science Partnership Program, and would 
urge that Congress designate 15 percent of the funds to HBCUs 
as part of the Nation's strategy in this area.
    For NASA, the Minority University Research Education 
Program should be funded at $102 million. HUD HBCU Development 
Grant should be funded at $20 million. Additionally, $3.5 
million should be allotted to fund an independent assessment of 
the economic impact of HBCUs and their communities.
    In speaking with many of my colleagues, too often the real 
value of our institutions beyond the obvious education benefits 
is not recognized. A quantifiable analysis of the role of the 
HBCUs as a major driver within their local economies, 
especially in terms of community development, would provide the 
basis for future collaborations between HUD and the 
institutions. This is very important to our campus.
    Mr. Chairman, members of the subcommittee, I appreciate the 
time you have given me to present the views and recommendations 
of the United Negro College Fund.
    Mr. Hobson. And we thank you very much, and as you know, I 
am very supportive. And Lewis Stokes is on the board--at least 
I think he still is on the board of Wilberforce, and we worked 
together on that. So we thank you very much, sir, for coming.
    Mr. Bronson. Thank you so much for allowing me to be here.
    Mr. Hobson. Dr. Henderson is going to be in next week to 
see me.
    Mr. Bronson. Thank you.
    Mr. Hobson. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

RENE RODRIGUEZ, EXECUTIVE DIRECTOR OF THE MIAMI-DADE HOUSING AGENCY; ON 
    BEHALF OF THE COUNCIL OF LARGE PUBLIC HOUSING AUTHORITIES
    Mr. Hobson. Welcome.
    Mr. Rodriguez. Thank you, sir.
    Good afternoon, Mr. Chairman. I am Rene Rodriguez, a 
Director of Miami-Dade Housing Agency, and thank you for 
allowing me to represent CLPHA, Council of Large Public Housing 
Authorities, before this committee.
    As you may know, CLPHA's members managed over 40 percent of 
the Nation's public housing and almost 30 percent of the 
Section 8 tenant-based assistance. We want to thank you for all 
your support. You may know that public housing and Section 8 is 
home to many Americans that cannot afford housing in the 
private market. Our residents include 1 million elderly and 
disabled, about 250,000 veterans, and about 1.2 million 
children. We are very concerned, CLPHA is very concerned that 
for the second year in a row the HUD budget, public housing has 
received the most significant cuts.
    I would like to make 6 points if I may. Number 1, public 
housing programs are successful on the whole, well managed, but 
we need adequate resources to operate cost effectively. Since 
1937 it has provided shelter to billions of needy Americans, 
the ones who deserves it the most. Decent housing is the 
foundation to helping lower income families obtain training, 
education, employment, health care, leading to self 
sufficiency.
    Despite unsubstantiated claims to the contrary in the HUD 
budget for fiscal year 2003, the public housing program on the 
whole is effective and managed well. We do believe, CLPHA 
believes, that those housing authorities that misuse funds or 
do not operate properly, that they should be penalized. 
However, it has been--it is becoming increasingly difficult 
without proper resources.
    Two, we are concerned that the proposed 15 percent 
reduction in the public housing capital fund will reduce 
housing quality and will not be replaced through HUD's private 
debt financing strategy. We are concerned that public housing 
capital funds of which $417 million will have severe 
consequences on the public housing stock. The position that HUD 
has taken is that through private debt financing, we can 
achieve the same thing in improving capital. We are very, very 
concerned because while other programs that are--have been 
received very well and a great idea, for instance the Section 8 
Voucher for home ownership, which was established four years 
ago, up to now, four years later, may be a handful. As little 
as 200 vouchers have been used for home ownership.
    So our position on this issue is very simple. We support 
debt financing to improve the capital needs of public housing, 
but let's start with a pilot program first. Let us work with 
HUD and establish something that we can all be pleased with. In 
Miami-Dade County alone, so you know, our needs for capital is 
$100 million. There is an elaborate process that we have to go 
through, including citizen participation, and these funds are 
not always appropriated to the housing authorities immediately. 
It takes months. For fiscal year 2002, in our case, we have not 
received our capital budget yet, so we are concerned about 
that.
    Number 3. The proposed funding level for public housing 
operating fund does not provide sufficient resources to support 
the residents' safety and security initiatives, formerly funded 
through the Public Housing Drug Elimination Program. We want to 
commend this committee and HUD's effort for the first time to 
look at what is an appropriate funding level on the operating 
side. The increase on the operation cause will go to cover 
inflation mainly and to cover energy costs. In our particular 
case, for instance, just to give you a small example, our 
funding allocation for this year would have been $2.6 million. 
We received $1.4 million. So we are $1.2 million short. This 
comes at a time where energy cost is going up and where 
residents after September 11 are demanding more security 
services. In the budget as to date there is no additional funds 
to cover security issues. A lot of the housing authorities were 
working on our last year of funding and were looking at cutting 
staff, cutting programs and eliminating any kind of security 
program.
    Number 4. Our Elderly Plus Initiative will provide safer 
better service buildings, will help seniors avoid premature 
shift to nursing home and save Medicaid funds. One of the 
things that is happening to us in Florida because we have such 
a large percentage of elderly residents, we're maybe 10, 15 
years ahead of the Nation, as the whole process of aging in 
America. Two-thirds of our buildings, the public housing 
buildings, are 30 years or older, and these buildings do not 
contain the physical requirement as stipulated under ADA and 
there are no funds available for that. There are other similar 
programs where funds have been made available to retrofit 
buildings so we can deal with a severe aging population, the 
frail elderly.
    Mr. Hobson. Could you summarize your remarks because we are 
behind?
    Mr. Rodriguez. In summary, in Miami we established an 
assisted living facility that is funded through Medicaid 
waivers. The savings since 1999 has been $6.5 million. 60 
percent of the families in there have been diverted from 
nursing homes. The cost is one-fourth what it will cost on 
serving an individual in a nursing home. It is also a quality 
of life issue because it splits the family. A lot of the cases 
we see, in one case is the family who had been married for 60 
years. They had been separated. And only when they came back to 
our facility were they reunited. So we were very happy about 
that.
    Very briefly, SEMAP scores indicate that 90 percent of the 
public housing agencies in this great Nation are managed well. 
The number one factor for under utilization of Section 8 
vouchers, according to a HUD report, has been a tight rental 
market. In Dade County our rental market is 2.2 availability of 
the housing stock. In some areas it is less than 1 percent.
    We also want to commend the HUD for including the Hope VI 
Funds. I think those are very much needed funds. And we do have 
some general overall funding recommendations in closing. For 
operating subsidies $3.6 billion plus $410 million for PHDEP 
type activities. The public housing capital fund $3.5 billion. 
Elderly Plus $100 million. PHDEP $410 million unless it is 
included in the operating fund. Hope VI $625 million. Section 
8, to provide sufficient renewals, and the ROSS program $100 
million.
    Mr. Chairman, thank you and thank you for your support 
through all the years.
    Mr. Hobson. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

DALE SHIPLEY, CHAIRMAN, LEGISLATIVE COMMITTEE, NATIONAL EMERGENCY 
    MANAGEMENT ASSOCIATION AND EXECUTIVE DIRECTOR OF THE OHIO EMERGENCY 
    MANAGEMENT AGENCY
    Mr. Hobson. Now, we will hear from FEMA, and I should tell 
you that I have to make a little disclosure here. The person 
testifying here is Dale Shipley. He is director of the Ohio 
Emergency Management Agency. He is a West Point graduate, did 
two tours of duty in Vietnam. He is Chairman of the Legislative 
Affairs Committee for the National Emergency Management 
Association. He is a former director of Region V at Chicago 
FEMA Regional Office. And I worked with Dale to respond to the 
cleanup of a tornado in Xenia, Ohio, where his parents are my 
constituents. But also earlier I think in the--was it----
    Mr. Shipley. St. Paris.
    Mr. Hobson. St. Paris. St. Paris we had a flooding in the 
middle of a flat plain where a stream backed up and destroyed 
the downtown of a little town and FEMA was very helpful. So, 
Dale, thanks for coming in today. We could have done this in 
Ohio, Dale.
    Mr. Shipley. Thank you, sir. Thankfully, we are not in Ohio 
responding to a disaster together.
    Sir, I appreciate the opportunity to appear before this 
subcommittee, and with your permission I would like to 
summarize my remarks orally.
    Mr. Hobson. I am watching this and I am way behind. I 
haven't asked that much either.
    Mr. Shipley. Well, if I could summarize then and submit my 
testimony for the record.
    Mr. Hobson. Sure.
    Mr. Shipley. And I was given a position paper by the 
International Association of Emergency Managers, which is the 
county directors primarily organization, and as I am trying to 
represent the 40 states and 6 territory emergency management 
directors responsive to our governors, they gave me a position 
paper which is supportive of our positions, and very frankly, 
sir, is very supportive of the President's budget request in 
2003. Although, if I may offer two proposals which I think can 
improve and strengthen the administration's budget request.
    Historically, as you know, the last major external threat 
that we faced in the United States was considered to be nuclear 
attack and the Cold War of that era caused the creation of a 
civil defense program. Our current external threat of terrorism 
necessitates a reevaluation I believe of our National Emergency 
Management System of local, state and Federal coordinating 
organizations, given homeland defense as a Federal mission, but 
requires local and state effort to successfully accomplish the 
task.
    Civil defense was established after World War II as a 50/50 
cost share with some elements such as operation centers, 
warning systems, and some planning functions funded at 100 
percent. The fall of the Berlin Wall and the end of the Cold 
War spelled the end of the 100 percent programs and atrophy of 
Federal efforts in emergency management in general, as no 
increased funding has occurred for a decade. And the EMA 
structure now is similar in condition to that of the public 
health infrastructure in the United States.
    Based on this history and recent surveys of state and local 
agencies, you will see in our prepared statement a request for 
200 million in the supplemental budget bill to begin to prepare 
the infrastructure for the administration's First Responder 
Initiative. The First Responder Initiative, as proposed by 
President Bush and Director Ridge, is the best way to begin the 
process of upgrading the preparedness and response capabilities 
of all local governments and their first responders.
    I would like to highlight 5 key elements that is in our 
testimony there. One, states will coordinate the effort to 
ensure local risks and capabilities are best addressed and 
support regional capability development. In FEMA's 
implementation we trust local and state agencies will have 
flexibility for personnel costs as well as equipment and 
training costs, whatever our most pressing requirements may be. 
Minimum capabilities and standards must be development to 
ensure inter-operability. Mutual aid provisions, both inter and 
intrastate are key to capacity building quickly across the 
board. State and local fire, EMS, law enforcement, emergency 
management agencies and government leaders must be a continual 
part of the process.
    I want to take the opportunity to publicly commend FEMA for 
pulling all of the same elements together just last week as 
they prepare to implement the 2003 proposals in the budget in a 
timely and effective way.
    Health and Human Services also is focusing on coordination 
beyond just public health organizations to ensure that 
agricultural interests, emergency management agencies, private 
health care facilities and State and local governments are 
involved in these initiatives.
    One other program in FEMA requires to be addressed, and 
that is the Hazard Mitigation Grant Program. The 2003 budget 
request would put all mitigation funding into pre-disaster 
mitigation projects and eliminate any funding for the post-
disaster Hazard Mitigation Grant Program.
    It is ironic that after trying for years to put some money 
into pre-disaster mitigation and finally achieving that. The 
pendulum is about to swing too far in that direction. We need 
both. We believe that our pre-disaster efforts have proven to 
be worthwhile. Some of you and your committee members are 
familiar with that program, originally called Project Impact, 
what it has accomplished. But a disaster itself graphically and 
vividly exposes the need and gives us the motivation and 
opportunities to accomplish much more. So we request that both 
pre-disaster and post-disaster mitigation efforts be continued.
    And I see my time is up. Thanks for allowing me to cover 
these points, and I would be happy to deal with any questions 
you might have.
    Mr. Hobson. Thank you, Dale. I am sorry we are running way 
behind. We appreciate your coming. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

STOCKTON WILLIAMS, DIRECTOR OF PUBLIC POLICY, THE ENTERPRISE FOUNDATION
    Mr. Hobson. Next is the Enterprise Foundation.
    Mr. Williams. Good afternoon, Congressmen.
    Mr. Hobson. We are way behind. Rodney is going to kill me 
here.
    Mr. Williams. Good afternoon, Congressman Hobson and 
Congressman Frelinghuysen. I am Stockton Williams, director of 
Public Policy for the Enterprise Foundation.
    Enterprise is a national nonprofit organization that 
mobilizes private capital to support community-based 
revitalization all over the country. We have raised about $4 
billion to finance more than 130,000 affordable homes and help 
more than 35,000 low-income people find a decent job.
    We have three priorities in HUD's 2003 budget. First, 
strengthen community-based organization. They are proven 
producers of affordable housing and generators of economic 
development and private investment in low-income areas. Federal 
Reserve Board Chairman Greenspan recently noted, ``These 
innovators have succeeded in developing new approaches for 
engaging disadvantaged participants in the economy in the same 
manner that any successful organization does by assessing need, 
evaluating risks, managing costs and developing appropriate 
products.''
    Even the most sophisticated and successful community-based 
groups need reliable resources and expert advice to continue to 
succeed and grow. HUD's Section 4 nonprofit capacity building 
program helps make that happen. Through Section 4, Congress 
channels Federal resources through HUD to intermediaries like 
Enterprise and the Local Initiatives Support Corporation, 
another national intermediary, to help grassroots hire and 
retain staff, invest in technology, develop business plans and 
pursue new opportunities.
    One of many examples of our capacity-building work is the 
support we have been providing to the Community Action 
Commission of Fayette County and their terrific self-help 
housing program. Enterprise and LISC match the assistance they 
get from the Federal Government with many multiples of private-
sector financing.
    Mr. Hobson. You need to tell Rodney, Fayette County is in 
Ohio, in the Seventh Congressional District.
    Mr. Frelinghuysen. You do not have to do anything of the 
kind. I will believe it.
    Mr. Williams. He is certainly the expert.
    Enterprise and LISC also work to assure accountability 
among the groups they assist through a mix of regular reports, 
site visits and annual audits. We only disburse Federal funds 
to the groups we assist after we have received documentation 
indicating that they have done the work they said they would do 
and seek reimbursement for it under their grant.
    The Urban Institute has found that capacity-building 
investments through Enterprise and LISC have increased 
community groups' strength, production and local support 
systems thanks to Enterprise and LISC capacity-building 
investments.
    Last year Congress appropriated $25 million to Enterprise 
and LISC to split equally. We are profoundly grateful for this 
support, but we need more of it to help more of the groups and 
communities that need it. We are asking Congress to provide $40 
million this year to Enterprise and LISC split equally. This 
increase, while substantial in percentage terms, would still be 
less than a penny on the dollar in HUD's overall budget.
    A second high-leverage proven program is the HOME Housing 
block grant. Nearly 90 percent of HOME-assisted renters are 
very low income. And as you undoubtedly have heard today, every 
HOME dollar leverages almost another $4 in additional public 
and private investment in affordable housing and community 
development.
    HOME's terrific track record we think is a direct result of 
its flexibility, its reliance on States and cities to 
administer the funds and the strong role it provides community-
based organizations. Last year, Congress appropriated $1.85 
billion for HOME. We urge Congress to increase that funding to 
$2.9 billion this year. This amount, while a sizable increase, 
would simply restore the purchasing power HOME has lost to 
inflation from the $2-billion level Congress authorized for the 
program, but did not fully fund a decade ago.
    Finally, Congressman Hobson and Congressman Frelinghuysen, 
we urge the subcommittee to ensure that HUD continues to allow 
a strong role for community-based groups in acquiring FHA-owned 
foreclosed homes in distressed neighborhoods as part of 
comprehensive revitalization efforts. One such initiative is 
the FHA Asset Control Area Initiative, which this subcommittee 
created and which it has strongly supported since 1998.
    HUD has temporarily suspended this promising program as a 
result of an Inspector General audit that alleged shortcomings 
in HUD's management of it and raised some questions, all of 
which have been answered, about three jurisdictions' 
implementation of the program. HUD has said it plans to restart 
the program no later than 6 months, with the intention of 
making it permanent.
    We share HUD's desire to ensure that all participants in 
this program are accountable and produce the results that they 
promise, but any delay of more than a few months will severely 
undermine the demonstrated progress that many ACA participants 
already have achieved. We urge this subcommittee to ensure that 
HUD restarts this important program as soon as possible.
    Thank you very much for this opportunity to testify.
    Mr. Hobson. Thank you very much, and thanks for the good 
work you do. I know it firsthand.
    Mr. Williams. Thank you, Congressman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

BRAD IAROSSI, PAST PRESIDENT AND CHAIRMAN OF THE LEGISLATIVE COMMITTEE, 
    ASCE MEMBER; ON BEHALF OF THE ASSOCIATION OF STATE DAM SAFETY 
    OFFICIALS
    Mr. Hobson. Next is the Association of State Dam Safety 
Officials.
    That depends on how you read that, does it not?
    Mr. Iarossi. There is no ``N.'' [Laughter.]
    Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Brad Iarossi. I am the chairman of the 
Legislative Committee for the Association of State Dam Safety 
Officials, and chief of the Dam Safety Program for the State of 
Maryland.
    I am here to request continuation of funding for the 
National Dam Safety Program administered by FEMA. The National 
Dam Safety Program Act was enacted as part of WRDA in 1996 and 
expires this year. We are currently working with authorizing 
committees and the administration to reauthorize the act for 
fiscal year 2003. The administration has requested a 
continuation of the program as part of its fiscal year 2003 
FEMA budget at the current funding level of $5.9 million per 
year.
    This program provides $4 million in grant assistance to 
States to help them improve their dam safety programs and 
provides a million dollars in research to identify better ways 
to inspect and rehabilitate dams and provides $500,000 in 
training for State Dam Safety engineers.
    ASDSO supports this funding for the National Dam Safety 
Program Act, but respectfully requests the committee consider 
increasing the funding up to $8.6 million, which would include 
addition $2 million for grant assistance to States and another 
$500,000 a year to go to research. This small increase in 
funding will enable States to continue to make improvements in 
their programs and to provide much-needed assistance in 
assessing security at dams. Some of the additional funds will 
provide research and training to assess vulnerability of dams 
from intentional acts and to identify methods to improve 
security of the dams determined to be vulnerable.
    There are over 78,000 dams in the United States, but only 5 
percent of these are owned or regulated by the Federal 
Government. The remaining dams, 73,000, are the responsibility 
of the States. The workload is enormous. Texas, for example, 
has 7,000 dams, 403 of those are unsafe. In Ohio, there is 
1,800 dams, 450 of those dams are unsafe. And in New Jersey, 
900 dams, 60 of which are unsafe.
    Dams are an essential part of our aging national 
infrastructure. They provide water supply, flood control, 
irrigation, hydropower. But the failures of these structures 
can affect thousands of lives, costs millions of dollars, with 
recovery costs coming from the National Flood Insurance Program 
and the Disaster Relief Fund.
    The National Dam Safety Program is currently in its fifth 
year. With this funding through FEMA, an enormous amount of 
progress has been made toward improving dam safety. Forty-eight 
States have taken advantage of the training assistance, 49 
States received grant assistance in fiscal year 2000.
    States have purchased remote-operated video cameras to do 
internal inspections of dams, they have purchased field 
equipment to monitor dams, computers, and software to do better 
analysis. They have been able to hire additional engineers. 
Inspections have increased. The number of emergency action 
plans have increased and enforcement has increased.
    New Jersey has received $307,000. They have provided a 
public awareness seminar for over 110 dam owners, engineers, 
and public officials. They have used this grant assistance 
money to identify flood inundation areas below all of their 
high and significant-hazard dams which will be useful in the 
case of an emergency.
    Ohio has received $352,000. They have used this to hire a 
part-time attorney general and another civil engineer dedicated 
purely to dam safety. This has significantly reduced their 
backlog of enforcement cases. This program has been a blessing 
to States. It has enabled us to provide training to our 
engineers that we could otherwise not provide. It has enabled 
us to outfit our programs with needed equipment to do better 
inspections, to conduct more thorough analysis, prepare 
emergency action plans to be used in the case of a dam failure.
    Full funding of the National Dam Safety Program would 
continue to provide these needed tools to assist State 
programs. It is making a significant improvement in the safety 
of this Nation's dams. Therefore, ASDSO strongly urge this 
subcommittee to recognize the benefits of this modest 
investment in public safety by providing additional funding of 
the proposed level of $8.6 million in fiscal year 2003.
    Mr. Chairman, thank you for this opportunity to talk to you 
about dam safety.
    Mr. Hobson. Thank you very much, sir. Appreciate it. Sorry 
we are running behind time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

YERVANT TERZIAN, PH.D., DIRECTOR OF NASA'S NATIONAL SPACE GRANT COLLEGE 
    AND FELLOW PROGRAM IN THE STATE OF NEW YORK AND PROFESSOR OF 
    ASTRONOMY AND SPACE SCIENCES AT CORNELL UNIVERSITY; ON BEHALF OF 
    THE NATIONAL SPACE GRANT ALLIANCE
    Mr. Hobson. Next would be the National Space Grant 
Alliance.
    Mr. Terzian. Mr. Chairman and distinguished members of the 
subcommittee, my name is Yervant Terzian. I am the director of 
NASA's National Space Grant College and Fellowship Program in 
New York State and also professor of Astronomy and Space 
Sciences at Cornell University.
    Space Grant is a national network of colleges and 
universities working to expand opportunities for Americans to 
understand and participate in NASA's aeronautics and space 
programs by supporting and enhancing science and education 
research outreach programs. I speak today on behalf of the 
Space Grant program directors in all 50 States, the District of 
Columbia and the Commonwealth of Puerto Rico.
    Good afternoon.
    Mr. Frelinghuysen [presiding]. I thought you were about to 
conclude. I was getting very excited. [Laughter.]
    Mr. Terzian. That was my introduction.
    Mr. Frelinghuysen. Now that Mr. Hobson is gone, I want you 
to know that we are going to run like clockwork around here. 
[Laughter.]
    He is very good-natured, not that I am not, but proceed.
    Mr. Terzian. I am here to tell you that there is nothing 
more important to our future than knowledge. A peaceful, 
prosperous and safe future depends on an educated public, and 
today a very major part of this education has to do with 
science and technology. Science and technology is vital for 
national security, economic security and to preserve an 
effective democracy.
    We must devote more time to science education. We must 
devote more resources to science education. We, the scientists, 
should be actively involved in improving the scientific 
literacy of the public, and we must promote the importance, 
usefulness and benevolence of science. We also need qualified, 
enthusiastic, and well-paid science teachers. We must seek ways 
for colleges and universities to work together, and you, the 
people's representatives, must greatly assist this vital 
endeavor.
    Now I want to tell you about the program that I believe is 
making significant contributions to science education. It is 
called the National Space Grant College and Fellowship Program 
known as Space Grant. We have almost 800 affiliates nationwide, 
including 513 colleges and universities. The consortia awards 
more than 2,200 scholarships and fellowships to students each 
year, and these are the students who will fill the high-
technology jobs in the NASA and the outer space industry in the 
years ahead.
    We are very busy in the Space Grant consortia and extremely 
proud of our achievements, but we can do much more, much more 
indeed. Thanks to Congress, our appropriations for fiscal year 
2002 is $24.1 million, but fiscal year 2003 budget request is 
$19.1. Now I know $24 million and $19 million is a lot of 
money, but it is important to remember that these 
appropriations supports a Space Grant consortium in every 
State, D.C. and Puerto Rico.
    Our request for fiscal year 2003 is for an appropriation of 
$28 million, to continue the basic support of the 52 consortia, 
and continue our work in the workforce emphasis, and to start a 
new program nationwide effort to develop a network of student-
built and operated satellite programs. Here is an example: Our 
goal is to make aerospace history by sending the first student-
built satellites beyond low earth orbit and to use this 
strategy to educate the next generation of NASA and aerospace 
industry scientists and engineers. This particular one was 
built by the Montana Space Grant students.
    We appreciate your support in the past and respectfully ask 
for your help in fiscal year 2003. We should all work together 
to inspire everyone for the love of learning. I appreciate the 
opportunity to appear in front of you.
    Thank you for your consideration.
    Mr. Frelinghuysen. Dr. Terzian, thank you very much for 
your enthusiastic endorsement of the work of the Space Grant 
Alliance. You are an excellent spokesman. The committee is 
listening. Even though we are not all here, we will all get a 
copy of your testimony and have an opportunity to look it over.
    Mr. Terzian. Thank you very much.
    Mr. Frelinghuysen. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

WILLIAM S. SMITH, JR., PH.D., PRESIDENT, ASSOCIATION OF UNIVERSITIES 
    FOR RESEARCH IN ASTRONOMY
    Mr. Frelinghuysen. The chair is pleased to recognize Dr. 
William S. Smith, Jr., Association of Universities for Research 
and Astronomy, Inc.
    Mr. Smith. Thank you, Mr. Chairman, for the opportunity to 
testify on behalf of AURA. We are a consortium of 35 
universities that build and operate telescopes, both on the 
ground and in space. I just want to make a few summary comments 
here in our brief time, the first of which really is to thank 
you and the subcommittee for your strong support of science.
    If I go back and look at the NSF budget over the past 
decade, it doubled since a decade ago, and that is actually 
pretty surprising. And to the extent I could get into it, most 
of that work was really done by the Congress and by this 
subcommittee, in particular. So we are talking about it today. 
The fact is we have, in fact, accomplished that over the past 
decade.
    I have noted a lot of people in this room and out in the 
hall who will be coming to you asking for more money, and I do 
not envy you your job in trying to weigh the various merits of 
these very dissimilar programs, but I just want to talk about 
astronomy for a moment because there are a few areas that I 
think are as compelling and interesting to the public. People 
are very interested in what black holes are, whether there are 
other habitable planets, what this dark energy is, and do not 
ask me to explain it because it is a mystery, but these are 
things that certainly are the focus of our attention.
    And for the same reason that Dr. Terzian mentioned in the 
prior talk to you, this is very compelling to the youth of the 
country. Science, in general, and astronomy, in particular, is 
a very powerful attractant for people to become involved in 
science and technology careers.
    Other countries also understand this, and they are making 
substantial investments, and astronomy is a very visible, very 
competitive field, and they are making substantial investments. 
And so what do we need to do to maintain our lead in this? And 
I will talk about these separately.
    In space, we do have a very clear lead. We are investing a 
lot of money in astronomy. It has paid off with the Hubble 
Space Telescope. The next mission is the next-generation space 
telescope, and we desperately need your support. We are going 
through a period in which we are trying to bring forward the 
challenging technologies so that we can build this within an 
affordable cost.
    On the ground, we are in trouble. If you look at the NSF 
budget, they are proposing reductions in ground-based 
astronomy, and this is at a point where we have just, and 
through a communitywide effort, developed something called the 
Decadal Survey, which is a prioritized list of things. I will 
not go into this list in any detail, but it does, in fact, 
represent the most important things. There are a lot of things 
that have fallen off the list that you will never hear of, and 
that is because we, as a community, have been able to develop a 
communitywide consensus on these things.
    So I think the main message that I would like to convey to 
you today is that this Decadal Survey deserves your support. It 
would be very easy for me to come to you with a single project, 
like a home State gold mine or something like that and just 
convince you that is the best thing you can do, but that is 
almost too easy because it does not tell you what that is more 
important than, and that is what the Decadal Survey does. I am 
hopeful that you will lend your support to that. You already 
have done so. In last year's funding, you provided funding for 
the Telescope System Instrumentation Program. We deeply 
appreciate that. I think you will see the benefits of that.
    This year, we, as I mentioned, the NSF is recommending 
reductions in the astronomy program. We are hoping that, and 
would recommend to you, that you restore the funding to at 
least keep us flat with fiscal year 2002 and give us a chance 
to implement the Decadal Survey.
    So, once again, thank you for your strong support in the 
past, and I look forward to your help in the future.
    Mr. Frelinghuysen. Thank you, Dr. Smith. We will do our 
best to be of help, and astronomists, better watch the puns 
here, have always been highly visible on our radar screen.
    Mr. Smith. I thought about that. As soon as I said it, I 
knew you would catch me.
    Mr. Frelinghuysen. Thank you for being here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

MICHAEL KEEGAN, POLICY ANALYST, NATIONAL RURAL WATER ASSOCIATION; ON 
    BEHALF OF DREW BOWEN, TOWN MANAGER, MIDDLETOWN, MARYLAND
    Mr. Frelinghuysen. Next is Mike Keegan on behalf of Drew 
Bowen, representing the National Rural Water Association. That 
shows you what a large portfolio this committee has when you go 
from astronomy to rural water.
    Mr. Keegan. We appreciate that.
    Mr. Frelinghuysen. The floor is yours.
    Mr. Keegan. Thank you.
    Good afternoon, Congressman Frelinghuysen. My name is Mike 
Keegan. I am the policy analyst for the National Rural Water 
Association, which is a nonprofit association of over 22,000 
small and rural community members from all of the States. I am 
grateful for the opportunity to be here today.
    I am here today filling this seat as a substitute for a 
local water official from a small community in Maryland whom my 
association typically has presenting this testimony. 
Fortunately, we experienced some last-minute travel 
complications causing me to pinch-hit this year. However, all 
hope is not lost. Next week each State Rural Water Association 
will have a delegation of local officials here for our annual 
rally to report to their members of Congress on how the funds 
provided by this committee are working at the local level.
    Your local communities will tell you that the rural water 
initiatives are the most effective environmental protection 
efforts for drinking water, source water protection and 
compliance with Federal mandates for the over 50,000 small 
community water supplies across the country. We have documented 
why these initiatives are so successful in our 2002 Report to 
Congress, which I will leave with the committee.
    Chapter One lists the over 1,000 on-site contacts made by 
State rural water technicians in each State. This marks the 
contacts in New Jersey for last year. A typical assistance 
contact could include discovery and repairing a faulty 
chlorination system, assisting a community replace filtration 
media, training a new water operator on their particular 
treatment, implementing a security assessment or solving 
compliance problems.
    Every assistance contact is made on-site. This is critical 
in helping small communities with limited resources. They all 
want to protect the water and comply, but often they need 
simple, common-sense assistance, which means getting out of the 
office and traveling on-site to help on a one-on-one level.
    Chapters Two and Three document the over 5,000 local 
communities that have adopted source water protection programs 
using Rural Water's five-step plan, including the exceptional 
case study in Kentucky, where this effort worked with farmers 
in watershed to modify their atrazine applications to reduce 
atrazine levels in the drinking water below EPA safety levels. 
The farmers were happy and even excited about changing their 
land-use practices once they were educated on the water quality 
impacts and approach by local people with a workable solution.
    I will conclude by emphasizing that every small community 
wants to provide safe water and meet all drinking water 
standards. After all, their families drink the water every day. 
However, they often need assistance in a manner they can 
understand.
    Rural Water is grateful to this subcommittee for its past 
support and asks you to consider including $10 million in the 
EPA budget for Rural Water technical assistance and $5 million 
to expand the source water effort from 12 States to all States.
    Thank you very much.
    Mr. Frelinghuysen. You did a pretty good job pinch-hitting. 
Thank you very much. The subject you are talking about is 
important, and public education is critical, and it is the sort 
of investment we ought to consider seriously.
    Mr. Keegan. Thank you very much.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

JAMES J. RILEY, PRIMARY TASK FORCE LEADER, NEW JERSEY'S TASK FORCE 1 
    URBAN SEARCH AND RESCUE
    Mr. Frelinghuysen. Moving right along, it is my pleasure to 
recognize James J. Riley, who is a primary task force leader of 
New Jersey's Task Force 1, a very vital and the Urban Search 
and Rescue Team for my home State of New Jersey.
    If you would be good enough, just for the record, to 
introduce your colleagues, since quite selfishly I am the 
chair, and I just want to make sure their names are included in 
the record, if you would be so kind.
    Mr. Riley. Absolutely. We have Scott Di Giralomo with us 
today. He is a planning manager for the team. We have Dan 
Mitten. He is with the State Police. He is our coordinator of 
the team, and we have Bob Hansen. He is also with the State 
Police and he is our logistics coordinator.
    Mr. Frelinghuysen. Gentleman, welcome.
    Mr. Riley, proceed.
    Mr. Riley. Thank you, sir.
    I just want to say, before I start, as a proud American and 
as a Vietnam veteran, this is an incredible honor for me to be 
here today. It really means a great deal.
    I also want to thank yourself for your tenacious efforts to 
increase America's domestic security and for assisting New 
Jersey Task Force 1 with its goal of becoming a credentialed 
Urban Search and Rescue Team with FEMA. As the horrible effects 
of the terrorist attacks unfolded, New Jersey Task Force 1 was 
requested to respond to New York City by Mayor Giuliani's 
office.
    New Jersey Task Force 1 was the first Urban Search and 
Rescue Team into New York City. Our unit had an advance team in 
New York City by 11:15 a.m. on September 11th. The team's 
entire cash, along with 140 members, was set up at the Jacob 
Javits Center by 2 p.m. that same day. We deployed search 
assets onto the pile to search for survivors during the 
afternoon and evening of the 11th. For the next 10 days, New 
Jersey Task Force 1 worked continuously as part of the search 
and rescue effort.
    We were integrated into the FEMA US&R system, and we also 
developed an excellent working relationship with many of the 
FEMA teams. Our structural engineers and planners were used by 
the FEMA Incident Support Team to brief the incoming FEMA teams 
as they rotated into New York City.
    Upon our demobilization and departure from New York, the 
Operations Section of the FEMA IST issued an operational 
performance evaluation of New Jersey Task Force 1 related to 
the World Trade Center operations. Of the nine categories 
evaluated, New Jersey Task Force 1 received six superior 
ratings and three satisfactory ratings. I have included a copy 
of this evaluation in my written testimony.
    While fully understanding the reluctance of FEMA to admit 
more teams, we feel we are unique in our qualifications and 
experience. We believe that making New Jersey Task Force 1 the 
twenty-ninth team will provide an immediate and significant 
value to the overall Federal system.
    New Jersey Task Force 1 was initially funded by the State 
of New Jersey in 1997. We have 180 members and from over 100 
different fire, police and EMS agencies. The team is organized 
under the New Jersey State Police Office of Emergency 
Management. Since 1997, our operating budget has been funded at 
$1.5 million annually.
    In testimony earlier this year, related to the FEMA Urban 
Search and Rescue Teams, the following points were raised 
regarding the shortcomings in the current national system.
    Number one was some of the existing 28 teams are not 
equipped with the basic FEMA equipment cache. New Jersey's, on 
the other hand, cache is 98-percent complete. Our cache of 
equipment totals over $4 million in value.
    Point number two was that currently six of the twenty-eight 
teams have been trained and equipped to operate in a weapons of 
mass destruction environment. New Jersey already has a 
significant equipment cache for WMD. Currently, the equipment 
includes 20 fully encapsulated protective suits and 
sophisticated WMD monitoring equipment. Sixty-three members of 
New Jersey Task Force 1 are certified hazardous material 
technicians and 46 of those members are also trained in WMD 
technicians.
    Point number three, most task forces do not have dedicated 
trucks to move their equipment. These vehicles must be rented 
or leased upon activation. New Jersey's Task Force 1 equipment 
cache is packed on dedicated tractor trailers. Their vehicles 
are custom produced to allow rapid response and deployment on a 
moment's notice. We are headquartered, as you know, at 
Lakehurst Naval Station and can fly out of there.
    The fourth option for US&R would be to equip additional 
caches for existing teams. New Jersey currently has almost two 
completed stand-alone caches.
    While we do agree that these issues outlined are 
significant and should be addressed to increase the overall 
operational capability of the national system, we strongly 
believe that New Jersey can and should be an integral part of 
the system due to its level of equipment, training and 
experience. Aiding New Jersey to the Federal system will 
increase the national capability now, rather than later.
    We ask only to be allowed to go in harm's way, not only in 
New Jersey, but also in the United States for the common good. 
We feel we are ready for the challenge and ask for you to grant 
our request and expand the FEMA Urban Search and Rescue Team to 
include New Jersey Task Force 1.
    Mr. Frelinghuysen. Thank you very much for your testimony, 
Mr. Riley, and for the professional group that you represent. I 
certainly will be working with the committee to do whatever I 
can to make sure that you get that FEMA designation. You 
deserve it. You were on the ground before anybody else. While 
people think that this tragedy only affected residents of New 
York State, as you know, we lost 800 residents of our State, 
and you were among those who helped assist in some very tragic 
and horrendous circumstances.
    So, on behalf of all of us, thank you for your good work.
    Mr. Riley. Yes, sir. Thank you very much.
    Mr. Frelinghuysen. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, April 16, 2002.

                                WITNESS

CLARA MILLER, PRESIDENT, NONPROFIT FINANCE FUND; ON BEHALF OF THE 
    COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS COALITION
    Mr. Frelinghuysen. It is my pleasure to recognize Clara 
Miller from the Coalition for Community Development Financial 
Institutions. Fantastic. There you are. A copy of your full 
statement will be put in the record.
    We are joined by Mrs. Carrie Meek, Representative Meek from 
Florida. But go right ahead.
    Ms. Miller. Thank you very much for the opportunity to 
testify on the President's budget request for the Community 
Development Financial Institutions Fund. My name is Clara 
Miller, and I am here on behalf of the CDFI Coalition, which 
represents over 600 organizations that work with private and 
public investors to channel financing to distressed communities 
in all 50 States. Coalition members include loan funds, banks, 
credit unions, microenterprise funds, and venture capital funds 
that have specific expertise, track record, and business focus 
on community development.
    I think we know that all of us in this country want people 
to have access to capital. The CDFI Fund, an innovative program 
of the Department of the Treasury, paves the way for this 
access through grants, equity investments, and loans to CDFIs 
and incentives for banks and thrifts that are extending their 
reach.
    CDFI awards are a great deal: they leverage private and 
non-Federal dollars instantly through a matching requirement, 
and they are leveraged many times over because of the kinds of 
things that we all do. And there is quality control: only CDFIs 
certified by Treasury or banks meeting performance criteria are 
eligible for awards.
    I am, therefore, asking you, on behalf of CDFIs, the CDFI 
Coalition, and all the small businesses, nonprofit 
organizations, individual savers, homeowners, and entrepreneurs 
who have been helped by this extraordinary program, to 
appropriate $125 million in fiscal year 2003 to the CDFI Fund.
    I am proud to be representing also my own organization, the 
Nonprofit Finance Fund, which is a CDFI, just to give you a 
flavor of what it is these CDFI things do. Nonprofit Finance 
Fund has a 20-year track record of financing organizations that 
help others. This means the Boys Clubs, day-care centers, 
workforce development programs, settlement houses, schools, 
group homes, and more. We are a national CDFI headquartered in 
New York, with offices serving Philadelphia, New Jersey, 
Massachusetts, Detroit, San Francisco, and Washington, D.C. Our 
clients have benefited from the CDFI Fund awards program 
directly because the CDFI award has allowed us to attract more 
private capital: in our case, $2.5 million in CDFI Fund Loans 
to capitalize our loan program allowed us to attract nearly $15 
million in additional investment, mainly from banks, and to 
turn it into $50 million in loans for $200 million in programs.
    Our loans, like those of other CDFIs nationally, provide 
access to financing that changes lives: the children who learn 
at the Ibero-American Development Corporation's Child Care 
Center in Rochester, New York; the 20,000 low-income youth and 
adults who entered the workforce through STRIVE; the hundreds 
of people who receive training in high-technology skills from 
the Bay Area Video Coalition in San Francisco; people in 
Camden, New Jersey, Philadelphia, and Chester receive 
nutritious food through the Food Trust because of loans that 
allow them to expand from the Nonprofit Finance Fund, and those 
are just a few.
    We are a multifaceted institution, and we have been in the 
community for years and years. We do all kinds of different 
things. When Prudential gave a multi-million-dollar 125th 
anniversary grant to the nonprofits in Central Newark, NFF 
worked with the company and the recipients to make sure that 
dollars were spent on good capital projects that helped expand 
their services.
    In New York, after September 11th, we raised--we have thus 
far raised $8 million and handed out $6 million to nonprofits 
who are recovering from the devastating, sometimes, effects of 
that awful event.
    I think since September 11th we are all looking for 
positive news, so my final example epitomizes both the work of 
the CDFI and I think the spirit of hope. And it is also a 
riddle, and you can get ready for this.
    What do Unilever, Maya Lin, Empire State Development 
Corporation, the City of Yonkers, New York, Ben & Jerry's 
Homemade, Inc., U.S. Department of Housing and Urban 
Development, New York State IDA, Advest, Key Bank, and 
Nonprofit Finance Fund have in common? It is the $8 million 
expansion of something called the Greyston Bakery. We all came 
together to finance this project. NFF provided a $1 million 
subordinated loan, and the others made loans, senior debt 
bonds, letters of credit and equity to help expand this 
extraordinary community resource. And let me tell you that this 
is an industry that is absolutely vital to all of us in this 
room, I am sure. Greyston is the sole supplier of brownies and 
blondies for Ben and Jerry's Ice Cream, just as one example.
    Mr. Frelinghuysen. You can stop there. Your time is up. 
[Laughter.]
    Ms. Miller. And I brought with me----
    Mr. Frelinghuysen. Oh, you did?
    Ms. Miller. Yes.
    Mr. Frelinghuysen. You have got an extra 30 seconds. 
[Laughter.]
    Ms. Miller. And it employs homeless people from the 
neighborhood who have difficulty in finding jobs.
    I just want to offer you this sample of Greyston's 
sweetness and light and encourage you to continue this funding 
for this innovative program and funding the full $125 million.
    Mr. Frelinghuysen. We will do our best. Thank you so much. 
Mrs. Meek and I will divide it equally. [Laughter.]
    Moving right along, it is understood that the staff will 
actually get it. [Laughter.]
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

DAVID COHN, PH.D., PROFESSOR OF BIOCHEMISTRY AND ASSISTANT VICE 
    PRESIDENT FOR ECONOMIC DEVELOPMENT AND INDUSTRIAL RELATIONS, 
    UNIVERSITY OF LOUISVILLE; ON BEHALF OF THE COALITION OF EPSCoR 
    STATES
    Mr. Frelinghuysen. Dr. David Cohn, representing Coalition 
of EPSCor States.
    Mr. Cohn. EPSCoR, and, foolishly, I didn't bring any gifts.
    Mr. Frelinghuysen. We will get this out of the way. 
[Laughter.]
    Mr. Cohn. Mr. Chairman, members of the subcommittee, good 
afternoon. My name is David Cohn, and I am professor of 
biochemistry and assistant vice president for economic 
development at the University of Louisville in Louisville, 
Kentucky. And I am testifying today on behalf of the Coalition 
of EPSCoR States.
    As you know--or maybe not--EPSCoR is a national program 
that focuses on building research capacity and expanding the 
number of competitive researchers in 21 EPSCoR States and the 
Commonwealth of Puerto Rico. Its intent is to broaden the 
distribution of Federal research funds among the various 
States.
    It may surprise you to know that the EPSCoR States, which 
comprise 43 percent of all of our States, receive only 9 
percent of the total National Science Foundation and Federal 
research and development dollars.
    Now, the importance of the EPSCoR program to my State of 
Kentucky and to the other EPSCoR States has been enormous. As a 
direct result of the EPSCoR program, since 1985 Kentucky alone 
has received over $159 million in Federal, State, and 
industrial funding for research and development, education and 
infrastructure creation. In follow-on funding, faculty and 
staff of our universities have generated an additional $175 
million.
    The Federal NSF, NASA, and EPA programs require a one-to-
one funding match, and our State governments, recognizing the 
importance of EPSCoR, have unstintingly provided these funds.
    Now, let me illustrate one example of how EPSCoR grants 
have increased our scientific competitiveness. Over the past 
three years, Kentucky has received two research infrastructure 
grants totaling $12 million, with an additional $6 million 
coming from non-Federal sources. With this money, the various 
Kentucky universities have established a neurobiology center, 
increased its faculty in nanotechnology, and purchased 
essential nanotechnology instruments. The second grant, 
received just this March 1st, will be used to strengthen 
infrastructure in cell biology, nanofabrication, and 
environmental research.
    I can tell you that, frankly, without EPSCoR funds, none of 
this would have been possible.
    EPSCoR, certainly in Kentucky, has had an impact beyond 
simply underwriting university research. Our State EPSCoR 
Committee drafted Kentucky's Strategic Plan for Science and 
Technology. And as a result of this, the 2000 Innovation 
Research Act for Kentucky was passed, which is an initiative to 
enhance commercial activities throughout the State.
    The Research Infrastructure Awards just cited are the 
cornerstones of the NSF EPSCoR program. The President's fiscal 
year 2003 budget requests $75 million for EPSCoR core 
infrastructure program. This level of funding severely limits 
the number of States that can participate in the program, and 
we suggest that the budget for infrastructure should be $100 
million in order to sustain and grow our competitiveness.
    A second component of NSF EPSCoR funding is so-called co-
funding. NSF plans to expand co-funding, and we support this. 
But we do not want co-funding to divert resources from the 
critically needed infrastructure development grant budget.
    Now, with the few seconds I have remaining, I would just 
turn briefly to the NASA EPSCoR program. In June 2001, NASA 
awarded 35 peer-reviewed research cluster grants to NASA EPSCoR 
States, and this was to enhance State competitiveness in space-
related research. NASA states that if it had more money, it 
would have awarded many more worthy grants.
    With this in mind, we request $15 million, up from $10 
million, for NASA's EPSCoR program in fiscal year 2003 in order 
to continue support for the cluster grants and to provide $1 
million for outreach and technical assistance.
    Thank you very much for allowing me to testify.
    Mr. Frelinghuysen. Dr. Cohn, thank you for being here and 
giving a particular Kentucky flavor to the EPSCoR program.
    Mrs. Meek, any comments?
    Mrs. Meek. Thank you so much. I wasn't too aware of the 
progress of this program. Thank you for sharing that with us.
    Mr. Cohn. I am very pleased to have helped.
    Mr. Frelinghuysen. Thank you for being here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

TIMOTHY WEI, CHAIRMAN, PROFESSOR, DEPARTMENT OF MECHANICAL AND 
    AEROSPACE ENGINEERING, RUTGERS, THE STATE UNIVERSITY, AND CHAIRMAN, 
    AMERICAN SOCIETY OF MECHANICAL ENGINEERS NSF TASK FORCE; ON BEHALF 
    OF AMERICAN SOCIETY OF MECHANICAL ENGINEERS (ASME INTERNATIONAL)
    Mr. Frelinghuysen. Timothy Wei, representing the American 
Society of Mechanical Engineers. Thank you for being here.
    Mr. Wei. Thank you. My name is Timothy Wei. I am a 
professor of mechanical engineering at Rutgers University. You 
may have heard of it.
    Mr. Frelinghuysen. Oh, my God, you are going to get more 
time than you would ever believe.
    Mr. Wei. Can I get about an hour or so? [Laughter.]
    I am here today as the Chair of the American Society of 
Mechanical Engineers NSF Task Force, and on behalf of my 
colleagues, I am pleased and honored to be able to share our 
perspectives on the NSF fiscal year 2003 budget request.
    ASME International is a worldwide engineering society 
focused on technical, educational, and research issues. With 
125,000 members, ASME conducts one of the world's largest 
technical publishing operations, holds some 30 technical 
conferences and 200 professional development courses each year, 
and sets many industrial manufacturing standards.
    It is important to preface our comments with a strong 
statement of support for NSF and its value not only to 
mechanical engineering but also to the Nation's long-term 
global technological leadership. As such, the task force 
strongly endorses the Foundation and its efforts to improve and 
expand the innovative ideas, outstanding people, and cutting-
edge tools that comprise the Nation's technological and 
scientific infrastructure.
    Now, having said this, our overall message to you today 
centers on balance, and I need to define here what we do and do 
not mean by balance. We use the term ``balance'' to imply 
reasoned proportionality. In the context of the budgetary 
process, balance means scaling investments proportionately to 
ensure that all critical functions are sustained in both the 
short term as well as the long term. We do not use ``balance'' 
to mean equality.
    So, with this in mind, we strongly encourage you and your 
colleagues to consider first the critical need for the Nation 
to maintain a balanced R&D portfolio, including a viable 
component of pure science and engineering research; second, 
enhancing the integrity of the core research mission of NSF in 
light of its new responsibilities, specifically the Math and 
Science Partnerships; third, the need for balance within NSF 
between its initiative-driven research and developing and 
maintaining a health core effort; finally, fourth, that the 
integrity and strength of NSF must remain rooted in strict 
adherence to a rigorous peer-review process free from 
earmarking.
    Now, in this technological age, basic research is the seed 
corn for the long-term health and welfare of this Nation. The 
Human Genome Project, biomaterials, advanced 
telecommunications, and nanotechnology are part of a bumper 
crop grown from the seeds of seemingly esoteric NSF-funded 
research in chemistry, physics, biology, mathematics, and, of 
course, mechanical engineering. As any farmer knows, it is 
negligent not to maintain an adequate supply of seed corn for 
future plantings. In exactly the same way, failure to maintain 
a critical mass of basic research is the technological 
equivalent of a farmer focusing on profits from this year's 
crop with little regard to next year's season.
    Again, to emphasize what we mean by balance, the farmer 
does not put aside 50 percent of this year's crop for next 
year's planting. Only a small percentage is needed. Too much 
would be a waste; too little would bring starvation. 
Determining the right proportion is what we mean by balance.
    I would like to close by putting this concept of balance 
into a very real context. The events of September 11th 
highlight the impossibility of predicting which disciplines 
will be needed in response to future technology challenges. The 
engineering director at NSF rapidly responded to the World 
Trade Center collapse by using mechanical engineering tools, 
developed in core research programs, to examine failure of 
structural steel beams near the point of impact. It has been 
the long-term visionary maintenance of strong core research 
programs in the past that made this rapid response to an 
unforeseeable challenge possible.
    Balance between initiatives of core and across the Federal 
R&D portfolio in general must be maintained into the future to 
maintain the vitality of this Nation. After inflation, the 
fiscal year 2003 NSF budget request reflects a net decrease in 
funding for core programs, continuing a trend in budget 
requests over the past few years. So, in this context, we 
applaud the House budget resolution increasing NSF by 8.9 
percent and urge you to use the additional funds to address 
balance within NSF.
    Thank you very much for your time.
    Mr. Frelinghuysen. Dr. Wei, thank you for a very articulate 
presentation, which I would expect from a historic land grant 
college using the seed analogy. We will do our best to balance 
all that we must to provide what you seek.
    Mr. Wei. Great. Thank you.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

NORA NEWCOMBE, PH.D., PROFESSOR OF PSYCHOLOGY, TEMPLE UNIVERSITY, AND 
    PRESIDENT, AMERICAN PSYCHOLOGICAL ASSOCIATION'S DEVELOPMENTAL 
    PSYCHOLOGY DIVISION; ON BEHALF OF THE AMERICAN PSYCHOLOGICAL 
    ASSOCIATION
    Mr. Frelinghuysen. Representing the American Psychological 
Association, Dr. Nora Newcombe. Thank you for being with us, 
Dr. Newcombe.
    Ms. Newcombe. You are welcome. Good afternoon. I am Nora 
Newcombe. I am a professor of psychology at Temple University 
in Philadelphia, and I am speaking today on behalf of the 
American Psychological Association, APA, which is a scientific 
and professional organization of more than 155,000 
psychologists and affiliates. Because our behavioral scientists 
play vital roles within the National Science Foundation, NASA, 
and the Department of Veterans Affairs, our written testimony 
addresses the proposed fiscal year 2003 research budgets for 
each of these three agencies. But today in my few minutes of 
oral testimony, I would like to focus on funding for NSF, and 
in particular for their newly proposed program called the 
Science of Learning Centers.
    First, about the overall NSF budget. As an active leader in 
the Coalition for National Science Funding, APA strongly 
recommends increasing NSF's overall budget by $718 million, or 
15 percent, above the fiscal year 2002 level of $4.79 billion, 
bringing the agency's budget to $5.508 billion in fiscal year 
2003. I know this subcommittee was instrumental in pushing for 
last year's increase over the administration's proposal for 
NSF, and we need your help again this year.
    NSF is the only Federal agency whose primary mission is to 
fund basic research and education in math, engineering, and 
science--including behavioral and social science. NSF's 
investment in basic research across these disciplines allows 
for extraordinary scientific and technological progress, 
ensuring continued economic growth and strengthened national 
security.
    In this last context, I want you to be aware that following 
September 11, not only did NSF-funded engineers, as we just 
heard, head for New York to examine the World Trade Center 
site, but psychological scientists funded by NSF's Social, 
Behavioral and Economic Directorate also received emergency 
research grants to address issues such as trauma prevention, to 
address issues such as risk management, such as automated 
facial recognition systems, and there is ongoing research to 
look at coping in the aftermath of the disaster.
    So turning now to the science of learning centers, 
psychological researchers have tremendous expertise in the 
broad area called learning. This is clarifying the nature of 
learning processes as well as identifying effective teaching 
environments and transformational technology that can be used 
in aiding education. And these are really crucial to 
educational reform and workforce development.
    The new NSF Science of Learning Centers, SLCs, will serve 
as the Foundation-wide centerpiece of the Learning for the 21st 
Century Workforce priority area in fiscal year 2003. These 
multidisciplinary, multi-institutional centers will build 
collaborative research communities of scientists, educators, 
community groups, and industries capable of addressing 
fundamental questions in learning and then applying that 
knowledge to schools and in the workforce.
    APA strongly recommends that Congress support the new SLCs, 
with the long-term goal of making strides in math and science 
education analogous to the tremendous leaps forward we 
currently are making by applying research on reading. These 
improvements in our understanding of how children learn to read 
and how teachers can better help them are due in large part to 
research sponsored by the National Institute of Child Health 
and Human Development at NIH.
    NSF is uniquely poised to support similar breakthroughs in 
the critical areas of math and science learning, skills which 
are particularly critical in our technologically sophisticated 
world. NSF scientists can engage investigators from a range of 
disciplines, including cognitive psychology and neuroscience, 
and also geography, engineers, robotics, to examine learning in 
adult and child populations to support workforce and formal 
educational needs.
    We look forward to your strong support for the new Science 
of Learning Centers and for NSF's overall research budget, and 
thanks for this opportunity.
    Mr. Frelinghuysen. Dr. Newcombe, right on time. Thank you 
so much.
    Mrs. Meek. I have some questions.
    Mr. Frelinghuysen. Mrs. Meek?
    Mrs. Meek. Dr. Newcombe, I am very much interested in what 
science is doing for learning-disabled young children. That 
comes before me a lot in my work, and there isn't that much 
basic research in terms of how school districts can respond to 
these children.
    Ms. Newcombe. Right.
    Mrs. Meek. Do you have any thoughts on that? Will your 
learning centers be thinking about looking into research of how 
these children can learn? Many have speech and hearing 
problems, it seems.
    Ms. Newcombe. Right. Speech and hearing problems can 
certainly be important in slow language development and in 
dyslexia. And there are programs that help these children to 
analyze speech more quickly, which seems to be their problem, 
and actually helps them to learn to develop language and to 
develop reading skills.
    There are probably different problems with people who 
suffer from delayed mathematical development, and there are 
probably particular brain areas that are involved in 
mathematical learning difficulties. And that is the kind of 
thing that indeed these centers would be looking at.
    Mrs. Meek. Good, because public schools are struggling with 
that problem.
    Ms. Newcombe. Very much so. Thank you.
    Mr. Frelinghuysen. Thank you, Dr. Newcombe.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

THOMAS MANTEUFFEL, PH.D., PRESIDENT, SOCIETY FOR INDUSTRIAL AND APPLIED 
    MATHEMATICS
    Mr. Frelinghuysen. Thomas Manteuffel, representing the 
Society for Industrial and Applied Mathematics. Fire away.
    Mr. Manteuffel. Okay. Good afternoon. My name is Tom 
Manteuffel, and I am a professor of applied mathematics at the 
University of Colorado at Boulder. For nearly 2 years now, I 
have also had the privilege of serving as the President of the 
Society for Industrial and Applied Mathematics, or SIAM, which 
is an organization of about 10,000 applied mathematicians and 
computation scientists from academia, industry, and the 
Government labs.
    I am here today to stress the importance of balanced 
funding for science and to urge you to increase the overall NSF 
budget.
    First, I would like to thank this subcommittee for the 
tremendous support you have given the NSF over the recent 
years. I would also like to thank you for the support you have 
given to the mathematical sciences.
    For many years, Federal support for the mathematical 
sciences was stagnant. However, thanks to strong leadership 
here on Capitol Hill and at NSF, the tides have begun to turn. 
The President has requested an increase of $30 million for 
NSF's Division of Mathematical Sciences for fiscal year 2003. 
This follows a similar increase of $30 million in fiscal year 
2002.
    This is a significant increase for mathematical sciences, 
but the NSF investments in the Division of Mathematical 
Sciences are best understood in terms of the results that 
mathematical research generates across the entire range of 
science and engineering. From this perspective, the increase of 
$30 million 2 years in a row is an excellent in our future.
    Let me give a few examples of how mathematical sciences 
have contributed to far-reaching results.
    The rapid sequencing of the human genome was made possible 
through the use of sophisticated mathematical and statistical 
algorithms. Medical imaging has revolutionized many aspects of 
modern medicine. Unlike the X-ray, where what you see is what 
you get, CAT scans and MRI take information from all around the 
body and use mathematical algorithms to reconstruct the inside 
of the body.
    Many recent advances in information technology depend on 
mathematics: cell phones, switching, routing, fault tolerance, 
the Internet, encryption for secure commerce, compression to 
speed transmission of images.
    Two other examples are simple and timely from a national 
security viewpoint. They are the recent success in the anti-
missile program and GPS, the global positioning systems. Both 
were made possible by complex computational algorithms. How 
would our troops have fared without GPS and smart weapons? 
These are the fruits of basic research that was performed 
decades earlier. What if that research had not been funded?
    The events of this past year--the recession, 9/11, the war 
in Afghanistan--all speak to the importance of strong funding 
for research today. Now is not the time to cut back on research 
funding, but the time to recognize its true value.
    SIAM members are concerned with the systematic process of 
combining mathematics, computing technology, and application. 
Today's computers are fast. The fastest computers operate by 
harnessing tens of thousands of processors on the same problem 
together. But without mathematics and good numerical 
algorithms, this potential cannot be effectively used. It is 
like spinning wheels going nowhere. In fact, the faster the 
computer is, the more important it is to do the math.
    A large portion of my constituency, the members of SIAM, 
work with interdisciplinary teams to develop computational 
algorithms. Computational tools are becoming more and more 
important across all disciplines. From this perspective, we at 
SIAM see the importance of balanced funding for all science.
    These are exciting times for mathematical science. 
Scientists in other fields are engaged with mathematicians to 
explore and develop fascinating new lines of research and 
discovery. This symbiotic relationship is the key to the 
advances that will lead to continued economic growth, 
technological leadership, and national security. Funding at NSF 
is essential to this process. I urge you to support not only 
the requested increase for mathematical sciences, but also urge 
you to increase the overall NSF budget.
    Thank you for hearing me today, and I would be glad to 
answer any questions.
    Mr. Frelinghuysen. Well, thank you for your thoughtful 
testimony and for putting it into lay terms, which certainly I 
very much appreciated. It was excellent.
    Mrs. Meek?
    Mrs. Meek. Thank you. Thank you very much. What do you 
mean, Professor, by balanced funding?
    Mr. Manteuffel. Well, to rise the whole of NSF and not--you 
know, keep it balanced between NIH, NSF, to keep balances 
within the disciplines.
    Mrs. Meek. The agencies.
    Mr. Manteuffel. Yes.
    Mrs. Meek. Thank you.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

THOMAS F. ROSHAU, DIRECTOR, YOUTH SERVICES, SALVATION ARMY OF THE 
    SYRACUSE, NEW YORK AREA; ON BEHALF OF THE NATIONAL NETWORK FOR 
    YOUTH
    Mr. Frelinghuysen. Thomas F. Roshau. Come right up here, 
and you are representing the National Network for Youth.
    Mr. Roshau. Yes.
    Mr. Frelinghuysen. If you would make a self-introduction 
then, if I didn't pronounce it correctly.
    Mr. Roshau. Good afternoon. I am Tom Roshau, director of 
youth services at the Salvation Army in Syracuse, New York. Our 
agency is a member of the National Network for Youth on whose 
behalf I am testifying. My testimony will primarily focus on 
homeless youth and fiscal year 2003 appropriations for HUD and 
McKinney-Vento programs. But first I wish to point out a few 
highlights that are covered in more detail in our written 
settlement.
    Our Nation must immediately address its permanent housing 
crisis. If we expect young people to lead healthy and 
productive lives, we must foster healthy and productive 
communities where they can succeed. A plentiful supply of 
housing clearly contributes to such an outcome.
    In the absence of a comprehensive housing production 
program, it is incumbent on Congress to fully fund the housing 
assistance programs that do exist. Moreover, we urge Congress 
to substantially increase funding for these programs.
    In addition, we are a strong proponent of Youthbuild, the 
only program within HUD that has a youth-centered focus, and we 
recommend at least $75 million in fiscal year 2003 for 
Youthbuild.
    Unfortunately, HUD has not asserted a leadership role in 
making sure that housing opportunities exist for our Nation's 
youth. We request this subcommittee to encourage the Department 
to become proactive on youth housing issues, and we offer 
language to this effect in our report.
    I turn the balance of my remarks to the topic of youth 
homelessness. Kids in America today face an incredible number 
of challenges as they try to find safe and affordable housing. 
Many of our Nation's young people are forced to leave home 
prematurely due to severe family conflict, physical or sexual 
abuse, or even due to their family's extreme poverty. Many of 
these youth are relegated to unemployment or low-wage-paying 
jobs, neither of which generates enough income to provide 
adequate housing.
    At the Salvation Army in Syracuse, New York, we provide 
services to 2,000 youth each year that face similar homeless 
circumstances. The Salvation Army is grateful that we are able 
to utilize HUD funding in a way that creates housing programs 
for homeless youth so that they can really feel a sense of how 
important they truly are.
    Each year the Salvation Army provides 150 young people with 
transitional housing where they can actually live in Salvation 
Army apartments and learn independent living skills on a daily 
basis. Half of these kids are teenage moms, along with their 
babies, who simply have nowhere else to turn.
    Although we are thankful for the programs that we have in 
Syracuse, we realize that not everyone throughout the Nation 
has these same opportunities. Youth programs have been 
completely left behind due to an inadequate level of funding 
through HUD's homeless programs, and we urge Congress to 
appropriate at least $1.8 billion in fiscal year 2003 for HUD 
McKinney-Vento programs.
    To further alleviate the pressure on the HUD McKinney-Vento 
account, we urge Congress to finance McKinney-Vento permanent 
housing renewals through the Housing Certificate Fund. We are 
concerned about the effects of the requirement that HUD ensure 
that at least 30 percent of the McKinney-Vento appropriation is 
spent on permanent housing. Several organizations serving or 
desiring to serve homeless youth through McKinney-Vento 
programs have reported increased difficulty in securing 
community support for their initiatives simply because the 
projects are for other than permanent housing. Therefore, we 
urge Congress not to include the 30 percent permanent housing 
set-aside in this year's appropriations law.
    Finally, we express our reservation with the Bush 
administration's chronic homeless strategy. It is unfortunate 
that such a narrow focus will leave behind the millions of 
children, youth, and adults who experience homelessness but for 
lesser duration. However, their plight is no less tragic.
    We urge Congress to press the administration to expand its 
homeless initiative so that it includes all people without 
housing, including our Nation's youth.
    This concludes my testimony, and I am happy to answer any 
questions you may have.
    Mr. Frelinghuysen. Thank you for your testimony, and I know 
Chairman Walsh, coming from Syracuse, would particularly want 
me to note that he appreciates your being here and also your 
good work on behalf of the Salvation Army. It does an 
incredible job in the trenches looking after people.
    Mr. Roshau. Thank you. We appreciate it.
    Mr. Frelinghuysen. You handle the most in need. We 
appreciate that.
    Mr. Roshau. We appreciate the subcommittee as well. Thank 
you.
    Mr. Frelinghuysen. Mrs. Meek?
    Mrs. Meek. Very informative. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

THOMAS M. YUILL, PH.D., DIRECTOR, INSTITUTE FOR ENVIRONMENTAL STUDIES, 
    UNIVERSITY OF WISCONSIN-MADISON; ON BEHALF OF THE NATIONAL 
    ASSOCIATION OF STATE UNIVERSITIES AND LAND-GRANT COLLEGES (NASULGC)
    Mr. Frelinghuysen. Dr. Thomas M. Yuill. As someone whose 
name is often mispronounced, I am always a little reluctant to 
venture out too much. Proceed, Doctor.
    Mr. Yuill. You made a good effort.
    Mr. Chairman and the committee, I want to take this 
opportunity and thank you for it to present testimony on the 
appropriations for fiscal year 2003 for the Environmental 
Protection Agency. I want to commend and thank the committee 
for its continuing efforts to improve the environmental science 
capacity of our country.
    I am Tom Yuill, director, Institute for Environmental 
Studies, the University of Wisconsin in Madison. I am providing 
this statement on behalf of the National Association of State 
Universities and Land-Grant Colleges, NASULGC. I currently 
chair its EPA Research Task Force.
    NASULGC is the country's oldest higher education 
association. Currently the association has 213 member 
institutions, including 17 historically black institutions, and 
these are located in all 50 States. These institutions 
constitute the major public research universities in the 
Nation.
    As EPA Administrator, Governor Whitman has consistently 
pledged science as a basis for making EPA decisions and listed 
science as one of its five priorities. We believe one important 
way to accomplish that is to put EPA science on an upward 
budget trajectory.
    NASULGC supports $700 million--pre-earmarks--in fiscal year 
2003 for the EPA Office of Research and Development with a goal 
of $1 billion by fiscal year 2007. Without sound science, the 
agency will not be able to correctly identify and develop sound 
management and mitigation strategies regarding emerging 
environmental problems, nor really be able to deal effectively 
with contemporary ones.
    One of the programs that we think has been particularly 
effective in helping the agency improve its science 
capabilities but one that is threatened by continuing budget 
stagnation is the Science to Achieve Results, the STAR program. 
NASULGC recommends that STAR be funded at $130 million for the 
competitive grants and $15 million for the graduate fellowships 
in fiscal year 2003, with a goal of $220 million in fiscal year 
2007.
    STAR is important because it provides rigorous peer-
reviewed competitive grants to university scientists and 
scientists in nonprofit organizations. It provides fellowships 
to our best and brightest minds in environmental sciences in 
graduate school. These are an integral part of the EPA research 
program. It supports the agency's strategic plan as well as the 
topic-specific research programs.
    We are deeply concerned about the administration's proposal 
to zero out funding for the fellowships, and I will resist the 
temptation to talk about seed corn, but the STAR fellowships do 
provide an opportunity for some of the brightest minds in a 
variety of graduate degree disciplines to pursue cutting-edge 
research and develop the skills.
    We understand that as high as 50 percent, half of the 
current ORD scientific workforce in the agency will be eligible 
for retirement in the next 10 years, and most of these folks 
will be gone in the next 5 years. Fellowships will ensure that 
there is a sufficient pool of next-generation expertise for the 
agency.
    NASULGC also supports ORD's program of hiring post-docs 
which bring in new science and techniques to the agency.
    There is also a great need for the agency to significantly 
enhance its outreach to minority institutions. The NASULGC 1890 
universities and the 1994 Tribal Institutions are a ready 
conduit for creative partnerships to advance environmental 
science and research among underserved and underrepresented 
sections of society.
    In conclusion, Mr. Chairman, we are heartened by the 
committee's strong interest in ORD and STAR. Your dedicated 
support for competitive, peer-reviewed research over the years 
has been important, and we are hoping that you will maintain 
and be steadfast with your support, particularly for STAR 
grants and fellowships, to make EPA an effective environmental 
research agency, and I thank you very much for the opportunity 
to testify this afternoon.
    Mr. Frelinghuysen. Thank you for your testimony very much, 
sir.
    Mrs. Meek. Thank you. And I am familiar with what STAR has 
done, and some of the minority institutions in terms of 
providing the kinds of things you have mentioned.
    Mr. Yuill. Well, thank you, Mrs. Meek, and 2 years ago, 
when I testified, you admonished us and the task force to 
strengthen this area of activity.
    Mrs. Meek. That is right.
    Mr. Yuill. And it is a slow process, but I think it is 
beginning to pay off.
    Mrs. Meek. It is.
    Mr. Yuill. So we heard you.
    Mrs. Meek. Thank you.
    Mr. Yuill. Thank you.
    Mr. Frelinghuysen. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

STEVE A. ROBERTSON, DIRECTOR, NATIONAL LEGISLATIVE COMMISSION, THE 
    AMERICAN LEGION
    Mr. Frelinghuysen. Steve A. Robertson, director of the 
American Legions. Welcome.
    Mr. Robertson. I had better set that straight. I am the 
legislative director. My boss wouldn't appreciate my promotion.
    Mr. Frelinghuysen. All right. Fire away, Steve.
    Mr. Robertson. Sir, I have submitted our written testimony 
to you, so I am not going to sit here and recite back numbers 
to you. But I do need to talk to you about a serious problem.
    As you are well aware, the population of veterans enrolling 
at the Department of Veterans Affairs for health care has 
skyrocketed. Fourteen years ago, when I came to Washington, 
there were about $2.5 million veterans seeking health care in 
the VA. Now we are up to 7 million.
    Unfortunately, the health care providers have not kept pace 
with that number. Consequently, we have a demand for services 
that far exceeds the ability to provide the services. Some 
parts of the country, we are hearing about appointments that 
are like next year. That is totally unacceptable.
    The American Legion has asked for a $1.8 billion increase 
in VA funding for health care. As you are well aware, we have 
sister organizations that created a group called the 
Independent Budget. Their recommendations are slightly higher 
than ours. We are not part of the Independent Budget. We go 
about our calculations somewhat differently than they do. But I 
would ask that you take a look at our testimony, look at the 
numbers that we are asking about.
    One of the areas that we are very concerned about is the 
Medicare reimbursement issue. Of those 7 million veterans, over 
half are Medicare-eligible. As you are well aware, VA is not 
entitled to VA Medicare provider in that they cannot seek 
reimbursements from Medicare. I think this is a grave error in 
judgment. I think somebody needs to sit down and look at this. 
The Priority Group 7 veterans that are Medicare-eligible, when 
they sign up to be treated in the VA, they agree to pay a 
copayment, and they agree to identify their insurance company 
for future billing.
    Medicare is a federally mandated, pre-paid health care 
plan, and as veterans we should not be discriminated against by 
saying we cannot use that health care benefit at the location 
we choose to use it. So we are going to work very hard with 
your colleague from New Jersey, hoping we can have a hearing on 
the Medicare issue in the Veterans Affairs Committee to see if 
we can maybe break a hole in that wall.
    But we appreciate everything that you have done for us. We 
know you are a champion. Mrs. Meek is also a very strong 
advocate for veterans. And if there are any questions you have 
of me, I will be more than happy to answer them.
    Mr. Frelinghuysen. Thank you for the good work you do on 
behalf of veterans and their families. Certainly we look 
forward to working with you, keeping the lines of communication 
open. You work on those authorizers, will you?
    Mr. Robertson. Yes, sir.
    Mr. Frelinghuysen. Make sure they do the responsible thing.
    Mr. Robertson. Thank you. And I just might point out, my 
colleague Peter Gayton, who is here today, will be in Cherry 
Hill this weekend conducting a veterans leadership conference 
down there.
    Mr. Frelinghuysen. Excellent. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

CRAIG S. BESKID, EXECUTIVE DIRECTOR, MICKEY LELAND NATIONAL URBAN AIR 
    TOXICS RESEARCH CENTER
    Mr. Frelinghuysen. Craig A. Beskid, representing the Mickey 
Leland National Urban Air Toxics Research Center.
    Mr. Beskid. It is a mouthful.
    Mr. Frelinghuysen. It is. Thank you for being here.
    Mr. Beskid. Thank you for having me.
    Mr. Frelinghuysen. A copy of your full testimony will be 
included in the record, and if you could summarize.
    Mr. Beskid. Yes, you have it.
    Mr. Frelinghuysen. Yes, we do, right here. Thank you.
    Mr. Beskid. Well, thank you. As you said, I am Craig 
Beskid, executive director of the Mickey Leland National Urban 
Air Toxics Research Center, and I do appreciate you allowing me 
to testify today.
    The Mickey Leland National Urban Air Toxics Research Center 
is requesting $2.5 million for fiscal year 2003 to continue our 
air quality public health research charter by Congress. The 
National Urban Air Toxics Research Center is a 501(c)(3) that 
was created in the 1990 Clean Air Act Amendments, and we were 
created as a public-private partnership, and we take that very 
seriously.
    We were placed in the 1990 Clean Air Act Amendments to be 
located in Houston, Harris County, Texas, to be close to, more 
near the Texas Medical Center to take advantage the great 
medical facilities provided by the University of Houston, the 
University of Texas, Baylor, and Rice. And that allows us to 
also be very frugal because through that university process, 
part of our administrative costs are reduced as well. We have a 
small staff of about five, and all of those staff reside right 
there to manage our projects.
    The purpose of the center is to develop and sponsor and 
direct sound, peer-reviewed scientific research on urban air 
toxics. As a public-private partnership, we value all of the 
stakeholders that are part of that equation. That includes 
academics, industrial facilities, and industrial 
representatives of the public and Government facilities as 
well, because we believe that science is the foundation of good 
decisions. And this is reflected by our board of directors, and 
our board of directors currently is composed of four private 
sector representatives from companies such as Rohm & Haas and 
Phillips Petroleum, as well as trade organizations like the 
Automobile Alliance, and four representatives from academic 
institutions like the University of Washington, very high-
powered individuals associated with the understanding of 
exposures and public health issues with exposures. We currently 
have one open board position, and our candidate is before the 
House for confirmation, and that is Dr. Arthur Vailas of the 
University of Houston.
    The board then appoints our scientific advisory panel, 
which I look at as the crown jewels of what we do. They direct 
our research program and make sure it is a consensus program 
and make sure that those results are in keeping with our 
product, which our product is peer-reviewed publications that 
can be used by all.
    Over the past 9 years, when we have been in existence, I 
think that has served us very well in that we serve a unique 
niche that no other research institution, Government or 
private, is doing. For instance, in the past year, we developed 
a brand-new personal monitoring pump that Government 
researchers as well as private industry said, no, that couldn't 
be done. We now have a working prototype, and a picture of that 
and some specifications are included in the written testimony. 
That will be revolutionary in personal exposure.
    We continue to work with EPA as well to try and include the 
center in their budget, but right now we have to come through 
Congress for those appropriations. We will continue to do that 
as EPA tries to include us in their budget. We have a good 
working relationship with EPA. They are moving forward to use 
our information, the sound science in making some of their 
regulatory decisions.
    We are pretty excited about things in the future, and that 
is one of the things I have before you in our testimony. We 
have just embarked on what I think is going to help unlock some 
of the concern about asthma across the country. Diagnosis and 
incidence of asthma have been increasing. We have just 
commissioned a pilot study called the Houston Asthma Study to 
look at 40 middle-school students in the Houston area to define 
and find out whether urban air toxics do indeed trigger 
asthmatic attacks. And we have been talking with the National 
Institute of Environmental Health Sciences. That should be a 
link to a national study when those results come in.
    In conclusion, I would just like to say that it has been a 
year and a half that I have been the executive director, and I 
am proud to be part of the National Urban Air Toxics Research 
Center because the science that has been produced is relevant, 
and it is not being done other places like EPA. And that has 
been recognized by several publications that you see in my 
written testimony as well as the increasing support as a 
public-private partnership we are seeing from philanthropies, 
from private industry, and even from non-Federal Government 
organizations. Harris County commissioners have contributed to 
our research specifically in the Houston Asthma Study.
    I would just like to end by thanking the committee for 
their support in the past, and we do appreciate your 
consideration of $2.5 million for fiscal year 2003.
    Mr. Walsh. Thank you very much for your testimony. We will 
make sure your entire statement is included in the record.
    Any questions?
    Mrs. Meek. I just wanted to thank you for some of the 
research you have done with related causes with urban research 
and asthma. It has been very positive.
    Mr. Beskid. Thank you very much.
    Mr. Walsh. Thank you, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                               WITNESSES

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
TOM SETH SMITH, PRESIDENT/CEO, RURAL ENTERPRISES OF OKLAHOMA, INC., 
    DURANT, OKLAHOMA
    Mr. Walsh. Our next witness, Mr. Tom Seth Smith, Rural 
Enterprises of Oklahoma, Inc., and he will be introduced by his 
Representative, Mr. Watkins, who is not unknown to this 
subcommittee.
    Good to see you, Wes.
    Mr. Watkins. I have always wanted to serve on this 
committee, but they wouldn't let me. [Laughter.]
    Mr. Walsh. You are welcome here anytime.
    Mr. Watkins. Mr. Chairman, members of the committee, I am 
delighted that you have allowed me to come back and also 
allowed my friend who has helped provide the leadership of 
Rural Enterprises Inc. in the southeast quadrant of the State, 
which is a highly economically depressed area of Oklahoma, the 
place where I was born and raised. I have been trying to lift 
it out of the economic conditions that we have. We don't have 
anything there. It is kind of a no-man's-land. But after 
several trying times ahead of us, we have in Tom Smith a 
gentleman who has a background and has worked at it now for 
about a dozen years or so, helping us with the start-ups and 
with the expansion of businesses, with the business incubators 
in the area, which has produced a number of jobs and has helped 
develop some of the economy. We have been able to put about $1 
million worth of bonding money, so this is leveraging and 
expanding bonding money in communities that never had any new 
homes since about the early--this may not be long ago for a lot 
of you people, but it is about 1910, 1920, some of these 
houses. So we are getting housing.
    So under his leadership, he has done a great job, and I am 
very delighted and very pleased to present to each of you a man 
that I put a lot of faith and trust in for fulfilling some of 
the economic rewards for our area. So I appreciate your 
allowing us to come back today.
    Mr. Smith. Thank you, Congressman. Thanks to the committee 
for allowing us to appear today. I am very pleased to have this 
opportunity to represent Rural Enterprises of Oklahoma. I 
appear before you today to request an appropriation of $400,000 
from the U.S. Department of Housing and Urban Development, 
Economic Development Initiative program. This appropriation 
request is for rural economic development activities to meet 
the needs of rural Oklahoma businesses and communities, with 
the ultimate result of creating jobs and providing for rural 
affordable Oklahoma housing.
    The need for such appropriation is substantiated by the 
increased demand for rural Oklahoma entrepreneurs and 
communities for financing business development and 
international trade assistance and rural housing needs. 
Currently the services of Rural Enterprises include: a mortgage 
revenue bond program to provide down payment and closing cost 
assistance to rural Oklahoma working families for affordable 
housing; a mortgage credit certificate program providing 
homebuyers with a much needed tax credit; a community financing 
program to provide rural communities with access to capital for 
infrastructure needs; a new Rural Women's Business center 
serving Oklahoma's enterprising rural women in 21 designated 
counties by the SBA; business financing for Oklahoma 
entrepreneurs; business incubators for start-up or expanding 
businesses; an equipment pool for rural manufacturers employing 
25 employees or less; international trade assistance in a 
business development program to assist rural communities with 
business recruitment efforts.
    The demand for affordable housing is evidenced by over 
$43.5 million loaned to 923 rural Oklahoma families under REI's 
$71 million rural housing bond issue initiated in 1998. We 
believe the success of this down payment and closing cost 
assistance program testifies to the need for affordable housing 
and also testifies to the need for appropriations from the HUD 
EDI program to facilitate and continue this program.
    Community assistance is also in demand. REI has established 
a community financing program for an issue of $100 million in 
tax-exempt Government financing pool to provide rural 
communities with access to capital for infrastructure and other 
needs. Communities have also asked for assistance with business 
incubators. Currently REI is working with rural Oklahoma 
communities in Wetumka, Allen, Seminole, Wewoka, and Hilton to 
help them establish their own incubators.
    Additionally, the demand for a rural business financing 
program is evidenced by total financing secured in 2001 of over 
$18 million for small businesses. Since 1981, the creation year 
by Congressman Wes Watkins, over $200 million in financing has 
been secured for rural small Oklahoma businesses by Rural 
Enterprises.
    Mr. Watkins. That is a lot of private----
    [Laughter.]
    Mr. Watkins. I couldn't squeeze that out.
    Mr. Walsh. That is an impressive number.
    Mr. Smith. In summation, Mr. Chairman, Rural Enterprises is 
a nonprofit 501(c)(3) economic development firm headquartered 
in Durant, Oklahoma. The programs and services of the 
organization are essential, especially in rural areas suffering 
from underemployment and dependency upon State and Federal 
assistance. REI's diversity of services and its visionary 
capabilities are what sets it apart from other economic 
development agencies. Testimony on the organization's vision is 
the establishment of a foreign trade zone, an international 
trade and development division, and a business incubator to 
accommodate technology-based businesses. Currently three start-
up businesses are located within this facility.
    REI has attained a credible reputation at State and 
national levels for its ability to successfully carry out such 
a unique combination of services. It is also known for its 
prompt reporting and accounting to Federal agencies for 
funding. HUD appropriations are essential to continue our 
economic development programs to serve rural Oklahoma 
businesses and communities.
    Thank you for your time today and the opportunity to appear 
before you, especially with Congressman Watkins. He tells us 
this may be his last year for us to have him introduce us, and 
we are saddened by that, but we are also glad to have him come 
back to Stillwater, Oklahoma, on the 40 acres that he has.
    Mr. Walsh. Thank you.
    Mr. Watkins. Mr. Chairman, as you can see, we have tried to 
leverage that. We didn't even have any revenue in that area. 
Banks from Oklahoma City and Tulsa wouldn't come down to help. 
We couldn't get Dallas and Fort Worth to come over. It is just 
an economic pit. So we had to establish a vehicle, a mechanism, 
and it has been working. And with your help, the seed money has 
been really helpful.
    Mr. Walsh. We will try to be helpful.
    Mrs. Meek. It sounds very good, Mr. Chairman, this model 
does, because they can get help where they couldn't otherwise 
from the large entities that they have to go to.
    Mr. Walsh. Thank you for your testimony.
    Mr. Smith. Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                               WITNESSES

HON. CAROLYN MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
HERB ZARETSKY, PH.D., ADMINISTRATOR, DEPARTMENT OF REHABILITATION 
    MEDICINE, RUSK INSTITUTE, NEW YORK UNIVERSITY MEDICAL CENTER
    Mr. Walsh. Our next witness is Mr. Herb Zaretsky, 
administrator for the Department of Rehabilitation Medicine at 
Rusk Institute, New York University Medical Center, and he will 
be introduced by Carolyn Maloney, who is also not unknown to 
this subcommittee. Welcome.
    Mrs. Maloney. It is good to see you and Carrie Meek. I am 
in the middle of a banking financial services markup, so I am 
going to be very brief and rush back for votes.
    Mr. Walsh. We like brevity.
    Mrs. Maloney. I first want to thank both of you for your 
support for projects in my district, and particularly you, Mr. 
Walsh. You have been a great champion for all New Yorkers on 
both sides of the aisle, and we really appreciate it. And I am 
extremely honored and delighted to introduce today Dr. Herb 
Zaretsky, who is the administrator for the Department of 
Rehabilitation Medicine at the well-renowned Rusk Institute. 
And today we are asking for $1 million of a $3 million project 
to rehabilitate Rusk, which is now 48 years old.
    Rusk Institute is one of the most famous rehabilitative 
institutions in the entire world, and it was rated number one 
for many years. But now because of the facility, it has fallen, 
but still the medical and the staff are rated number one, but 
the facility is 54 years old and needs some help.
    I have spent a great deal of time there. My father was a 
patient at Rusk, and they treated him. He has Parkinson's, and 
this grant that we are asking for is for the Comprehensive 
Stroke and Neuro-Degenerative Care Center at Rusk.
    Rusk has trained more doctors, nurses, practitioners in 
rehabilitative medicine than any other institution in the 
world, and I believe in it so strongly that I would love to 
invite you--I know Carrie is there to see her daughter every 
now and then, but you are New Yorker, go by and see it. It is 
really incredible. The building is in terrible shape, but the 
work that is taking place there--they served many of the 9/11 
victims, but they do it every day to bring people back to 
health. It is almost a miracle what they have done to help 
people.
    So I feel very strongly about this, and I think it is very 
important not only for Rusk but also for New York, which in 
many ways has--the number two employer, actually, in our State 
is the medical profession. We do train many doctors, nurses, 
practitioners, and we can't allow our great institutions to 
lose their standing, not on the medical standing but that they 
are not dilapidated old buildings. You don't see the building 
when you see the wonderful people and what they are doing to 
really work miracles to make people healthier and better and to 
help move them forward.
    As I said, it is also a research center, and some of the 
most important breakthroughs for neurological diseases, 
certainly rehabilitative medicine. It has been the leader for 
really generations in this type of medicine.
    So we are asking that we can repair the building and 
modernize it so that it will then--believe me, if we get this 
grant, it will be rated number one in the whole country. I 
would stake my life on it, and just on the medicine that is 
there, but when you see the building, it is really in bad 
shape.
    But let me tell you, it is quite an experience to go and 
see what they can do to help people--people with strokes, to 
teach them to walk, to really restore and build back their 
health. It is just unbelievable.
    I suggest that we all, all Members of Congress, should 
spend a week at Rusk. I think we would be in better shape.
    Mr. Walsh. Hopefully not to rehabilitate. [Laughter.]
    Mrs. Maloney. I think we would be better ready for the 
challenges ahead of us. And I apologize that I can't stay, but 
I have to be voting in financial services, and, again, thank 
you, Carrie, and thank you, Jimmy, for all the help you have 
given in the past. I do represent a number of really 
outstanding institutions. I even call my district ``the 
hospital district.'' I have so many of them in it. But I only 
represent one rehabilitative institution or hospital that is 
rated number one in the country. We have got to take care of 
it, Jim. Okay?
    Mr. Walsh. Thank you very much.
    Mrs. Maloney. Put it on your A list.
    Mr. Walsh. Put it on yours.
    Mrs. Maloney. It is on mine. I need it on yours.
    Mr. Walsh. All right.
    Mrs. Maloney. Thank you.
    Mr. Zaretsky. Thank you, Congresswoman Maloney. I think my 
remarks may be superfluous at this point.
    Mr. Walsh. She is stealing all of your thunder. [Laughter.]
    Mr. Zaretsky. But you can't have a better advocate than 
Congresswoman Maloney.
    I thank you, Mr. Chairman, for the opportunity to testify. 
In addition to being administrator of the Department of Rehab 
Medicine at Rusk, I am also a clinical associate professor in 
the NYU School of Medicine, and Chair-elect of the Board of 
Trustees of the national accrediting organization, which is 
called CARF, the Commission on the Accreditation of 
Rehabilitation Facilities. And so I know full well the 
importance of rehabilitation not only in New York but in the 
country.
    Rusk is the world's first academic facility devoted to 
rehabilitation medicine. It was founded in 1948 by Howard A. 
Rusk, and it is internationally renowned and is the largest 
university-affiliated center for the treatment of adults and 
children with disabilities, as well as for research and 
training in rehabilitation medicine.
    The Rusk Institute's inpatient program totals 174 beds. 
This includes 35 pediatric beds--the only inpatient pediatric 
rehabilitation program in New York City--and 22 cardiac 
rehabilitation beds. In addition, Rusk provides more than 
60,000 outpatient visits each year. We discharge 3,000 patients 
a year at the Rusk Institute on the inpatient side. So, 
clearly, we are the center of what is happening in New York 
City. And as Congresswoman Maloney mentioned, we have been very 
actively involved in the aftermath of September 11th and 
continue to do so.
    The Rusk Institute, because of the pioneering work of Dr. 
Howard Rusk, has been the site of many innovations, with 
advances that have helped to establish the standard in 
rehabilitation care, including pioneering the development of 
the interdisciplinary team approach in treating the 
rehabilitation patient.
    The concept of the team approach is that we treat the whole 
patient, not just the functional performance of the patient, 
but the psychological, the psychosocial aspects as well.
    As Congresswoman Maloney mentioned, more physicians and 
therapists have been trained in rehabilitation at Rusk than at 
any other institution in the world. The Rusk Institute has been 
consistently recognized for its excellence. For 12 consecutive 
years since these rankings have been published, the U.S. News & 
World Report has ranked Rusk as one of the top ten hospitals 
for rehabilitative care in the country, as well as the most 
highly rated program in New York. And as Congresswoman Maloney 
mentioned, the reason why we are not at the top is because of 
our physical plant.
    Now, the underlying philosophy of the Rusk Institute is to 
view each patient as a person and to respect the individual 
needs of each, whether those needs are for improved skills, 
compensatory strategies, or other assistance in improving the 
quality of life.
    At the Rusk Institute, every effort is made to provide a 
smooth continuum of care throughout the rehabilitation process. 
The goal is to enable each patient to return to a maximum level 
of productivity.
    The Stroke and Neuro-Degenerative Disease Rehabilitation 
Center at the Rusk Institute has treated more than 15,000 
people with disabilities due to stroke since 1950, including 
many individuals from other States in the country. And as an 
international hospital, we have also treated people from many 
other parts of the world.
    The center continues to offer comprehensive care by a team 
of specialists who provide integrated treatment for problems 
associated with stroke and neuro-degenerative diseases. 
Incorporating findings from Rusk's own renowned stroke 
research, the program also features what is called a ``clinical 
pathways'' model, which provides a structure and timetable for 
rehabilitation. Ensuring high-quality care for each patient, 
this model helps patients and referring physicians know when 
and what to expect at each stage of the rehab process.
    On admission to the Rusk Institute, patients are given a 
comprehensive and intensive treatment program that is designed 
to meet the individual needs of each patient. Feedback to 
patient and family from members of the treatment team provides 
for a continuous dialogue that maintains family involvement, 
which I think is critical, and helps to develop the best 
discharge plan consistent with patient and family needs.
    The modernization and renovation of space at the Rusk 
Institute, which is 54 years old, is needed to provide high-
quality facilities and equipment for our patients. Our patients 
require a supportive, noise-free environment where therapists 
and family members can visit and interact in a supportive way. 
This will provide a discrete unit for the rehabilitation 
program within the Comprehensive Stroke and Neuro-Degenerative 
Care center.
    The total cost of the Comprehensive Stroke and Neuro-
Degenerative Care Center is estimated to be about $3 million. 
The Rusk Institute is requesting $41 million in Federal funding 
and plans to raise the remaining balance through State and 
Federal grants and private philanthropy.
    I thank you, Mr. Chairman, for affording me the opportunity 
to testify. I appreciate your interest in the Rusk Institute 
and in our Stroke Center, and I would be pleased to respond to 
any questions.
    Mr. Walsh. No questions from myself, but thank you for your 
testimony and for the important work that you are doing. And we 
will consider this a priority with the many requests that we 
have and do our very, very best to help you to modernize your 
facility.
    Mr. Zaretsky. I thank you very much.
    Mr. Walsh. Thank you.
    Mrs. Meek. Thank you.
    Mr. Zaretsky. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

TIMOTHY BALL, ACTING GENERAL MANAGER, MORGANTOWN UTILITY BOARD, WEST 
    VIRGINIA; ON BEHALF OF THE ASSOCIATION OF METROPOLITAN WATER 
    AGENCIES (AMWA)
    Mr. Walsh. Our next witness is Timothy Ball, acting general 
manager, Morgantown Utility Board, West Virginia. Welcome.
    Mr. Ball. Thank you. Good afternoon, Chairman Walsh, 
Congresswoman Meek. I am Timothy Ball. I am the acting general 
manager of the Morgantown Utility Board. Morgantown Utility 
Board is a public water utility serving about 70,000 persons in 
the northern area of West Virginia, in the Morgantown, West 
Virginia, area.
    Given my acting status, one might ask what has become of 
the true normal general manager of the Morgantown Utility 
Board. That question is quite appropriate, and the answer is 
particularly pertinent. Our general manager, James L. Green, is 
a lieutenant colonel in the U.S. Army Reserve. He and two 
others from our small workforce of 120 persons have been called 
to active military duty following the horrors of September 
11th. We are proud of their contribution, and we trust that you 
will agree that our utility is doing at least its fair share to 
serve and protect its customers and our country.
    I am testifying today on behalf of the Association of 
Metropolitan Water Agencies, AMWA, which consists of the 
Nation's largest publicly owned drinking water suppliers. Also, 
AMWA is the EPA-designated water sector liaison to the Federal 
Government for critical infrastructure protection. My utility 
is actually rather small compared to most other AMWA members, 
but the efforts and the recommendations that I wish to discuss 
with you today apply with equal priority to water and sewer 
utilities, both large and small.
    We want to first express our sincere thanks to you for 
inviting us to testify and also for appropriating $90 million 
in fiscal year 2002 for vulnerability assessments and other 
security-related efforts.
    The threats of interruptions in fire protection, public 
health threats resulting from disruptions of wastewater 
treatment, and interruptions of drinking water service are ever 
present.
    AMWA operates under the premise established in the report 
of the President's Commission on Critical Infrastructure 
Protection that we should attend to our critical foundations 
before we are confronted with a crisis and not after. Waiting 
for disaster would prove as expensive as it would be 
irresponsible.
    I wish to address several distinct but related topics with 
you. The first is water security research.
    One of our most urgent needs facing drinking water and 
wastewater systems in our efforts to remain safe and secure is 
that of knowledge. This is why the water sector is asking for 
at least $15 million as an initial investment for water 
security research, methodologies, and technologies that will 
enable us to prevent and respond to terrorist acts. These funds 
must be deployed in the field as soon as possible.
    Among the outstanding research needs determined by EPA are 
identification and characterization of biological and chemical 
agents, biological and chemical agent detectors, and security 
of cyber command and control systems.
    Estimates run into the tens of millions of dollars to close 
these knowledge gaps. The administration did not ask for 
additional funding for water research, but all parties agree 
that the need for this research is urgent and strategically 
important. An infusion of $15 million today will launch many 
projects that will help water systems confront the 
possibilities of terrorism.
    Another topic is that of education and training. Access to 
training and education is another need of water systems, and we 
recommend that $2.5 million be made available to the American 
Water Works Association to train and educate water system 
operators around the Nation on security topics. As a current 
member of AWWA's Board of Directors, I am especially supportive 
of this valuable proposal.
    Another topic is that of vulnerability assessments and 
security improvements. AMWA supports increased funding for 
vulnerability assessments and new funding for security 
improvements at drinking water and wastewater systems. Like 
other utilities, Morgantown Utility Board is working 
aggressively now to assess our vulnerabilities. Once we are 
complete, we will have a better long-term view of our security 
needs, but in the meantime, we have already spent $200,000 on 
short-term improvements, and we could easily spend that much 
again.
    Nationwide, it is estimated that vulnerability assessments 
at the 54,000 drinking water and the 16,000 wastewater systems 
could cost as much as $700 million. And near-term security 
improvements could cost water systems as much as $4 billion 
nationwide. This would cover fencing around facilities and 
reservoirs, intruder alert systems, surveillance cameras, and 
similar improvements.
    Water infrastructure is also an important topic. In 
addition to security-related costs facing water systems are the 
routine costs of upgrading and replacing aging infrastructure. 
The Water Infrastructure Network estimates that drinking water 
utilities across the Nation collectively need to spend $24 
billion per year for the next 20 years, for a total of $480 
billion. Despite being heavily burdened with a myriad of new 
and increasing costs, water systems will continue to bear the 
majority of these infrastructure costs locally. However, we 
urge Congress to appropriate at least the $1 billion authorized 
under the current Safe Drinking Water Act for this much needed 
assistance.
    Mr. Walsh. Please summarize your remarks.
    Mr. Ball. I will wrap up, yes, sir. The final items is that 
of State drinking water programs. We support an appropriation 
of $100 million for public water system supervision grants for 
State drinking water programs as authorized under the Safe 
Drinking Water Act. The services funded by these grants are 
especially critical to medium and small utilities.
    In conclusion, we truly appreciate the time and 
consideration you have given these issues. We look forward to 
working with you to ensure safe drinking water and to protect 
the Nation's drinking water systems from terrorism.
    Thank you.
    Mr. Walsh. Thank you very much.
    Any questions, Mrs. Meek?
    Mrs. Meek. No. Thank you.
    Mr. Walsh. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

GARY KENNEDY, M.D., PRESIDENT, AMERICAN ASSOCIATION OF GERIATRIC 
    PSYCHIATRY
    Mr. Walsh. Our next witness is Gary Kennedy, president, 
American Association of Geriatric Psychiatry. Dr. Kennedy, 
welcome.
    Dr. Kennedy. Mr. Chairman, Congresswoman Meek, I am Gary 
Kennedy. I am president of the American Association for 
Geriatric Psychiatry, a professional membership organization 
dedicated to promoting the mental health and well-being of 
older Americans. And while I train geriatric psychiatrists in 
the Bronx, my training for myself was actually at San Antonio 
Audie Murphy VA Hospital in Texas.
    Mr. Chairman, I join many of the other witnesses in 
acknowledging the subcommittee's support for the care of our 
Nation's veterans, yet I am here today to convey our concern 
that the existing gap between mental health needs and resources 
will widen rapidly unless Congress acts to increase support for 
older veterans.
    More than a third of VA patients need psychiatric care, and 
particularly with aged veterans, their care is often 
complicated by heart disease, lung disease, and diabetes. 
Conversely, treatment of medical illness in the VA is often 
complicated by psychiatric disorders. In either instance, the 
care is made more complex because of the combined mental and 
physical illness which commonly requires multiple medications 
and coordinated services.
    Despite the increasing need for coordinated care, funding 
for VA mental health services, training and research is falling 
dangerously behind. The proportion of VA spending for mental 
health care has decreased by 23 percent since 1996. Less than 9 
percent of VA funds available for medical education were 
designated for psychiatric residency training in 2002.
    Of the $409 million slated for research in the President's 
fiscal year 2003 budget, only $36 million, or 8.8 percent, were 
earmarked for psychiatric research.
    AAGP recommends that Congress appropriate $425 million for 
medical research and dedicate $63 million of that for 
psychiatric research. This would represent an increase of 15 
percent over the President's budget proposal.
    As the elderly veteran population increases, it becomes 
ever more urgent that the research base in geriatric psychiatry 
be expanded. VA-sponsored research into mental disorders of 
aging benefits all Americans, not just our veterans.
    AAGP also believes that the range of integrated services 
within the hospital and the community that are provided to 
veterans with mental disorders should serve as a benchmark for 
all health care systems in the country. AAGP recommends that 
the savings from closing VA inpatient mental health programs be 
reinvested in community-based outpatient clinics and the 
development of an outpatient continuum of care that includes 
the necessary array of services.
    We urge support of the mental health intensive care 
management programs in community and home settings by providing 
integrated medical and mental health services. Through 
community-based outpatient clinics, veterans will receive the 
highest quality of care, and the VA will experience further 
reduction in inpatient services.
    As the elderly veteran population increases, Alzheimer's 
disease will overwhelm the traditional veterans' nursing homes. 
The VA should encourage innovation and methods utilized by VA 
health personnel to treat veterans with Alzheimer's disease and 
should develop family and caregiver support programs which have 
been shown to delay nursing home admission.
    AAGP recommends new mental health research funding for the 
development, testing, and dissemination of interventions to 
manage psychiatric complications of Alzheimer's disease. A 
vitally important VA program for coordinating mental health 
research and education in clinical care is the Mental Illness 
Research Education and Clinical Centers, or MIRECCs. AAGP 
commends Congress for funding eight MIRECCs. These centers have 
demonstrated that coordinated research and education projects 
can translate scientific knowledge into clinical care.
    Given the success of these programs, AAGP urges that 
funding for the existing MIRECCs be continued and recommends 
the funding of two new MIRECCs in fiscal year 2003.
    In conclusion, we are underinvesting in the mental health 
services, training, and research for our Nation's veterans. The 
future costs of underinvestment will be staggering. AAGP urges 
you to commit the resources necessary for coordinated physical 
and mental health care. I would like to thank the subcommittee 
again for this opportunity, and I would be happy to answer any 
questions.
    Mr. Walsh. Thank you very much. You covered a lot of ground 
in a very brief time. Unfortunately, we don't have time for 
questions, but this is an issue that we are very concerned 
about also.
    Mrs. Meek, any questions?
    Mrs. Meek. No. Thank you very much.
    Dr. Kennedy. Appreciate it.
    Mr. Walsh. Thank you, Doctor.
    Dr. Kennedy. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

MOLLY L. OSBORNE, M.D., ASSOCIATE PROFESSOR OF MEDICINE, VA MEDICAL 
    CENTER/OREGON HEALTH SCIENCES UNIVERSITY; ON BEHALF OF FRIENDS OF 
    VA MEDICAL CARE AND HEALTH RESEARCH; (FOVA)
    Mr. Walsh. Our next witness is Molly Osborne, associate 
professor of medicine, VA Medical Center/Oregon Health Sciences 
University, and your organization is Friends of VA Medical Care 
and Health Research.
    Dr. Osborne. Thank you very much. Thank you, Mr. Chairman 
Walsh, and also Chairwoman Meek. I might add, I was here a year 
ago. It is a pleasure to be back here from Oregon, and I will 
try not to say the same thing twice.
    Mr. Walsh. Welcome back.
    Dr. Osborne. I have 4 minutes to tell you why it is 
important to support about $460 million for research, and I am 
here representing FOVA, which, as you already mentioned, is 
Friends of the VA. It covers both medical and prosthetic 
research programs. And I am going to focus on the research and 
how important is.
    Of course, you might as why is it so important to put $460 
million up for this, and I think there are a couple of 
different reasons. The first reason is that what happens with 
this kind of research funding is the best and the brightest 
physicians come to the VA to serve the veterans, and the reason 
they do that is because they can do both research and they can 
also serve patients.
    I am actually associate dean for medical students in 
Oregon, and when my students come through, what they want to do 
still, as they are graduated, is service to their patients, 
they want to do research, and they want to do teaching. Usually 
they can't do all three, and the VA is unique in allowing them 
to do that in a relatively supportive environment. And that 
money goes to drawing these best and brightest students to the 
VA. It doesn't go unrecognized, and it is really deeply 
appreciated.
    The second reason I think it's important is remember that 
you are well funding the NIH, which I greatly appreciate. As a 
Ph.D. who still does research, the NIH research is important. 
We are the bridge between the test tubes and the bench research 
to the patient. We do the clinical research. We are the ones 
that are doing the big trials for cancer prevention, for 
Parkinson's, for diabetes, for arthritis, for neurological 
diseases. We run the gamut. And I am just going to give you two 
examples.
    One I mentioned last year, so I know you remember, which is 
about a colleague of mine who, 20 years ago, was concerned 
about preventing cancer, colon cancer, and actually came up 
with a method or showed that colonoscopy works better than 
sigmoidoscopy, that it helps the outcome, it actually makes the 
survival better in the disease, which, as we know now, looking 
at other disease screening methods, is very important.
    The other one is a colleague who is looking at 
tuberculosis. As you may know, tuberculosis is one of the 
biggest infectious diseases right now that is reaching 
everybody's ears, with 9/11 and all that. And they have 
actually made a major step towards a vaccine, which is--they 
are not there yet. I don't want to overpromise you, but they 
are working on it.
    The other reason I think it is really important is for my 
patients. My patients not only come in wanting to be treated, 
but if you can believe it, they come in wanting to volunteer 
for these projects. They come in with their Internet downloads 
of the latest data. They want me to know about them. And they 
want to be part of the trials. They want to be part of the 
trials for obstructive lung disease, for cancer, and so forth.
    The point I am trying to make here, Mr. Chairman, is this 
is a good investment for your money. I think you will see a 
good return for a relatively small amount of money.
    There is also something else to add, and a smudge here or 
the black spot here is that the facilities themselves are now 
quite old. You have already heard that before, I know, within 
the hour in other arenas. It is also true for the VA. FOVA is 
asking for $45 million just for rehabilitation not just of 
patients, but of the space itself. Not new space. Just 
rehabilitation of the pre-existing space.
    So, in summary, I would say that I know you are looking 
over proposals carefully since 9/11, but I think this is a good 
one, a good investment for your money.
    Thank you, and I am glad to answer questions.
    Mr. Walsh. I would just note we funded--I believe last year 
we funded VA medical research at 371. The President's request 
is 409, so we are headed in the direction that you would like 
us to go.
    Dr. Osborne. I know, because I was here last year. I am 
delighted. Thank you so much.
    Mr. Walsh. Obviously, it had an impact.
    Dr. Osborne. Thank you very much.
    Mr. Walsh. Thank you very much for your advocacy.
    Dr. Osborne. You are welcome.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

STEVEN M. MIRIN, M.D., MEDICAL DIRECTOR, AMERICAN PSYCHIATRIC 
    ASSOCIATION
    Mr. Walsh. Our next witness is Steve Mirin, medical 
director, American Psychiatric Association. Welcome.
    Dr. Mirin. Thank you, Mr. Chairman. I am the medical 
director of the American Psychiatric Association representing 
38,000 psychiatric physicians across the country, of whom 2,000 
are working in VA facilities. Thank you for the opportunity to 
present APA's recommendations on the appropriation for the 
Department of Veterans Affairs Health Care and Medical Research 
Programs.
    Before beginning my comments, I would like to thank the 
members of the subcommittee and your colleagues in the House 
for your commitment in providing the highest-quality care to 
our Nation's veterans, of which I am one. I would ask that my 
full statement be included in the record.
    Mr. Walsh. Without objection, we will include it.
    Dr. Mirin. We are very encouraged by the administration's 
fiscal year 2003 proposed budget which calls for an 11.7 
percent increase in funding for the medical care of veterans. 
We believe that this is a step in the right direction. However, 
we do join with many veterans groups in requesting an 
additional $750 million, for a total of $26.2 billion, to help 
meet the growing health care needs of our veterans. We support 
the view of the Secretary that current spending is at least 
$400 million below demonstrated need, and if you factor in 
inflation and current workload, the deficit is closer to $750 
million.
    The bulk of my testimony concerns the welfare of veterans 
with mental illness who account for about 25 to 30 percent of 
all veterans receiving care within the VA health care system. 
In 2001, the VA treatment programs served over 700,000 unique 
patients, of whom about 300,000 were considered to have serious 
mental illness. At the national level, we are very pleased with 
the outcomes of the VA mental health and substance abuse 
programs, but we are concerned about access to mental health 
care and the quality of care these veterans receive across the 
VA's 22 relatively autonomous integrated service delivery 
networks.
    Medical care, as has been previously mentioned by another 
witness, of these veterans is often complex because many also 
suffer from heart disease, diabetes, hypertension, and they 
require very well-coordinated medical care. And in this 
context, we are concerned that the VA have the resources to 
continue to recruit and retain excellent clinicians--in 
particular, psychiatrists--to serve the needs of these 
patients.
    In some areas of the country, the waiting time for an 
appointment with a psychiatrist can be up to 4 months, and this 
is just not good medical care, particularly for the most 
severely ill.
    It is also important to note that many of the patients in 
the VA system are among those who are most in need of new 
medical treatments to manage their mental health problems. And 
we are concerned that, despite instructions from the Congress 
in the 2002 VA/HUD conference report, the care of patients with 
schizophrenia continues to be impacted by the requirement that 
a patient undergo a 10-week trial of presumably a generic anti-
psychotic medication and fail on that medication before any 
other medication can be considered. This so-called ``fail 
first'' practice really interferes with clinicians' ability to 
use their best judgment and the most advance 
psychopharmacologic treatment to help patients.
    Finally, to continue the progress made over the last 3 
years in improving the quality of care that veterans receive, 
the VA should continue to reinvest the savings derived from 
closing inpatient mental health programs to develop an 
outpatient continuum of care that includes case management, 
psychosocial rehabilitation, housing alternatives, and other 
support services.
    Turning to research, we believe the administration's 
decision to provide a nominal increase to the medical research 
budget is positive. Medical science in general and neuroscience 
in particular is making great strides in understanding and 
treating mental illness and substance abuse. But despite the 
fact that 30 percent of all VA patients are suffering from 
mental illness, only 9 percent of VA research dollars are 
allocated to these disorders.
    We believe that the growth of the VA research program 
should be kept on a par with the rate of growth of the NIH. 
Otherwise, the research infrastructure will be eroded, along 
with opportunities to leverage VA's past investment in research 
and its ability to translate research findings into advances in 
clinical care. And this is particularly important as we face 
the return of veterans from Afghanistan and other parts of the 
world.
    Mr. Walsh. I would ask if you could sum up.
    Dr. Mirin. In summary, we respectfully request that to meet 
the needs of an aging population of mentally ill veterans, over 
the next 3 years the Congress increase funding for the care of 
veterans with serious mental illness by $160 million a year and 
that you appropriate $425 million for overall medical research, 
and then approximately 15 percent of this amount be earmarked 
for psychiatric research.
    Thank you very much.
    Mr. Walsh. Thank you very much, Doctor.
    Any questions of the witness?
    Mrs. Meek. No. Thank you.
    Mr. Walsh. Thank you, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                                WITNESS

MOE ARMSTRONG, VETERAN, AND MEMBER; BOARD OF DIRECTORS, NATIONAL 
    ALLIANCE FOR THE MENTALLY ILL
    Mr. Walsh. Our next witness is Moe Armstrong, a veteran and 
a member of the NAMI Board of Directors.
    Mr. Armstrong. Thank you very much, Mr. Chairman, 
Congresswoman Meek. Good to meet you. My name is Moe Armstrong. 
I am on the national board of the National Alliance for the 
Mentally Ill. I am also a veteran, decorated combat veteran 
from Vietnam.
    Mr. Walsh. Thank you.
    Mr. Armstrong. Thank you, and I am proud to be of service.
    While in Vietnam, I did become mentally ill. I was 
evacuated to a naval hospital in Oakland, California, in 1966, 
and from that point on, I was homeless for 3 years. In those 
days, you were just discharged to the streets more or less. You 
were either in the hospital or you were in the streets. And it 
is kind of a different time that we are living in today. I am 
very grateful for that.
    Over the last 35 years, I have struggled with my own mental 
illness, and I always say that the best way to kind of 
understand mental illness is to be married with me, and I have 
been through five marriages. So you kind of get the idea of how 
tough it is to have this particular condition. [Laughter.]
    Many times I wish I might have lost a leg or something. It 
might have been easier to live with. It is a very traumatic 
illness that I have had to live with.
    Over the past 35 years, through the help of the Veterans 
Administration and the New Mexico Veterans Service Commission, 
I went back to school and ended up getting two master's 
degrees.
    Since that time my life has become dedicated to helping 
other people who have mental illness set up support groups. I 
do that now in Massachusetts and have been in upstate New York 
in your area, in Jamestown, and worked with the organization up 
there and helped set up these support groups through 
Massachusetts. We have 30-some support groups.
    Now I am starting to do that with the VA as part of my 
service. I still believe that we who receive care have a moral 
responsibility to go back and help others like we were helped 
ourselves. And I was helped for many years. Whatever I got 
today, I didn't get on my own. I got through the care of the 
Veterans Administration. It worked for me.
    I think we can do a better job, though, of having it work 
for others. The Veterans Administration has faced some very 
serious cuts in mental illness. I always say that I never see 
any other health care getting cut like mental illness.
    What is strange about mental illness is that people can't 
seem to see it, touch it, understand it, or get a feel for it 
unless you have really had it or it has been in the family or 
you know somebody that has had it. And so this is a very 
strange and complicated condition. Teaching people to live with 
mental illness and setting up these educational support groups 
has been my calling. Now with the New Haven Veterans 
Administration, they are going to be researching these support 
groups over the next 3 to 5 years, see the effectiveness of 
what we do in their system, even though I have these 30 support 
groups under Medicaid in Massachusetts going at all times.
    I think we have to look at some very serious things in the 
mental health care, the Veterans Administration. They have been 
faced--and, again, I am moving now from a guy who has received 
care to a person who works with the VA and trying to understand 
their system from an administrative point of view, like I work 
with an administrator now on mental health in Massachusetts. 
They have lost about $500 million over the past 5 or 6 years 
that has gone on to other parts of health care.
    Mental illness is strange. We are generally seen as a 
social problem and not a health concern, those of us that have 
these psychiatric conditions. And, therefore, our money doesn't 
seem as important or needy enough for our own system, although 
we know now that treatment works. We are very effective at 
providing care through--I always say 20 percent medication, 80 
percent programs. We are very good at providing care for 
people. We can get people fairly sane, stable, safe, and sober 
if we get them in our care. The people who don't get in our 
care are the people who I am worried about.
    Also, we really appreciate the work that your committee has 
done for housing. Housing for people with a major serious 
mental illness is a big part, and you have my testimony in 
front of you, and you can read all the little intricacies of 
this. But housing is a very important part of mental health 
care for the veteran.
    I want to thank you again and also thank Congressman 
Frelinghuysen for the work that he has done also for people 
with disabilities, people with disabilities in housing, 
because, you know, the 811 has gone a long way to really 
establish--and even though it is not popular today, congregate 
living has done a lot for a lot of people to really have staff 
there 24 hours in a setting to make sure that people do have 
the chance to be sane, stable, safe, and sober.
    Thank you for inviting me here, and I am very honored to be 
here and talking to you this afternoon.
    Mr. Walsh. We are honored to have you here.
    Mr. Armstrong. Thank you very much.
    Mr. Walsh. Thank you for taking the time to come in and for 
your advocacy.
    Mr. Armstrong. Thank you. We flew down and are flying back 
today. Thank you.
    Mr. Walsh. You can be a poster boy for if at first you 
don't succeed with those marriages. [Laughter.]
    Mr. Armstrong. Actually, many times. I also got turned down 
for vocational rehabilitation three times before I got 
accepted. I am an old recon Marine. We just keep going. Just 
keep going.
    Thank you. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 16, 2002.

                               WITNESSES

RICHARD B. FULLER, PARALYZED VETERANS OF AMERICA, NATIONAL LEGISLATIVE 
    DIRECTOR
JOSEPH A. VIOLANTE, NATIONAL LEGISLATIVE DIRECTOR OF THE DISABLED 
    AMERICAN VETERANS
DENNIS M. CULLINAN, DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF 
    FOREIGN WARS OF THE UNITED STATES
RICHARD JONES, AMVETS NATIONAL LEGISLATIVE DIRECTOR; ON BEHALF OF THE 
    INDEPENDENT BUDGET
    Mr. Walsh. We have a group coming before us now, and they 
are all here on behalf of the Independent Budget. Representing 
the Paralyzed Veterans of America, the Disabled Veterans of 
America, the Veterans of Foreign Wars, and the AmVets. Our 
witnesses will be Richard Fuller, Joseph Violante, Dennis 
Cullinan, and Richard Jones. Welcome. I see some familiar faces 
here. Good to have you back.
    Mr. Fuller. Mr. Chairman, it is good to be here. I will 
start right off. I am Richard Fuller. I am national legislative 
director of Paralyzed Veterans of America. And as we have for 
the past 16 years, PVA is pleased once again to be responsible 
for the health care sections that are published in the 
Independent Budget, and I will address these in my testimony 
today.
    For fiscal year 2003, the Independent Budget recommends a 
medical care appropriation of $24.468 billion, which is an 
increase of $3.1 billion over fiscal year 2002. And this is 
based on the same inflation indices and workload estimates used 
by the VA.
    Over the past 5 years, the VA has served a constantly 
growing number of veterans with appropriations that have 
steadily declined in purchasing power. And already a few months 
into fiscal year 2002, as you are well aware, the 
administration is requesting a supplemental of approximately 
$140 million in the official request. We are aware that the VA 
has stated previously that that actual shortfall is closer to 
$500 million, and so that is the true need of the supplemental 
that would be closer to the original VA estimate, we believe.
    The justification for our increase is based, of course, on 
soaring national health care costs, led by increasing 
pharmaceutical prices. And spending on prescription drugs has 
doubled between 1995 and 2000 and has tripled between 1990 and 
2000 and VA budgets have not kept pace.
    The real effect of inadequate health care funding is felt 
by sick and disabled veterans across the system. These 
inadequacies force the VA to ration care by lengthening waiting 
times and delaying services.
    Basically, in an overview, the administration requested a 
$1.4 billion increase for fiscal year 2003. The House Committee 
on Veterans Affairs in their budget ``Views and Estimates'' 
matched the Independent Budget recommendations at $3.2 billion, 
and the House Budget Committee and the House as a whole 
approved the budget resolution at $2.6 billion.
    From a policy standpoint, the Independent Budget does 
oppose the $1,500 deductible which is in the administration's 
request, and the VA estimates that would deter approximately 
121,000 veterans from seeking VA health care. We would call 
this deductible a health care penalty and not necessarily good 
policy at all. Requiring a $1,500 deductible would adversely 
affect lower-income veterans, veterans whose insurance will not 
pay the deductible and who want and need to go the VA to find 
specialized services.
    In closing, Mr. Chairman, we are very concerned that the 
administration has failed to provide funding for the VA to meet 
its critical fourth mission, which is to serve as a back-up to 
the Department of Defense in time of war and emergency, and 
this national emergency entails not only a crisis abroad, but a 
crisis here at home. As the VA serves as back-up to our armed 
forces, it also serves as back-up to an integral part of our 
national health care system. We believe that the VA has a very 
strong role to play in this effort, but, unfortunately, with 
the $38 billion plus that has been requested for these things, 
we have not seen the VA given any funding to support this 
mission.
    We are aware that the VA is doing some extraordinary things 
in preparation for national disasters or bioterrorism and are 
doing some very wonderful things. But, of course, they are 
paying for it out of the health care account and siphoning 
money from very tight existing resources rather than sharing in 
the resources that are being provided to practically every 
other Federal agency and department in the country.
    As two additional notes, we are requesting a $9 million 
increase in the MAMOE account to support that mission, and 
whereas the administration has proposed $394 million for VA 
research, an increase of $23 million over the 2002, this falls 
$66 million below the $460 million research appropriation 
recommended by the Independent Budget to serve this very vital 
VA function.
    That concludes my section, and I will be happy to answer 
any questions.
    Mr. Walsh. Thank you.
    Mr. Violante. Thank you. I am Joe Violante with Disabled 
American Veterans, and our portion of the Independent Budget 
deals with the benefits programs, GOE and judicial review. I 
will keep my comments very short. You have my written 
testimony.
    Mr. Walsh. It will be entered into the record.
    Mr. Violante. Thank you. And what I would like to focus on, 
I would like to echo my colleague's position about the 
President's budget. And the veterans' medical health care falls 
short of what is necessary to meet the needs as a result of 
this. And the fact that annually we go through this fight, DAV 
has recently hired Flashman Hillard to help us try to make 
discretionary funding for health care a mandatory item this 
year. So I just wanted to let you know that we will be focusing 
on that.
    Mr. Walsh. The Appropriations Committee is not terribly 
fond of mandatory spending with regard to discretionary----
    Mr. Violante. Yes, I know, but it will free up some money 
for you to use in other areas.
    Mr. Walsh. I see, all right.
    Mr. Violante. The President's budget request also is 
lacking in other discretionary funding for the GOE areas, 
particularly VBA. You know, VA continues to struggle with their 
immense backlog that is only getting worse. In the current 
budget recommendation there is a net increase for VBA of about 
$40 million above last year. That is a 3.6 percent increase. It 
is well below the average increase of approximately 10 percent 
that has been requested over the last 5 years. The President's 
budget recommends only 96 additional employees for compensation 
and pension. Within that budget VA promises to reduce their 
average time for rating actions on C&P claims by 50 percent, 
from 208 days to 100 days, while improving training for claims 
processors and increasing the accuracy rate by 10 percentage 
points.
    Quite honestly, Mr. Chairman, we don't understand how they 
are going to be able to do that. The IB recommends an increase 
of 350 additional employees in the C&P service. We believe that 
the VA acknowledges that anywhere from between 30 to 50 percent 
of their current experienced adjudicators will be ready for 
retirement within 3 years, and we believe that it is necessary 
now to bring these people on and to train them.
    The President's budget request also reduces the number of 
employees at the Board of Veterans' Appeals and that concerns 
us right now. The number of cases going up to the board has 
slowed down, but that is only because VA has been focusing 
mainly on their backlog. Very few appeals have been dealt with 
and sent up to the board. Recently the VA regulation assigned 
VBA the added responsibility of development, which is going to 
add additional work to what they are doing to correct those 
cases that have not been properly developed at the regional 
office level. So we think at this time VBA's staffing levels 
should not be cut, that once these appeals start coming up, it 
is going to create quite a backlog at the board, and right now 
they are at an unacceptable level, about 595 days.
    We hope that our analysis of the resources necessary for 
veterans programs are helpful to you, and again, we appreciate 
your time and understanding on these issues.
    Mr. Walsh. Thank you very much.
    Mr. Cullinan. Good afternoon, Mr. Chairman. I am Dennis 
Cullinan. I am the Legislative Director for the Veterans of 
Foreign Wars. On behalf of our entire membership, I want to 
thank you for giving us this opportunity to testify here today.
    The VFW handles the construction portion of the Independent 
Budget and I am going to limit my brief remarks to that 
particular area.
    In order for VA to properly operate, maintain and improve 
its facilities the VFW, in concert with the Independent Budget 
recommends a minimum of $800 million for major and minor 
construction projects for fiscal year 2003. For major 
construction we recommend that Congress appropriate $400 
million, $217 million higher than fiscal year 2002. The 
majority of this funding request, 250 million is needed for 
seismic corrections. We note our approval that VA is requesting 
major construction funds for this purpose as well as for 
National Cemetery expansion. We also recommend a funding level 
of $400 million for VA's minor construction account. This 
represents an increase of $190 million. This increase will 
support construction projects for inpatient or outpatient care 
support, infrastructure and physical plant improvements, 
research infrastructure upgrades and historic preservation 
grant programs to protect VA's most important historic 
buildings.
    Other construction items recommended for increased funding 
include grants for State extended care facilities in the State 
veterans cemeteries.
    In closing, we believe there are compelling reasons, such 
as concern for patient safety, the demonstrated requirement for 
enhanced asset management, and the need to expand access to VA 
medical care to the veteran population in general to support 
our recommended funding levels.
    We look to you, the leadership of this subcommittee, who we 
salute for having done so much in recent years to make sure 
that our veterans in need are properly cared for, to ensure 
that adequate funding for major and minor construction are 
provided for VA so it may fully realize its potential in this 
area.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, sir, for your testimony, and for your 
advocacy.
    Mr. Jones. Mr. Chairman, it is a pleasure to be with you 
today to present our best estimates on the resources necessary 
for a responsible VA budget for fiscal year 2003. AMVETS' 
primary focus within the Independent Budget is on developing 
the recommendations for funding the National Cemetery 
Administration.
    Before beginning on the budget, I would like to commend the 
chairman and your subcommittee for your strong leadership in 
funding veterans programs. AMVETS is truly grateful to you. You 
have done terrific work. We appreciate it.
    Since its establishment, the National Cemetery 
Administration has provided the highest standards of service to 
veterans and eligible family members. Their work oversees 120 
National Cemeteries located in 39 states, the District of 
Columbia and Puerto Rico. With recent openings in four new 
National Cemeteries in Chicago, Albany, Cleveland and Dallas, 
and fast-track operations at Fort Sill, Oklahoma and Atlanta, 
Georgia, the National Cemetery Administration now maintains 
more than 2.5 million grave sites on 13,400 acres of cemetery 
land. With adequate funding for design and construction, 
development of National Cemeteries will continue for future 
facilities in Miami, Pittsburgh, Detroit and Sacramento.
    The NCA workload is increasing. The National Cemetery 
Administration is now providing more than 83,000 interments 
annually. That is a jump of 8 percent over last year. To ensure 
that the burial needs of veterans and eligible family members 
are met, the Independent Budget service organizations believe 
the budget must be increased to provide new staff and equipment 
for improvements.
    To meet this commitment and maintain NCA facilities as 
national shrines, the Independent Budget veterans service 
organizations recommend $138 million for fiscal year 2003. This 
amount, while the same as the administration's request, does 
not include the Office of Personnel's offset, and is therefore 
$5 million above the administration's request.
    For funding State Cemetery Grants Program, the members of 
the Independent Budget recommend $32 million for the new fiscal 
year. As you know, the State Cemetery Grants Program works in 
complement with the National Cemetery Administration to 
establish grave sites for veterans in those areas where NCA 
cannot fully respond to the burial needs of veterans. Enactment 
of the Veterans Program Enhancement Act of 1998 has increased 
the activity and attractiveness of this program. Through the 
State Grants Program NCA can now provide up to 100 percent of 
the planning, design and construction of these new state 
cemeteries. At the start of the current year there were 10 new 
cemeteries under design, 11 new cemeteries in planning. There 
were also scheduled fast track openings in Central Indiana, 
Northern Wisconsin, Arkansas, Massachusetts, Maine and Montana.
    Finally, the members of the Independent Budget note that 
the National Cemetery Administration's greatest challenge is 
yet ahead. Mr. Chairman, we face a dramatic upward increase in 
the interment rate over the next decade. In this regard we call 
on Congress to ensure that adequate funds are available to plan 
wisely for the future needs of our national cemetery system.
    This concludes my statement, and thank you again for the 
privilege to participate in this important hearing.
    Mr. Walsh. Thank you all very much for your testimony today 
and for your advocacy for our Nation's veterans. You do an 
admirable job, and it is very much appreciated.
    The Independent Budget is something that we all know about, 
the Authorizing Committee, the Appropriations Committee, the 
members of both committees look very closely at the Independent 
Budget. We value your recommendations. Your advocacy for the 
veterans of this country is remarkable.
    Just a note on our process. As you know, this is referred 
to as the VA/HUD and Independent Agency Subcommittee. I could 
never figure out why or how all these agencies came together 
under one subcommittee, but I have figured it out, I have 
broken the code. There is no stronger advocacy or organization 
in America than America's veterans, and none with a more 
righteous cause. Therefore, I look at the VA/HUD bill as, you 
know, the VA is the engine that pulls the train. NASA does not 
have the advocacy. FEMA does not have the advocacy. EPA does 
not have the advocacy that you do.
    So if we do right by the veterans, this bill gets through 
the House without any problems, so that is our challenge every 
year. And so we will attempt to do that once again this year. 
It is a challenge every year, but nonetheless, I think we have 
tried to do it right. We have gotten it pretty close to right, 
and this year will be no different.
    I am going to ask you just one question that maybe you can 
give us some advice on, and ask you to keep your remarks short, 
maybe less than a minute if you can, but this issue--and each 
of you feel free to take a crack at it if you like. If you 
don't want, you don't have to get up to the plate. But this 
issue of Category 7 Veterans, Congress, as you know, is talking 
about a Medicare sort of prescription drug fix. We have not 
done it yet. We are still in the talking stages, and who knows 
when we will get that done. I think that would take some of the 
pressure off the VA, but what is your take on Category 7s? They 
are, in many cases, people who are not service connected. In 
many cases they are not indigent or otherwise poverty stricken 
individuals. What is the best way to deal with this issue for 
us, because as you noted, the pressures on the system are 
growing, the numbers are growing, and the service is suffering.
    Mr. Fuller. Mr. Chairman, I think it is wise to look at the 
Category 7 phenomenon. I don't think that is the entire problem 
though facing the entire budget, and I think that a lot of 
people are using that as the fall guy for other problems in 
other areas. All of those people were always eligible for VA 
health care even before eligibility reform. They were eligible 
on a similarly discretionary basis.
    What has happened in this process are basically two things. 
When VA reinvented itself and opened up 800 outpatient clinics 
around the country, which became the new access points in this 
hub and spoke concept that Dr. Kizer put together. And also, as 
you mention with Medicare, we have had a deterioration in the 
value of other private and public health care programs, which 
of course is making the VA a lot more attractive.
    PVA believes, and I believe it is the consensus here with 
the Independent Budget, that one way to potentially solve this 
problem is to be able to finally get the VA to be able to 
collect the insurance third-party reimbursement from these 
people that ought to be done. I mean if Secretary Principi came 
before our group and mentioned this himself and using these 
exact words, that our ability to collect third-party 
reimbursement is, quote, atrocious. And if the Secretary is 
saying that, then obviously we have got a problem. People have 
discussed Medicare reimbursement. One thing which I have 
discovered as well is that VA doesn't have the authority to 
collect from Tri-care folks, from Tri-care for Tri-care 
eligible people. So I think that there are ways of maintaining 
the VA's open door policy to people, but to be able to collect 
what by statute the VA is required to collect to help pay for 
these services.
    Mr. Walsh. Thank you. Anyone else?
    Mr. Violante. I have to agree totally with what Richard had 
to say, and our feeling is the same.
    Mr. Walsh. Third-party collections, Medicare----
    Mr. Violante. And mandatory funding. [Laughter.]
    Mr. Walsh. He didn't say that.
    Mr. Violante. I just added that.
    Mr. Walsh. I see.
    Mr. Cullinan. Mr. Chairman, I would just add to the 
comments of my colleagues that that is all true, but the VFW 
also holds that VA's primary, most fundamental obligation is 
care for service-connected and medically indigent, so in the 
absence of corrective action that works, that is the first 
response, service-connected and medically indigent.
    Mr. Walsh. Thank you.
    Mr. Cullinan. Not much of a solution.
    Mr. Walsh. No, no. I asked for your opinions. It is 
helpful.
    Yes?
    Mr. Jones. We support that core too at AMVETS, service-
connected and indigent. But it is hard to believe, Mr. 
Chairman, that only 15 percent of the veterans seeking medical 
care at the VA facilities carry insurance. But yet, that is 
what the Secretary indicates, is the mark on the sheet as these 
doctors try to enforce third-party collections.
    Mr. Walsh. It is hard to believe.
    Mr. Jones. It is hard to believe, particularly when you 
look at the rest of America, and the suggestion there is that 
40 percent may not have--I mean 60 percent do, and the 40 
percent largely are children, or a fairly high proportion of 
them are children. We are dealing with adults, 15 percent. 
Enforcement is a big role, and it is a matter of how they bill, 
how VA bills, how they account for the billings, and 
essentially this has been a free service, there is no billing. 
You come in with a problem, you are taken care of. We are in a 
new climate now and there is a need to look at how we address 
veterans when they come to be helped.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. Thank you. Thank you all very much. The 
subcommittee hearing is adjourned.
    [The following statements were submitted for the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    


                               I N D E X

                              ----------                              

                Interested Individuals and Organizations

                                                                   Page
Alachua County, Florida..........................................   615
Amelia County, Virginia..........................................   126
American Anthropological Association.............................   621
American Association of Geriatric Psychiatry.....................   562
American Association of Homes and Services for the Aging.........   327
American Association of Nurse Anesthetists.......................   626
American Chemical Society........................................   630
American Council for an Energy-Efficient Economy.................   633
American Geological Institute....................................   217
American Heart Association.......................................   638
American Indian Higher Education Consortium......................   643
American Institute of Biological Sciences........................   648
American Lung Association........................................   250
American Museum of Natural History...............................   653
American Oceans Campaign.........................................   658
American Psychiatric Association.................................   576
American Psychological Association...............................   499
American Psychological Society...................................   257
American Public Health Association...............................   688
American Public Power Association................................   661
American Rivers..................................................   663
American Society for Biochemistry and Molecular Biology..........   224
American Society for Engineering Education.......................   667
American Society for Microbiology................................   677
American Society of Civil Engineers..............................   408
American Society of Mechanical Engineers, ASME International.....   492
    EPA Task Force, Environmental Engineering Division, Council 
      of Engineering.............................................   672
American Society of Plant Biologists.............................   682
American Thoracic Society........................................   243
American Water Works Association.................................   230
Arkansas-Oklahoma Center for Space and Planetary Science.........     3
Association of Local Housing Finance Agencies....................   347
Association of Metropolitan Water Agencies (AMWA)................   554
Association of Public Health Laboratories........................   688
Association of State and Territorial Health Officials............   688
Association of State Dam Safety Officials........................   449
Association of State Drinking Water Administrators...............   685
Association of Universities for Research in Astronomy, Inc.......   463
Audubon Center of the North Woods................................   164
Aviation Research and Technology Coalition.......................   693
Babyland Family Services, Inc....................................   696
Biphysical Society...............................................   706
Boys and Girls Club of National City, California.................    88
Boys and Girls Home of Nebraska..................................    28
Bristol County, Massachusetts....................................    61
Bronx VA.........................................................   120
Calleguas Creek Watershed Management Plan........................   156
Caltech..........................................................    95
Canaan Valley Institute..........................................   195
CAPE/PETE Net....................................................   709
Carl Sagan Discovery Center......................................   120
Central Indiana Life Sciences Research Initiative................   168
Central Park Baseball Tournament Complex, Fontana, California....    18
Chesterfield County, Virginia....................................   126
Chippewa-Luce-Mackinac Community Action Human Resource Authority.     8
City of Brisbane, California.....................................   160
City of Gainesville, Florida.....................................   714
City of Hobart, Indiana..........................................    51
City of Lincoln, Nebraska........................................    34
City of Los Angeles, California Redevelopment Agency.............    23
City of Mackinac City, Michigan..................................     9
City of Miami Beach, Florida.....................................   303
City of Negaunee, Michigan.......................................     8
City of Newark, New Jersey.......................................   719
City of Petersburg, Virginia.....................................   126
City of Rialto, California.......................................    19
City of Santa Ana, California....................................   723
City of Santa Monica, California...............................728, 730
City of South Bend, Indiana......................................   139
City of Suffolk, Virginia........................................   126
City of Virginia, Minnesota......................................   167
Coalition for Indian Housing and Development.....................   292
Coalition of EPSCoR States.......................................   485
College Partners, Inc............................................   731
Consortium for Oceanographic Research and Education (CORE).......   210
Consortium of Social Science Association.........................   734
Corporation for Supportive Housing...............................   400
Council of Large Public Housing Authorities......................   424
Council of State and Territorial Epidemiologists.................   688
Council of State Community Development Agencies..................   739
County of San Bernardino, City of Colton, California.............    19
Doan Brook Watershed project, Northeast Ohio Regional Sewer 
  District.......................................................    90
Doris Day Animal League..........................................   743
Easter Seals Tri-Counties Child Development Center...............   157
Eastern Mennonite University.....................................   748
Eastern Michigan University......................................   158
Elmor's Youth and Adult Activities...............................    57
Empower Baltimore Corporation....................................   701
EPA Long Island Sound Office.....................................    99
EPA Region II Laboratory, Edison, New Jersey.....................   154
EPSCoR...........................................................    29
EZ/EC Foundation Consortium......................................   752
Falls City, Nebraska.............................................    34
Father Flanagan's Girls and Boys Town USA........................
105, 269
Filipino World War II Veterans...................................    84
Fleet Reserve Association........................................   757
Flushing YMCA, Queens, New York..................................    56
Food Share.......................................................   157
Friends of VA Medical Care and Health Research (FOVA)............   569
Gardner-Kilby-Hammond Neighborhood Revitalization, Worcester, 
  Massachusetts..................................................    63
General Aviation Manufacturers Association.......................   762
Great Lakes Indian Fish and Wildlife Commission..................   764
Gulf Coast Hazardous Substance Research Center...................   113
H.R. 551.........................................................    10
H.R. 764.........................................................    11
Habitat for Humanity International...............................   361
Hebrew Academy for Special Children, Inc.........................   307
Hexavalent Chromium Treatment project............................    94
Independence Technology, A Johnson & Johnson Company.............   769
Indian Lands Title Report Commission.............................    35
Indianapolis Housing Agency Security Call Center.................   168
Integrated Petroleum Environmental Consortium....................   910
International Association of Emergency Managers..................   439
Jet Propulsion Laboratory........................................    95
Joint Steering Committee for Public Policy.......................   177
Joslin Vision Network............................................   774
Lake Superior State University Aquatics Research Laboratory......     9
Lakes and Streams Project........................................    18
Lester Jack Briggs Center........................................   166
Local Initiatives Support Corporation (LISC).....................   320
Lovelace Respiratory Research Institute..........................   778
Maryland Soccer Foundation.......................................   132
Mesabi Academy...................................................   166
Metropolitan Water Reclamation District of Greater Chicago.......   787
Miami Children's Hospital........................................   792
Michigan Technological University................................     9
Mickey Leland National Urban Air Toxics Research Center..........   533
Mille Lacs Regional Wastewater Treatment Plant...................   163
Mitretek Systems.................................................   183
Monmouth University Center for Coastal Watershed Management......   153
Monmouth University Historic Guggenheim Memorial Library project.   151
Montefiore Medical Center........................................   122
Mt. Sinai School of Medicine.....................................   122
Napa County, California..........................................   795
National Aids Housing Coalition..................................   382
National Alliance for the Mentally Ill...........................   583
National Alternative Fuels Training Consortium...................    29
National Association of Conservation Districts...................   796
National Association of Counties.................................   347
National Association County and City Health Officials............   688
National Association of Home Builders............................   340
National Association of State Universities and Land-Grant 
  Colleges (NASULGC).............................................   519
National Association of Housing and Redevelopment Officials......   799
National Association of State Colleges and Land Grant 
  Universities...................................................   804
National Cattlemen's Beef Association............................   809
National Coalition to Restore the EPA STAR Fellowship Program....   812
National Community Capital Association...........................   817
National Community Development Association.......................   347
National Congress of American Indians............................   821
National Council for Science and the Environment.................   826
National Council of State Housing Agencies.......................   354
National Emergency Management Association (NEMA).................   432
National Fair Housing Alliance...................................   189
National Housing Conference......................................   334
National League of Cities........................................   347
National Low Income Housing Coalition............................   300
National Military Veterans Alliance..............................   831
National Neighborhood Housing Network............................   835
National Network for Youth.......................................   512
National Research Center for Coal and Energy.....................   840
National Rural Water Association.................................   469
National Treasury Employees Union................................   845
National Utility Contractors Association.........................   848
Nebraska Water Resources Model...................................    28
New Jersey Task Force 1, Urban Search and Rescue Team............   475
New York University Medical Center, The Rusk Institute of 
  Rehabilitation Medicine........................................   546
New York-New Jersey Harbor Sediment Decontamination Technology 
  Study..........................................................   154
New York-New Jersey Helicopter Beach Monitoring..................   154
Norfolk/Portsmouth Round II Urban Empowerment Zone in Virginia...   853
Northeast Ventures Corporation...................................   165
Northwest Indian Fisheries Commission............................   237
Nuclear Energy Institute.........................................   858
Open Space Preservation Action Plan..............................    27
Organization for the Needs of the Elderly (ONE)..................    23
People for the Ethical Treatment of Animals (PETA)...............   203
Performing Arts Center of Greater Miami..........................   863
Polyisocyanurate Insulation Manufacturers Association............   869
Public Housing Authorities Directors Association.................   375
Purdue Regional Technology Center................................    51
Queensbridge Homes...............................................    55
Rio Grande Valley Empowerment Zone Corporation...................   877
Rural Enterprises of Oklahoma, Inc...............................1, 540
Rural Technology Transfer and Commercialization Center...........     2
Rutgers University...............................................   152
San Bernardino Valley Community College..........................    20
Santa Monica Mountains Scenic Corridor Initiative................    26
Sault Ste. Marie of Chippewa Indians.............................     9
Silver Beach, Bronx, New York....................................    57
Silver Spring, Maryland..........................................   132
Simi Valley Police Department Mobile Command Center..............   156
Society for Industrial and Applied Mathematics...................   506
Society for Neuroscience.........................................   882
St. Ignace, Michigan Public Library..............................     8
St. Margaret's House of South Bend, Indiana......................   139
State and Territorial Air Pollution Program Administrators/
  Association of Local Air Pollution Control Officials...........   886
Swan Lake Clean Lakes Demonstration..............................   165
Sweetwater Authority.............................................    89
The American Legion..............................................   526
The Association of Minority Health Professions Schools...........   264
The Coalition of Community Development Financial Institutions....   481
The Enterprise Foundation........................................   441
The Humane Society of the United States..........................   891
The Independent Budget--Paralyzed Veterans of America, Disabled 
  American Veterans, Veterans of Foreign Wars, AMVETS............   590
The Metropolitan Water District of Southern California...........   783
The National Alliance to End Homelessness........................   368
The National Caucus and Center on Black Aged, Inc................   313
The National Space Grant Alliance................................   456
The Nature Conservancy...........................................   894
The Ocean Conservancy............................................   899
The Planetary Society............................................   866
The Retired Enlisted Association.................................   872
The U.S. Conference of Mayors....................................   347
Tohono O'Odham Nation............................................   902
Trust for America's Health.......................................   688
United Negro College Fund, Inc...................................   417
University Corporation for Atmospheric Research..................   905
University of Maryland, College Park.............................   277
University of Medicine and Dentistry of New Jersey--Child Health 
  Institute of New Jersey........................................   151
University of Nebraska--Kearney..................................    29
Upper Mississippi River Basin Association........................   915
Urban Stream Project.............................................    18
Vietnam Veterans of San Diego....................................    85
Vision Creek Project.............................................    18
Wake Forest University...........................................   388
Washington Suburban Sanitary Commission..........................   131
Water Resources Consortium.......................................   159
Wayne, Nebraska..................................................    34
Western Michigan University......................................   171
Wheaton, Maryland................................................   132
Yellowstone Boys and Girls Ranch.................................   286
YWCA Women's and Children's Center of St. Joseph County, Indiana.   139

                                <greek-d>


</pre></body></html>
